<html>
<title> - CHILD SUPPORT AND FATHERHOOD PROPOSALS</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



                 CHILD SUPPORT AND FATHERHOOD PROPOSALS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 28, 2001

                               __________

                           Serial No. 107-38

                               __________

         Printed for the use of the Committee on Ways and Means

                  U.S. GOVERNMENT PRINTING OFFICE
74-742                     WASHINGTON : 2001

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                      COMMITTEE ON WAYS AND MEANS

                   BILL THOMAS, California, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
E. CLAY SHAW, Jr., Florida           FORTNEY PETE STARK, California
NANCY L. JOHNSON, Connecticut        ROBERT T. MATSUI, California
AMO HOUGHTON, New York               WILLIAM J. COYNE, Pennsylvania
WALLY HERGER, California             SANDER M. LEVIN, Michigan
JIM McCRERY, Louisiana               BENJAMIN L. CARDIN, Maryland
DAVE CAMP, Michigan                  JIM McDERMOTT, Washington
JIM RAMSTAD, Minnesota               GERALD D. KLECZKA, Wisconsin
JIM NUSSLE, Iowa                     JOHN LEWIS, Georgia
SAM JOHNSON, Texas                   RICHARD E. NEAL, Massachusetts
JENNIFER DUNN, Washington            MICHAEL R. McNULTY, New York
MAC COLLINS, Georgia                 WILLIAM J. JEFFERSON, Louisiana
ROB PORTMAN, Ohio                    JOHN S. TANNER, Tennessee
PHIL ENGLISH, Pennsylvania           XAVIER BECERRA, California
WES WATKINS, Oklahoma                KAREN L. THURMAN, Florida
J.D. HAYWORTH, Arizona               LLOYD DOGGETT, Texas
JERRY WELLER, Illinois               EARL POMEROY, North Dakota
KENNY C. HULSHOF, Missouri
SCOTT McINNIS, Colorado
RON LEWIS, Kentucky
MARK FOLEY, Florida
KEVIN BRADY, Texas
PAUL RYAN, Wisconsin

                     Allison Giles, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                                 ______

                    Subcommittee on Human Resources

                   WALLY HERGER, California, Chairman

NANCY L. JOHNSON, Connecticut        BENJAMIN L. CARDIN, Maryland
WES WATKINS, Oklahoma                FORTNEY PETE STARK, California
SCOTT McINNIS, Colorado              SANDER M. LEVIN, Michigan
JIM McCRERY, Louisiana               JIM McDERMOTT, Washington
DAVE CAMP, Michigan                  LLOYD DOGGETT, Texas
PHIL ENGLISH, Pennsylvania
RON LEWIS, Kentucky

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________
                                                                   Page
Advisory of June 21, 2001, announcing the hearing................     2

                               WITNESSES

Brookings Institution, and Annie E. Casey Foundation, Ron Haskins    34
Castle, Hon. Michael N., a Representative in Congress from the 
  State of Delaware..............................................    15
Cox, Hon. Christopher, a Representative in Congress from the 
  State of California............................................    12
Johnson, Hon. Nancy L., a Representative in Congress from the 
  State of Connecticut...........................................     9
National Center for Strategic Nonprofit Planning and Community 
  Leadership, Jeffrey M. Johnson, accompanied by, Raymond Byrd, 
  Baltimore, MD..................................................    29
National Council of Child Support Directors, Virginia Department 
  of Social Services' Division of Child Support Enforcement, 
  National Child Support Enforcement Association, and Eastern 
  Regional Interstate Child Support Association, Nathaniel L. 
  Young, Jr......................................................    22
National Women's Law Center, Joan Entmacher......................    45
Sorensen, Elaine, Urban Institute................................    41

                       SUBMISSIONS FOR THE RECORD

Alliance for Non-Custodial Parents' Rights, Burbank, CA, John 
  Smith, statement...............................................    72
Association for Children for Enforcement of Support, Inc., 
  Sacramento, CA, statement and attachment.......................    75
Austin, Rev. Dennis, Salisbury, NC, statement and attachments....    85
Brien, Robert E., Ledyard, CT, letter............................    86
Caffrey, Patrick R., Seeley Lake, MT, statement..................    89
Chandel, Tom, Bridgton, ME, letter...............................    90
Children's Defense Fund, Daniel L. Hatcher, statement............    91
Children's Legal Foundation, Charlotte, NC, Bill Wood, and Jay 
  Gell, statement................................................    94
Children's Rights Council, David L. Levy, statement..............   103
Citizens Against Paternity Fraud, Decatur, GA, Carnell A. Smith, 
  letter and attachments.........................................   105
Comanor, William S., University of California, Santa Barbara, CA, 
  letter.........................................................   110
DADS of Michigan, P.A.C., Southfield, MI, James Semerad, letter 
  and attachments................................................   111
Davis, Martha, NOW Legal Defense and Education Fund, New York, 
  NY, statement..................................................   114
Gell, Jay, Children's Legal Foundation, Charlotte, NC, statement.    94
Green, Richard M., M.D., Los Angeles, CA, letter.................   112
Hatcher, Daniel L., Children's Defense Fund, statement...........    91
Hemenway, Jim, San Ramon, CA, letter.............................   113
Hodges, William Whitley, Society of Just Men, Columbia, SC, 
  letter.........................................................   129
Levy, David L., Children's Rights Council, statement.............   103
NOW Legal Defense and Education Fund, New York, NY, Jacqueline K. 
  Payne, and Martha Davis, statement.............................   114
Overton, James R., Pittsburgh, PA, letter........................   120
Payne, Jacqueline K., NOW Legal Defense and Education Fund, New 
  York, NY, statement............................................   114
Peterson, Paul W., and Wendy G. Peterson, Cary, NC, statement....   126
Protecting Marriage, Inc., Wilmington, DE, Phyllis H. Witcher, 
  letter.........................................................   128
Semerad, James, Dads of Michigan, P.A.C., Southfield, MI, letter 
  and attachments................................................   111
Smith, Carnell A., Citizens Against Paternity Fraud, Decatur, GA, 
  letter and attachments.........................................   105
Smith, John, Alliance for Non-Custodial Parents' Rights, Burbank, 
  CA, statement..................................................    72
Society of Just Men, Columbia, SC, William Whitley Hodges, letter   129
Witcher, Phyllis H., Protecting Marriage, Inc., Wilmington, DE, 
  letter.........................................................   128
Wood, Bill, Children's Legal Foundation, Charlotte, NC, statement    94

 
                 CHILD SUPPORT AND FATHERHOOD PROPOSALS

                              ----------                              


                        THURSDAY, JUNE 28, 2001

                  House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:10 p.m., in 
room 1100 Longworth House Office Building, Hon. Wally Herger 
(Chairman of the Subcommittee) presiding.
    [The advisory announcing the hearing follows:]

ADVISORY FROM THE COMMITTEE ON WAYS AND MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-1025
FOR IMMEDIATE RELEASE
June 21, 2001
No. HR-7

                      Herger Announces Hearing on

                 Child Support and Fatherhood Proposals

    Congressman Wally Herger (R-CA), Chairman, Subcommittee on Human 
Resources of the Committee on Ways and Means, today announced that the 
Subcommittee will hold a hearing on oversight of the child support 
program. The hearing will take place on Thursday, June 28, 2001, in the 
main Committee hearing room, 1100 Longworth House Office Building, 
beginning at 2:00 p.m.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. 
Witnesses will include Members of Congress, program experts, advocates, 
and researchers. However, any individual or organization not scheduled 
for an oral appearance may submit a written statement for consideration 
by the Committee and for inclusion in the printed record of the 
hearing.
      

BACKGROUND:

      
    The Child Support Enforcement (CSE) program, created in 1975 and 
authorized under Title IV-D of the Social Security Act, is a State-
Federal partnership developed to collect child support payments from 
parents who do not live with their children. It serves families that 
are recipients of the Temporary Assistance for Needy Families (TANF) 
program and non-recipient families.
      
    The 1996 welfare reform made significant changes to the child 
support system. It included provisions requiring States to: (1) 
establish an integrated, automated child support system; (2) increase 
the percentage of non-custodial parents (mostly fathers) identified; 
(3) implement more techniques to obtain support collections from non-
custodial parents; (4) intercept or seize periodic or lump sum 
payments; (5) withhold, suspend, or restrict drivers, professional, and 
hunting and fishing licenses; (6) advise the Secretary of State about 
debtor parents so passports could be revoked or restricted; and (7) 
conduct data matches with financial institutions and seize resources of 
debtor parents.
      
    In 2000, the program collected $18 billion in child support 
payments for single parents and their children--up from $8.9 billion in 
1993, a 100 percent increase. In 1999, paternity was established in 
over 1.5 million cases (up from 676,000 in 1994), and nearly 1.2 
million new child support orders were established.
      
    Proposals to enhance the operation and efficiency of the public 
child support enforcement program are often considered along with 
efforts to improve the employability and earnings of non-custodial 
parents, most often fathers. For example, in the current Congress, 
Human Resources Subcommittee Members Reps. Nancy Johnson (R-CT) and Ben 
Cardin (D-MD) have introduced H.R. 1471, the ``Child Support 
Distribution Act of 2001.'' This legislation is one of a number of 
proposals, including the President as part of his fiscal year 2002 
budget proposal, seeking to enhance the role of noncustodial fathers in 
today's families.
      
    For single-parent families, the financial and emotional 
contributions of the noncustodial parent can make a tremendous 
difference in the lives of children. Unfortunately, unmarried poor 
fathers tend to have elevated rates of unemployment and incarceration 
compared to other fathers. Legislative initiatives the Subcommittee 
will hear about are designed to prevent the cycle of children being 
reared in fatherless families by supporting projects that help fathers 
meet their responsibilities as husbands, parents, and providers. The 
proposals promote marriage among parents, help poor and low-income 
fathers establish positive relationships with their children and the 
children's mothers, promote responsible parenting, and increase family 
income by strengthening the father's earning power.
      
    In announcing the hearing, Chairman Herger stated: ``This hearing 
will bring us up to date on the performance of the child support 
enforcement program. We are particularly interested in how the reforms 
made in the 1996 welfare law have affected the child support system and 
in proposals to better serve parents, children, and noncustodial 
parents. We also will learn more about current proposals to enhance the 
role of fathers in their children's lives.''
      

FOCUS OF THE HEARING:

      
    This hearing will focus on child support and fatherhood proposals.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Any person or organization wishing to submit a written statement 
for the printed record of the hearing should submit six (6) single-
spaced copies of their statement, along with an IBM compatible 3.5-inch 
diskette in WordPerfect or MS Word format, with their name, address, 
and hearing date noted on a label, by the close of business, Thursday, 
July 12, 2001, to Allison Giles, Chief of Staff, Committee on Ways and 
Means, U.S. House of Representatives, 1102 Longworth House Office 
Building, Washington, D.C. 20515. If those filing written statements 
wish to have their statements distributed to the press and interested 
public at the hearing, they may deliver 200 additional copies for this 
purpose to the Subcommittee on Human Resources office, room B-317 
Rayburn House Office Building, by close of business the day before the 
hearing.
      

FORMATTING REQUIREMENTS:

      
    Each statement presented for printing to the Committee by a 
witness, any written statement or exhibit submitted for the printed 
record or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.
      
    1. All statements and any accompanying exhibits for printing must 
be submitted on an IBM compatible 3.5-inch diskette WordPerfect or MS 
Word format, typed in single space and may not exceed a total of 10 
pages including attachments. Witnesses are advised that the Committee 
will rely on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. A witness appearing at a public hearing, or submitting a 
statement for the record of a public hearing, or submitting written 
comments in response to a published request for comments by the 
Committee, must include on his statement or submission a list of all 
clients, persons, or organizations on whose behalf the witness appears.
      
    4. A supplemental sheet must accompany each statement listing the 
name, company, address, telephone and fax numbers where the witness or 
the designated representative may be reached. This supplemental sheet 
will not be included in the printed record.
      
    The above restrictions and limitations apply only to material being 
submitted for printing. Statements and exhibits or supplementary 
material submitted solely for distribution to the members, the press, 
and the public during the course of a public hearing may be submitted 
in other forms.
      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at ``http://waysandmeans.house.gov/''.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

                                <F-dash>


    Chairman Herger. Welcome to this afternoon's hearing on 
child support and fatherhood proposals.
    Our hearing today will provide oversight on the child 
support program as well as allow us to explore further changes 
such as those in legislation introduced by our colleagues, 
Nancy Johnson and Ben Cardin.
    Substantial reforms of the child support enforcement 
program were enacted in the 1996 welfare reform law. For 
example, we have seen the creation of a new hire database, 
improved paternity establishment, use of financial institution 
data matches, and revocation of driver's licenses and other 
privileges for parents delinquent in paying child support.
    This Subcommittee has and will continue to monitor the 
effects of such changes. Here is what we know already. In 2000, 
$17.9 billion in child support was collected, which is a 50-
percent increase since 1996. By using the passport denial 
program, $7 million in lump-sum payments were collected in the 
last year, and the number of paternities established in 2000 
reached a record 1.6 million, an increase of 46 percent since 
1996. Overall, the system seems to be operating more 
efficiently with total collections per program dollars spent on 
the rise as well.
    Yet, with all that, we also know that in 1999, the program 
collected child support payments for only 37 percent of its 
caseload. So this leads to a number of questions: which of the 
recent changes have been most effective, which need further 
refinement, and what else can be done to improve child support 
collections?
    The options for further improvements include the second 
topic of our hearing today, fatherhood proposals. Single-parent 
families benefit in many ways from the contributions of a 
noncustodial parent, most often a father. Unfortunately, many 
fathers are poor, and as a group, unmarried poor fathers face 
greater challenges than other dads such as elevated rates of 
unemployment and incarceration. Some were themselves raised by 
single moms, often without the benefit of a positive male role 
model.
    The fatherhood initiatives we will hear about today are 
designed to help break this cycle, to help fathers meet their 
responsibilities as parents, providers, and hopefully husbands. 
That should improve child support collection, but this effort 
is about much more than just that.
    For too long, government seemed to care only about the 
provider side of this role, which is important to be sure. But 
children need more than just financial support to grow into 
healthy, productive members of society. Every child deserves a 
father for all the roles a dad plays in a child's development--
parent, mentor, disciplinarian, coach, and friend.
    In addition to helping fathers and children improve their 
emotional and financial connections, fatherhood programs also 
can help both fathers and mothers better understand the 
positive aspects of marriage.
    For example, a recent study indicates that teenagers living 
with their married biological parents have lower levels of 
emotional and behavioral problems, higher levels of school 
involvement, and fewer school suspensions or expulsions than 
teens living in step-families, with single mothers, or in 
cohabiting families.
    I am encouraged that many fatherhood programs let young 
people know about the benefits of marriage, especially for 
their children. The House is on record supporting such efforts, 
and the President has proposed additional funding. So support 
seems to be growing, at least in part, because, as we will 
hear, the need for fatherhood programs is great.
    To discuss these topics and more, we have a distinguished 
group of witnesses with us today. We will start by hearing from 
Members of Congress about proposals they have introduced. Then 
we will hear from the States, advocates and researchers, about 
what is working and what more should be done.
    Finally, I note that Ron Haskins is joining us as a witness 
today for the first time since his departure as this 
Subcommittee's staff director last year. We welcome him back 
and thank him for his many years of service to this Committee 
and the Congress.
    Without objection, each member will have the opportunity to 
submit a written statement and have it included in the record, 
and at this point, Mr. Cardin, would you like to make an 
opening statement?
    [The opening statement of Chairman Herger follows:]

    Opening Statement of the Hon. Wally Herger, a Representative in 
 Congress from the State of California, and Chairman, Subcommittee on 
                            Human Resources

    Welcome to this afternoon's hearing on child support and fatherhood 
proposals.
    Our hearing today will provide oversight on the child support 
program, as well as allow us to explore further changes, such as those 
in legislation introduced by our colleagues Nancy Johnson and Ben 
Cardin.
    Substantial reforms of the child support enforcement program were 
enacted in the 1996 welfare reform law. For example, we have seen the 
creation of a new hire data base, improved paternity establishment, use 
of financial institution data matches, and revocation of drivers' 
licenses and other privileges for parents delinquent in paying child 
support.
    This Subcommittee has and will continue to monitor the effects of 
such changes. Here's what we know already. In 2000, $17.9 billion in 
child support was collected, which is a 50 percent increase since 1996. 
By using the passport denial program, $7 million in lump sum payments 
were collected in the last year, and the number of paternities 
established in 2000 reached a record of 1.6 million--an increase of 46 
percent since 1996. Overall, the system seems to be operating more 
efficiently, with total collections per program dollar spent on the 
rise as well.
    Yet with all that, we also know that in 1999 the program collected 
payments for only 37 percent of its caseload. So this leads to a number 
of questions:
    <bullet> Which of the recent changes have been most effective?
    <bullet> Which need further refinement? and
    <bullet> What else can be done to improve child support 
collections?
    The options for further improvements include the second topic of 
our hearing today--fatherhood proposals.
    Single-parent families benefit in many ways from the contributions 
of a noncustodial parent, most often a father. Unfortunately, many 
fathers are poor, and as a group unmarried poor fathers face greater 
challenges than other dads, such as elevated rates of unemployment and 
incarceration. Some were themselves raised by single moms, often 
without the benefit of a positive male role model.
    The fatherhood initiatives we will hear about today are designed to 
help break this cycle--to help fathers meet their responsibilities as 
parents and providers, and hopefully husbands. That should improve 
child support collection, but this effort is about much more than just 
that.
    For too long, government seemed to care only about the provider 
side of this role, which is important to be sure. But children need 
more than just financial support to grow into healthy, productive 
members of society. Every child deserves a father, and all the roles a 
dad plays in a child's development--parent, mentor, disciplinarian, 
coach, and friend.
    In addition to helping fathers and children improve their emotional 
and financial connections, fatherhood programs also can help both 
fathers and mothers better understand the positive aspects of marriage. 
For example, a recent study indicates that teenagers living with their 
married, biological parents have lower levels of emotional and 
behavioral problems, higher levels of school involvement, and fewer 
school suspensions or expulsions than teens living in stepfamilies, 
with single mothers, or in cohabiting families.
    I am encouraged that many fatherhood programs let young people know 
about the benefits of marriage, especially for their children.
    The House is on record supporting such efforts, and the President 
has proposed additional funding. So support seems to be growing, at 
least in part because, as we will hear, the need is for fatherhood 
programs is great.
    To discuss these topics and more we have a distinguished group of 
witnesses with us today. We will start by hearing from Members of 
Congress about proposals they have introduced. Then we will hear from 
the States, advocates, and researchers about what is working, and what 
more should be done.
    Finally, I note that Ron Haskins is joining us as a witness today 
for the first time since his departure as this Subcommittee's Staff 
Director last year. We welcome him back, and thank him for his many 
years of service to this Committee and the Congress.

                                <F-dash>


    Mr. Cardin. Thank you, Mr. Chairman. I am glad you pointed 
out that Ron Haskins is here so I have the opportunity to 
cross-examine him when he gets up here. I have been looking 
forward to that for a couple of years.
    Mr. Chairman, let me thank you for holding this hearing. We 
need to look at our child support collections system, and we 
need to reform it. We can work in a very bipartisan way in 
order to try to improve the quality of life for families to 
depend upon the collection of child support.
    I particularly want to acknowledge our colleagues that are 
here. Mrs. Johnson, the distinguished Chair of this Committee 
in the last Congress, forged a very strong coalition among 
Democrats and Republicans to reform our child support system. 
It wasn't her first actions last year, and when we were able to 
pass a bill very similar to the one that we are considering 
today by a vote of 405 to 18 on the floor of the House, but for 
over the years that she has been working on the child support 
issues.
    It was my pleasure last year to join her in that 
legislation, and again this year to join her in the legislation 
that reforms our child support system so that more money, in 
fact, can go to the families and that we can make it simpler 
for our local governments to administer our child support 
system.
    I also want to acknowledge Mike Castle, who has come up 
with a very important tool to help families collect child 
support, and I applaud Mike's actions on this issue.
    Chris Cox has come up with a proposal to help use our Tax 
Code in a more effective way to help families collect child 
support. So I appreciate all three of our colleagues being here 
today to assist us as we develop legislation to reform our 
child support collections system.
    Mr. Chairman, child support should go to the children. I 
guess that is why we call it ``child support,'' but, today, the 
arrearages in many cases go to government, not to the families. 
Our laws require that the governments be paid back first. If a 
State wants to pass through more child support to the families, 
the Federal laws penalize those States by requiring the State 
to pay the Federal share which can be anywhere between one-half 
to three-quarters of the total amount that is passed through to 
the family.
    We just recently had a debate on the floor of this Congress 
about what marginal tax rates should be, and I heard many of my 
colleagues talk about in-the-thirties percent being too high of 
a marginal tax rate. Well, we have 100-percent tax rate on 
child support collections today, 100-percent rate for the 
poorest people in our country, and that makes absolutely no 
sense at all.
    That is why we need to enact legislation that Mrs. Johnson 
and I have been working on that would allow States to pass 
through child support to the families first. Many of these 
families are not on welfare today. To encourage work, we should 
be doing this, without having to pay the Federal share as long 
as the State disregards the money for the purposes of 
determining eligibility.
    I think that makes a lot of sense. I think we need to move 
forward on that legislation. Let me just give you a few reasons 
more. First, it will provide resources to families that need 
it. The Congressional Budget Office has estimated this will be 
about $6.3 billion over the next 10 years going to these 
families. That is a significant amount of resources going to 
low-income families.
    Second, it is incentive for the noncustodial parent to pay 
child support. If it goes to the families, it is much more 
likely that the noncustodial parent will, in fact, pay child 
support.
    Third, it helps the family unit to work together. The 
noncustodial parent feels that he is part or she is part of the 
family, which is not the case today in many cases.
    Last, as I mentioned earlier, it certainly simplifies the 
administration of the child support systems in this country.
    So, for all of these reasons, I hope that this Committee 
and this House will do what we did last year and pass this 
legislation and hopefully convince the other body to do the 
same.
    Last, let me point out that the fatherhood provisions that 
were worked on and passed at least twice by the House in the 
last Congress were carefully worked on by Mrs. Johnson and I 
and a group of people in a very bipartisan way, which sets up a 
way that we can really work to help the noncustodial parent, by 
developing some national models and some local efforts to 
improve efforts to help the noncustodial parent be part of the 
family and a constructive provider of support.
    So I would hope that the Committee would look kindly on 
this legislation, and I do look forward to hearing from all the 
witnesses today.
    [The opening statement of Mr. Cardin follows:]

 Opening Statement of the Hon. Benjamin L. Cardin, a Representative in 
                  Congress from the State of Maryland

    Mr. Chairman, I commend you for holding this hearing to evaluate 
proposals on improving our Nation's child support enforcement system 
and on promoting responsible fatherhood. I hope today's hearing 
represents the first step towards this panel passing long overdue 
reforms to the child support system.
    I am very pleased that we are joined today by a panel of our 
colleagues who have considerable experience in these issues. Nancy 
Johnson has been a pioneer in improving our child support system, and I 
was very pleased to join her earlier this year in reintroducing the 
Child Support Distribution Act, HR 1471. An almost identical version of 
this bill passed the House last year by a vote of 405 to 18.
    We are also joined by Mike Castle, who has championed an expansion 
of an existing child support collection tool (a proposal that is 
included in the larger Johnson bill), and by Chris Cox, who has 
proposed a change in the tax code to encourage the payment of past-due 
child support.
    Mr. Chairman, if you took a poll that asked whether child support 
payments should go to the children for whom it was paid, I am sure the 
vast majority of Americans would say--Yes, of course those payments 
should be used to support children. That's why we call it child 
support.
    Unfortunately, our child support laws provide a very different 
response to that question. Current law actually penalizes States that 
send child support collections to families struggling to leave welfare, 
and in some cases, to families that have already left public 
assistance.
    For example, if a State sends a child support collection to family 
on welfare, it still owes the Federal government between half and 
three-quarters of that same child support payment. This has discouraged 
States from passing through child support--and encouraged them to adopt 
an effective 100% tax rate on child support payments to certain 
families.
    The Johnson-Cardin Child Support Distribution Act, HR 1471, would 
end this disincentive for States to send child support to families. 
This bipartisan measure would provide States with various options to 
send child support to low-income families--with the Federal government 
acting as a financial partner, rather than a financial barrier. For 
example, States would be permitted to pass-through up to $400 a month 
to families receiving cash welfare, as long as the amount is 
disregarded for welfare payment purposes. In addition, States could 
send all support to families that have left cash welfare.
    The Congressional Budget Office estimates these reforms would send 
an additional $6.3 billion in child support to low-income families over 
the next ten years compared to current law.
    There are three primary benefits to passing through more child 
support to current and former welfare families. First and most 
obviously, the policy will result in more resources to provide food, 
clothes and shelter for some of our Nation's poorest children.
    Second, passing through child support will encourage non-custodial 
parents to pay support because they will know their payments are going 
to benefit their families, rather than going to State and Federal 
treasuries. Perhaps just as importantly, this enhanced sense of 
financial responsibility may actually foster closer emotional ties 
between absent parents and their children.
    And third, this change will greatly simplify the administration of 
the child support system, which will free up caseworkers to ensure the 
payment of child support, instead of spending precious time on 
complying with complicated and time-consuming Federal regulations.
    In addition to the child support reforms,
    HR 1471 includes $155 million for competitive grants designed to 
promote responsible fatherhood. This section of the bill, which 
includes a fully-funded evaluation, will give us some much needed data 
on how we can improve certain parents prospects for employment, 
marriage and an improved relationship with their children.
    I hope this subcommittee will pass legislation including these 
vitally important child support and fatherhood provisions as soon as 
humanly possible. The Child Support Distribution Act has the 
overwhelming support of both Republicans and Democrats and of groups 
representing both mothers and fathers. We should act on this consensus 
and pass legislation that will have an immediate and meaningful impact 
on millions of children. Every day we wait, is one more day that a 
parent's support will not reach their child.
    Thank you.

                                <F-dash>


    Chairman Herger. Thank you, Mr. Cardin.
    Before we move on to our testimony this afternoon, I want 
to remind the witnesses to limit their oral statements to 5 
minutes. However, without objection, all of the written 
testimony will be made a part of the permanent record.
    For the first panel today, we are honored to have several 
of our House colleagues. I would like to welcome the Honorable 
Nancy Johnson of Connecticut, a Member of this Subcommittee, 
the Honorable Christopher Cox from my home State of California, 
and the Honorable Mike Castle of Delaware. Again, I welcome 
each of you here.
    With that, we will begin with your testimony, Mrs. Johnson.

  STATEMENT OF THE HON. NANCY L. JOHNSON, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CONNECTICUT

    Mrs. Johnson of Connecticut. Thank you very much, Mr. 
Chairman.
    As you and Mr. Cardin both know, I am intensely interested 
in the work you are doing and commend you on moving forward on 
the important issues that face our children and families in 
America.
    Let me be brief because I know you both know a good deal 
about the bill that I am going to talk about and, in larger 
measure, the subjects I am going to talk about.
    First of all, I am pleased that Mr. Cardin and I did pass 
legislation in the last session that had overwhelming support 
and was a real advance in the concept of the child support law. 
We did pass very tough enforcement a few years ago, and we are 
collecting a lot more child support than we ever have, but it 
is not going directly to the woman. It is not going directly to 
the mother of the child. It is not going directly into the 
family's resources. So, as we move forward with welfare reform, 
we need to have this money flow to the mother of the child in 
order to create the bond between the mother of the child and 
the father of the child that will allow the development of the 
human relations, the emotional ties that are essential to the 
well-being of that child.
    So our bill does say that when they leave welfare, the 
money goes directly to them, but, more importantly--and it was 
more controversial--it says that the money can flow to the 
mother while she is still on welfare. This is extremely 
important.
    When that young man is making child support payments, he 
needs to feel he is contributing to his family, and the mother 
of the child needs to feel that contribution. Unless it comes 
directly--and with today's technology, we can easily account 
for that in our system. Instead of having it flow to the State 
and from the State to the mother, which it does now, it must 
flow directly because then the mother gets it; that the father 
is there and is a part of this child's life and a part of the 
economic security of this child. It is one of the most 
compelling facts in the whole hemisphere of facts associated 
with all of these issues is the fact that when a child is born 
out of wedlock, 80 percent of the women and men believe the 
relationship that produced the child was a serious and 
important one and, furthermore, was going to last into the 
future. In 2 years, the fathers are gone. So we need to look 
seriously at our responsibility to make sure the fathers are 
not gone, and part of that is to enforce the child support 
laws, but to make sure that the flow of those dollars into the 
family give that male standing in that family as the father of 
that child.
    If you combine the child support changes that we are 
proposing in our legislation with the fatherhood provisions--
and these, at this point, only apply to the fathers of children 
on welfare or who have been on welfare within the last year--
the goal is to give the men the same support we are giving the 
women, so that not only can they grow economically in parallel, 
but so that they can grow emotionally in parallel.
    One of the reasons the men are gone in 2 years is because 
during that time, the woman has had job service, some career 
counseling. She has gone through a process which helps her see 
what her capabilities are. She often has started her first job, 
and she has begun to see herself as a mother and as an earner 
and as a competent adult.
    Meanwhile, her male friend down here is still on the 
streets, unemployed, or with a very low level or very sporadic 
pattern of employment. So, if he has the same experiences, if 
he is helped into the same legitimate structure of work and 
reward, then they experience the same things. They both grow in 
their understanding of their own power as economic providers, 
and they have the chance to both participate in the kind of 
parenting programs and money management programs that we know 
will fill gaps in their educational experience, so that they 
can be competent adults.
    I just want to point to one thing that Ben Cardin did 
mention because it is absolutely critical. We took a lot of 
flack on this last year from some groups, but if we do not do 
something to help these young men with the problem of 
arrearages, then we will not get them into the work force that 
pays Social Security and on retirement is eligible for benefits 
and Medicare.
    Right now, because we cannot deal with the problem of 
arrearages, because they have all that debt, they stay out of 
the legal employment system. They do not contribute to Social 
Security. They will not be eligible for Medicare, and, 
furthermore, there is a limit to how much they can earn and 
help with their family. So that is one of the reasons they are 
gone.
    We have to help them earn off those arrearages, and we can 
give them, for instance, credit for in-kind services and things 
like that.
    We did not define what you ought to do because we need to 
see what States think up that they want to do, but we have got 
to face squarely the underground economy we force these young 
men into, not just for a year or two, but for the rest of their 
lives.
    So I thank you for your consideration of the child support 
issues and of the fatherhood issues, and I look forward to 
working with you and thank you very much.
    [The prepared statement of Mrs. Johnson follows:]

 Statement of the Hon. Nancy L. Johnson, a Representative in Congress 
                     from the State of Connecticut

    Mr. Chairman, and members of the committee, thank you for holding 
this hearing today and for your tireless efforts on behalf of our 
nation's families. I would also like to thank the Ranking Member, Mr. 
Cardin, for his hard work and insight in this area.
    The 1996 welfare reform law has been one of the greatest social 
policy successes of the last half century. Due in great measure to this 
law and excellent reforms in the earned income credit, Medicaid child 
care, and other programs that support working families, work by single 
mothers, and especially never-married single mothers, has increased in 
the last 5 years to its highest level ever.
    As a result, according to a broad Census Bureau measure of poverty, 
we have reduced child poverty by nearly 30 percent in the last 5 years. 
This is a historic achievement made possible by legislation that 
originated in this body.
    Welfare reform has put us on the right track. But many of these 
single mothers and their children are struggling on extremely low 
incomes. Those who used to be on welfare are now in the workforce, but 
all too often their day-to-day personal struggle is nothing short of 
heroic. They work hard to juggle transportation, child care, work, and 
family time. It is a big job and millions of women are tackling it with 
determination and grit.
    This is why I, along with my good friend Mr. Cardin, have 
reintroduced the Child Support Distribution Act. I am proud to say this 
legislation passed the House of Representatives last September by an 
overwhelming vote of 405-18. This legislation is designed to ensure 
that these mothers who have left welfare get all the help they deserve. 
Under this bill they will get to keep more of the child support money 
the fathers of their children are paying.
    It is time to modernize the child support system's connection with 
welfare and require that a woman gets 100 percent of the father's child 
support payment as she leaves welfare. That is exactly what this bill 
does.
    When fully implemented, this legislation will provide young mothers 
leaving welfare with an additional $700 million per year. That is $3.5 
billion over 5 years. And every penny of it comes from child support 
payments made by fathers.
    In addition, this bill allows states to pass along child support 
through to the family while the family is still on welfare. This will 
encourage the development of the bond between the noncustodial and 
custodial parent, help them develop an understanding of their economic 
ties, and better prepare families for the transfer off of welfare. 
Remember, if they understand the economic ties that bind, they are 
going to be better positioned to develop the emotional ties on which a 
secure life for the child depends.
    Of course, the best solution for these single mothers and their 
children would be to form two-parent families through marriage. We now 
have overwhelming evidence from research that marriage is good for 
health and happiness of both mothers and fathers, but the greatest 
beneficiaries of marriage are the children.
    Thus, as part of this very balanced legislation, we propose to fund 
small-scale community and faith-based projects throughout the Nation to 
promote marriage and/or better parenting by low-income fathers whose 
children are on welfare and to help them improve their economic 
circumstances.
    I know that many in this body doubt that government should be 
involved in promoting marriage, so I urge them to consider how our 
proposal would work. We want to provide seed money to help faith-based 
and other community organizations tackle this vital job. Seventy-five 
percent of the funds must support nongovernmental organizations. So we 
are not creating a new government program and bureaucracy. Government 
is simply a mechanism to help private organizations perform this 
important work.
    Let me also mention the legitimate concern of some that women could 
be pressured into violent relationships. In this bill we have added 
many provisions to assure that domestic violence and child abuse are 
prevented and that referrals are made to local services to help 
families in which violence is occurring.
    But we must in good conscience build on the important fact 
discovered through welfare reform. Because of its paternity 
determination requirements, we now know that 80 percent of the adults 
having out-of-wedlock children are serious about their relationship and 
believe it will be lasting.
    Yet, after 2 years, most fathers are out of the picture. This bill 
will help many poor young men and women, more than half of whom live 
together when the child is born, and as I said, 80 percent of whom say 
they hope to form a lasting relationship, to fulfill that dream through 
education and support.
    Young people with low incomes often live in dangerous communities, 
lack economic security, and have few role models to help them form 
stable, lasting marriages. These young couples face long odds. This 
bill will help them work toward marriage, work toward becoming better 
parents, and work toward economic advancement.
    We will now provide the same help in getting a job to the fathers 
of children on welfare as we do to mothers on welfare. In other areas 
we will provide some of the education that has so helped women to their 
male partners. It is just common sense.
    This bill will move us a dramatic step forward in helping our 
poorest young people help themselves by making sure that child support 
money stays in the family. This will help young mothers to avoid or get 
off welfare, and bring young fathers and their children closer 
together.
    The fatherhood provisions of this bill promote more responsible 
behavior by fathers, including marriage, better parenting, and work. 
Through the fatherhood demonstration grants and the child support 
distribution reforms, we will bring our Nation a giant step forward on 
the path to building strong families and helping our poorest young 
people realize their dreams.
    Again, I thank my colleagues on the committee for their support and 
hard work on this issue and I look forward to continuing our efforts to 
build stronger families.

                                <F-dash>


    Chairman Herger. Thank you, Mrs. Johnson, again, for all 
the work that you have put into this and your leadership.
    Now we will hear from Mr. Cox for testimony.

  STATEMENT OF THE HON. CHRISTOPHER COX, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Cox. Thank you very much, Mr. Chairman, Mr. Cardin, and 
Chairwoman Johnson as well for all of your leadership on these 
issues.
    I am trying to speak loudly enough so I do not need a 
microphone, but I think it would be helpful for the record if I 
use it.
    I wanted to thank the Chairman, Mr. Cardin, and Chairwoman 
Johnson for all of your leadership on these issues this year 
and in years prior.
    I am here to speak about the Child Support Enforcement Act. 
As we are considering ways to improve the well-being of kids 
who are often short-changed because fathers are absent and 
because child support payments are not made, we have to come 
face to face with some statistics. A staggering 93 percent of 
child support is in arrears. It is the norm for child support 
not to be paid or not to be paid on time, and oftentimes, as 
with other receivables, the older the obligation gets, the 
longer it is not paid, the more likely it is it will never be 
paid at all. Mountains of past-due child support will simply 
never be paid at all.
    What then happens to the custodial parent, often the 
mother, sometimes the father? What happens to the kids when a 
family court says you are entitled to a substantial amount or 
at least an adequate amount to pay for clothes, for medical 
care, for food for these children, for their education in some 
cases, when they get nothing, when they get absolutely nothing?
    Some years ago, Senator Dale Bumpers had an idea, and I 
found it to be an especially attractive idea and adopted it 
myself and it is the basis for this legislation. It is that in 
the same way that the Tax Code gives a measure of relief to 
someone who is owed a debt, but finds that it goes bad, we 
could give tax relief to custodial parents and to those kids of 
the child support is owed them, but is not paid. They could, in 
essence, get a bad-debt deduction.
    At the same time, the Tax Code, in a mirror-image 
provision, provides for the recognition of income for the 
cancelation of indebtedness. So, in this case, the parent owes 
child support, but does not pay it, who is in the position of 
essentially canceling his or her own debt, would recognize 
cancelation of indebtedness income.
    Because of the mirror-image tax treatment, there is no 
negative revenue effect. Moreover, because statistically the 
custodial parents are in lower tax brackets on average, there 
is a modest positive revenue effect from this legislation.
    There are questions that one can anticipate with a proposal 
such as this. They have, in fact, been raised by the Internal 
Revenue Service (IRS) and by staff of this Committee in past 
years. I have been working on this for a number of years now, 
and, in particular, the hearing that Chairwoman Johnson 
conducted last year was an opportunity to remedy some of these 
technical issues.
    Specifically, in the bill that is now before you, both the 
recognition of income and the bad debt deduction take place in 
exactly the same 12-month accounting period, and so there is no 
problem of a mismatch of revenue and expense from the 
standpoint of the Treasury.
    Second, there are no obligations imposed upon the IRS in 
connection with this legislation. It is self-reporting, using 
Form 1099C, a form that already exists for the cancelation of 
indebtedness. It is, therefore, a simple administrative 
proposal, but it might well be a powerful relief for parents 
who do not have the child support that family court judges tell 
them they ought to have.
    The problems that we are talking about here today are 
serious ones indeed. I wish they did not affect so many people 
in our country, but they do, and I think that anything we can 
do to help, we ought to do. This is certainly something that is 
within our power to do, and I urge your consideration and 
appreciate very much the interest that you have shown already 
and in the past.
    Thanks.
    [The prepared statement of Mr. Cox follows:]

  Statement of the Hon. Christopher Cox, a Representative in Congress 
                      from the State of California

Introduction
    Thank you, Chairman Herger and Mr. Cardin, for holding this hearing 
today, and for graciously giving me the opportunity to testify on the 
merits of the Child Support Enforcement Act.
    Today, we are here to consider what else may be done to improve the 
well-being of kids who are shortchanged when child support isn't paid. 
A staggering 93 percent of child support is in arrears. We have to give 
delinquent parents a strong financial incentive to pay, and we have to 
give relief to the custodial parents who aren't getting the help they 
need to raise their kids.
The Custodial Parent Should Get A `Bad Debt' Deduction for Unpaid Child 
        Support
    Under current law, custodial parents receive no tax relief when the 
other parent fails to meet his or her legal and moral obligations to 
pay child support in full and on time.
    Our current tax code permits individual tax filers to take a ``bad 
debt'' deduction when they are unable to collect a valid monetary 
obligation. But it does not allow a parent who has been unable to 
collect legally obligated child support payments to take the same ``bad 
debt'' deduction.
    The Child Support Enforcement Act will give tax relief to custodial 
parents by extending the tax code's existing treatment of unpaid debts 
to expressly include child support payments. Again, this is the same 
tax treatment already afforded to other bad debts under Section 166 in 
the Code. It is completely reasonable and logical that we extend the 
same tax treatment afforded for unpaid rent, for example, to our most 
precious resource, our children.
The Delinquent Debtor Should Recognize `Forgiveness of Indebtedness' 
        Income for Unpaid Child Support
    Under our current tax code, a parent who has unilaterally failed to 
fulfill his or her child support obligation is not required to include 
the defaulted amounts in income to reflect the windfall gain from 
nonpayment of the debt.
    The ``forgiveness of indebtedness'' provisions of our current tax 
law require a debtor who receives an economic gain from not paying a 
debt to count the unpaid amount as taxable income. But it does not 
provide the same tax treatment if the unpaid debt is child support. A 
delinquent debtor who enriches himself by failing to make child support 
payments is not taxed on the money that he has wrongfully appropriated 
to himself.
    The Child Support Enforcement Act will require a delinquent parent 
who has failed to pay child support to be taxed on that amount, just as 
a debtor would be taxed under Section 108 of the Code. Since the parent 
who fails to pay child support is simply ``forgiving'' his own debt, he 
should receive the same tax treatment already applied to any other 
``forgiven'' debt that the borrower doesn't pay.
    Even though the Child Support Enforcement Act extends current tax 
law concerning bad debts to include child support, it in no way 
provides forgiveness of liability. The parent who owes child support 
continues to bear the full legal obligation to pay it. The Act simply 
provides a tax benefit for the custodial parent, and an additional 
financial incentive for swift payment of child support obligations by 
the delinquent parent.
Revisions to the Bill
    A few revisions have been made to the Child Support Enforcement Act 
to address technical issues raised by the Committee following last 
year's hearing:
    First, the Child Support Enforcement Act does not require an 
amended return to the Internal Revenue Service if past-due child 
support is subsequently paid.
    Second, there is an exceptionally simple reporting process that 
does not burden or even involve the IRS. Both the bad debt deduction 
for the custodial parent, and the recognition of income from 
forgiveness of indebtedness for the delinquent parent, would occur in 
the same taxable year. The custodial parent who is planning to take the 
bad debt deduction would file a form that already exists, the 1099-C 
``Cancellation of Debt'' form, with the IRS. A copy would be sent to 
the delinquent debtor.
    Third, there is no additional power granted to the IRS. In my view, 
that is not necessary. In fact, IRS involvement through the Child 
Support Enforcement Act would be far less than current IRS involvement 
with the 18-year-old Federal Refund Tax Offset Program because the IRS 
is not required to distribute past-due child support to custodial 
parents. Taxpayers will simply report child support bad debt and claim 
the deduction on their returns (or take it into income), as they 
currently do for any other unpaid debt.
Budget Impact
    Because both the income from cancellation of indebtedness and the 
deduction for bad debt are mirror images, there is no negative revenue 
effect. Moreover, because statistically parents who owe child support 
are in higher tax brackets than the custodial parents, the Act produces 
a modest revenue gain.
Conclusion
    The Child Support Enforcement Act complements state-level 
enforcement mechanisms currently in place, by creating tax equity where 
none exists. It also encourages the continued reporting and development 
of databases to better track child support obligations.
    We should not allow delinquent parents to avoid their legal 
obligations--and we should not punish the custodial parents who are 
forced to make ends meet without the assistance of child support 
payments.
    The Child Support Enforcement Act will help redress these 
injustices. I commend the Chairman, Ranking Member, and the Members of 
this Committee for their interest and support, and I look forward to 
working with you to produce legislation that can be signed into law 
this year.

                                <F-dash>

    Chairman Herger. Thank you very much, Mr. Cox, for your 
testimony and appearing before our Committee. Now we are 
delighted to hear from Mr. Castle of Delaware. Mr. Castle.

 STATEMENT OF THE HON. MICHAEL N. CASTLE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF DELAWARE

    Mr. Castle. Thank you, Chairman Herger and Ranking Member 
Cardin, Mr. Watkins, and Mr. Camp.
    I am also pleased to be here, and I want to thank you for 
giving me as well as others who are going to be testifying 
today the opportunity to testify on the extremely important 
subject of the child support enforcement in this country.
    It is a fundamental principle that parents who bring a 
child into this world are both responsible for providing that 
child's physical needs, regardless of any conflicts in their 
relationship. It is rewarding for me to join you here today to 
discuss how we can improve the laws of this country to enforce 
that principle.
    I want to take a few minutes to discuss the Child Support 
Fairness and Federal Tax Refund Interception Act of 2001. 
Recently, I introduced this bill to remove a legal barrier that 
is preventing the Federal Tax Refund Offset program for more 
effectively ensuring that child support is paid to all those 
entitled to it.
    As you know, under current law, the Federal tax refunds to 
parents who owe back child support can be intercepted and used 
to reduce that debt. After garnishing wages, this program is 
the most effective means of recovering back child support that 
accounts for approximately one-quarter of all back child 
support collections.
    However, unlike garnishing wages and many other child 
support enforcement tools, eligibility for this program is 
restricted by the age of the child. Eligibility for the program 
is limited to cases where the child is still a minor, the 
parent is receiving public assistance, or the child is a 
disabled adult. This fails to protect non-disabled college-aged 
children and their custodial parents even if the child support 
deficit accrued while the child was a minor. The unintended 
effect of the program is that it rewards noncustodial parents 
who are successful in avoiding their child support obligations 
while their children are still minors, and, believe me, many do 
that. The age limit removes the threat of one of the most 
effective child support enforcement tools, the Tax Refund 
Intercept. That is what my legislation would correct.
    I think we should just ask ourselves whether there is any 
good reason why we should allow delinquent parents to collect 
Federal tax refunds to use for their enjoyment while custodial 
parents struggle to recover from years of raising their 
children alone on one income.
    I hope Congress will alleviate the tremendous burden on 
single parents who have to work even harder to provide for 
their children. Artificial barriers such as the age limit on 
the Federal Tax Refund Offset program should be torn down. A 
non-custodial parent should not be able to escape their child 
support responsibilities by playing a waiting game until their 
child is 18. The Federal Tax Refund Off-

set program is responsible for retrieving approximately a 
quarter of all back child support collections, and the time has 
come to make it a greater success by helping all children and 
custodial parents by removing the age limits.
    I urge my colleagues to support this legislation. I thank 
you, Chairman Herger.
    I have actually approached the Chairman of the Ways and 
Means Committee on this. I believe this is excellent 
legislation. I introduced it last year. We were unable to get 
it through, but I think it is so good that if we put it on the 
suspension calendar for the Tuesday that we come back and you 
are able to get this done, I can see your colleagues raising 
you on their shoulders and carrying you out of the chambers. 
That may be a bit of an exaggeration, but, nonetheless, I think 
it is good legislation, and I hope it would help a lot of 
people. Hopefully, we can move forward with it.
    Thank you for the opportunity to be here.
    [The prepared statement of Mr. Castle follows:]

 Statement of the Hon. Michael N. Castle, a Representative in Congress 
                       from the State of Delaware

    Chairman Herger, Ranking Member Cardin, Members of the 
Subcommittee, I want to thank you for giving me this opportunity to 
testify on the important subject of child support enforcement.
    It is a fundamental principle that parents who bring a child into 
this world are both responsible for providing for that child's physical 
needs, regardless of any conflicts in their relationship. It is 
rewarding for me to join you here today to discuss how we can improve 
the laws of this country to enforce that principle.
    I want to take a few moments to discuss the ``Child Support 
Fairness and Federal Tax Refund Interception Act of 2001.'' Recently, I 
introduced this bill to remove a legal barrier that is preventing the 
Federal Tax Refund Offset program from more effectively ensuring that 
child support is paid to all those entitled to it.
    As you know, under current law, the Federal tax refunds of parents 
who owe back child support can be intercepted and used to reduce that 
debt. After garnishing wages, this program is the most effective means 
of recovering back child support. It accounts for approximately one-
quarter of all back child support collections.
    However, unlike garnishing wages and many other child support 
enforcement tools, eligibility for this program is restricted by the 
age of the child. Eligibility for the program is limited to cases where 
the child is still a minor, the parent is receiving public assistance 
or the child is a disabled adult. This fails to protect non-disabled, 
college-age children and their custodial parents, even if the child 
support deficit accrued while the child was a minor. The unintended 
effect of the program is that it rewards non-custodial parents who are 
successful in avoiding their child support obligations while their 
children are minors. The age limit removes the threat of one of the 
most effective child support enforcement tools--the Tax Refund 
Intercept.
    I think we should just ask ourselves whether there is any good 
reason why we should allow delinquent parents to collect Federal tax 
refunds to use for their enjoyment, while custodial parents struggle to 
recover from years of raising their children alone on one income.
    I hope Congress will alleviate the tremendous burden on single 
parents who have to work even harder to provide for their children. 
Artificial barriers such as the age limit on the Federal Tax Refund 
Offset program, should be torn down. A non-custodial parent should not 
be able to escape their child support responsibilities by playing a 
waiting game until their child is eighteen. The Federal Tax Refund 
Offset program is responsible for retrieving approximately one-quarter 
of all back child support collections. The time has come to make it a 
greater success by helping all children who deserve support. I urge my 
colleagues to support this legislation.
    Thank you, Chairman Herger, for your commitment to this important 
issue. I look forward to working with you to move this bill to the full 
house in the near future.

                                <F-dash>

    Chairman Herger. Thank you very much, Mr. Castle. Mr. 
Watkins to inquire.
    Mr. Watkins. Let me say to the panel that I have the 
greatest and deepest respect for all three of you in the 
different directions you are coming from, but maybe I am raised 
in the old school of the situation where no one is talking 
about young men accepting some responsibility.
    If we do not tell them they have got a responsibility to 
fulfill their obligations, if people just feel like there is--
80 percent of them feel like they were in some kind of serious 
relationship, what do we--if it is a court order they are 
supposed to be fulfilling in their child support payments, what 
is the responsibility they have from that court order? Is it 
anything at all that they----
    Mrs. Johnson of Connecticut. A lot of these----
    Mr. Watkins. What is their penalty if they do not abide by 
it? Is there any penalty for them not abiding by the court 
order saying you make the payments to that young lady? I think 
there should be a responsibility on that young man to make 
those payments. If not, he maybe should go to jail.
    Now, I think somewhere there has got to be a 
responsibility. I do not know--I know the gentlelady from 
Connecticut, she knows I had a little bit of difficulty with it 
last year, but where are we missing that situation?
    I know my friend from Delaware, you have been the leader of 
a State and you have probably seen it from several different 
angles than my colleague from California, but I think we need 
to put some teeth into saying you abide by that court order, 
male or female.
    Mr. Cox. Mr. Chairman, if I might.
    I think you make an excellent point, and in the Child 
Support Enforcement Act, which I have just described, if the 
person who owes child support fails to pay it, then he or she 
is required to take the amount that he or she was supposed to 
pay into income, and if that person was, let us say, in the 30-
percent income tax bracket, that means that there is a 30-
percent penalty that is owed for not paying child support for a 
full year. That is exactly the kind of thing you are talking 
about, I believe.
    Mr. Watkins. That is at least a step in the direction of 
saying you have a responsibility because I think too many 
times, we have said to people you can go out and have a fling 
and all these kind of things, and they think that is serious--
not out one night, but it is not. They waltz away without 
paying anything, and I think they need to try to be 
responsible. I think we need to at least step there first and 
say what do we put the teeth of responsibility in if you----
    Mrs. Johnson of Connecticut. If I may comment. I agree with 
you absolutely. In the end, this is about personal 
responsibility. Do not bring children into the world unless you 
are going to be responsible for them, but remember we have had 
out there for many, many years before 1994 when we reformed 
welfare a system that said it is all right to have kids out of 
wedlock, do not worry, the government will support you. So we 
have a system out there now since welfare reform that says to 
the young mother, ``Hey, wait a

minute. Let's look at what job you are capable of,'' and so on 
and so forth.
    But we do not set the father down, even though we require a 
paternity determination. We do not set the father down and say, 
``OK, you have just had the baby. This is what you are going to 
owe. This is how it is going to accumulate if you do not do it. 
This is how you manage money. Let us help you get into the work 
force.'' We do not give them any of the support services, and 
they are mostly unemployed or have a very poor work history. We 
do not give them the job placement support services. We do not 
give them the career counseling, the budget management, the 
parenting courses to help them bond into this situation that 
they have helped create that is so important to this child. So 
I want to help them take their responsibility.
    Now, this arrearages issue should not be an issue if we 
help people take their responsibility from the beginning. The 
arrearage issue really comes from the fact that for years, we 
did not. So now you have a lot of gentlemen who would like to 
be active parents of their children who have this history of 
debt that they often were not even aware they were building up. 
They thought the mother was on welfare. She was on welfare. 
They did not understand that they were liable for all that.
    So I am not saying forgive arrearages. I want our States to 
begin thinking about as people get into the work force and we 
help them--some of these guys have $40,000 debt, $30,000 debt. 
They are never going to make more than $8 an hour. You cannot 
repay that debt. Do you want them to be paying Social Security 
and get into Medicare?
    Mr. Watkins. A lot of college students have a lot bigger 
debt than that. Nancy, there is a lot of college students that 
have a lot more debt than that, and they have the 
responsibility----
    Mrs. Johnson of Connecticut. At least they have a college 
degree.
    Mr. Watkins. But I am willing to work with you on it very 
closely to see if we have got those areas of responsibility 
worked out because I know that there are differences. We are 
dealing with a variable here of human beings, but I think 
somewhere, we have got to have that step of responsibility.
    Mrs. Johnson of Connecticut. I think your point is very 
well taken.
    Mr. Watkins. And I think these others can come in place, 
also, but I think we have got to make sure they understand 
that, just like working and raising children.
    Mrs. Johnson of Connecticut. And we did in our bill really 
only provide a preference for demonstration projects that 
attacks this problem because we know so little about how to 
solve it, for just the reasons you point to. Thanks.
    Chairman Herger. The gentleman's time has expired. Mr. 
Cardin to inquire.
    Mr. Cardin. Thank you, Mr. Chair.
    Let me associate myself with the response by Mrs. Johnson. 
It is clear we could do a better job in child support 
collection. I think we all agree on that, and we do not want to 
condone any parent not paying their obligations, but what I 
think we should acknowl-

edge are some of the positive steps that Congresses have taken, 
the last past Congresses have taken, to make it easier.
    We have the suspension of our licenses that is now a 
requirement. We have the trade licenses. We have the wage lien 
laws. Last time I checked my State of Maryland, people are 
going to jail for not paying child support. We have criminal 
laws and civil contempts on this around the Nation.
    So the point about whether we should be more stringent in 
the use of those penalties really rests with our States, and I 
agree with Mrs. Johnson. Sometimes you need to look at the 
practical circumstances in which a family is in, and that is 
why I really applaud the legislation that is before this 
Committee because I think it is well balanced.
    We are trying to get the noncustodial parent engaged in the 
emotional part of the family, which we think will encourage a 
family unit and the payment of child support obligations, and 
that is part of our bill.
    We also believe that on the arrearages that the money can 
go to the family. It is much more likely that the payments will 
be made.
    Right now, why wouldn't you look for a way of escaping your 
obligations if the money is going to the government? If it is 
going to your child, it is much more likely you are going to be 
more interested in making the payments real. So I think the 
bill is very well balanced.
    Mr. Castle, I just might point out that I am not sure we 
would carry Mr. Herger out on his shoulders, but I think the 
other body would. Our problem, I think, is with the Senate. It 
is not with the House on this legislation. As you know, you 
might want to talk to Chairman Thomas about it, but he is 
always leery about sending a tax bill over to the Senate as 
non-controversial as it may be because, as you know, tax bills 
only can originate in the House, and the Senate has a habit of 
taking a very nice non-controversial bill and making it very 
controversial.
    Mr. Cox, I just want to applaud you for the improvement in 
the legislation, but I just would urge as we look at this bill 
that you be prepared how to address the problem of how the IRS 
would reconcile a dispute between the custodial and 
noncustodial parent as to how much is owed. As I understand 
your bill now, the custodial parent would send a 1099 form, and 
if the noncustodial parent disagreed with that, I would be 
curious as to how the IRS would reconcile that dispute.
    You do not need to answer now, but it is one of the issues 
that I think we would want some attention paid.
    Mr. Cox. I will undertake to give you a more elaborate 
answer, but on the face of it, because it is self-implementing, 
self-administrating, both parents can file a 1099C, redesigned 
perhaps only slightly for the purpose, and they are responsible 
for their own tax returns.
    Mr. Cardin. But if there is a difference between what the 
custodial parent files and the noncustodial parent, the IRS 
would be in a very difficult position to determine who is 
correct in that.
    Mr. Cox. Yes. In fact, one of the reasons that we have 
these information returns and 1099's and so on is to know when 
to trigger an audit. It is some evidence that somebody is 
cheating.
    Mr. Cardin. Thank you. Thank you, Mr. Chairman.
    Chairman Herger. Thank you, Mr. Cardin. Mr. Camp, the 
gentleman from Michigan, to inquire.
    Mr. Camp. Thank you, Mr. Chairman. Congresswoman Johnson, 
could you tell us a bit about the pro-marriage features of the 
fatherhood portion of your legislation, please?
    Mrs. Johnson of Connecticut. Yes. They are very important. 
In the hearing that we had and this Subcommittee held on 
promoting marriage, it is very, very important. Too many of 
these young people are growing up in neighborhoods where there 
is no example at all of a married couple. So they do not have 
any opportunity to learn what are the advantages for them and 
for the child of marriage, and so we do give preference to 
those projects that have in them some effort to educate people 
about marriage because, if we do not do this, it is almost as 
egregious a policy error as it was to pay people not to work.
    Welfare was really a terrible system because it paid people 
not to work, and in life, if you do not work, you do not know 
who you are and you are not part of the real world, unless you 
are disabled. We understand that some people cannot work.
    In the same way, to not educate young people about marriage 
when they have no opportunity to learn from their environment 
is to ignore the enormous amount of research that has been done 
that demonstrates that children do much better. They do better 
in school. They do better emotionally. They have a brighter 
future if they are part of a married unit. It is really 
astounding that we have utterly ignored what is now a very 
significant body of research that children need both parents, 
and they do, do better in marriage.
    Mr. Camp. Thank you very much.
    I want to thank all of you for your testimony as well, and 
thank the Chairman.
    Chairman Herger. Thank you very much, Mr. Camp.
    I want to thank each of our witnesses for your outstanding 
testimony, and with that, I would at this point like to call on 
our second panel to come forward, please.
    I would also like to insert at this point in the record the 
statement of Frank Fuentes, acting deputy commissioner of the 
Office of Child Support Enforcement, who is not able to be here 
today to testify on behalf of the U.S. Department of Health and 
Human Services, without objection.
    [The following was subsequently received:]

Statement of Frank Fuentes, Acting Deputy Commissioner, Office of Child 
  Support Enforcement Administration for Children and Families, U.S. 
                Department of Health and Human Services

    Mr. Chairman and distinguished Members of the Subcommittee, thank 
you for giving me the opportunity to submit testimony for the record on 
the Child Support Enforcement program. I am Frank Fuentes, the Acting 
Commissioner of the Office of Child Support Enforcement. The Child 
Support Enforcement program is a very successful Federal/State 
partnership effort aimed at fostering family responsibility and 
promoting self-sufficiency by encouraging that both parents support 
children financially and emotionally.
    To accomplish this goal, we work in partnership with States in 
providing four major services: locating noncustodial parents, 
establishing paternity, establishing child support obligations, and 
enforcing child support orders. Welfare reform made dramatic 
improvements in our ability to achieve these goals and I would like to 
take this opportunity to share with you the promising results we are 
witnessing. I would also like to share some of the activities the 
Administration is undertaking to strengthen fatherhood since I know 
this is of particular interest to the Subcommittee.
Child Support Enforcement Program Record
    Through enactment of the Personal Responsibility and Work 
Opportunity Reconciliation Act 1996 (PRWORA), unprecedented tools have 
been provided to the child support enforcement program. These tools are 
already having a dramatic impact in securing for many of our Nation's 
children the emotional and financial support that they need. In FY 
2000, a record $17.9 billion in child support was collected. This 
represents an increase of 50 percent since FY 1996. We now are 
collecting support on behalf of almost 68 percent of the caseload where 
an order has been established.
    PRWORA provided tough child support enforcement techniques and new 
automated collection methods. For example, the law expanded wage 
garnishment, authorized States to suspend or revoke driver and 
professional licenses for parents who are delinquent, and provided for 
passport denial for parents who were at least $5,000 delinquent in 
support.
    In addition, the law established a Federal Case Registry and 
National Directory of New Hires to track delinquent parents across 
State lines. It also required that employers report all new hires to 
State agencies for transmittal to the national directory and to match 
records with financial institutions so that States may place a lien on 
the accounts of delinquent parents.
    Using the expanded Federal Parent Locator Service we were able to 
provide States information on three million interstate cases, and using 
the Passport Denial Program, we have collected over $7 million in lump 
sum child support payments in the last year. To date, more than 4,200 
financial institutions have agreed to participate in data matching for 
child support and nearly 700,000 individuals delinquent in their child 
support have been matched with their accounts. The value of those 
accounts is nearly $2.5 billion. Further, the Federal Tax Refund and 
Administrative Offset programs collected about $1.4 billion in calendar 
year 2000.
    The record is similar with respect to paternity establishment. The 
number of paternities established or acknowledged reached a record of 
1.6 million in FY 2000. This represents an increase of 46 percent since 
FY 1996. Of these, over 688,000 paternities were established through 
in-hospital acknowledgement programs. An additional 867,000 paternities 
were established through the Child Support Enforcement program. In 
addition to being the first step in collecting child support, paternity 
establishment engages fathers in the lives of their children, creating 
the emotional bonds and security that are crucial to their children's 
health and well-being.
    PRWORA streamlined the legal process for paternity establishment, 
making the process easier and faster. It also expanded the voluntary 
in-hospital process for paternity establishment started in 1993 and 
required a State affidavit for voluntary paternity acknowledgment. In 
addition, the law mandated that States publicize the availability and 
encourage the use of the voluntary paternity establishment process.
    We are excited about the dramatic results these changes are 
generating and are convinced that the future of child support 
enforcement will continue on this successful path. Critical to these 
efforts, though, is a new and determined focus on the fathers.
Strengthening Fatherhood
    I would like to turn to the administration's efforts to strengthen 
fatherhood--what we view as a critical complement to our enforcement 
efforts if we are to succeed in accomplishing our basic mission of 
increasing both financial and emotional support for our Nation's 
children.
    The Office of Child Support Enforcement has worked to strengthen 
the role of fathers in families. For example, we have funded eight 
child support enforcement responsible fatherhood demonstration projects 
that will help bolster fathers' financial and emotional involvement 
with their children. Each project is different, although they all 
provide a range of services to aid in collecting child support, such as 
job training, access and visitation, and social services.
    The Office of Child Support Enforcement has provided over $1.5 
million to the National Center for Strategic Nonprofit Planning and 
Community Leadership (NPCL) to work with grassroots fathers' 
organizations to help unemployed and underemployed fathers become 
responsible parents. In addition, we have approved ten State waivers 
supporting the Partners for Fragile Families, a set of projects to test 
ways for child support enforcement programs and community and faith-
based organizations to work together to improve the opportunities of 
young, unmarried fathers to support their children both financially and 
emotionally. Further, PRWORA created a $10 million access and 
visitation program for States, serving more than 22,000 individuals in 
1997 and an estimated 50,000 in 1998.
    Most recently, President Bush and Secretary Thompson's clear 
commitment to promoting involved, committed and responsible fatherhood 
as a national priority was emphasized in the FY 2002 budget request. 
One of the many goals of the Administration's FY 2002 proposal is to 
provide $64 million for the first year to support low-income families 
by helping low-income noncustodial parents (mainly fathers) support 
their children by paying child support and connecting or reconnecting 
with their children.
    This initiative shares many of the same goals as the fatherhood 
legislation supported by this Subcommittee. We commend Representatives 
Johnson and Cardin and the Subcommittee for your leadership in focusing 
attention on responsible fatherhood and we look forward to working with 
you on this critical area of mutual commitment. As the President 
recently said at the Fourth National Summit on Fatherhood, ``For our 
children, and for our Nation, nothing is more important than the 
national fatherhood initiative.''
Conclusion
    In closing, let me say that it is only through our partnership with 
the Congress and the States that we have been so successful in 
strengthening the Child Support Enforcement program. The many new tools 
provided by the Personal Responsibility and Work Opportunity 
Reconciliation Act are helping to improve the lives of our Nation's 
children. We can improve on existing efforts by focusing more attention 
on strengthening our commitment to fatherhood, and we look forward to 
working with you on this important legislation.
    Thank you. I would be pleased to answer your questions for the 
record.

                                <F-dash>


    Chairman Herger. On the second panel this afternoon, we 
will be hearing from Mr. Nathaniel Young, Jr., director of the 
Virginia Division of Child Support Enforcement, and president 
of the National Council of Child Support Directors; Dr. Jeffery 
Johnson, president and chief executive officer of the National 
Center of Strategic Nonprofit Planning and Community Leadership 
(NPCL), accompanied by Mr. Raymond Byrd; Dr. Ron Haskins, 
senior fellow in governmental Studies at The Brookings 
Institution and senior consultant at the Annie E. Casey 
Foundation; Dr. Elaine Sorensen, principal research associate 
at The Urban Institute; and, finally, Joan Entmacher, vice 
president and director of Family Economic Security at the 
National Women's Law Center.
    With that, Mr. Young to testify, please.

   STATEMENT OF NATHANIEL L. YOUNG, JR., DIRECTOR, VIRGINIA 
   DEPARTMENT OF SOCIAL SERVICES' DIVISION OF CHILD SUPPORT 
ENFORCEMENT, RICHMOND, VIRGINIA; PRESIDENT, NATIONAL COUNCIL OF 
 CHILD SUPPORT DIRECTORS; BOARD MEMBER, NATIONAL CHILD SUPPORT 
  ENFORCEMENT ASSOCIATION; AND BOARD MEMBER, EASTERN REGIONAL 
              INTERSTATE CHILD SUPPORT ASSOCIATION

    Mr. Young. Yes, sir. My name is Nick Young, and I am the 
director of Child Support Enforcement for the Commonwealth of 
Virginia, and I am also the president of the National Council 
of Child Support Directors, the 54 child support directors of 
the Nation. I appreciate being here today. Thank you very much.
    I looked at a calendar and saw that our birthday, the 
Nation's birthday, is next Wednesday, 225 years. Then I saw it 
took us 199 years to pass the Social Security Act in 1975 to 
where we realized that this was as a problem that we needed to 
address.
    Then, in the ensuing 25 years that we have been doing child 
support, as is in the statement that you just entered from Mr. 
Fuentes, we have collected $100 billion through good hard work 
of the child support program and through the laws and the tools 
that you have given us, and we are very appreciative of that.
    I would like to mention that the $18 billion that was 
collected last year shows the significant improvement that has 
been made. If you tried to break the $100 billion by 25 years 
and then looked at 1 year that you got $18 billion, it is 
getting better.
    While you are precisely correct that the average may be 37 
percent, some States do better than that. Some do worse. All in 
all, though, we are very proud of the $18 billion, and we do 
appreciate the tools you have given us. I think we have 
demonstrated that we have used them responsibly, not 
necessarily to deliver child support services, truly at the end 
of a billy club, but try to bring the personal responsibility 
into the picture here by working with a number of the people 
that are here at the table as well as the other groups.
    I have two or three things to recommend. My testimony has 
some examples from each of your States, from many of the 
States, anyway, and I will let that stand for itself.
    One of the things that we would encourage you to do is to 
literally stay the course. Remember that this is not a speed 
sport, that it is behavior modification. It is difficult. As 
Representative Johnson just spoke and the others as well very 
eloquently, we are trying to fix a long-term problem, and we 
are trying to do it in a fairly short period of time, and it is 
behavior modification, not always out-of-wedlock births, which 
in my particular State make up 70 percent of the caseload. 
While 30 percent of the out-of-wedlock births occur every year, 
they cumulatively make up 70 percent of the caseload. I submit 
to you that that is the problem we have to fix before we try to 
fix the outcome which is getting the child support paid.
    We support the simplification of distribution. It is far 
too complex. Most of us cannot understand it. We cannot explain 
it. We can eventually program it into logic, but we could not 
explain it if we had to.
    I would only ask you to look at how the child support 
program is funded concurrently with your desires to fix 
distribution. You may be fixing distribution, but you could 
break the way that a State delivers the child support services, 
depending on whether or not they had retained earnings or 
whether or not they totally general-fund a child support 
program, and about half the States used retained earnings. We 
think that they are inextricably intertwined; that you have got 
to look at them simultaneously.
    We would also encourage you to look at removing the cap on 
the incentive pool. Clearly, we believe that pay for 
performance is the way to go. We incentivize most of our child 
support workers on how well they do. Currently, with the 
incentive cap, somebody has to lose because it is a fixed 
amount of money. So, if Virginia does very well, perhaps 
Maryland or some other State will be disadvantaged, and we do 
not think that is a good way to do it. We would ask you to 
examine that and to consider removing the cap.
    One other issue that is problematic is the penalties. The 
penalties were enacted for a very good reason, to get people's 
attention, primarily not the Title IV-D of the Social Security 
Act (IV-D) director, the child support director, but beyond 
that in the State legislatures.
    We are convinced as an association that the penalties have 
done their job, and they have gotten people's attention. I 
would ask you to look at some reinvestment options in amending 
the law some States face up to, including $152 million in 
penalties. That will certainly get your attention because that 
is twice as much as most programs even spend. We would only ask 
that there are some ways to allow reinvestment and to encourage 
reinvestment instead of just having the penalty stand alone by 
itself.
    Last, the IV-D directors, the child support directors 
clearly understand the need for more fatherhood initiatives. 
Access and visitation is a wonderful program. It has brought 
people together that were not talking, both government as well 
as within the family structure. We realize there are a number 
of these people that are dead broke, not necessarily deadbeat.
    We are willing to work with any of the programs on 
fatherhood, and we will appreciate any of the initiatives that 
are coming out. And some of the ladies and gentlemen who are 
with me can speak far more eloquently on that.
    Thank you very much, sir.
    [The prepared statement of Mr. Young follows:]

Statement of Nathaniel L. Young, Jr., Director, Virginia Department of 
   Social Services' Division of Child Support Enforcement, Richmond 
Virginia; President, National Council of Child Support Directors; Board 
   Member, National Child Support Enforcement Association; and Board 
     Member, Eastern Regional Interstate Child Support Association

    Good afternoon Mister Chairman and Members of the Subcommittee. My 
name is Nick Young, and I am the Director of the Virginia Department of 
Social Services' Division of Child Support Enforcement. I am also a 
Board Member of the National Child Support Enforcement Association 
(NCSEA) and the Eastern Regional Interstate Child Support Association 
(ERICSA), as well as President of the National Council of Child Support 
Directors (NCCSD). I am here today in my dual capacity as Virginia's 
Child Support Director and as President of NCCSD.
    The subject before you today is ``Child Support and Fatherhood 
Proposals.'' I am here today to share with you the numerous 
accomplishments that states have made against the backdrop of the 
progressive laws and systems Congress has worked so hard to put in 
place.
    First, permit me to share a couple of telling statistics about 
Virginia's Child Support Enforcement Program: Our caseload today is 
394,000, representing approximately 558,000 children--25 percent of 
Virginia' child population. Though Virginia is recognized as having a 
very efficient program, it is unfortunately the case that we carry a 
$1.8 billion cumulative arrearage, an amount that is growing by $200 
million a year. During the past five years, our caseload has grown by 
10 percent. Our collections have increased by an average of 13 percent 
per year for a total of 75 percent increase during the past five years. 
We are one of the states that can conduct our business both 
administratively and through the courts. As a result, approximately 70 
percent of our cases are managed administratively, which saves a great 
deal of time, paperwork and money. Our work is also accurate and our 
data reliable; we have a very low rate of appeals of our administrative 
decisions. Virginia was one of the first two states in the nation to 
receive in early 1996 full federal certification of its automated case 
management system under the Personal Responsibility and Work 
Opportunity Reconciliation Act (PRWORA). Just last month, we again 
received the welcome news of federal PRWORA certification of our 
automated system. Currently, six states in the Nation share this 
achievement: Iowa, Nevada, New Mexico, Maryland, Washington, and 
Virginia.
    Automation, in conjunction with the powerful tools at our disposal 
under the Personal Responsibility and Work Opportunity Reconciliation 
Act (PRWORA), is what will catapult states toward the vision that 
Congress holds for the Nation's Child Support Enforcement Program. Just 
last week, Virginia's new interactive web application was inaugurated. 
The rollout of this technological innovation makes Texas and Virginia 
the first states in the Nation to have designed and implemented a web-
based customer services application that will give customers yet 
another way in which to access their updated payment and case 
information. Other states are not far behind in similarly using 
technology to bring more government services to customers.
    There is lots of good news in Virginia,
  <bullet> During the past five years, Virginia's child support 
        Enforcement Program has increased its support collections by 75 
        percent.
  <bullet> The Division of Child Support Enforcement collected $347 
        million in State Fiscal Year 99 and $391 million in State 
        Fiscal Year 00, an increase of 12.7 percent, and will collect 
        $440 million this fiscal year.
  <bullet> In addition to our new interactive web application, Virginia 
        designed and implemented an interactive voice response system 
        that improves communication with and services to all child 
        support customers. Through the latter, Virginia fields over 
        eight million customer calls each year with 70 customer 
        services staff statewide.
  <bullet> Since July 1998, we have offered customers the use of direct 
        deposit to expedite payment and receipt of their child support. 
        To date, 38,134 customers have taken advantage of this tool. 
        Customers are signing up for this service at a rate of 1,000 
        per month.
  <bullet> Virginia's pioneering New Hire Reporting Program began 
        before the national program under PRWORA and has resulted in 
        over $60 million in child support that otherwise would not have 
        been collected. Using matches from New Hires, Virginia is 
        automatically generating income withholding notices, which 
        saves countless hours in staff time.
  <bullet> Our ongoing KidsFirst Campaign, which sprung from a one-time 
        limited Gubernatorial amnesty program offered to 57,000 of the 
        most egregious support evaders in 1997, has collected over $150 
        million for children owed past due child support. As important 
        as collecting financial support, KidsFirst has heightened and 
        sensitized public awareness to the plight of children owed 
        child support. The Campaign encourages both parents to assume 
        financial support of their children and increases the 
        likelihood that children will grow up with a sense of financial 
        security, and a respect for personal responsibility--both 
        hallmarks of the Nation's Personal Responsibility and Work 
        Opportunity Reconciliation Act (PRWORA). An added bonus has 
        been enhanced rapport with the law enforcement community and 
        the judiciary.
  <bullet> Increased emphasis on the inclusion and enforcement of 
        medical support as an intrinsic ingredient of child financial 
        support.
  <bullet> Recently, Virginia was cited by the National Center for 
        Children in Poverty as one of only four states in the nation 
        showing significant progress in the area of fatherhood program 
        promotion.
  <bullet> More than 70 community-based fatherhood initiatives are 
        currently underway in Virginia. These community-based groups 
        focus on a variety of areas including new and expecting 
        fathers, young fathers, incarcerated fathers, fathers of 
        children with special health care needs, visitation and 
        medication, mentorship and school involvement. Over 250 new 
        community leaders are trained each year on how to provide 
        effective services to men in being better emotional and 
        financial providers for their children.
  <bullet> Judicious use of the tool of suspending or denying driver 
        permits of egregiously-delinquent NCPs, with the primary intent 
        being to motivate them to pay what they owe to avoid loss of 
        their permits. Since 1995, when this program was initiated, 
        only 2,900 NCPs have undergone action to suspend their permits, 
        while approximately $100 million in delinquent financial and 
        medical support as a result of this potent initiative has been 
        collected attributable to the ``threat.''
  <bullet> Virginia has fully implemented the revocation of both 
        occupational and recreational licenses, as well as the denial 
        of passports to delinquent parents.
  <bullet> Virginia's Paternity Establishment Program (PEP) is a model 
        of collaboration and cooperation. Established in 1990, PEP grew 
        under welfare reform into an effective program that gives 
        unmarried parents the opportunity to voluntarily acknowledge 
        paternity in the hospital, before the child goes home. 
        Currently, 68 hospitals are participating statewide, generating 
        13,000 paternities per year.
  <bullet> Virginia returned $5.41 in collections for every dollar 
        spent in State Fiscal Year 00.
  <bullet> Virginia was the first state in the Nation in 1998 to begin 
        booting vehicles as a technique for gaining the attention of 
        recalcitrant delinquent noncustodial parents. This initiative, 
        which began in one locality in 1998, was expanded statewide in 
        December 1999. To date, over $420,000 has been collected from 
        79 bootings under this initiative. Furthermore, Virginia's 
        successful booting initiative is cited as a model by federal 
        authorities and has been included in federal law.
    Virginia's accomplishments are but a sample of the innumerable 
successes that the fifty states and four territories have achieved. 
Among these achievements are:
  <bullet> Arizona, Georgia, and many other states are using access and 
        visitation programs to reconnect fathers with their children 
        and to address the root causes of nonsupport. They are 
        developing partnerships with hospitals to increase paternity 
        establishments and with workforce development programs and 
        community-based organizations to address a wide range of 
        barriers faced by many fathers in getting a job.
  <bullet> California has completely restructured its child support 
        program to achieve greater accountability and facilitate a 
        sound approach for an automated statewide system. The state has 
        increased program spending by 17 percent during the past two 
        years to underscore its commitment to the child support 
        program. Despite automation penalties, California's collections 
        will exceed $2 billion this year, a 12 percent increase over 
        the past year.
  <bullet> Connecticut's Legislature passed historic child support 
        legislation during 2001 that mandates regulation of private 
        child support collection agencies. The practices of some 
        private child support collection agencies tend to deprive 
        custodial parents and their children of monies that should come 
        to them--often enriching the collection agencies on the basis 
        of collections in which they had no role. This bill includes 
        private child support collection agencies in the state's 
        existing Fair Debt Collection Act that regulates consumer 
        collection agencies and gives the Banking Department authority 
        to license and regulate them. The bill prohibits private child 
        support collection agencies from deducting a fee from any child 
        support payments collected through the efforts of a 
        governmental agency. In addition, it limits the imposition of a 
        fee for the collection of any child support overdue at the time 
        of the contract to twenty-five per cent or less of overdue 
        support actually collected.
          The state of Connecticut was included in a federal grant to 
        participate in a regional process for executing liens and 
        creating a regional ``Child Support Lien Network'' of 
        delinquent noncustodial parents for the purpose of intercepting 
        insurance proceeds. This project has demonstrated significant 
        potential as a new child support collection tool. Connecticut 
        has already collected over $200,000 through this program in 
        less than one year.
  <bullet> Florida expects to collect over three-quarters of a billion 
        dollars this year--over a 90% increase in collections over the 
        last 6 years. These increases are expected to increase 
        significantly through initiatives such as the phase-in of a new 
        automated system, which allows each business process to be re-
        engineered and leverage state-of-the-art technology; piloting 
        an administrative support order establishment process; and 
        dedicating resources to reduce undistributed collections.
  <bullet> Michigan has an innovative NCP work referral program to its 
        ``Michigan Works'' agency. The Child Support Program pays none 
        of the costs. NCP's referred to the program either go directly 
        to work or they get education or skills training. Clearly, 
        employing the idea that anyone can be referred regardless of 
        funding source is an important change in the way services are 
        funded.
  <bullet> Oregon's child support program is co-located with the 
        Department of Human Services, enabling the program to maintain 
        its close linkage with the TANF and other programs aimed at 
        helping families and children to attain and maintain self-
        sufficiency. For delivery of IV-D program services, the IV-D 
        office contracts with the Oregon Department of Justice and with 
        county district attorneys the legal arena to collect child 
        support. This partnership structure has worked well, in 
        allowing the Oregon IV-D program to maintain its close linkage 
        with social service programs while still being able to take 
        effective action in collecting support for families.
  <bullet> In New York, where annual collections have doubled since 
        1994 to over $1.19 billion in 2000, the State initiated 
        automatic cost of living increases in child support orders, to 
        keep pace with inflation and allow families to stay off 
        welfare.
  <bullet> The North Carolina Child Support Program has created five 
        special teams beginning to assist local child support offices 
        in improving casework results. These teams are proving 
        successful and more money is being collected than ever before 
        in North Carolina's CSE program. North Carolina's collections 
        for children have increased by 226% since State Fiscal Year 91 
        and are continuing to grow.
  <bullet> Texas is wholly invested in a comprehensive customer 
        services strategy that has resulted in a 24 percent increase in 
        the number of customers who indicate satisfaction with the 
        State's child support services. Each night in Texas, 1,600 
        income withholding orders are automatically issued to 
        employers. In State Fiscal Year 00, Texas collected over a 
        billion dollars for the first time and expects collections to 
        surpass $1.2 billion this year.
    The aforementioned highlights are but a few of the myriad successes 
that states are achieving. Our time together today and the printed 
testimony do not allow the publicization of the host of activities 
ongoing in all of our states and territories.
    All of the IV-D directors and the federal government are taking a 
hard look at arrears management in conjunction with fatherhood 
programs. Connecticut, for example, is enthusiastically addressing this 
important issue.
    You also asked me that I come before you to tell you what Congress 
could do to help the Nation's Child Support Enforcement Program. 
Challenges to the Child Support Enforcement Program abound, yet the 
states are heartened and encouraged by the support Congress has shown 
the Child Support enforcement Program.
    In answer to your invitation to opine what Congress should do to 
assist states, I would offer that you ``stay the course.'' The 
enactment of PRWORA has served as the catalyst for the most 
comprehensive revisions to the nation's Child Support Enforcement 
Program in its 26-year history and the Nation's Child Support Directors 
are enthusiastic about building on that landmark legislation and fully 
employing the powerful tools it provides. Let us continue our progress 
unimpeded by additional sweeping changes in the program. Such changes 
will serve only to distract us from our core responsibility of 
collecting child support and possibly dilute our effectiveness. 
Comprehensive program changes at a time when many states are still 
working to fully automate their child support programs to take 
advantage of new federal tools can compromise their progress.
    Recently, the Nation's child support directors formulated a list of 
priorities. We urge Congress to continue its tremendous level of 
federal support by focusing on these several important areas. They 
include:
  <bullet> Fiscal Issues:
    <bullet> Simplifying distribution
    <bullet> Restructuring program funding
    <bullet> Removing the cap on incentives
    <bullet> Federal financial participation for non-IV-D payment 
            processing and bad checks
    <bullet> Extending Federal Financial Participation rates at the 80 
            percent rate for approved child support enforcement systems 
            (CSES) after October 1, 2001
    <bullet> Penalties
  <bullet> Improving Interstate case management
  <bullet> Medical support
  <bullet> Private access and confidentiality regulation
  <bullet> Complete implementation of PRWORA mandates, evaluation, and 
        follow-up changes
  <bullet> A strategic plan for technology
  <bullet> Fatherhood initiatives
  <bullet> Tribal
    Prominent among this list are four areas so pivotal to the Child 
Support Enforcement Program that they warranted official resolutions 
drafted by the National Council of Child Support Directors. I will 
enumerate them here, as follows:

    1. The resolution on Incentive Caps supports:
          that Congress should amend federal law to eliminate the cap 
        on the child support federal incentive funding because the 
        current incentive structure requires some states to lose in 
        order for others to gain. The cap requires a computation of 
        each state's incentive in comparison to all states after the 
        end of a fiscal year, creating an unstable and unpredictable 
        prospective financial planning environment. It is not a true 
        performance incentive as there is no guarantee that improved 
        performance will result in increased incentive payments.
    2. The resolution on the Reinvestment of Federal Automation 
Penalties supports:
          that Congress should amend the federal legislation that 
        imposes fiscal penalties on states that have failed to 
        implement (1) a statewide child support automated system by 
        October 1, 1997, and (2) PRWORA requirements for certification 
        by October 1, 2000. The amendments should:
          (a) subtract a state's information technology expenditures in 
        the year prior to a year in which the penalty is applied from 
        the dollar amount on which the technology penalty is 
        calculated.
          (b) allow for reinvestment by reducing the penalty amount by 
        any additional state general funds invested in the program.
          (c) require the Secretary of the Department of Health and 
        Human Services to hold in abeyance any penalty assessed in a 
        fiscal year if the Secretary determines a state to be in 
        compliance with the approved corrective action plan.
    3. The resolution on Funding supports:
          (a) that OCSE and Congress should provide for full and 
        sustained FFP for all aspects of the Child Support Program at 
        current or enhanced levels. Supports that Congress should 
        ensure the continuation of 90 percent FFP for genetic testing.
          (b) that Congress should amend federal law to extend the use 
        of 80 percent FFP to October 1, 2005, for enhancements to 
        automated systems required by PRWORA.
          (c) that Congress should provide enhanced FFP to reduce the 
        impact on the states' child support budget when states are 
        required to implement new mandates or make substantial 
        revisions to existing programs.
          (d) that Congress provide enhanced 90 percent FFP for medical 
        support activities for a limited 5-year period.
          (e) that OCSE and Congress should work with state IV-D 
        Directors to identify methods for ensuring that stable and 
        adequate levels of investment in the program by federal, state 
        and local governments advance the child support program's 
        evolving mission.
    4. The resolution on Medical Support supports:
          (a) that OCSE should immediately act on the nonlegislative 
        recommendations of the Medical Child Support Working Group.
          (b) that OCSE and Congress should consult with state Child 
        Support, state Medicaid and state CHIP programs, and national 
        child support associations to ensure consistent policies 
        related to IV-D medical responsibilities.
          (c) that OCSE report to Congress and recommend that a medical 
        support measure not be incorporated into the performance 
        measure system and tied to funding at this time and that the 
        implementation of any medical support performance measure be 
        phased in to allow states to implement the Working Group's 
        recommendations.
          (d) the recommendation of a plan for states and the federal 
        government to work together to identify medical support 
        outcomes and to define the work of the IV-D program in 
        achieving those goals.
    The last subject, fatherhood initiatives, segues into my final 
remarks. A few demographics about fatherless children are in order:
  <bullet> Twenty-four million children live without their biological 
        father
  <bullet> Children who do not have a relationship with their 
        biological father are shown to be:
    <bullet> Five times more likely to live in poverty,
    <bullet> Twice as likely to be abused,
    <bullet> More likely to bring weapons and drugs into the classroom,
    <bullet> Twice as likely to commit crimes,
    <bullet> Twice as likely to drop out of school,
    <bullet> More likely to commit suicide,
    <bullet> Over twice as likely to abuse alcohol or drugs, and
    <bullet> More likely to become pregnant as teenagers.
  <bullet> The number of children living with only their mothers and no 
        father figure grew from just over 5 million in 1960 to over 
        16.6 million.
  <bullet> About 40 percent of children who live in fatherless 
        households have not seen their fathers in at least a year.
    To address these telling statistics, the President's budget 
included a Health and Human Services ``Blueprint for New Beginnings.'' 
This two-pronged approach includes competitive grants to help 
unemployed or low-income fathers to avoid or leave welfare as well as 
promote successful parenting and strengthen marriage.
  <bullet> We support this approach because:
    <bullet> It promotes responsible fatherhood and strengthens the 
            role of fathers
    <bullet> It is consistent with welfare reform initiatives and 
            promotes competitive grants to faith-based and community 
            organizations that help unemployed or low-income fathers 
            and their families avoid or leave cash welfare
    <bullet> Fatherhood programs make child support order and paternity 
            establishment and enforcement easier because fathers are 
            doing the right thing on their own initiative
    We recommend supporting the President's initiatives with the caveat 
that grants to faith-based and community organizations to serve these 
populations should come through the states, not be granted directly by 
the federal government. We take this position because:
    <bullet> States know their communities and needs best
    <bullet> States know their providers best
    <bullet> States already have mechanisms in place for competitive 
            and negotiated grants
    <bullet> States have mechanisms for successfully administering 
            grants
    <bullet> Unnecessary taxpayer expense to set up an additional 
            federal operation when states are in the best position to 
            implement the grant program
    Thank you.

                                <F-dash>


    Chairman Herger. Thank you, Mr. Young.
    Now we will hear from Dr. Johnson, and, Dr. Johnson, I do 
notice that you are accompanied by Mr. Raymond Byrd. If he 
would like to join you at the stand, he is welcome to, and 
perhaps even make a short statement if he would like to.
    Thank you. Welcome to our Committee, Mr. Byrd.

  STATEMENT OF JEFFERY M. JOHNSON, PH.D., PRESIDENT AND CHIEF 
  EXECUTIVE OFFICER, NATIONAL CENTER FOR STRATEGIC NONPROFIT 
PLANNING AND COMMUNITY LEADERSHIP; ACCOMPANIED BY RAYMOND BYRD, 
                      BALTIMORE, MARYLAND

    Dr. Johnson. Thank you very much, Chairman Herger, Mr. 
Cardin, and the Committee for inviting me and Mr. Byrd for this 
opportunity.
    I would also add that I have also invited a nationally 
recognized leader in the fatherhood movement and also the 
program administrator for the program that Mr. Byrd is a part 
of, Mr. Joe Jones. I also asked another young father who is 
improving his life, Mr. Joe Lewis, to join us today in this 
testimony. Additionally I have asked Ms. Teresa Kaiser who is 
the director for Child Support for the State of Maryland, to 
join us today. She has some interesting ideas on arrears 
management that the Committee might be interested in.
    Before I say some things, let me just say, Mr. Chairman, 
that today is both a good day for me, for this opportunity to 
talk about fatherhood, but it is also a day of reflection for 
me because it is also the thirty-sixth anniversary of my own 
father's death, and that I come to this Committee in reflection 
of the good things that my father demonstrated to me. I think 
that those things contributed in many respects to the work that 
I do, but also how important it is to have fathers in the life 
of children. I think that is really what this Committee and 
this work is all about.
    With that, let me just say that the work that we do at NPCL 
is focused on building the capacity of local agencies to 
strengthen communities and foster family and neighborhood 
empowerment.
    One critical element of family empowerment, particularly in 
inner cities, is the return of fathers to families. Our current 
focus is to build the capacity of community-based organizations 
to provide services to low-income fathers so they can adopt 
their critical roles as nurturers and economic providers which 
at a time when society seems to be suffering from numerous 
breakdowns is good for families and communities, but especially 
children.
    Any policies we develop should not pose additional barriers 
to low-income dads. So, when this Committee considers child 
support, Welfare to Work, Temporary Assistance for Needy 
Families (TANF) commitments and others, do not forget our 
fragile families. These are young, low-skilled, never-married 
couples with children. We are talking about dead-broke dads 
versus deadbeat dads. The difference between deadbeat dads and 
dead-broke dads is that the former can pay child support, but 
will not, and the latter are willing to pay child support, but 
cannot. Deadbeat dads should be punished. Dead-broke dads need 
support and help.
    Any responsible fatherhood proposal should provide for 
employment, peer support, parenting education, parenting skills 
development, conflict management, as well as a combination of 
short-term job acquisition, interim job training, and long-term 
career development strategies. Child support enforcement 
proposals should consider different provisions for handling 
dead-broke dad cases.
    For example, orders established for low-income fathers 
should be based on their ability to pay. This approach has been 
embraced by child support leaders such as the National Child 
Support Enforcement Association and has been a topic of NPCL's 
peer learning college where we bring together child support 
people to talk about these issues.
    Other important strategies include arrears management. 
Again, I will say that Teresa Kaiser who is here for the State 
of Maryland has implemented a very innovative program that I 
think this Committee would be very interested in hearing about.
    My more extended written testimony, discusses in detail our 
Partners For Fragile Families Project which brought to us Mr. 
Byrd. This is a 10-city initiative that targets young fathers, 
16 to 25, and builds upon 40 years of social policy research 
and experimentation in this area. Each demonstration site seeks 
to implement community-level partnerships between child support 
enforcement agencies and local community-based fatherhood 
programs in an effort to increase the long-term involvement of 
low-income fathers in the lives of their children.
    Eliminating policy and program barriers as well as 
placement of fathers in jobs that have a wage potential are 
also key aims of the demonstration, but the foundation of the 
program, which is consistent with much of the provisions in 
H.R. 1471, is looking at where a client is and working with 
that client to bring them up to the point where they can marry, 
but if they don't marry, make the best decision in the interest 
of their child.
    The basic model includes One on One case management, job 
placement, peer support. The community should know that peer 
support has been the most successful element of programs 
working with fathers over the last 20 years, at least as far as 
demonstration projects are concerned.
    Peer support groups are anchored in this program in what we 
call the Fatherhood Development Curriculum which is now being 
used by over 3,000 practitioners nationwide. The curriculum 
includes a range of topics from life skills to preventing 
domestic violence. The father development curriculum also 
includes a focus on family planning with topics such as 
marriage and team parenting.
    In terms of systemic change, we think that efforts should 
be focused on public-private partnerships, employability, and 
earnings for fathers. Research seems to suggest that men who 
are employed and earning are more likely to pay child support 
and stay in a relationship and often marry the mother of their 
children.
    H.R. 1471, we believe comes closest to providing the scope 
of policy reforms, we need to strengthen father involvement, as 
well as a reasonable start on funding. Given the scope of 
services needed to support a father's role until a dad can 
support his family, we need a significant public investment.
    While conceptually sound, neither the President's proposal 
nor the Carson proposal is comprehensive enough to really do 
the work necessary for fathers in fragile families. Child 
support funding changes that will allow for pass-through 
payments and new fatherhood demonstrations that are included in 
H.R. 1471 is a start in the right direction, we believe.
    In closing, Mr. Chairman, I want to thank the Committee 
again for this opportunity and encourage you now to hear from 
Mr. Byrd, and Mr. Lewis, and also, if time permits, to also 
hear the innovative strategy that Ms. Kaiser is working on for 
the record. Thank you.
    [The prepared statement of Dr. Johnson follows:]

 Statement of Jeffery M. Johnson, Ph.D., President and Chief Executive 
Officer, National Center for Strategic Nonprofit Planning and Community 
                               Leadership

    Good Afternoon. I want to thank Chairman Herger and Members of the 
Human Resources Subcommittee of the House Ways and Means Committee for 
this opportunity to testify on your efforts to promote fatherhood. I am 
Dr. Jeffery Johnson, President and CEO of the National Center for 
Strategic Nonprofit Planning and Community Leadership (NPCL) and on 
behalf of the board and staff of NPCL, the 10 Partners for Fragile 
Families Demonstration Sites, the 6 Charles Stuart Mott, Fathers-At-
Work Grantee Sites and over 3,000 fatherhood professionals that we have 
trained over the pass few years, partners from the faith-based 
community and an array of non-governmental organizations, I commend you 
and thank you for squarely addressing this long-neglected aspect of 
family social policy. If Congress is successful at passing legislation 
to support fatherhood programs, it will be a crucial step towards 
helping fathers assume emotional, legal and financial responsibility 
for their children. Legislation that seeks to strengthen the 
relationships between and among fathers and families covers a complex 
web of interrelated factors that can, on a practical level, make or 
break the brittle and weak family tie. The same bill also has 
implications for the success of greater child support collections as 
well as welfare to work initiatives.
    My testimony is based on the work I have done over the past 20 
years around fathers and families as well as my personal experience. 
For 12 years, I had the wonderful opportunity of being reared in a 
family with two loving parents. Unfortunately, my father died at the 
age of 39 leaving behind a widow and 10 children. Despite the positive 
example set by my mother, life was a struggle. She struggled to make 
ends meet and each of my brothers and sisters faced their own unique 
challenges that made it more difficult for a single parent. So, I know 
first hand the importance of fathers in families and I try to bring 
that knowledge to my work.
    The mission of NPCL is to enhance the capacity of community-based 
organizations to address identified local needs, primarily through 
family and neighborhood empowerment. Simply put, NPCL works to help 
communities and families help themselves. And, as we know, strong 
families are critical to the health, economic, emotional and 
developmental well-being of children.
    NPCL now runs or provides technical assistance on several projects 
aimed at strengthening the ties between fathers and families, including 
our ten-city demonstration project Partners for Fragile Families, the 
Fathers-At-Work demonstration project supported by the Charles Stewart 
Mott Foundation, the HUD/Public and Indian Housing Responsible 
Fatherhood Initiative and the Strengthening Fragile Families 
Initiative, a research, policy and practice consortium supported by the 
Ford Foundation to encourage the development and implementation of 
policies aimed at fortifying the ties among poor, low-skilled, 
unmarried parents and their children. We call them ``fragile 
families.''
    Partners for Fragile Families (PFF) is the first comprehensive 
national initiative designed to help poor, single fathers pull 
themselves out of poverty and build stronger links to their children 
and their children's mothers. PFF reflects lessons learned from 
previous failed demonstrations and is the child of best practices 
culled from over 40 years of social policy research and experimentation 
in this area. It is a collaborative effort funded by grants from NPCL 
and operated in 10 test cities by public and private groups, grass 
roots community-based organizations, federal and state child support 
enforcement agencies and private employers.
    The idea is a partnership that leverages resources in a broad 
working coalition toward the shared goal of strong families where 
children are cared for by both mothers and fathers. Our guiding 
principle is that fathers have value to their children, even if they do 
not have money.
    And make no mistake about it, the population that we refer to as 
``dead-broke dads'' have very little money. Unlike ``deadbeat dads,'' 
the men we serve likely qualify for food stamps themselves and 
statistically look much like mothers on welfare, (formally Temporary 
Assistance to Needy Families [TANF]).
    The difference between ``deadbeat dads'' and ``dead-broke dads'' is 
that the former can pay child support, but will not; the latter are 
willing to pay child support but cannot.
    We know this because research demonstrates that fragile couples are 
typically in a relationship when they have a child.
    According to the Princeton's \1\ Fragile Families and Child Well-
being Study1, a longitudinal four-year survey currently in progress to 
document the course of ``fragile'' relationships, 82 percent of 
unmarried mothers and fathers are romantically involved at the time 
their child is born. Forty-four percent of these couples are living 
together and over 70 percent of mothers, who are interviewed in the 
hospital within 48 hours of their child's birth, say that their chances 
of marrying the baby's father are ``50-50'' or greater. Among couples 
who are not romantically involved at the time of birth about half of 
the mothers hold that they are friends with the father. Further, two-
thirds of mothers and three-fourths of fathers agreed with the 
statement ``it is better for children if their parents are married.''
---------------------------------------------------------------------------
    \1\ Fragile Families & Child Well-Being Study, Irwin Garfinkel, 
Ph.D. and Sarah S. McLanahan, Ph.D., Princeton University.
---------------------------------------------------------------------------
    Clearly, there is a will here to form a family, what has been 
lacking is a way. And let me address the issue of marriage, here, by 
stating that the research shows the families support, it and so do we. 
The question for us is not whether we support marriage, but how we get 
there. And it seems to us that current proposals pushing marriage as a 
panacea ignore current data on the issue.
    In the African-American community, rates of marriage are positively 
correlated to levels of education, according to studies conducted with 
census data and reported in William Julius Wilson's seminal treatise on 
the effects of unemployment on inner city families, When Work 
Disappears: The World of the New Urban Poor.
    Wilson has also argued that the sharp increase in black male 
joblessness since 1970 accounts in large measure for the rise in the 
rate of single-parent families. In fact, employment status of the male 
is a significant indicator of the probability that single parents of a 
child born out-of-wedlock will marry. There is also a very strong 
positive relationship between annual earnings of young black men and 
their marital status, especially for young men between the ages of 18 
and 31, roughly the cohort with which we work. As reported by Wilson, 
black men who are stably employed are twice as likely to marry the 
mother of their children.
    Therefore, the mandate is evident.
    If we provide support through public policies and programs aimed at 
increasing the family's employment and earning prospects as well as 
corollary services such as transportation, medical assistance, 
childcare and parenting education, low-income fragile families are very 
likely to stay together. In short, we believe that if we make men 
``marriageable'' they are more likely to marry and their children will 
benefit.
    It is as simple as that. But, we are talking about a wide spectrum 
of support services, which in turn suggests that broad partnerships are 
necessary to make these comprehensive efforts successful and sustain 
families. The converse of that however, is that as job prospects fade, 
the foundation for a stable relationship weakens and puts the fate of 
the family--and the well-being of children--in jeopardy.
    For these reasons, NPCL and its work directed at fathers is focused 
on dealing with the fathers where they are, then bringing them into 
programs where holistic support is available. One very positive result 
of our PFF demonstration has been our ability to find fathers living 
below the radar screen, outside organized society and out of the reach 
of the child support enforcement system. Once we find these men and 
convince them to join a program however, we have seen promising signs. 
Not only do we provide job training, we also try to give men the tools 
they need to make all their relationships work: with in-laws, the 
mothers of their children, with the children themselves. We believe 
that education is of supreme importance, so we try to educate men about 
everything from anger management and conflict resolution to the child 
support system and family planning. They are part of a peer support 
group where men in similar situations share their experiences and more 
experienced men can lead by example. Peer groups are powerful forces, 
encouraging men to find work, provide for their children, negotiate 
with mom, be there for their kids. We've learned to trust the process.
    We have also learned that the child support enforcement system must 
change. To that end, we have developed Peer Learning Colleges, through 
which we bring together child support experts, researchers and leaders 
in the field to focus on ways in which the child support system might 
better work with ``dead-broke dads'' and address the needs of low-
income families. Child support enforcement agencies are beginning to 
realize that poor fathers require a different approach than ``deadbeat 
dads'' because they often want to support their children, but need 
help. If child support enforcement has at the heart of its mission the 
desire to promote child well-being, it makes more sense in the case of 
low-income fathers to help them find a job, negotiate a payment 
schedule for support or reduce arrearages, than it does to lock them up 
for non-payment of support: after all, if you have no job skills and, 
therefore, can't find a job to enable support payments, you won't find 
those skills in jail.
    Community-based organizations can gain the trust of hard-to-reach 
fathers, help them establish legal paternity, learn their legal rights 
and teach what we call T-E-A-M parenting, meaning that parents work 
together for the benefit of their children regardless of their marital 
status. Child support enforcement agencies can work with fathers at the 
outset to modify child support orders, help or allow fathers time to 
train for work and some, private employers are willing to hire well-
skilled and dependable workers.
    Whether or not they are married, the child needs food, clothes, 
care, love and two supportive, nurturing parents. After he becomes 
self-supporting and an integral part of his child(ren)'s lives, 
hopefully, marriage is a result if that is something the couple seeks 
for themselves.
    It is imperative that any new or revised policy initiatives work 
towards supporting these efforts to assist fragile families.
    Of the current proposals, H.R. 1471 provides for the kind of 
service delivery system that is inclusive of fathers and would serve to 
move fragile couples and their children toward traditional family 
formation. The President's proposals, while welcome, do not contain an 
adequate level of funding.
    Our goal is to help fathers become nurturers, emotionally involved 
and devoted to their children, in other words, as integral to the 
developmental well-being of children as mothers. But, it is also to 
spur independence and self-sufficiency.
    We, now, face the second chapter in the welfare reform story. If we 
are serious about ending ``welfare as we know it'' we must support 
self-sufficiency as we envision it. The savings states are realizing 
from the reductions in welfare rolls should go into real job-training 
programs and comprehensive family and social services that have as 
their ultimate objective, the ability to live and support a family by 
working. But, these efforts are both deep and broad, they take 
commitment and scope. That is why all PFF grantees must address a range 
of issues. It is why they are required to institute or provide access 
to intensive career and personal development skills training in 
preparation for placement in family-sustaining, wage-growth jobs. We 
are talking about boot-camp-job-readiness programs. Grantees are also 
urged to perform long-term follow-up for clients to maximize the 
chances for job retention.
    Because rates of morbidity, mortality, unemployment, and 
incarceration of young men are so high in their communities, there is 
little evidence of successful marriage for young people to emulate. 
None of this means that these young people are any less responsible for 
their children. They are and should be expected to be accountable for 
the ``oops'' once it happens. And, happily, research shows that many of 
these young men are indeed interested in being good fathers, they just 
don't know how. Our practitioners have a saying: ``If you've never seen 
[fatherhood] and never experienced it, you can't do it.'' But they do 
try.
    One 30-month study of 16-26-year-old, poor single fathers revealed 
that 75 percent visited their child in the hospital; 70 percent saw 
their child at least once a week; 50 percent took their child to the 
doctor and large percentages reported bathing, feeding, dressing and 
playing with their children; and 85 percent provided informal child 
support in the form of cash or purchased goods such as diapers, 
clothing or toys. In addition, the average mother on welfare receives 
about $33 a month in covert support from poor fathers.
    The heart is indeed willing, the ability is lacking. Multiple, 
flexible strategies will be necessary to address the challenges these 
men and their families face. Part of that response, we believe, is 
programs like Partners for Fragile Families.
    [The attachment is being retained in the committee files.]

                                <F-dash>


    Chairman Herger. Thank you, Dr. Johnson. Mr. Byrd, would 
you like a couple minutes?
    Mr. Byrd. Yes. Could you speak up? I cannot really hear you 
that much.
    My name is--well, you already know my name, but I am in 
this trial program, and I am not a deadbeat dad, but I was a 
dead-broke dad, but recently I got a job. It really, actually 
gave me the positivity knowing would I be able to go get a job. 
I went to like two, three group meetings. I have been to three 
fatherhood conferences with Mr. Joe Jones and I spoke on that 
panel three times, and I am not really saying that I am like 
underskilled or underachieved, but it is just that most people 
do not give us a chance because they would judge us by what 
they see us as instead of not getting to know the person, not 
knowing the person that is behind the clothes.
    What I am here for today is to know what type----
    I am kind of nervous, as you can see.
    Chairman Herger. You are doing just fine. You are doing 
just fine.
    Mr. Byrd. And mostly, when I go to the group, like when I 
have problems, I call and I talk to either Mr. Rice or Mr. Joe 
Jones. They give me input on different situations, and right 
now, what I am going through, they was telling me about how I 
got to learn how to play the ball game. Like if I am going for 
a certain job, I have to look like the people working in order 
for them to look at me to put me on their team. I just cannot 
go into a job and say, ``Hey, this is me. I want to get this,'' 
without having the proper attire or the proper frame of mind. I 
cannot go in there if I am comfortable. I have to go in there 
looking like I am ready to play their game. That is all.
    Chairman Herger. Thank you very much, Mr. Byrd. I 
appreciate that. Dr. Haskins.

   STATEMENT OF RON HASKINS, PH.D., SENIOR FELLOW, BROOKINGS 
INSTITUTION, AND SENIOR CONSULTANT, ANNIE E. CASEY FOUNDATION, 
                      BALTIMORE, MARYLAND

    Dr. Haskins. Chairman Herger, thank you for having me 
today. I am pleased to be here on the other side of the 
microphone and learn that all of the members actually have a 
front to their bodies. For several years, I got to study the 
backs of members for hours and hours. Also, I believe this is 
the first hearing I have been to in probably a decade that I 
did not write the opening statement. I was especially pleased 
that Matt agreed to write my statement for me. So I did not 
have to write anything for this hearing.
    Chairman Herger. I hope the front looks almost as well as 
the back.
    Mr. Haskins. Pardon?
    Chairman Herger. I hope the front looks almost as well as 
the back.
    Dr. Haskins. Thank you. Thank you. Oh, of course, it is.
    Mr. Cardin, I am afraid we will not have much of a chance 
to disagree today. There may be a few little things in child 
support that we could disagree about, but I hope you invite me 
back again when you talk about welfare.
    Mr. Cardin. Since you wrote the bill, I would hope you do 
not have too much to say critical of it.
    Dr. Haskins. Let me first say that I think the first thing 
the Committee should do in considering reauthorization is to 
reflect on the success that this bill has had. There are 
failures, of course, but in almost every title, not just the 
TANF title, not just because of more work, but in the child 
support title, in the Supplemental Security Income titles, the 
bill has achieved its intended effects. and I would say on the 
whole that we probably have fewer people in the United States 
today dependent on welfare benefits as their primary source of 
income than we have had probably since the depression or 
certainly since the 1950's. That is a major achievement and 
this Committee is the first Committee that wrote the original 
draft of the bill. So I think that is a remarkable achievement.
    However, I do think there are three things in child support 
enforcement that the Committee should attend to. Two of them, I 
believe would have immediate or intermediate impacts, the 
Committee would not have to wait very long to have good 
impacts, and the third one may avoid a crisis. So I would like 
to talk about each of those three in turn.
    The first is who gets the money, and Mrs. Johnson and 
others have already spoken eloquently about this. When we 
started the child support program way back in the 1970's, the 
main idea was cost recovery. We were trying to reimburse 
taxpayers for paying for welfare. That is still a worthy idea, 
but since then, our welfare system has changed dramatically, 
and now we emphasize to a great extent people becoming 
independent of welfare. As that goal has shifted of our welfare 
program, more and more members have come to see that the child 
support system should also shift. So the arrearages that we 
used to retain to repay taxpayers and the money that we retain 
(all the money when the family is on welfare) a lot of people 
think should be given back to the families.
    We made a very important step in that direction at the 
initiative of this Subcommittee in 1996. We were blocked from 
taking the entire step by the U.S. Senate, which often happens 
to our magnificent legislation, and last year, we tried to take 
this step and, again, were prevented by the Senate from doing 
it. But I would guess that if this bill passes again that the 
Senate will act on it and that we will, in fact, be able to 
return that money to the mothers--get the money from the 
fathers to the mothers.
    I want you to know that when fully implemented, this 
provision would provide about $900 million per year to mothers 
who have left welfare. So that is a lot of money. It is money 
that the father paid. This is extremely worthy legislation, and 
I hope the Subcommittee can pass it.
    The second issue is fatherhood. Many other witnesses have 
talked about that, so I can just skim through that very 
briefly. But I do want to point out, I think there is no 
question that, especially Republicans, but on a bipartisan 
basis, I believe, in the next 18 months or so, we will 
emphasize marriage. There will be a huge emphasis on marriage 
in welfare reform reauthorization, and I would point out to the 
Subcommittee that, to some extent, to reemphasize marriage 
without emphasizing fatherhood and particularly the problems 
that are experienced by low-income fathers, is somewhat 
hypocritical because we could not in all good conscience 
promote marriage when we have so many fathers who are 
unemployed. Their income has been declining for approximately 
the last decade. They have lots of other problems. Many are 
incarcerated. We simply need to find a better way to deal with 
these young men and to help them to a greater extent than we 
have in the past. Unless we do that, the marriage agenda, I 
think, has a very serious flaw.
    Finally, I would like to call the Committee's attention to 
what I think is a long-term problem that will be very important 
for the States in the years ahead unless something is done. If 
you look at pages 6 and 7 of my testimony, you will see that 
there have been huge increases in collections in the non-
welfare program, but if you look in the welfare program, 
collections are actually decreasing, and the reason for that is 
obvious. We have many fewer cases on welfare than in the past.
    The Committee should take this into account. The average 
State gets 30 percent of the money to finance their child 
support program from their welfare collections. So, as these 
collections go down, many States are going to have difficulty, 
especially the half that Nick Young referred to that finance 
their program directly out of those collections. They are going 
to have greater and greater trouble, and they are going to have 
to go back to their State legislatures and ask for more money.
    So I do not know what the solution to this problem is. I 
have not heard of a good solution, but I think this 
Subcommittee with its long history of looking ahead and 
emphasizing financing issues and nitty-gritty issues about this 
program should look into this very carefully, should work 
cooperatively with the administration, with the IV-D directors 
and other bureaucratic organizations to see if, within the next 
2 or 3 years, we can really develop a solution for this 
problem.
    So, Mr. Chairman, I would like to especially call to your 
attention in closing the fact that if this Committee were able 
to pass the provision to distribute more of the collections to 
the mothers that we would have an immediate impact on these 
families. The year after it passes, these families will start 
to have more money, and within 5 or 6 years, they will be 
receiving $900 million of money paid by the fathers. So that is 
an extremely important action for this Committee to take.
    Thank you very much.
    [The prepared statement of Dr. Haskins follows:]

Statement of Ron Haskins, Ph.D., Senior Fellow, Brookings Institution, 
 and Senior Consultant, Annie E. Casey Foundation, Baltimore, Maryland

    Chairman Herger, Ranking Member Cardin, and Members of the 
Subcommittee:
    My name is Ron Haskins. I am a Senior Fellow at the Brookings 
Institution in Washington, DC and Senior Consultant at the Annie E. 
Casey Foundation in Baltimore. I thank you for inviting me to testify 
about the child support enforcement program and the important child 
support amendments of 1996.
    As Members of this Subcommittee know very well, the welfare reform 
law of 1996 must be reauthorized by October 1 of next year. 
Reauthorization provides this Subcommittee and the rest of Congress 
with the opportunity to review the effects of the momentous 1996 
legislation. Other than the new Temporary Assistance for Needy Families 
(TANF) program in Title I of the legislation, which completely replaced 
the old Aid to Families with Dependent Children program, no program 
received a more thorough overhaul in 1996 than Child Support 
Enforcement. Thus, it is especially appropriate for the Subcommittee to 
examine what has been learned about the effects of the sweeping child 
support amendments.
    The major conclusion the Subcommittee should draw about the 1996 
child support reforms is that, although much remains to be learned, the 
evidence indicates that the reforms have been successful in improving 
the performance of the child support enforcement program. Consider two 
of the central goals of the child support program; namely, paternity 
establishment and child support collections. As shown in Figure 1, both 
paternity establishment and child support collections have improved 
dramatically since 1995.
[GRAPHIC] [TIFF OMITTED] T4742A.001

    Though the achievements of the 1996 reforms are notable, I would 
recommend that the Subcommittee carefully investigate solutions to 
three child support enforcement issues that were not thoroughly 
addressed in the 1996 legislation, one of which is a long-term problem 
that may lead to a financing crisis in many state child support 
programs.
    The first issue is one the Subcommittee has addressed in the past. 
Perhaps the central goal of Congress when it created the child support 
program back in 1975 was recovering the costs incurred by taxpayers in 
providing welfare benefits. Many single mothers who received no 
financial support from their children's father had difficulty earning 
enough money to meet their children's basic needs. As a result, they 
sought out help from taxpayers in the form of cash welfare and other 
public benefits. Senator Russell Long of Louisiana, the major author of 
the child support enforcement program, wanted to find such fathers, 
establish paternity if necessary, obtain a child support order, and 
collect money from them. If the children were on welfare or had been on 
welfare, Senator Long believed it was appropriate for the government to 
keep at least part of the money collected from these absent fathers to 
reimburse taxpayers for the costs of welfare. Taxpayers had stepped in 
for these absent fathers; now it was the fathers' turn to repay 
taxpayers. Senator Long's vision became a major feature of the child 
support enforcement program that became law in 1995.
    Although most Members of Congress still support this cost recovery 
goal of child support enforcement, most members believe that a new goal 
has become even more important than cost recovery. When the child 
support program was enacted in 1975, the federal government placed 
little emphasis on trying to help mothers get off welfare and join the 
workforce so they would not become dependent on welfare. In the years 
after 1975, and especially since enactment of the sweeping welfare 
reforms of 1996, both the federal and state governments have placed 
much greater emphasis on families achieving independence from welfare 
through employment. Thus, the 1996 reforms focused on helping, and 
where necessary forcing, mothers to leave welfare for work. As many as 
two million mothers who in the past would have been on welfare are now 
trying to support their families without cash welfare.
    Most of these mothers work at low-wage jobs and are able to support 
their families because the federal government has created a set of work 
support programs that provide income subsidies to these mothers and 
their children. The work support programs include the Earned Income Tax 
Credit, food stamps, the child tax credit, Medicaid, and child care. In 
a typical situation, a mother with two children who used to be on 
welfare now has a low-wage job and earns about $10,000 per year. 
However, between the Earned Income Tax Credit and food stamps, this 
mother has cash or near-cash income of $16,000. In addition, her 
children are covered by health insurance through the Medicaid program 
and her child care expenses are paid for by federal and state child 
care programs.
    Even so, raising two children on $16,000 per year is no picnic. 
Thus, in 1996, Congress began to alter the cost-recovery feature of 
child support enforcement in order to provide more of the father's 
child support payments to mothers and children. Under pre-1996 rules, 
once a mother left welfare she was entitled to receive only child 
support payments on current support. States had the right to keep, and 
split with the federal government, any payment in excess of the current 
support amount (the amount above current support is referred to as 
payment on ``arrearages''). But in 1996, Congress, following the 
leadership established by this Subcommittee, changed the law so that 
states had to pay to the mother and children about half of the 
arrearage amount. Thus, for example, if current support were $250 and 
the father paid $350, on average $50 of the $100 arrearage amount had 
to be paid to the mother and children.
    Last year this Subcommittee originated legislation to give the 
other half of the arrearage amount to mothers who had left welfare, as 
well to share additional arrearages with mothers who were still on 
welfare. Once fully implemented, this provision would have resulted in 
mothers leaving welfare receiving in excess of $4 billion over five 
years. The entire $4 billion, of course, would have been money paid by 
the father. Members of the Human Resources Subcommittee wrote this 
provision primarily because they wanted to ensure that mothers trying 
to leave welfare received as much help as possible from government and 
from private sources. As a conservative, this new emphasis on using 
government to help mothers end or avoid reliance on public benefits 
always seemed to me to be the essence of compassionate conservatism. In 
any case, the provision on arrearages, combined with the Subcommittee's 
provision creating a new fatherhood program, passed on the House Floor 
by an overwhelming vote of 405 to 18.
    Unfortunately, as often happens with the pristine legislation 
originated by this body, the child support provision to give more money 
to mothers leaving welfare met a tragic fate in the Senate. Despite 
repeated efforts by Chairman Johnson and others on this Subcommittee, 
and despite support from Chairman Roth of the Finance Committee, time 
ran out on the 106<SUP>th</SUP> Congress before the Senate acted.
    I would strongly recommend that this provision to share nearly all 
arrearage payments with mothers leaving welfare be enacted by the 
Subcommittee again as soon as possible and that special efforts be made 
to help the Senate see the wisdom of this provision. In order to ease 
Senate passage, I suggest that the Subcommittee slightly change the 
version of the bill passed by the House last year. Last year's bill 
mandated that states give nearly all arrearage payments to mothers 
leaving welfare. This mandate imposes a serious cost problem on states 
that are already having difficulties financing their child support 
program. If the mandate is converted to an option, according to the 
Congressional Budget Office more than half the states would adopt the 
option, including most big states. The National Governors' Association, 
the American Public Human Services Association, and the National 
Conference of State Legislatures all strongly urged Congress to support 
the option last and all will publicly support the legislation if the 
option rather than the mandate is included.
    The federal cost of this provision would be around $3 billion over 
five years. The entire cost represents the loss of revenue to the 
federal government because child support payments by fathers are being 
given to mothers and children rather than government.
    The second child support amendment the Subcommittee might wish to 
consider is also one that was enacted last year by the House; namely, 
an innovative fatherhood program. It may be recalled that the 
Subcommittee approved about $160 million over 5 years to fund 
fatherhood programs that would promote marriage, better parenting 
(including the payment of child support), and employment for poor and 
low-income fathers, especially fathers whose children were or had been 
on welfare.
    Several characteristics of the Subcommittee's bill are of major 
importance. Recent research by noted Princeton scholar Sara McLanahan 
shows that about half the couples that have babies outside marriage are 
cohabiting at the time of the birth. An additional 30 percent tell 
interviewers that they are involved in an exclusive relationship with 
the other parent. Thus, a total of about 80 percent of the babies born 
outside marriage have parents who either cohabit or are involved in a 
romantic relationship. Moreover, these couples tell interviewers that 
they hope their relationship will become permanent. Based on this 
research and testimony from scholars and men directly involved in 
fatherhood programs, one major characteristic of the Subcommittee bill 
was an emphasis on involving couples in the program at around the time 
of the child's birth. This is an especially important provision because 
research by Rangarajan and her colleagues at Mathematica Policy 
Research shows that within a year or two, most of these couples will 
separate and the father will seldom see the child. As McLanahan put it, 
the time of birth may be a ``magic moment'' in which programs to help 
parents build their relationship have a window of opportunity.
    The Subcommittee bill also placed great emphasis on projects 
conducted by community-based, especially faith-based, organizations. A 
broad bipartisan coalition of members supported this provision, 
including the applicability of the 1996 welfare reform law's Charitable 
Choice language to the fatherhood program. Now that the Bush 
Administration is making a major effort to build faith-based programs 
at the community level, the timeliness of emphasizing faith-based 
fatherhood programs is even greater this year. In addition to the 
potential effectiveness of faith-based programs, the emphasis on 
providing funds to community-based organizations helps to ensure that 
projects are consistent with local culture and are conducted primarily 
by community leaders rather than imposed from outside the community by 
government officials.
    Another important characteristic of last year's Subcommittee bill 
was the provision on evaluation. It must be admitted that, although 
programs for fathers hold out great hope for increasing marriage, 
improving parenting, and increasing employment, it has not been 
demonstrated that such programs can actually produce these effects. 
Thus, careful evaluation of the programs is essential in order to 
determine whether they work. In all likelihood, several types of 
programs will be shown to work. Once these have been identified by 
evaluation, the characteristics of these successful programs can be 
duplicated by other programs.
    A final word is in order about poor fathers and child support 
enforcement. In testimony before this Subcommittee, several leaders of 
fatherhood programs have pointed out how much difficulty poor fathers 
have with child support arrearages. Program operators have found that 
as they work with young fathers to encourage contact with their 
children and the payment of child support on a regular basis, many of 
them have built up arrearages of several thousand dollars. Some young 
fathers under the age of 20, who have been employed only sporadically, 
owe thousands in past-due support. These arrearages serve as a 
disincentive for fathers to seek employment and to establish, often for 
the first time, a pattern of routine child support payments. Something 
must be done about these big arrearages.
    Let me be clear that I am not recommending any statutory amendments 
that would forgive child support arrearages. Such a provision would be 
too controversial and might even seem to represent a step backward in 
Congress's long campaign to build a strong child support program. 
Rather, I believe this Subcommittee should encourage Secretary Thompson 
and his staff to provide national leadership in convincing state and 
local child support programs to work cooperatively with mothers and 
fathers to temporarily suspend arrearages as long as fathers make 
regular payments on current support.
    The third issue I recommend that the Subcommittee examine in detail 
during the 107<SUP>th</SUP> Congress is child support financing. The 
impending problem with child support financing is suggested by the data 
in Figures 2 and 3. Figure 2 shows the dramatic difference in the 
enrollment history of welfare and non-welfare caseloads of child 
support enforcement. More specifically, non-welfare cases have been 
growing steadily since the beginning of the program in the 1970s while 
welfare cases grew initially but have been declining in recent years. 
The increase in non-welfare cases represents rising costs for state 
child support programs because all the child support collected in these 
cases is paid directly to the custodial parent and children. Unlike the 
welfare cases, in which states often are entitled to keep part of the 
collections, states are generally not allowed to keep any of the child 
support collections in non-welfare cases.

[GRAPHIC] [TIFF OMITTED] T4742A.002

    By contrast with the growth of non-welfare cases, the drop in 
welfare cases is an outgrowth of the dramatic success of the 1996 
welfare reforms and the strong economy. Although this caseload decline 
is good for state TANF budgets because there are now less than half as 
many TANF recipients as there were in 1995 in the average state, the 
caseload declines threaten to be a disaster for state child support 
enforcement financing. The average state receives about 30 percent of 
the funds necessary to run its child support program from retained 
collections in welfare cases and former welfare cases. In the case of 
current welfare cases, states keep virtually 100 percent of child 
support collections in exchange for taxpayer-provided welfare benefits. 
But because the welfare cases have fallen so dramatically, this source 
of income for state child support programs has also been falling.

[GRAPHIC] [TIFF OMITTED] T4742A.003

    Fortunately, as can be seen by the second panel in Figure 3, 
collections in welfare cases have not dropped as fast as the welfare 
caseload itself. This fortunate result is caused both by the fact that 
child support agencies are more effective now than before 1995 and 
because old child support cases have continued to yield payments. Once 
cases begin to produce payments, the collections tend to continue, in 
some cases even after the mother leaves the welfare rolls. However, 
these cases of continuing payments provide no more than a temporary 
respite from the inevitable serious decline in state income from child 
support welfare cases. In fact, in the long run income from these cases 
will mirror the rapid decline of the caseload, at which point child 
support financing in many states will reach a crisis.
    Unless state child support programs are to shrink, the current 
child support financing arrangements must be reformed. Inevitably, 
either state governments, the federal government, or both are going to 
have to spend more money on child support enforcement. Because it is 
unlikely that welfare caseloads around the country will begin to 
increase again, more and more states are going to reach the crisis 
stage in child support enforcement financing.
    The solution to this financing problem is not apparent. In the end, 
it may prove the best course for Congress and the states to both 
contribute more to child support financing to make up for the money 
lost from declining welfare collections. What is certain is that the 
solution will not suddenly appear out of thin air. Rather, this 
Subcommittee should conduct hearings, work with state child support 
enforcement officials and their professional organizations, and 
cooperate with the Bush Administration to explore possible solutions to 
the pending crisis in funding. A host of potential actions for 
refinancing are certain to arise out of this work. In addition, the 
Subcommittee can begin to get an idea of the costs of various 
approaches to refinancing the child support enforcement program.
    Although the evidence seems to indicate that the child support 
amendments of 1996 have improved program performance, there are still 
important reforms that could increase the program's effectiveness. 
These include sharing more collections with mothers struggling to leave 
welfare, creating fatherhood programs so that poor fathers can be more 
effective parents and perhaps husbands, and reforming the financing of 
the child support program to make it more compatible with the current 
reformed cash welfare system. This Subcommittee, which has been the 
source of vital child support reforms on so many occasions in the past, 
should continue this tradition of program innovation by aggressively 
addressing all three of these issues.

                               References
McLanahan, Sara, and others. 1999. Unwed Parents or Fragile Families?: 
    Implications for Welfare and Child Support Policy. Princeton, NJ: 
    Princeton University.
Rangarajan, Anu and Philip Gleason. 1998. ``Young Unwed Fathers of AFDC 
    Children: Do They Provide Support?'' Demography 35(2): 175-186.

                                <F-dash>


    Chairman Herger. Thank you very much, Dr. Haskins. Again, 
the Committee, and I, want to thank you for your many years of 
guidance and support on this Committee.
    Dr. Haskins. Thank you.
    Chairman Herger. With that, we will turn to Dr. Sorensen.

    STATEMENT OF ELAINE SORENSEN, PH.D., PRINCIPAL RESEARCH 
 ASSOCIATE, INCOME AND BENEFITS POLICY CENTER, URBAN INSTITUTE

    Dr. Sorensen. Chairman Herger and other Members of the 
Committee, thank you for this opportunity to testify. I have 
been working on this issue for many years, and I would like to 
make three points today.
    First, child support enforcement has made a difference in 
poor children's lives, and that is the success that we should 
commend Congress for encouraging.
    Two, despite this success, there are many noncustodial 
fathers who are poor themselves and need help.
    Three, child support enforcement, to be successful in the 
future and reach more poor children, will need to face the 
problems of poor, noncustodial fathers.
    My research and that of many others show that expanding the 
child support enforcement program has improved child support 
collections, especially for never-married mothers who, 20 years 
ago, were very unlikely to receive child support. So we have 
had success. The specific policies that have been very 
successful are the in-hospital paternity establishment program, 
and immediate wage withholding. More recent programs like the 
new hire program, State disbursement units have been very 
successful in specific States.
    My research shows, that child support for poor children has 
increased since the enactment of welfare reform in 1996. We 
find that 29 percent of poor families were receiving child 
support in 1996, and that is up today. Also, the amount of 
family income coming from child support compared to 1996. So 
child support is playing a more important role in poor 
families' lives.
    Despite these gains, though, we still have 5.5 million poor 
children who are poor and do not receive child support. Part of 
the reason that child support has not reached these poor kids 
is because their fathers have a limited ability to pay child 
support. There are about 2.5 million noncustodial fathers who 
are poor themselves, and they have many of the same employment 
barriers that poor moms do.
    We find that 43 percent of them are high school dropouts, 
40 percent of poor non-custodial fathers have health problems, 
most of them do not have health insurance, about a third of 
them have not worked for a long time. When they do work, their 
earnings are low. They are having a hard time meeting their own 
needs as well as their noncustodial children.
    One of the employment barriers that disproportionately 
affect fathers that does not affect mothers as much is 
incarceration. We estimate that about 30 percent of poor, 
noncustodial fathers are incarcerated.
    Despite these employment barriers, very few noncustodial 
fathers receive assistance in the employment area. We find that 
only about 6 percent of poor fathers, all of whom could benefit 
from employment services, are getting employment services.
    In order for child support to be more effective in the 
future and reach more poor kids, research shows that more money 
needs to go toward the father to get him employed. Employment-
oriented programs right now are mostly funded out of the 
Welfare to Work program, but this program ends soon. The 
question is how will employment programs for low-income fathers 
be funded in the future.
    As a society, we have invested in poor mothers so that 
their children can live with them in their homes, and we have 
been successful. We have invested in the child support 
enforcement program so that children can count on the financial 
support of both their mom and their dad.
    To build upon this success, it is time to invest in poor, 
noncustodial fathers so that they, too, can contribute to the 
financial support of their children.
    Thanks.
    [The prepared statement of Dr. Sorensen follows:]

  Statement of Elaine Sorensen,* Ph.D., Principal Research Associate, 
           Income and Benefits Policy Center, Urban Institute

    Chairman Herger and Members of the Human Resource Subcommittee, 
thank you for the opportunity to testify on this important topic. I 
have been researching this issue at the Urban Institute for nearly ten 
years. I have found that child support enforcement has made a 
difference in the lives of poor children, but that there are a large 
number of poor noncustodial fathers who have problems themselves.
---------------------------------------------------------------------------
    * The views expressed in this testimony are those of the author and 
do not necessarily reflect those of the Urban Institute, its board or 
its sponsors.
---------------------------------------------------------------------------
    The approximately 2.5 million noncustodial fathers who are poor 
(the poverty threshold for one person under the age of 65 was $8,959 in 
2000) and do not pay child support have difficulty meeting the needs of 
their children. They need help overcoming the multiple employment 
barriers that most of them face. In my testimony today I will discuss 
the gains that child support has made in obtaining more child support 
for poor children. But I will also document the employment barriers 
that poor noncustodial fathers face and argue that child support 
enforcement will have limited success in reaching poor children in the 
future unless the problems faced by poor noncustodial fathers are 
addressed.
    My research, as well as that of others, shows that expanding the 
child support enforcement program has increased the likelihood of 
receiving child support, especially among never-married mothers and 
single mothers on public assistance. Wage withholding and the voluntary 
in-hospital paternity establishment program are two specific policies 
that have had a dramatic impact on child support receipt. More 
recently, since the enactment of welfare reform in 1996, poor children 
eligible for child support are more likely to receive child support and 
the amount that their families receive has increased. Between 1996 and 
1998, the percent of poor children eligible for child support whose 
families received it increased from 29 percent to 32 percent. In 
addition, child support represented 23 percent of these families' 
income, up from 21 percent two years earlier. Hence, child support is 
an increasingly important source of income for poor children.

   Table 1. Poor Children Who are Eligible for Child Support: Percent Whose Families Received it, the Average
                         Amount Received, and the Percent of Family Income it Represents
----------------------------------------------------------------------------------------------------------------
                                                        Percent of Poor
                                                       Children Eligible   Average Amount of  Child Support as a
                        Year                           for Child Support     Child Support     Percent of Family
                                                        Whose Families         Received             Income
                                                          Received It
----------------------------------------------------------------------------------------------------------------
1996                                                                29%              $1,979                 21%
----------------------------------------------------------------------------------------------------------------
1998                                                                32%              $2,222                 23%
----------------------------------------------------------------------------------------------------------------
Source: National Survey of America's Families.


    Despite these gains, however, most poor children still do not 
receive child support even though 60 percent of them are eligible for 
it. Only 2.5 million poor children lived in families that received 
child support in 1998; another 5.4 million poor children had to do 
without child support that year.
    Further efforts to increase the number of poor children receiving 
child support should consider the limited potential of their 
noncustodial parents to pay support. There are approximately 2.5 
million noncustodial fathers who are poor and do not pay child support. 
These fathers face many of the same barriers to work as poor mothers 
who do not receive child support. In particular, 43 percent of these 
fathers have not completed high school, the same percentage figure 
among poor custodial mothers who do not receive child support. Nearly 
40 percent of these fathers report a health problem and 62 percent of 
them do not have health insurance. About one-third of them have not 
held a job for more than three years. Among those who work, their 
average annual earnings are only about $5,000. These employment 
barriers and low earnings make it difficult for fathers to meet their 
own basic needs as well as provide for their non-custodial children.
    One employment barrier that disproportionately affects poor 
noncustodial fathers is incarceration and having a criminal record. 
Nearly 30 percent of poor noncustodial fathers who do not pay child 
support are institutionalized. Most of these fathers are in prison. 
Once these fathers leave institutional life, their work prospects will 
not improve that much. Their criminal record and interrupted labor 
force participation make these men unattractive to prospective 
employers.
    Although poor noncustodial parents face many of the same employment 
barriers as poor custodial mothers, they are significantly less likely 
than poor custodial mothers to participate in job-related activities. 
In 1997, only 6 percent of these fathers received any job search 
assistance and only 4 percent of them received job training courses or 
attended GED or college classes.

[GRAPHIC] [TIFF OMITTED] T4742A.004


    In order for child support enforcement to be more effective for 
poor children, my research suggests that more money needs to be spent 
on employment-oriented services for poor noncustodial parents. 
Unfortunately, at this point we do not know what programs work among 
this population. Congress has already funded one national demonstration 
to examine the impact of serving poor noncustodial fathers--Parents' 
Fair Share. Many lessons were learned from this demonstration. In my 
view, the most important lesson learned was how hard it is to serve 
this population. Only two of the seven sites in this demonstration were 
able to significantly increase the child support payments and 
employment rates of its participants relative to a control group. Two 
attributes seemed critical to their success--strong leadership from 
child support enforcement and a focus on skill-building services, such 
as on-the-job training.
    Employment-oriented programs for poor noncustodial parents are 
currently being funded primarily through the Welfare-to-Work (WtW) 
Grants Program, but this program will end in 2002. About 10 percent of 
the participants in this program have been noncustodial parents. 
Although many of the programs serving noncustodial parents experienced 
initial problems, and some still do, there will be much to learn from 
these efforts. A recent study by the Urban Institute showed that a wide 
range of service delivery models are currently being used to serve 
noncustodial fathers with WtW monies. Findings about the success of 
these programs will help us better understand what might work for this 
population. As noted above, WtW monies must be spent by September 2002 
and no new money for this program has been allocated. The question 
remains as to how Congress will fund employment-oriented programs for 
low-income noncustodial parents in the future.
    Despite our limited knowledge about what works for poor 
noncustodial fathers, my research shows that they need services to meet 
their financial obligations to their children and without these 
services, further efforts to obtain child support for poor children 
will meet with limited success. As a society we have invested in poor 
mothers so that their children can remain in their homes and live with 
them. This investment appears to be finally working. My research 
suggests that it is time to make a similar commitment to poor fathers 
so that poor children can rely on both of their parents for the 
emotional and financial support that they need.

                                <F-dash>


    Chairman Herger. Thank you, Dr. Sorensen. Now Ms. Entmacher 
to testify.

   STATEMENT OF JOAN ENTMACHER, VICE PRESIDENT AND DIRECTOR, 
     FAMILY ECONOMIC SECURITY, NATIONAL WOMEN'S LAW CENTER

    Ms. Entmacher. Thank you.
    Chairman Herger and Members of the Human Resources 
Subcommittee, I appreciate this opportunity to testify on 
behalf of the National Women's Law Center.
    There are three main points I want to make in my testimony. 
First, the child support reforms enacted by Congress in 1996 
have substantially improved the performance of the child 
support program. We have been critical of the performance of 
the program for a number of years. We have worked to improve it 
virtually since it was enacted, and so it is very exciting to 
be able to say that the preliminary data show that collections 
have doubled over the last 5 years. This is a real thrill for 
an advocate.
    The second point is that while these increases in child 
support are benefiting many low-income families, some poor 
children are not receiving support because the money the child 
support system collects on their behalf does not go to them, 
but instead goes for welfare reimbursement. For once, I can 
simply refer to Dr. Haskins' testimony and say he is absolutely 
right that nearly $1 billion a year should be going to children 
and their custodial parents. So we completely agree on the 
importance of that reform which is in 1471.
    Third, some custodial fathers, like many custodial mothers, 
are poor themselves and have limited capacity to support their 
children. We need to improve services for both parents and the 
earning capacity of both parents in the next stage of welfare 
reform if we want to bring children out of poverty and not just 
off of welfare. However, we do have much less information about 
the effectiveness of different service strategies for 
noncustodial parents as compared to the research that has been 
done on custodial parents, and the funding for demonstration 
programs in H.R. 1471, which is targeted to non-custodial 
parents, would help fill this gap.
    To return to point one, the 1996 reforms were designed to 
create a more automated, integrated, and nationwide child 
support enforcement system. Implementing these reforms has not 
been easy, as you, Chairman Herger, have reason to know in 
California, and the process is not yet complete, but, even so, 
the improvements have been dramatic.
    Between 1995 and 2000, the collection rates for cases with 
orders in the IV-D program doubled. In 1995, even when an order 
was put in place, collections were made in only about a third 
of cases. In 2000, collections were made in more than two-
thirds of cases, and as you have heard, collections have risen 
64 percent from $11 to $18 billion.
    Child support is extremely important for the low-income 
families who receive it. It accounts on average for 16 percent 
of family income of families who get child support, but for 
poor families not on welfare who are eligible to receive all 
the current support that is collected, child support provides 
over a third of the family's income. So that brings me to my 
next point which is the importance of changing the assignment 
and distribution rules to give more child support to families.
    The National Women's Law Center has been working with the 
Center on Fathers, Families, and Public Policy, and a group of 
other advocates, practitioners, and researchers who work with 
low-income mothers and similar people who work with low-income 
fathers to see if we can come together on recommendations to 
improve policies for mothers, fathers, and children.
    This policy change of giving child support to families was 
one that people clearly agreed on, not just because of the 
value of the income, which was certainly important, but also 
because of the costs that are paid in terms of hostility to the 
child support system and hostility toward the other parent that 
are generated by our current system.
    Mothers are frustrated because they do not see any 
contribution by the fathers. Fathers are frustrated because 
child support is being collected from them, but it is not 
getting through to the child, and instead of bringing people 
together, current policies drive them apart.
    We also know something that we did not have information 
about last year when this policy was being considered. 
Wisconsin implemented a policy of passing through and 
disregarding all child support to children, and the results of 
that experiment are now in. We see that mothers got more 
support. Fathers were more likely to pay support, and there was 
not an increase in overall government cost because, even though 
the State was giving up these collections, it was offset by 
savings in other government programs.
    I would urge the Committee to act quickly on this reform. 
The simplification of the distribution system would make a 
difference to States like California that are still in the 
process of designing their computer systems. So sooner rather 
than later would make a big difference.
    I see my time is up.
    [The prepared statement of Ms. Entmacher follows:]

   Statement of Joan Entmacher, Vice President and Director, Family 
             Economic Security, National Women's Law Center

    Chairman Herger and Members of the Human Resources Subcommittee, 
thank you for this opportunity to testify about the impact of the 1996 
Congressional child support reforms on the child support system and 
proposals to better serve custodial and noncustodial parents and their 
children.
    I am testifying today on behalf of the National Women's Law Center. 
The Center is a nonprofit organization that has worked since 1972 to 
advance and protect women's legal rights. Since the creation of the 
child support enforcement program under Title IV-D of the Social 
Security Act in 1975 (the ``IV-D program''), the Center has worked at 
the state and federal level to improve the federal/state child support 
system, and has provided information to women across the country about 
their rights to child support enforcement services. The Center also is 
engaged jointly with the Center on Fathers, Families and Public Policy 
in the Common Ground Project. This Project brings together public 
policy advocates, practitioners and researchers who work with low-
income mothers and fathers to develop and advance child support, 
welfare, and family law policies that foster effective co-parenting 
relationships between low-income parents and increase economic and 
emotional support for children. The first report of the Common Ground 
project, Family Ties: Improving Paternity Establishment Practices and 
Procedures for Low-Income Mothers, Fathers and Children was issued last 
year.\1\
---------------------------------------------------------------------------
    \1\ The Family Ties report is available on the web at http://
www.nwlc.org/pdf/commgrnd.pdf, or on request from the National Women's 
Law Center or the Center for Fathers, Families and Public Policy.
---------------------------------------------------------------------------
    To summarize: The child support reforms enacted by Congress in 1996 
have substantially improved the performance of the child support 
program. Preliminary data show that the collection rate has doubled in 
the last five years. But even with further improvements in collection 
rates, the amount of child support actually received by poor children 
will be limited by two factors: the child support program's continued 
mission of recovering welfare costs, rather than helping families 
achieve self sufficiency, and the limited capacity of noncustodial 
parents who are poor themselves to pay child support. H.R. 1471 would 
help address both of these issues. The assignment and distribution 
reforms in H.R. 1471, when fully implemented, would give an additional 
$1 billion per year in child support to low-income custodial parents 
and children, instead of to the government for welfare reimbursement, 
allowing these payments by noncustodial parents to make a direct 
contribution to their children's well-being. In addition, H.R. 1471 
would provide funding for demonstration projects to improve services 
for low-income noncustodial parents, an area where additional research 
is needed. However, to bring families out of poverty, not just off of 
welfare, we will need to do much more to support the efforts of 
custodial and noncustodial parents, mothers and fathers, in the next 
phase of welfare reform.
 The 1996 Reforms Have Substantially Improved the Child Support Program
    In 1996, Congress approved sweeping reforms of the child support 
enforcement system, designed to make it a more automated, integrated, 
and nationwide system. Implementing these reforms has not been easy, 
and the process is not yet complete in a number of states.\2\ However, 
preliminary data show that the new national databases, automated case 
processing, and enforcement tools required by Congress are making a 
major difference for the program--and for many children.
---------------------------------------------------------------------------
    \2\ Several states--California, Michigan, Ohio, Nebraska, South 
Carolina, and the Virgin Islands--do not yet have computer systems 
meeting the requirements Congress established in 1988. http://
www.acf.dhhs.gov/programs/cse/stsys/reviewsd.htm (last visited 6/26/
01).
---------------------------------------------------------------------------
    Between 1995 and 2000, the collection rate for cases with orders in 
the IV-D program doubled. In 1995, even after a support order was put 
in place, collections were made in only about a third (34 percent) of 
cases. In 2000, collections were made in more than two-thirds (68 
percent) of IV-D cases with orders. In addition, the percentage of 
cases with orders increased, from 57 percent in 1995 to 61 percent in 
2000. Overall, collections rose by 64 percent, from $11 to $18 
billion.\3\
---------------------------------------------------------------------------
    \3\ The 1995 data are from U.S. Department of Health and Human 
Services, Office of Child Support Enforcement, Child Support 
Enforcement: Twentieth Annual Report to Congress for Period Ending 
September 30, 1995. The 2000 data are from U.S. Department of Health 
and Human Services, Administration for Children and Families, Press 
Release January 17, 2001, ``HHS Announces New Record Child Support 
Collections,'' http://www.acf.dhhs.gov/news/press/2001/cse2001.htm 
(last visited 6/22/2001) and unpublished OCSE data compiled by Vicki 
Turetsky, Center for Law and Social Policy.
---------------------------------------------------------------------------
    The improvements that Congress has promoted in child support 
enforcement--not just in the last five years, but since the program was 
created--have been particularly dramatic for low-income, never-married 
mothers and their children. The percentage of never-married mothers 
receiving child support increased by more than 400 percent between 1976 
and 1997, from 4 percent to 18 percent.\4\ Improved child support 
enforcement between 1978 and 1998 has increased the incomes of single 
mothers by 16 percent and the incomes of single mothers with a high 
school degree or less by 21 percent.\5\
---------------------------------------------------------------------------
    \4\ Elaine Sorensen and Ariel Halpern, Child Support Enforcement Is 
Working Better Than We Think, Urban Institute No. A-31 (March 1999) 
(based on self-reports of custodial parents in the March Current 
Population Surveys, not IV-D administrative data).
    \5\ Irwin Garfinkel, Assuring Child Support in the New World of 
Welfare 10, Conference on the New World of Welfare, Washington, DC 
(2000).
---------------------------------------------------------------------------
    Receipt of child support can contribute substantially to family 
income. Elaine Sorensen's analysis of data from the 1997 National 
Survey of America's Families shows that child support accounts, on 
average, for 16 percent of the family income of all families who 
receive it. Child support represents an even larger proportion of 
income--26 percent--for poor families who receive it. And for poor 
children not on welfare, whose parents may keep all current support 
collected, child support provides, on average, 35 percent of family 
income--when families receive it. However, only 29 percent of poor 
children who have a parent living elsewhere live in families that 
receive child support.\6\
---------------------------------------------------------------------------
    \6\ Elaine Sorensen and Chava Zibman, Child Support Offers Some 
Protection Against Poverty, Urban Institute No. B-10 (March 2000).
---------------------------------------------------------------------------
    There is still plenty of room for improvement in the child support 
enforcement system. Although the overall trends are very encouraging, 
progress is uneven among the states. In 1999, the latest year for which 
such state-by-state IV-D data are available, the five best-performing 
states collected support in over 80 percent of their cases with orders, 
as compared to 62 percent nationally. However, in the five worst-
performing states, collections were made in less than 40 percent of 
cases with orders.\7\ Although a number of factors may contribute to 
differences in performance among states, the level of investment in the 
program plays a key role; states that make substantial investments in 
child support enforcement achieve better results than states that do 
not.\8\
---------------------------------------------------------------------------
    \7\ Office of Child Support Enforcement, Child Support Enforcement 
FY 99 Preliminary Data Report (2000). Based on the 1997 National Survey 
of America's Families, which provides detailed data on 13 states, 
Sorensen found a similar disparity in performance. In the best-
performing state, 30 percent of children with a parent living elsewhere 
who have a child support order received the full amount due; in the 
worst-performing state, 14 percent of children received the full amount 
due. Sorensen, Child Support Offers Some Protection Against Poverty, 
supra.
    \8\ Irwin Garfinkel, Theresa Heintze, and Cheien-Chung Huang, Child 
Support Enforcement: Incentives and Well-Being 14, Paper Presented at 
the Conference on Incentive Effects of Tax and Transfer Policies, 
Washington, DC (2000); Michael Fishman, John Tapogna, Kristen Dybdal, 
and Stephanie Laud, Preliminary Assessment of the Association Between 
State Child Support Enforcement Performance and Financing Structure, 
Lewin Group (2000), http://www.acf.dhhs.gov/programs/cse/rpt/
cse__working__paper__new.pdf; Vicki Turetsky, You Get What You Pay For: 
How Federal and State Investment Decisions Affect Child Support 
Performance, Center for Law and Social Policy (1998), http://
www.clasp.org/pubs/childenforce/ncsea2.htm.
---------------------------------------------------------------------------
    It is important to continue to work to strengthen the IV-D program, 
and H.R. 1471 includes a number of important enforcement reforms. Title 
II of H.R. 1471 would require IV-D agencies to review and modify child 
support orders for TANF recipients every three years, and to do a 
complete case review for families leaving TANF to ensure that every 
effort is made to help them secure child support. Title IV would expand 
the use of passport sanctions to obtain child support, allow the tax 
refund intercept program to be used to collect past-due child support 
for children who are no longer minors, and permit the garnishment of 
veterans' benefits for child support in certain circumstances.
    We also are pleased that H.R. 1471 does not include proposals 
advanced in the last Congress that would give private, for-profit 
collection companies access to confidential government databases and 
enforcement tools. Such proposals could undermine the child support 
enforcement program and reduce the support actually received by 
children, as I and other witnesses testified to this Subcommittee last 
year.\9\
---------------------------------------------------------------------------
    \9\ Joan Entmacher, Testimony Before the Subcommittee on Human 
Resources of the House Committee on Ways and Means, Hearing on Child 
Support Enforcement, May 18, 2000, http://waysandmeans.house.gov/
humres/106cong/5-18-00/5-18entm.htm.
---------------------------------------------------------------------------
    However, even with improved enforcement by the IV-D program, the 
amount of child support many poor children can expect to receive will 
remain limited for two reasons. First, the child support payments may 
go not to children and parents struggling to achieve self-sufficiency, 
but to the state and federal governments as reimbursement for public 
assistance. Second, some of the noncustodial parents of poor children--
mostly fathers \10\--are poor themselves, and have limited capacity to 
pay child support (see discussion below).
---------------------------------------------------------------------------
    \10\ In 1997, custodial mothers represented 85 percent of custodial 
parents, and the poverty rate for custodial mothers (32.1 percent) was 
three times the poverty rate for custodial fathers (10.7 percent). U.S. 
Census Bureau, Child Support for Custodial Mothers and Fathers: 1997, 
P60-212 (October 2000).
---------------------------------------------------------------------------
  The Assignment and Distribution Reforms in H.R. 1471 Would Increase 
                    Child Support for Poor Children
    H.R. 1471 would do much to address these fundamental issues. The 
distribution reforms in Title I, when fully implemented, would direct 
more than $1 billion a year in additional child support to low-income 
families,\11\ increasing the economic security of children and 
custodial parents and encouraging noncustodial parents to pay child 
support.
---------------------------------------------------------------------------
    \11\ NWLC calculations based on preliminary CBO estimate of the 
federal budget effects of the Child Support Distribution Act of 2000, 
H.R. 4678, as passed by the House September 7, 2000, which is virtually 
identical to H.R. 1471.
---------------------------------------------------------------------------
    When the federal-state child support program was established in 
1975, its primary goal was to reimburse public welfare costs. Families 
receiving public assistance were, and still are, required to assign 
their rights to child support to the state. But, from the beginning, 
the program also served families not receiving public assistance, and, 
over time, the proportion of families served by the IV-D program who 
were not receiving public assistance grew. Today, families receiving 
Temporary Assistance for Needy Families (TANF) represent only about 20% 
of child support cases. However, most of the families served by the 
program are low and moderate income; over 75% have incomes below 250% 
of poverty.\12\
---------------------------------------------------------------------------
    \12\ U.S. Department of Health and Human Services, ASPE, 
Characteristics of Families Using Title IV-D Services in 1995 (May 
1999). See also Vicki Turetsky, What If All the Money Came Home?, 
Center for Law and Social Policy (2000), http://www.clasp.org/pubs/
childenforce/pilr2300.htm.
---------------------------------------------------------------------------
    The child support program thus has two often competing goals: 
recovering government welfare costs and securing child support for 
children, or, in the words of the American Public Human Services 
Association, ``retaining collections from and giving collections to 
families.'' \13\ Attempts to reconcile these conflicting objectives 
have spawned a complex system of rules governing the distribution of 
collected child support that is costly to administer, virtually 
impossible to explain, and deeply frustrating to low-income mothers and 
fathers who want child support to go to children.
---------------------------------------------------------------------------
    \13\ American Public Human Services Association, Crossroads: New 
Directions in Social Policy 59 (2001).
---------------------------------------------------------------------------
    As the participants in our Common Ground project explained, the 
continued emphasis on using the child support system to reimburse the 
government can deprive children of the child support they need, 
generate hostility toward the child support program, and create 
tensions between parents. Mothers are frustrated that they are not 
receiving help from the father; fathers are frustrated because they are 
making payments, but their efforts are not making a difference for 
their children. And the effects of these policies can be felt by 
families even after they leave TANF and are entitled to receive current 
support payments. In some circumstances, most notably when child 
support is collected through intercepting federal tax refunds, child 
support collections will go to repay government arrears before the 
family's, even when the family is struggling to avoid a return to 
welfare. And the burden of repaying large debts to the government--for 
Medicaid reimbursement or past public assistance--may interfere with 
the ability of a low-income father to make current support 
payments.\14\
---------------------------------------------------------------------------
    \14\ Family Ties, supra, at 9-11.
---------------------------------------------------------------------------
    Changing the distribution rules must be a key element of any effort 
to promote responsible fatherhood. Fatherhood programs will have a hard 
time persuading low-income fathers that they should pay child support 
through the formal child support system because ``it's good for your 
kids,'' if little if any of the money they pay goes to their children, 
as the experience of the Parents Fair Share program suggests.\15\ In 
addition, the results of Wisconsin's child support experiment show that 
changing the rules so that child support goes to children increases 
both the amounts that mothers receive and that fathers pay.
---------------------------------------------------------------------------
    \15\ See Earl Johnson, Ann Levine, and Fred Doolittle, Fathers' 
Fair Share: Helping Poor Men Manage Child Support and Fatherhood 93 
(1999).
---------------------------------------------------------------------------
    In Wisconsin's W-2 program, for most custodial parents receiving 
cash assistance, all child support paid was passed through and 
disregarded in calculating their grant. A randomly assigned control 
group received only a partial pass-through and disregard of child 
support. Comparing those in the full pass-through group with a control 
group receiving only part of what is paid, researchers found that:
  <bullet> mothers received more child support;
  <bullet> fathers were more likely to pay child support;
  <bullet> the largest effects were for cases new to the welfare 
        system, suggesting that the impacts would be even greater in 
        the future as the proportion of new cases grows; and
  <bullet> there was little or no overall government cost, because the 
        money no longer retained by the state was offset by other 
        savings in government programs.\16\
---------------------------------------------------------------------------
    \16\ Daniel Meyer and Maria Cancian, W-2 Child Support 
Demonstration Evaluation Phase 1: Final Report: Executive Summary, 
Institute for Research on Poverty, University of Wisconsin (2001), 
http://www.ssc.wisc.edu/irp/csde/phase1-vol1-es.htm.
---------------------------------------------------------------------------
    Title I of H.R.1471 would help move the child support program away 
from cost recovery and toward family support in three important ways. 
First, it would simplify the assignment and distribution rules, and 
give families that left TANF first claim to the child support paid on 
their behalf. Second, it would give states more flexibility to adopt 
the child support pass-through and disregard policies that promote 
their welfare reform goals. It would not require states to pass through 
child support to families receiving TANF. However, to the extent that a 
state chose to pass through child support to families receiving TANF 
and disregard the support in calculating the amount of assistance, up 
to a certain limit, the federal government would forgo the federal 
share. Third, it would direct states not to use the child support 
system to collect Medicaid birthing costs--the type of impossibly large 
state debt, unrelated to ability to pay, that can make it difficult for 
low-income noncustodial parents to make current support payments, and 
discourage them from even trying.
    These changes would have multiple benefits for parents, children, 
and the child support system. The extra money--over $1 billion a year 
when the changes are fully implemented--could make a real difference 
for low-income custodial parents and children. And beyond the money, 
both parents and children would have the satisfaction of seeing the 
child support payments made by noncustodial parents contribute directly 
to their children's well-being. The simplification in the assignment 
and distribution rules also would reduce administrative costs for 
states, and errors and delays in getting child support to families once 
they have left welfare.\17\
---------------------------------------------------------------------------
    \17\ See Crossroads, supra, at 60-61.
---------------------------------------------------------------------------
    There are additional advantages to be gained by enacting the 
distribution reforms in H.R. 1471 this year, rather than waiting for 
TANF reauthorization. Simplified distribution rules will save states 
that are still developing their statewide child support computer 
systems, most notably California, time and money in system development. 
States will be able to plan for and adjust to these reforms before they 
have to deal with all the other changes TANF reauthorization will 
bring. And states that want to implement distribution reform quickly 
will be able to do so.

    H.R. 1471 Would Fund Demonstration Projects Serving Low-Income 
                          Noncustodial Parents

    Improving child support enforcement and giving child support to 
children will help many low-income parents and children. But when both 
parents are poor, income transfers between parents, and even marriage, 
will not provide parents with the resources they need to give their 
children a better life.
    The focus of this hearing is on ``fatherhood proposals.'' But 
before turning to such proposals, I would emphasize the need to improve 
services for both parents to increase their ability to provide support 
to their children, as participants in the Common Ground project 
recommend.\18\ Although many custodial mothers have left welfare and 
found jobs since PRWORA was adopted, many are still poor or near 
poor.\19\ Indeed, the disposable incomes of the poorest fifth of single 
mothers declined between 1995 and 1999.\20\ The jobs most women who 
leave welfare find are typically low wage, lack benefits, often have 
nonstandard hours, and offer little stability or room for 
advancement.\21\ To bring children out of poverty, not just off of 
welfare, we need to do more to increase the earning capacity of 
custodial and noncustodial parents, mothers and fathers, in the next 
phase of welfare reform.
---------------------------------------------------------------------------
    \18\ Family Ties, supra, at 12 and 28.
    \19\ Richard Wertheimer, Working Poor Families with Children: 
Leaving Welfare Doesn't Necessarily Mean Leaving Poverty, Child Trend 
Research Brief, May 2001.
    \20\  Wendell Primus et al., The Initial Impacts of Welfare Reform 
on the Incomes of Single-Mother Families viii-x, Center on Budget and 
Policy Priorities (1999).
    \21\ See, e.g., Julie Strawn and Karin Martinson, Steady Work and 
Better Jobs: How to Help Low-Income Parents Sustain Employment and 
Advance in the Workforce, Manpower Demonstration Research Corporation 
(2000); Pamela Loprest, How Families That Left Welfare Are Doing: A 
National Picture, New Federalism: National Survey of America's 
Families, The Urban Institute, Washington, D.C. (Aug. 1999), http://
newfederalism.urban.org/html/series__b/anf__b1.html.
---------------------------------------------------------------------------
    But while services for both parents need improvement, there is 
clearly a difference in the amount of research available on the 
effectiveness of strategies for serving low-income custodial parents, 
mostly mothers, as compared to the effectiveness of strategies for 
serving low-income noncustodial parents, mostly fathers.
    There is a large body of research, spanning decades, on welfare-to-
work strategies targeting custodial mothers. We now know much more than 
we did a few years ago about the circumstances of noncustodial 
fathers.\22\ We know that some noncustodial fathers have very low or 
irregular earnings, limiting their capacity to provide adequate, 
regular child support.\23\ Indeed, research into the circumstances of 
``fragile families,'' is finding, in the words of researcher Sara 
McLanahan, that new unmarried parents are alike in having ``high 
hopes'' for their children--but ``low capacities'' to provide for 
them.\24\ However, there is only one completed evaluation of the 
effectiveness of a program targeting low-income noncustodial parents, 
the Parents' Fair Share Demonstration. Although some other projects are 
underway, and will be evaluated, there is a need for additional 
demonstration projects to identify the best ways to help this large, 
diverse, but difficult to reach population.
---------------------------------------------------------------------------
    \22\ There is little research about the circumstances of the 15 
percent of noncustodial parents who are mothers.
    \23\ For a summary of earlier research on noncustodial fathers, see 
Irwin Garfinkel, et al., A Patchwork Portrait of Nonresident Fathers, 
in Fathers Under Fire: The Revolution in Child Support Enforcement at 
31-60 (Irwin Garfinkel et al., eds., 1998). For more recent research 
see, e.g., Elaine Sorensen and Chava Zibman, Poor Dads Who Don't Pay 
Child Support: Deadbeats or Disadvantaged?, Urban Institute No. B-30 
(April 2001); Fragile Families Research Brief No. 3, Unwed Fathers, the 
Underground Economy, and Child Support Policy, Bendheim-Thoman Center 
for Research on Child Wellbeing and Social Indicators Survey Center, 
Columbia University (January 2001).
    \24\ Sara McLanahan, presentation at the Brookings Institution, 
Stakeholder Seminar, Welfare Reform and Beyond, June 18, 2001. Compare 
Aurora Jackson, Marta Tienda and Chien-Chung Hun, ``Capabilities and 
Employability of Unwed Mothers,'' 23 Children and Youth Services Review 
327-351 (2001), with Lauren Rich, ``Regular and Irregular Earnings of 
Unwed Fathers,'' 23 Children and Youth Services Review 352-376 (2001).
---------------------------------------------------------------------------
    H.R. 1471 would provide funding for a competitive matching grants 
program for projects designed to promote marriage, successful 
parenting, and to help fathers and their families avoid or leave cash 
welfare and improve their economic status. Services must be directed to 
low-income parents: fathers (and, under the nondiscrimination clause, 
mothers) of children who are or recently have been TANF recipients or 
whose own income is less than 150 percent of poverty, or, for up to 25 
percent of participants, who are at risk of parenthood outside of 
marriage. Grantees must make available to each participant information 
about the causes of domestic violence and child abuse and local 
programs to prevent and treat abuse. In the competitive grant process, 
preference is to be given to programs that, among other things, offer 
specific methods to encourage or sustain marriage; have plans for 
actions to encourage or facilitate the payment of child support; have 
cooperative agreements with other private and governmental agencies, 
including the state TANF, child support, and child welfare agencies, 
the local workforce investment board, and community-based domestic 
violence programs; and have clear strategies for recruiting 
participants, especially new parents. The bill provides funding for an 
evaluation of projects by HHS, in consultation with the Department of 
Labor, to assess their effects on marriage, parenting, employment, 
earnings, payment of child support, and incidence of domestic violence, 
using random assignment whenever possible.
    We welcome the emphasis in H.R. 1471 on encouraging demonstration 
projects that serve low-income parents, have strategies for increasing 
payment of child support, work in partnership with other government and 
community agencies, and address domestic violence. We understand that 
many Members of Congress, in addition to increasing emotional and 
economic support for children from both parents, want to promote 
marriage. Indeed, marriage is a goal and a value shared by many low-
income parents.\25\ There is a risk, however, that requiring grantee 
projects to promote marriage too aggressively or too early may make it 
more difficult to reach the parents who need services the most, or 
encourage relationships that pose risks to the other parent or 
child.\26\ Programs that focus on helping young parents to improve 
their job prospects, nurturing, and relationship skills, and address 
domestic violence--as some have put it, making them more marriageable 
\27\--may do more to promote good marriages than encouraging marriage 
before parents are ready. We hope that this Subcommittee will make it 
clear that such programs are eligible for funding under H.R. 1471.
---------------------------------------------------------------------------
    \25\ Maureen Waller, ``High Hopes: Unwed Parents' Expectations 
About Marriage,'' 23 Children and Youth Services Review 441-469 (2001).
    \26\ Most of the unwed parents in the Fragile Families study were 
involved in a relationship with each other at the time of the birth of 
their child. However, among men who were no longer involved in a 
relationship with the mother, the reported incidence of substance 
abuse, mental health problems, and domestic violence was substantially 
higher. Melvin Wilson and Jeanne Brooks-Gunn, ``Health Status and 
Behaviors of Unwed Fathers,'' 23 Children and Youth Services Review 
377-401 (2001). See also Kathryn Edin, Testimony Before the 
Subcommittee on Human Resources of the House Committee on Ways and 
Means, Hearing on Welfare and Marriage Issues, May 22, 2001, http://
waysandmeans.house.gov/humres/107cong/5-22-01/5-22edin.htm.
    \27\ Testimony of Jeffrey M. Johnson Before the House Committee on 
Ways and Means, Subcommittee on Human Resources, Hearing on Fatherhood 
Legislation, October 5, 1999, http://waysandmeans.house.gov/humres/
106cong/10-5-99/10-5john.htm.
---------------------------------------------------------------------------
    H.R. 1471 will do much to help low-income mothers and fathers who 
are struggling to provide for their children. A similar bill, H.R. 
4678, passed the House last year with an overwhelming, bipartisan vote 
of 405-18. We hope this subcommittee will act quickly and favorably on 
this proposal.

                                <F-dash>


    Chairman Herger. Thank you very much for your testimony.
    Now to inquire, the gentleman from Oklahoma, Mr. Watkins.
    Mr. Watkins. Thank you, Mr. Chairman, to you and Mr. Cardin 
for your commitment, and also to the entire panel. I have been 
very impressed with the sincerity and commitment. I know Dr. 
Haskins is truly a champion.
    Welfare reform has been a truly remarkable piece of work. I 
think it has been one of the things that has really changed 
society. I totally agree with Dr. Johnson about employment.
    Three of four of you have talked about employment, and that 
is what I have been all about in my years of public service is 
the fact that I think without question, the destruction of many 
families has come about because they have had to go and search 
for other jobs. I probably am a little harder about this than 
most people, and I ask forgiveness of my Committee here and I 
apologize to you, but I was born in dirt-poor poverty and my 
family had to leave Oklahoma and go to California three times 
before I was 9 years of age. It destroyed my family, and my 
father became an alcoholic and died as an alcoholic. My mother 
raised three of us children on a dirt-poor farm, and I had to 
work three part-time jobs to get an education. So I know the 
importance of that work.
    I also had to work my way through college to get a college 
education. So it can be done.
    So I probably take a harder nose on this than I should be, 
and I apologize for that. That is why I like to say we each 
have to accept some responsibilities as we go along. I am not 
saying that is the whole answer, but working and providing some 
work. You are right. Child support is not near the amount that 
it should be, and many times it is misused, a lot of times. 
Most cannot make it on child support, but the person that is 
responsible for bringing that child into this life should be 
responsible and should be also working to make some payments, 
whatever that job is, for the community or wherever it may be.
    I think we found that out in welfare reform, and I know my 
father did not pay child support. Lots of times, we did not 
know where the next meal was coming from.
    So I apologize for being a little stronger about this, but 
I think let's do not miss that dimension; that we have to try 
to make sure we provide the jobs for, yes, holding the families 
together, but also to provide the jobs for that person to 
accept the responsibility to know that they are working these 
hours because they have brought someone in the world and they 
are going to have to help pay for, the responsibility for that 
child's life.
    So I do not disagree with the testimony I have heard here 
at all. I think it is great, and let me say again the welfare 
changes have been marvelous, just tremendous. Maybe we need to 
tweak the child support situation more around work and some 
responsibilities along that line.
    So thank you very much for what you are doing each and 
every day and for your testimony.
    And, Mr. Byrd, may you have God's speed. It takes a lot of 
strong will. My mother used to say, ``Wesley, if you have a 
will, there is a way.''
    Chairman Herger. Thank you, Mr. Watkins. Mr. Cardin to 
inquire.
    Mr. Cardin. Thank you. Thank you, Mr. Chairman, and let me 
thank all the witnesses for their testimony. I particularly 
want to thank Mr. Byrd for being here, not just because you 
come from, as Mayor O'Malley says, the best city in America, 
Baltimore, but that you give a face to the issues.
    A lot of times, we talk about statistics, number of people 
that are impacted in the policies here, and we never get to see 
the people that are individually impacted. We thank you for 
being here because you add a dimension to this hearing that is 
very important for us to see and here.
    Dr. Johnson, I take it from your testimony--and I would 
like you to respond a little more to this--that to the extent 
that the noncustodial parent, the father, is employable or has 
a skill means it is more likely that the mother would consider 
the father a candidate for marriage. Is that a positive 
correlation?
    Dr. Johnson. That is a definite positive correlation, and 
it has been made by sociologists. It is being made by 
economists right now. When fathers are made marriage-able, they 
are attractive marriage mates.
    It is interesting. We did have an opportunity to bring some 
young fathers from Mr. Jones' program before the Committee when 
Mr. Shaw was Chair, and one of the young men indicated, asked 
Mr. Shaw, ``Would you want your daughter to marry me?,'' 
looking at his situation. In a situation where he was trying to 
do the best he could, he had had some challenges in his life, 
and that he really needed to get those things together to make 
himself attractive. I think the thing that is often 
overshadowed sometimes is the young father's willingness to be 
the best man he can be, to be the best father he could be, and 
to also in the future be a good husband.
    I can recall when my older brother--I am from the Detroit 
area originally. I have been in this area about 22 years. When 
he got his first job at Ford Motor Company, when those jobs 
were available, I can remember him getting the phone call from 
Reverend S.L. Roberson from the Ford Motor Company down the 
street from me, and he said that once he got the call that he 
was going to get him a car, get him an apartment, and he might 
even get married because he made a positive correlation between 
his financial stability and being able to make those type of 
choices. I think that given the chance--I think that Mr. Byrd 
said, do not look at the cover of the book, look at what is 
inside of the book, and here is a man trying to do the best for 
himself, trying to do the best for his family, but we need 
programs like the Center for Fathers, Families and Workforce 
Development in place to create an on ramp for people like Mr. 
Byrd so that they can reach their dreams and be the best 
parents to children as possible.
    Mr. Cardin. Thank you for that response.
    Dr. Haskins, it is a pleasure to have you return to our 
Committee, and I, once again, want to congratulate you on your 
public service. You have reason to be proud, as we are proud, 
of the accomplishments that we have made in reforming our 
welfare system and our child support system, and you were by 
far one of the key individuals. So I applaud you for that and 
congratulate you on your public service.
    I think my list, though, is longer than two in modification 
of the 1996 law. I am one of those who supported those.
    Dr. Haskins. Yes, but you have more than 5 minutes, Mr. 
Cardin.
    [Laughter.]
    Mr. Cardin. That is true, also.
    Let me also point out, I know that your quip about marriage 
and Republicans--let me just tell you that I have been married 
for 36 years, and my spouse and I are both Democrats. So there 
are Democrats who do believe that marriage is a very important 
institution.
    But let me just caution you that we support--the Democrats 
support, and I think there is a bipartisan agreement, the 
importance of marriage and the importance of two-parent 
families, but we also as Republicans have a concern about 
spousal abuse and child abuse. We are concerned about safety of 
families. We want to make sure that our policies are the right 
policies for families.
    You made a very interesting point, and I think it is worth 
emphasizing. For a while, our policy was cost recovery. Now it 
is really family support and bringing the family together. It 
is really nice to see that from all sides, there is agreement 
that passing through child support makes sense.
    If you could just clarify for me why did we--we put 
families first for families that left welfare on just about 
everything except for the tax intercept program. Why didn't we 
give them access to tax intercepts in 1996?
    Dr. Haskins. In the 1996 legislation?
    Mr. Cardin. Yes.
    Dr. Haskins. Oh, very simple answer. The Senate would not 
accept giving the entire amount to the families. So staff in 
the middle of the night was casting about trying to figure out 
a way that you could plausibly, logically divide up the money, 
and we received information that about half the money came from 
the tax intercept. So we used the tax intercept. States get to 
keep all collections from the tax intercept, and the rest goes 
to the family. That is 100 percent of the reason. It was just a 
convenience, and as many things that staff thinks up in the 
middle of the night, it cluttered up the----
    Mr. Cardin. It just goes to show you should not work in the 
middle of the night.
    Thank you, Mr. Chairman.
    Chairman Herger. Thank you very much, Mr. Cardin.
    I want to thank each of our witnesses.
    Mr. Watkins. If I might make one comment. We are talking 
about self-esteem here, trying--and what do we do, Mr. 
Chairman, to help young men and young women develop a self-
esteem that they can achieve and they can do those things, and 
that is inside. You can hardly measure that commitment or that 
determination to do that, and how we can help our young people 
develop more self-esteem is going to be very crucial for us to 
succeed.
    Chairman Herger. A very important point. Thank you.
    Mr. Byrd, again, it is good to have each of our witnesses. 
It is particularly--I want you to know that we particularly 
appreciate you being here. You had mentioned how you were a 
little nervous. I think everyone is a little nervous who 
perhaps is here, and, again, I commend you.
    I would like to have you respond, if you would, to what 
perhaps you have learned through the fatherhood program that 
you are involved in, do you feel you have changed in any ways 
because of that, and what are your hopes for the future.
    Mr. Byrd. Well, actually, through the fatherhood programs, 
I actually learned a couple of things about myself, and the day 
someone directed me, it was like some things I do--I still have 
a little immaturity in me, and I kind of like thought that I--I 
honestly tried to like not look at it, but then I thought about 
it. Some things I do, do, it is kind of immature. Then, 
hopefully, in the future--well, actually, I will actually look 
at--when I get out of school, maybe I might join a branch of 
the government and then I am looking to buy a computer. I was 
up in the Families Helping Families Center, looking at the 
computers they had up there, and maybe in the future--I was 
thinking about--they kept like haggling me about getting 
married, and marriage was not something I wanted right now. It 
is something that I look for in the future, but as you look at 
it, a lot of people you see married, and you are like, ``I will 
see this person for the rest of my life,'' and it is like you 
really got to think on it because you do not want to rush into 
nothing and that you cannot get out of, and then marriage is a 
big responsibility. It is just like when you have a kid. You 
always got that person. You always know you have to look after 
that person. That person is going to be there for you.
    Chairman Herger. Thank you.
    Mr. Byrd. A lot of things I did learn was that if you are 
down and you are trying to help yourself, if people see you 
helping--if you struggling and you need help and you are not 
trying to help yourself, no one is going to help you, but if 
you ask for help and someone will help you if they see you are 
trying to help yourself. Nobody is going to help you if you are 
not trying to help yourself, and you cannot do--nobody cannot 
make you do something you do not want to do. If you are going 
to do it and you ask for help, they are going to give you the 
proper guidance and the proper assistance for you to do 
whatever task that you are trying to complete.
    Chairman Herger. Good. Thank you very much, Mr. Byrd.
    Again, I want to thank each of our witnesses for your fine 
testimony this afternoon. I trust that each of you would 
respond to additional questions on these issues for the record. 
It has been a very informative hearing on an issue that is 
important to members of this Committee and to the President.
    With that, this Committee stands adjourned. Thank you.
    [Whereupon, at 3:32 p.m., the hearing was adjourned.]
    [Questions submitted from Chairman Herger to the panel, and 
their responses follow:]

        National Council of Child Support Directors
                                   Richmond, Virginia 23219
                                                      July 11, 2001
Hon. Wally Herger, Chairman
Subcommittee on Human Resources
U.S. Committee on House Ways and Means
1102 Longworth House Office Building
Washington, DC 20515

    Dear Chairman Herger:

    Thank you for the opportunity to respond to the Subcommittee's 
follow-up questions to testimony I presented on June 28. The following 
responses are presented in the order of the questions in your June 29 
letter.
    Q. A general trend several witnesses cited is the progression away 
from a child support system focused on cost recovery to one that 
promotes family self-sufficiency. What are some innovative programs 
Virginia has developed that promote the goal of self-sufficiency for 
families? How about other States? What implications does that have for 
your office in terms of administrative workload? Expense? How have 
those issues been addressed?
    A. Since the passage of the Personal Responsibility and Work 
Opportunity Reconciliation Act (PRWORA) in 1996, additional emphasis 
has been placed on the importance of children having the financial and 
the emotional support of both parents. Programs that provide services 
such as education and training, job placement, parenting classes, and 
mentoring are now viewed as critical to helping low-income children 
escape poverty.
    Because welfare today is time-limited and child support is becoming 
a key family resource, our focus has shifted somewhat from a cost 
recovery program to one of preparing both parents to take 
responsibility for the support of their children. In Virginia's child 
support enforcement program, we are involved in several innovative 
programs that vary by community in promoting self-sufficiency. For 
example, we have fourteen of our seasoned child support staff co-
located in the local social service agencies. This offers the customer 
``one stop shopping'' in that they can communicate with their 
eligibility worker about benefits, and can communicate with the child 
support worker to provide critical information that will assist our 
staff in locating the noncustodial parent, establishing paternity and a 
child support obligation, and collecting their support order. This co-
location also provides an opportunity for information sharing and 
program understanding between the child support worker and the social 
service worker. In other areas where co-location is not feasible, we 
have child support staff who appear periodically at service points to 
facilitate child support services for both custodial and noncustodial 
parents.
    Virginia is fortunate in that we are an administrative state, which 
allows us to more efficiently process child support cases rather than 
going through the courts. We issue 75 percent of all orders 
administratively and preclude further judicial action, unless requested 
by either party. This provides for services that are quicker, requires 
no lawyers or judges, and gets the child support moneys to the 
custodial parent much faster than if we had to process all actions 
through the courts.
    We know that many noncustodial parents take seriously their 
responsibility to pay child support regularly. For the majority of 
parents who do not readily meet their financial obligations, 
enforcement tools such as income withholding, driver's license 
revocation, or passport denial will encourage parents to meet their 
financial obligations to their children. However, for a small minority 
of noncustodial parents, even tougher enforcement tools have been 
utilized. In Virginia, we have implemented enforcement tools such as 
vehicle booting. As described in my testimony of June 28, 2001, this 
enforcement technique was first utilized in Virginia in 1998. Since 
it's inception, more than $420,000 has been collected from 79 bootings.
    Another enforcement remedy, which is used, by Virginia and other 
states is our KidsFirst Campaign which was first implemented in 1997 
and offered limited amnesty to 57,000 of our most egregious support 
evaders. To date, Virginia has collected more than $150 million in past 
due child support as a result of this initiative. This initiative 
enhanced our rapport with the law enforcement community and with the 
judiciary.
    Many of our courts utilize alternatives to incarceration such as 
work release or in home incarceration. These programs allow the 
noncustodial parent to avoid jail time by continuing to work and meet 
their child support obligation as well as making them available to 
provide emotional support to their children. This alternative is a 
savings to the taxpayer and contributes to the self-sufficiency of the 
family.
    Unique enforcement remedies, such as the two mentioned above, serve 
us well in that they educate the public about child support services 
that are available, the resulting press encourages other noncustodial 
parents to pay their support to avoid these enforcement remedies and 
the resulting child support payments assist the families in becoming 
self sufficient.
    Several states, including Virginia, are involved in grants that 
identify barriers to custodial parents applying for child support 
services and also barriers to noncustodial parents contributing 
financial support to their children. Since these studies have just 
recently begun, I am not prepared to discuss findings or make 
recommendations.
    We currently have more than 70 community based fatherhood 
initiatives underway in Virginia. One very recent example is the result 
of a collaborative effort between Total Action Against Poverty (TAP) 
and several agencies including child support enforcement, that provides 
outreach to noncustodial parents under the age of 30, who are 
unemployed or underemployed. TAP was successful in obtaining a $750,000 
grant from the Charles S. Mott Foundation to target this populace in 
the Roanoke, Virginia area. This grant will provide a child support 
worker at the district office to identify fathers who might be eligible 
for the program and refer them for services to enhance their job 
skills, help them secure jobs and encourage them to become more 
involved in their children's lives. One caveat to participate in this 
program is to ensure the fathers acknowledge paternity and pay their 
child support on a regular basis.
    Many states, including Virginia, have entered into partnerships 
with local Head Start associations. We provide literature regarding 
child support services and periodically speak to Head Start 
participants about our services and the importance of both parents 
being involved in the financial and emotional upbringing of their 
children.
    Some of our offices, particularly in rural localities, have entered 
into agreements with faith-based organizations, community partners, 
employers and local social services agencies under the Workforce 
Investment Act. This partnership provides another opportunity to 
distribute information on child support services and assist both 
custodial and noncustodial parents in accessing these services.
    Our core responsibility is to collect and disburse child support, 
and we will continue to focus our efforts in that role, remaining 
mindful that our partnerships with agencies such as those listed above 
are crucial to furthering the self-sufficiency of families. 
Unfortunately, our caseloads continue to increase, and we must remain 
flexible in managing our resources while staying focused on our primary 
mission, which is child support enforcement.
    Q. The Department of Health and Human Services preliminary 1999 
child support data tells us that collections were made in over six 
million Title IV-D cases, up from 4.5 million in 1998. What actions can 
Congress take to help States further improve the percentage of child 
support collections?
    A. The Personal Responsibility Work Opportunity Reconciliation Act 
1996 (PRWORA) provided states with powerful new tools to assist in the 
collection of child support. The National Directory of New Hires and 
the Federal Case Registry provide information not previously available 
to states in their collection efforts. These new databases have allowed 
states to increase the level of automation in their statewide computer 
systems. The combination of the new tools and the improved automation 
are primarily responsible for the increase in the percentage of 
collections. Even for states, like Virginia, which have met all the 
requirements for PRWORA, there is more that can be done to increase the 
level of automation and improve on the use of the new tools.
    There are two things Congress can do to help states further improve 
the percentage of child support collections. One is to extend the 
deadline for using the 80 percent enhanced funding for child support 
computer systems. Congress designated a pool of 80 percent federal 
funding to assist states in meeting these requirements. The deadline 
for using the 80 percent funding is October 1, 2001. Many states will 
not be able to use the full amount of the 80 percent money allocated to 
them by the deadline.
    Extending the deadline to October 1, 2005, will allow states to 
take full advantage of enhanced funding to improve and enhance the 
PRWORA mandates.
    The second is to refrain from making major changes to the child 
support program until the full benefits of the existing laws are 
realized. In other words ``stay the course.'' Although passed in 1996, 
the PRWORA changes were numerous and complex. States continue to expand 
and increase their use of the new tools and laws. Major changes to the 
program would divert valuable resources and prevent states from 
continuing their effort to make full and complete use of the tools 
provided by PRWORA.
    Q. How do States handle the issue of access and visitation, 
especially by divorced fathers?
    A. The Grants to States for Access and Visitation Grant Programs 
(A&V) are demonstration grants funded by the federal government in an 
effort to increase parental involvement of noncustodial parents in the 
lives of their children. Specific activities such as parent education, 
counseling, visitation, development of parenting plans and mediation, 
are eligible for funding. States are given oversight, monitoring, and 
evaluation responsibilities for utilization of grant funds. Some states 
are further along with their A&V programs, while others are just 
beginning to implement programs to increase parental involvement.
    Allocations are made to each state from a $10 million 
appropriation. Each state must submit an application annually and 
provide a ten percent match to receive the funds.
    Each state is given the leverage to explore initiatives and 
determine how families can benefit best from A&V funds. States 
administer A&V programs based on the prevailing needs of their 
respective populations.
    Across the country, A&V programs are administered in different 
ways. In California, A&V funds are used to help finance a statewide-
supervised visitation program. Missouri uses A&V funds to administer a 
statewide mediation program for its citizens. One year, the State of 
Michigan used A&V funds to develop an excellent two-part parent 
education video presentation that demonstrated to fathers how to 
effectively get involved with their children.
    In Virginia, A&V funds are used to help finance community-based 
programs, some of which are quite unique. In Northern Virginia, a 
program that provides mediation, counseling, and education services to 
teenage parents, primarily Hispanic, benefits from A&V funding. A 
parent education and visitation program for incarcerated noncustodial 
parents in Williamsburg, Virginia and surrounding counties received A&V 
funding. In Newport News, A&V funding is used to help noncustodial 
parents, who may have fallen victim to substance abuse or 
incarceration, regain custody of their children. In Winchester, 
Virginia and surrounding counties, a parent education program where 
divorced parents are the predominant population served, A&V funds are 
used to foster healthier relationships between divorced parents and 
their children. Children also attend this program. At least four 
supervised visitation centers across the Commonwealth receive A&V 
funding.
    We do not have information available on specific state efforts to 
target divorced fathers. Typically, divorced fathers are included in 
parent education, mediation, visitation, and counseling services 
offered under A&V programs.
    Q. On the issue of penalties on States that fail to meet the 
administrative standards for their child support systems, I note you 
have a proposal on Page 6 of your testimony. (Currently California, 
Michigan and South Carolina are in penalty.) Could you give us more 
information about the proposal you described? Relieving penalties in 
this way would have the effect of raising federal spending as the 
current penalty is subtracted from federal funds sent to the States to 
operate their child support systems. Do you have any idea how much this 
proposed change would cost? Are there other suggestions in this vein?
    A. As I described in my written testimony to the Subcommittee, the 
National Council of Child Support Directors (NCCSD) supports a policy 
that allows a state, which is under automation penalties, to reinvest 
those penalties into program improvements and system compliance. You 
requested more information on that proposal. Therefore, I am including 
the full text of the NCCSD resolution describing this reinvestment 
approach. I am also including resolutions passed by the National 
Governor's Association (NGA), the American Public Human Services 
Association (APHSA) and the National Conference of State Legislatures 
(NCSL), all of which support the same proposal for penalty 
reinvestment.
    You also asked about the potential costs to the federal government 
of the reinvestment proposal. It is difficult to know any exact costs 
of reinvestment because penalties are in place only as long as a state 
remains out of compliance with system requirements. Once a state 
incurring penalties comes into compliance, the penalties end. Second, 
any Federal costs will depend on how much a state elects to reinvest 
into its program and system development. Under the proposal described 
above, the penalty base is adjusted by the amount that a state spent 
for information technology in the previous year. Thus, any potential 
costs would depend on the amount that states incurring penalties are 
expending on information technology costs. What is known is the 
estimated penalty amount that states which are currently incurring 
penalties will pay in this budget year: South Carolina: $5.3 million; 
Michigan: $38.7 million; and California: $111 million. The estimated 
amounts for the next fiscal year are: South Carolina: $6.4 million; 
Michigan: $46.8 million; and California: $152 million. Importantly, 
under this proposal any penalty amount reinvested is going directly 
into the Child Support Program to support system and program 
improvements.
    Finally, you inquired about other reinvestment suggestions. One 
proposal currently calls for the establishment of a ``base year'' for 
both penalty amounts and reinvestment amounts. Under this concept the 
``base year'' would be the fiscal year before the penalty was applied. 
The amount the state spent in that ``base year'' would be used to 
calculate the penalty for every year the state is under the penalty. In 
addition, the amount of the state's general fund spent in the previous 
fiscal year that is in excess of the amount of the state's general fund 
spent in the ``base year'' would be available for reinvestment. If 
reinvested in the IV-D program, the state's penalty would be reduced by 
the amount reinvested. This approach clearly corrects the unintended 
consequence of penalizing someone for trying to fix a problem. For 
example, California's penalty increased by 48.4 percent ($36.2 million) 
this year alone just because it has increased program spending. In 
Michigan, the penalty increased by 29.97 percent ($11.6 million) due to 
increased program spending. In South Carolina, spending did not 
significantly increase due to the state being in mediation with its 
contractor. South Carolina expects spending to increase in the next 
fiscal year in the 20-30 percent range. The cost of the reinvestment 
component would be based on whatever the states choose to reinvest up 
to the total amount of the penalty.
    Q. Is Virginia promoting fatherhood programs through your State's 
child support office? Are these programs receiving support through TANF 
funds? What do other states do in terms of fatherhood program funding?
    A. In Virginia, the Division of Child Support Enforcement (DCSE) 
partners with the Virginia Fatherhood Campaign (VFC) through a 
Memorandum of Understanding between the two entities. DCSE grants funds 
to VFC for the purpose of promoting responsible fatherhood throughout 
the Commonwealth. VFC accomplishes this through seed grants to 
community Fatherhood programs, workshops for service providers, media 
advertising, printed materials and brochures for dissemination to the 
general public. DCSE employs a Fatherhood Coordinator whose 
responsibilities include educating the public about the child support 
program and fostering positive working relationships between community 
Fatherhood programs and DCSE. DCSE district offices are encouraged to 
collaborate with community Fatherhood programs.
    In Virginia, TANF accounts for 100 percent of the funding granted 
to VFC through the Memorandum of Understanding between DCSE and VFC. In 
other states, TANF funds can and are used as well as combinations of 
TANF and State General Funds.
    Q. In his testimony, Ron Haskins raises the issue that, as the 
welfare caseload declines, there are fewer potential child support 
collections for parents on welfare. This, as you know, has 
traditionally been a partial funding source for operating child support 
programs--when States retain and share with the federal government 
collections for parents on welfare. Aside from simply expecting the 
State or federal governments to provide more funds to fill this gap, do 
you have any other creative ideas for addressing this problem, which is 
likely to be with us for a long term?
    A. There are no easy answers to the issue of funding the child 
support program in the face of decreasing collections for parents on 
welfare. A small piece of good news is that for the first time in 
several years, these collections in Virginia did not decrease. The 
National Council of Child Support Directors (NCCSD) recently conducted 
a survey of child support directors to solicit funding ideas. Some 
thoughts included increasing Federal Financial Participation (FFP) to 
75 percent and eliminating the state share of retained collections, 
developing creative ways to use TANF block grant dollars to fund the 
child support program, and perhaps up-fronting the federal share of 
program costs instead of reimbursing costs after the fact. Any new 
concept will require additional analysis and study to assess the 
impact. NCCSD encourages Congress to work with states, OCSE and 
professional organizations to develop a viable funding structure to 
ensure adequate and stable funding for this critical program. NCCSD 
recently developed a resolution on funding for the child support 
program. The recommendations are repeated here.
    The federal Office of Child Support Enforcement, Administration for 
Children and Families, Department of Health and Human Services (OCSE) 
and Congress should provide for full and sustained Federal Financial 
Participation (FFP) for all aspects of the Child Support Program at 
current or enhanced levels.
    Congress should ensure the continuation of 90 percentage FFP for 
genetic testing.
    Congress should amend federal law to extend the use of 80 percent 
FFP to October 1, 2005, for enhancements to automated systems required 
by the Personal Responsibility and Work Opportunity Reconciliation Act 
of 1996, including implementation of the medical support notice which 
is required by federal regulations issued in March 2001.
    When states are required to implement new mandates, or make 
substantial revisions to existing program requirements, Congress should 
provide enhanced FFP to reduce the impact on the states' child support 
budgets.
    To ensure timely and consistent implementation of any of the 
Medical Child Support Working Group's recommendations that require 
State child support agencies to assume new responsibilities, Congress 
should provide enhanced 90 percent FFP for medical support activities 
for a limited 5-year period.
    OCSE and Congress should work with state IV-D Directors to identify 
methods for ensuring that stable and adequate levels of investment in 
the program by federal, state, and local governments advances the child 
support program's evolving mission and improves outcomes. This 
investment should reflect overall trends and future directions in the 
nation's human services delivery system rather than a point-in-time 
analysis, and adhere to a set of principles that properly relate 
funding approaches to program needs, goals and performance.
    Again, thank you for the opportunity to provide additional 
information on your questions.
    If I may provide additional information, please call me directly at 
(804)692-1501.

            Sincerely,
                                    Nathaniel L. Young, Jr.
                                                          President

                                <F-dash>


            National Center for Strategic Nonprofit
                  Planning and Community Leadership
                                       Washington, DC 20036
                                                      July 12, 2001
Hon. Wally Herger, Chairman
Congress of the United States
House of Representatives
Committee on Ways and Means
Subcommittee on Human Resources
Washington, D.C. 20515

    1. How do the fatherhood programs your organization operates 
interact with the child support system? How do they treat the issue of 
marriage?
    Our fatherhood development programs interact with state and local 
child support enforcement agencies on a win-win basis. The child 
support enforcement agency and community-based fatherhood development 
program partnerships that have been developed under various fatherhood 
initiatives are based on the premise that the well-being of children is 
central to all--mothers, fathers, child support agencies, community-
based organizations, other public and private service agencies, and 
others concerned in the community. At the core of the partnerships is 
the relationship between child support enforcement and community-based 
organizations. The challenge for these partnerships is to improve the 
trust and the relationships between child support enforcement and 
community-based organizations necessary for the child support program 
to exercise state flexibility provided under PRWORA. This must be done 
in a way that is consistent with the state's fiscal character.
    In order to accomplish this under the Partners for Fragile Families 
(PFF) Demonstration Project, NPCL created a Peer Learning College that 
includes child support enforcement representatives from a number of 
state child support enforcement programs. The Peer Learning College 
provides a forum for child support professionals to learn about the 
issues faced by low-income fathers and by community-based fatherhood 
development programs designed to serve them and find ways to interact 
with them and other public/private service agencies attempting to serve 
low-income fathers and their fragile families. An important part of the 
curriculum has been the participation of young fathers and community-
based fatherhood practitioners in all six sessions over the past three 
years.
    NPCL has also held extensive orientation and training for 
community-based organizations around the workings of the child support 
system. Child support partners from the PFF sites have served as 
instructors for many of these sessions. NPCL has developed the 
expertise to coordinate the various agency partnerships in serving low-
income, low-skilled parents and their children.
    NPCL has also invested in bringing considerable expertise, 
including on-board staff, around the issue of child support to serve as 
a resource for our community-based partners, and to enhance the 
capacity of our state child support partners to work more effectively 
with community-based agencies.
    All of these efforts have reinforced the interaction between the 
partners and built a common level of understanding and trust. This 
understanding and trust has served as a platform for the partners to 
negotiate systems and manage the risks associated with the fathers' 
habilitation and participation in society.
    How do they, our programs, treat the issue of marriage?
    We instruct our programs that marriage is a special human 
relationship. We are fortunate in having a number of men and women from 
the clergy associated with our sites. As part of the training using the 
Fatherhood Development Curriculum, the sites invite experts to come in 
and discuss the issues surrounding marriage. When men proceed in 
fatherhood development programs and express an interest in marriage, we 
advise program staff to refer them to professionals in the field. These 
are often faith-based partners responsible for the institutions where a 
large number of marriages occur. They take the lead in this area. In 
our programs marriage is perceived as a success.
    A. What impact has this interaction had on fathers, children, 
mothers, financial status of fathers, and the emotional connection 
between fathers and children?
    In many cases it has transformed their lives. Our fatherhood 
development programs have seen fathers at all levels of 
marginalization, alienated from families and friends, and civil 
society. After enrollment in the programs, fathers actually confront 
the many challenges to changing their lives and reconnecting with their 
families and their children. Many have been able to surmount the 
challenges, become financial contributors to their children, 
establishing paternity and paying their child support, and most 
importantly, emotionally attached and positively involved in the lives 
of their children. Consequently, they enjoy recreational activities 
with their children, participate in family outings and are engaged in 
their child's nurturing, educational and developmental processes. Their 
emotional involvement has also meant a singular reluctance to engage in 
activities that would place them in jeopardy of returning to their 
previous status and placing their children at risk.
    2. How do programs work with noncustodial fathers to help them 
better connect emotionally with their children and their children's 
mothers?
    Our programs are designed to meet the multiple service needs of 
fathers. Their operations are based on Fatherhood Development: A 
Curriculum for Young Fathers. The curriculum was field-tested in 
Public/Private Ventures' Young Unwed Fathers Pilot Project (see 
attachment). Through a series of approximately 25 streetwise 
discussions that provide support, information and motivation in the 
areas of life skills, personal development, parenthood, relationships, 
sexuality and responsible fatherhood, young fathers receive assistance 
so necessary to their full participation in the lives of their 
children. The programs are also designed to remove the social, legal, 
economic, cultural, and institutional barriers to their involvement in 
children's lives.
    What positive changes have you seen?
    Across the PFF demonstration sites, we have seen several instances 
where young men are assuming full responsibility for the direction of 
their lives. In one site we have seen a young Hispanic father, recently 
out of jail, get assistance from our program, get training and a job in 
asbestos removal. He is currently making well above minimum wage. He is 
paying his child support, and the mother of his child, who had 
disdained him when he was incarcerated, has allowed him to see the 
child regularly and has even begun dating him again. Since his 
involvement in the program, he stopped engaging in all at risk 
behavior--smoking, drinking, gang banging and selling drugs.
    In another site, we had a young man who had been ``in the life'' 
for many years, engaging in selling drugs and small-time thievery, and 
having multiple children with the same young lady. Since his 
involvement in the program he has ceased all at risk activities, 
secured a job, and has married the mother of his children.
    In still another site, a young man, recently out of high school, 
through participation in the program has been intimately involved 
throughout the pregnancy of his girl friend. He has been with her on 
visits to the pre-natal clinics and on visits to the doctor, and is now 
talking about marrying the mother of his child. The list is long across 
the PFF sites. We have many success stories where young fathers, 
through the efforts of our programs, have transformed themselves into 
contributing members of the communities and wonderful fathers and role 
models for their children.
    3. How do you bring the fathers who are ``living below the radar 
screen, outside organized society and out of the child support 
enforcement system'' into your programs?
    When we refer to fathers ``living below the radar screen, outside 
organized society and out of the reach of child support enforcement,'' 
we are addressing that portion of the population that we call dead-
broke dads. These young men do not have attachment to the labor force. 
Moreover, many of them participate in the underground economy. Further, 
many of the young fathers we serve do not have a permanent address. 
They move from a relative to a friend and then back to the relative 
with great frequency.
    For purposes of child support enforcement, establishing legal 
notice is difficult and often impossible. As a result of PRWORA 
however, the child support enforcement system can move forward even 
when they have not established traditional effective legal notice. This 
can lead to default orders with imputed incomes that are inconsistent 
with the father's ability to pay. Arrears accumulate and with interest 
up to 18% added in some states, child support debt can exceed a year's 
wages. If these dads do find jobs and are identified under the new 
hires reporting system, by the time child support enforcement can serve 
an income withholding order, they have lost the job.
    Our programs recruit through various sources. They include Head 
Start programs, Alternative Schools serving young mothers, Healthy 
Start projects and other programs that serve low-income mothers and 
children. However, the best source of recruitment of these men is the 
mothers of their children and often the fathers own mothers. And the 
best method of recruitment is getting out into the community where the 
fathers are.
    There, through word of mouth, street outreach, a need to find a 
job, the tireless work of outreach workers, or the desperate desire to 
address a child support arrearage, or because the mother of their child 
or their own mother has encouraged them, these clients present 
themselves to programs. The word on the street will be that this 
program can help you. It will not judge you. The program is a place 
where, if you put in the time and effort, staff will assist you in 
``straightening out your life.'' This is the best recruitment.
    4. In your testimony, you mentioned that ``the average mother on 
welfare receives about $33 per month in covert support from poor 
fathers.'' Please define ``covert support'' and tell us how you arrived 
at the $33 figure.
    Covert child support is money, purchases, or services provided to 
the custodial parent by the noncustodial parent and are not reported to 
the child support system.
    The $33 figure comes from ``Poor Dads Who Don't pay Child Support: 
Deadbeats or Disadvantaged?'' a study by Elaine Sorenson and Chava 
Zibman of the Urban Institute, and based on Assessing the New 
Federalism's 1997 National Survey of America's Families.
    5. You seem to focus a lot on never-married fathers and their 
interactions with the child support system. Can you tell us about 
efforts involving divorced fathers and their willingness and ability to 
pay child support?
    You are correct Mr. Chairman; the vast majority of our work deals 
with that portion of the population that is low income, low skilled, 
and never married. Young cohabiting couples produce one-third of all of 
America's children. That is not one-third of all poor children, one-
third of all minority children, or one-third of any sub grouping that 
you might name. It is a fact that one third of all American children 
are the progeny of couples that have never been married. In addition, 
about a quarter of all poor children are produced by couples who are 
either cohabiting or couples in which the father visits the child at 
least once per week. These visiting relationships tend to be an 
important part of the parenting/living arrangements of young African 
American families, while childbearing within cohabitation is more 
typical of white and Hispanic couples.
    The Partners for Fragile Families Demonstration was built on the 
lessons learned from 25 years of publicly and privately supported 
demonstrations in the field of responsible fatherhood, including the 
Teen Father's Collaboration, the Young Unwed Fathers Pilot Project, and 
the Parents Fair Share Demonstration Project. PFF was designed to 
augment our research by gathering first party information on the nature 
and substance of the relationships that exist in what we call fragile 
families. We started first with research to determine if these fathers 
fit the bad guy image, and if these children were the result of casual 
relationships, as we so often heard.
    This population was chosen because we had consistently heard from 
the mothers of these children that these guys weren't bad guys, just 
broke. We also had heard that interaction with the child support system 
was a nightmare for this population. We wanted to know if specific 
interventions moved these couples in the direction of more traditional 
family formation. Could a better working relationship with the child 
support system serve not to place additional strain on the 
relationship?
    Moreover, we focused on this population because it is the fastest 
growing family type in which poor children reside, and in many ways 
constitutes a new pathway into child poverty; replacing the old, namely 
divorce and separation of a previously non-poor, married couple 
household. As we move into the future, we can expect children born to 
fragile families to represent an increasing share of all poor children 
and children born to previously non-poor married couples, which later 
divorced leaving the mother and child alone and poor, to constitute a 
diminishing share of all poor children. This latter portion will simply 
age out of the population of poor children.
    Finally, we emphasized this population because it is the population 
where our current welfare and child support systems are having the 
least success in reducing child poverty and improving child well-being, 
even though these systems encounter (and will continue to encounter) 
more and more of the children from this population every day.
    I would say, Mr. Chairman that there are significant differences 
between the way divorced fathers and fathers in fragile families 
interact with families, welfare and child support systems. First, 
divorced fathers tend to be older and have older children. As a result, 
they are more experienced in the labor market and their relationships 
with the mothers of their children are more deteriorated. Because they 
have more labor market experience than fathers in fragile families, it 
is difficult for our current work force development systems to boost 
their wages above what they could already earn on their own. 
Demonstration projects which have focused on divorced fathers have been 
unable to improve the employment and earnings of these fathers and 
therefore unable to raise the level of the child support payments they 
are making. This frustrates efforts made by child support authorities 
to accommodate the labor market barriers these fathers face, in 
attempting to fulfill their responsibilities to families and taxpayers. 
Moreover, because these fathers are older, have older children, and 
older cases in the child support system, many are in arrears, and this 
further complicates the efforts of child support enforcement to work in 
a progressive way with these fathers. Finally, because their 
relationships with the mothers of their children have long since 
deteriorated, the prospects of getting the mother's cooperation in 
involving the father in the life of the child is diminished. Therefore, 
public investments with low-income divorced fathers will yield less in 
terms of the improved financial and emotional well-being of children.
    All this argues for focusing our efforts on young, fragile 
families, whose educational skills, employment experiences, and family 
relationships are still in the process of development and still subject 
to positive redirection. Moreover, previous demonstrations have shown 
greater success in improving the employment and earnings of these 
fathers, and that they are less likely to have already accumulated 
large amounts of arrears, so that child support enforcement 
administrators face fewer obstacles in trying to accommodate the 
employment barriers these fathers face. PFF hopes to build upon this 
experience by examining a variety of locally based strategies to 
further improve their employment and earnings and by making an improved 
relationship between the young parents an explicit goal of our work.
    6. The first attachment to your testimony (``NPCL Peer Learning 
College,'' Page 3) discusses ``significant barriers to timely 
modifications (of arrears for low-income noncustodial parents) during 
periods of reduced ability to pay.'' What do you mean by these 
``barriers?'' How might those be addressed?
    Principal among the significant barriers is the fact that most 
child support programs are severely under-funded. The capacity of the 
child support system is insufficient to handle the caseload. Therefore 
it is perfectly logical that CSE programs would work on the higher 
priority items reflected in the new child support incentive measures.
    Another significant barrier is that in the majority of our states 
guidelines provisions are out dated. This means that even in states 
that have a self-support reserve, the reserve may have been set in 1984 
dollars and not updated to take into account the inflationary impact of 
the last two decades.
    The general public--including our target population--does not know 
the processes and procedures by which one would obtain a modification. 
Downward modification, particularly from a default order may require an 
attorney. While a number of law schools have long proud histories of 
working with low-income moms, very few work with low-income dads.
    Finally, many state legislators do not know their level of 
flexibility in setting child support guidelines. Instead, many believe 
that the federal partner mandated the exact scheme that is in their 
state law, which is not the case.

            Sincerely,
                                  Jeffery M. Johnson, Ph.D.
                                                    President & CEO

                                <F-dash>


                              Brookings Institution
                                       Washington, DC 20036
                                                      July 25, 2001
The Honorable Wally Herger
2268 Rayburn House Office Building
Washington, D.C. 20515

    Dear Chairman Herger:

    Thanks so much for inviting me to testify before your Subcommittee 
about child support and fatherhood. It was a great privilege to appear 
before your Subcommittee.
    This letter is a response to the questions posed in your letter of 
June 29.
    1. LWith regard to the fatherhood programs outlined in legislation 
such as H.R. 1471, what do you think will be the most positive effects 
of these programs on the communities where they are implemented? Do we 
have evidence about positive changes seen to date?
    First, with regard to the anticipated positive effects of 
fatherhood programs, I think it is necessary to be humble about what 
can be achieved in the short run. There are numerous fatherhood 
programs throughout the nation, but very few have been the subject of 
scientific evaluations. Many of these programs are aimed at helping 
divorced fathers deal with issues of custody and visitation and 
learning how to be better fathers when they cannot reside with their 
own children.
    However, based on the direction the Subcommittee has taken in 
recent years, as well as legislation enacted by the House last year, I 
believe that the major interest of Congress is in programs designed 
primarily to help poor and low-income fathers. The legislation enacted 
by the House last year attempted to promote programs that would help 
poor fathers improve their employment prospects, become better parents, 
and work toward marriage. There are far fewer programs of this sort, 
and again very few good evaluations.
    Even so, in large part because of actions taken by the Human 
Resources Subcommittee way back in 1988, the Manpower Demonstration 
Research Corp. (MDRC) has conducted a rigorous experiment on the 
effects of a particular type of fatherhood program for poor fathers 
called ``Parents' Fair Share.'' The Parents' Fair Share programs, which 
enrolled about 5,600 fathers in seven cities, involved peer discussion 
groups, employment and training services, and child support services; 
the goals of the programs were to increase child support payments, 
improve the fathers' employment and earnings, and increase the fathers' 
involvement with their children. The MDRC research, which is the best 
information available on the impacts of programs for low-income 
fathers, operated in the seven cities between 1994 and 1996. MDRC has 
now published several excellent reports on the results. Unfortunately, 
the results are decidedly mixed. There is little evidence of increased 
employment or increased contact with children, but some evidence of an 
increase in the number of fathers who paid child support.
    These were the first major programs that attempted to help poor 
fathers be better providers and better parents. The history of 
innovative social programs is one of major failures and minor 
successes. Thus, the key to success is to keep trying, as the nation 
did with welfare-to-work programs. Although the first generation of 
programs for poor fathers produced only modest positive outcomes, they 
did show that poor fathers were willing participants and that the 
overwhelming majority of poor fathers indicated that they wanted to do 
a much better job of having contact with children and providing support 
for them. The fact that more poor fathers paid child support is 
consistent with this conclusion.
    Thus, it would be wrong to assert that fatherhood programs, based 
on the knowledge currently at hand, can be expected to have major 
impacts on parenting, employment, or marriage in the short run. 
However, the results from the first round of programs is not entirely 
discouraging. In fact, I believe that future programs may be able to 
produce better results, especially if they begin around the time that 
unmarried parents have their first child. A few programs of this type 
are now being designed. I believe, as do many researchers familiar with 
previous and current programs, that programs focused on helping these 
young couples, about half of whom cohabit and well over 80 percent of 
whom tell interviewers they are in serious, committed relationships, 
could produce much better outcomes than the first round of programs 
evaluated by MDRC.
    2. LStates can use their TANF or even Social Services Block Grant 
funds to operate fatherhood programs? Just from Federal and State TANF 
funds, that's a potential pool of about $26 billion per year for 
running such programs, along with all the other cash welfare programs 
States run. Do we know how many States are using TANF funds for 
fatherhood programs? What do we know about the results?
    In your letter you also asked about whether states are now using 
their TANF dollars to support programs for poor fathers. Here are two 
answers. First, based on talks with state officials and staff members 
with national organizations that represent state government, many 
states are using some TANF dollars to mount programs for poor fathers. 
However, as far as I have been able to find out, there is no formal 
survey of these programs, let alone any kind of rigorous evaluation. 
But as your letter implies, there is no question that states could use 
their TANF money to design and implement programs for poor fathers.
    Second, the Welfare-to-Work program, which is also under the 
jurisdiction of the Committee on Ways and Means, supports many 
fatherhood programs. A recent report by Shannon Harper and Christine 
Devere of the Congressional Research Service found a total of 77 such 
programs. To my knowledge these programs have not been evaluated and we 
now have little information on whether they have been successful. It is 
my understanding that the Department of Labor has worked hard to 
encourage fatherhood programs to apply for the Welfare-to-Work funds 
and that they are collecting basic administrative data on these 
programs. It may occur to you that the Congressional Research Service 
could summarize what is known about these programs from administrative 
data. However, I doubt that the available information would provide 
reliable data on whether these programs have had impacts on fathers' 
employment, earnings, payment of child support, or marriage. 
Information of this type requires random-assignment experiments, like 
the Parents' Fair Share study conducted by MDRC, and as far as I have 
been able to discover no such studies of the Department of Labor 
programs are underway.
    Having worked in this field for several years, I believe there is 
growing recognition that fathers are critical to adequate child 
development, that two-parent married families provide the best rearing 
environment for children, and that the nation has entirely too many 
single-parent families. But recent research shows that poor fathers 
have serious problems in American society: they have high unemployment 
and low earnings rates; they have high crime, arrest, and incarceration 
rates; and they have difficulty establishing lasting relationships with 
their children or their children's mother. It would be a public service 
of huge proportions if Congress could provide the resources and overall 
framework for programs that would help poor fathers avoid crime, 
improve employment, improve parenting frequency and skill, and work 
toward marriage. In my opinion, the legislation reported out of the 
Ways and Means Committee and passed by the House (but not the Senate) 
last year would, if enacted this year, be a major step in the right 
direction.
    Thanks again for the opportunity to provide information on child 
support and fatherhood to the Human Resources Subcommittee. In addition 
to this letter, MDRC has graciously agreed to send a complete set of 
their studies of the Parents' Fair Share evaluation to your 
Subcommittee staff director Matt Weidinger. I am happy to respond to 
additional questions you or your staff might have.

            Respectfully yours,
                                                Ron Haskins
                                                      Senior Fellow

                                <F-dash>

                        National Women's Law Center
                                       Washington, DC 20036
                                                      July 12, 2001
The Honorable Wally Herger, Chairman
Subcommittee on Human Resources
House Committee on Ways and Means

    I appreciate this opportunity to respond to the additional 
questions posed by the Subcommittee following the hearing on June 28, 
2001.
    1. Some members may believe that giving more child support money to 
families on welfare will make it easier for them to stay on welfare, 
rather than encouraging them to move off of welfare. How would you 
respond to these members?
    With the passage of the Personal Responsibility and Work 
Opportunity Reconciliation Act (PRWORA), welfare became a time-limited 
program.\1\ Giving more child support to families while they are on 
welfare helps them to get this important source of income in place 
before they leave welfare, furthering PRWORA's goal of making welfare a 
transitional assistance program. Wisconsin's experimental policy of 
passing through all child support to families receiving Temporary 
Assistance for Needy Families (TANF), and disregarding all of it in 
determining the TANF grant, has been demonstrated not to increase 
welfare stays. On the contrary, Wisconsin's full pass-through and 
disregard, as compared to a more limited pass-through policy, has 
stimulated an increase in child support payments that has enabled 
families to leave welfare more quickly, and provided additional income 
that can help them avoid a return to welfare.
---------------------------------------------------------------------------
    \1\ Congress set a 60-month lifetime limit on federally funded TANF 
benefits and 20 states have adopted shorter time limits. State Policy 
Documentation Project (SPDP), State Time Limits on TANF Cash 
Assistance, (February 2000), http://www.spdp.org/tanf/timelimits/
tlovervw.pdf.
---------------------------------------------------------------------------
    To transform their welfare programs into programs of transitional 
assistance, most states have adopted policies to encourage families 
receiving TANF to develop the sources of income they will need when 
they leave TANF. Given the flexibility to develop their own policies 
concerning disregards for earned income, all but five states have 
adopted earnings disregards more generous than those that existed under 
the Aid to Families with Dependent Children (AFDC) program.\2\ Although 
these policies also, in theory, could make it easier to stay on 
welfare, they have coincided with an increase in work participation and 
a dramatic decline in the welfare rolls. In addition, programs that 
increased family income as well as parental employment were found to 
produce improvements in child well-being that were not matched by 
programs that increased parental employment alone; and, the positive 
effects of earnings supplement programs on children were most 
pronounced for the children of long-term welfare recipients.\3\
---------------------------------------------------------------------------
    \2\ SPDP, Financial Eligibility for TANF Cash Assistance (June 
2000), http://www.spdp.org/tanf/financial/finansumm.htm; Treatment of 
Earnings as of January 2000, http://www.spdp.org/tanf/financial/
treatmentearnings2000.PDF.
    \3\ Pamela Morris et al., How Welfare and Work Policies Affect 
Children: A Synthesis of Research, ES-4-ES-6, Manpower Demonstration 
Research Corporation (March 2001).
---------------------------------------------------------------------------
    States have had less flexibility to experiment with giving more 
child support to families because of the requirement that they repay 
the federal share of all child support collections for children 
receiving TANF. Wisconsin, however, was able to pursue a full pass-
through and disregard policy as part of its ``W-2'' program under a 
federal waiver it received before the passage of PRWORA. In this 
experiment, for most custodial parents receiving cash assistance, all 
child support paid was passed through to the family and disregarded in 
calculating their grant. A randomly assigned control group received 
only a partial pass-through and disregard of child support.
    Wisconsin's full pass-through and disregard policy was found to 
increase significantly the percentage of noncustodial parents who paid 
support and the amount of support paid.\4\ The effects were 
particularly strong among parents of children without a history of AFDC 
receipt, because they did not have expectations based on the old 
system, in which payments went to reimburse welfare costs.\5\ 
Connecticut tested a more limited pass-through and disregard policy. In 
its ``Jobs First'' program, all child support was passed through and 
the disregard was increased from $50 to

$100. Average child support payments for ``Jobs First'' participants 
were found to be higher than for the control group subject to AFDC 
rules.\6\
---------------------------------------------------------------------------
    \4\ Daniel Meyer and Maria Cancian, W-2 Child Support Demonstration 
Evaluation Phase 1: Final Report, Executive Summary, Institute for 
Research on Poverty, University of Wisconsin (2001), http://
www.ssc.wisc.edu/irp/csde/phase1-vol1-es.htm.
    \5\ Id., Volume II, Chapter 2, at 6-7.
    \6\ Dan Bloom et al., Jobs First: Implementation and Early Impacts 
of Connecticut's Welfare Reform Initiative 119, 117, Manpower 
Demonstration Research Corporation (2000).
---------------------------------------------------------------------------
    Under Wisconsin's full pass-through and disregard policy, mothers 
received more child support than under the old rules, in part because 
of the increase in child support paid and in part because they were 
allowed to receive more child support income. However, refuting the 
concerns that some members may have that such a policy would increase 
welfare stays, the researchers found that:

          receiving child support is associated with an increased 
        likelihood of moving to an upper tier [in which families 
        receive supportive services but not cash] or off the program by 
        the end of the first year. Thus, to the extent that the reform 
        increases support, it may also decrease W-2 participation.\7\
---------------------------------------------------------------------------
    \7\ Id., Volume I, Chapter 4, at 49-50.

    In addition, researchers found that the Wisconsin policy produced 
no difference in overall government costs, because cost savings in 
other programs offset the child support payments that were given to 
families instead of retained.\8\
---------------------------------------------------------------------------
    \8\ Id., Executive Summary.
---------------------------------------------------------------------------
    Receipt of child support also reduces the length of time a family 
receives welfare by helping families avoid a return to welfare and 
increasing their well-being.\9\ Analysis of national data found that 
women receiving any amount of support are less likely to return to 
welfare; that support received by a young woman in the first years of a 
child's life is positively related to her later self-sufficiency; and 
that women who received support in each of the first five years after 
exiting welfare were among those who achieved modest levels of economic 
well-being.\10\ A study in Washington State found that good child 
support payments were associated with lower recidivism rates, which 
substantially increased time off of welfare.\11\ An analysis in Texas 
found that for every $100 in child support received per quarter by a 
caretaker who left AFDC, the probability of welfare recidivism in that 
quarter was reduced by one percentage point, and the receipt of child 
support had over a three times larger effect on recidivism than an 
equivalent dollar amount of the caretaker's own earnings.\12\ After 
reviewing all of the available research, the 1999 Report to Congress on 
child support and welfare recidivism concluded:
---------------------------------------------------------------------------
    \9\ See generally, U.S. Department of Health and Human Services 
(DHHS), Office of Child Support Enforcement (OCSE), 1999 Report to 
Congress: Analysis of the Impact on Welfare Recidivism of PRWORA Child 
Support Arrears Distribution Policy Changes, http://www.acf.dhhs.gov/
programs/cse/rpt/1999rpt/1999report.htm.
    \10\ Daniel Meyer and Marcia Cancian, ``Child Support and Economic 
Well-Being Following an Exit from AFDC,'' in OCSE, XIX Child Support 
Report (May 1997).
    \11\ Carl Formoso, ``Early Findings of the Effect of Child Support 
and Self-Sufficiency Programs in Washington State on Reducing Direct 
Support Public Costs,'' in OCSE, XXI Child Support Report (January 
1999).
    \12\ Deanna Schnexnayder et al., The Role of Child Support in Texas 
Welfare Dynamics 6, Center for the Study of Human Resources, Lyndon B. 
Johnson School of Public Affairs (1998).

          Based on research findings, even small amounts of child 
        support payments reduce welfare recidivism. . . . As the 
        residual [TANF] caseload decreases over time, it increasingly 
        comprises hard-to-place individuals who face substantial 
        barriers to employment. . . . [T]he relative value of even 
        incremental increases in child support will be greater for the 
        hard to place. Additionally, if these individuals reside in a 
        low-benefit State, the relative replacement value for the TANF 
        grant will be greater. This combination of factors suggests 
        that PRWORA distribution policies that increase child support 
        payments to these families may have an even greater effect on 
        welfare exits.\13\
---------------------------------------------------------------------------
    \13\ 1999 Report to Congress, supra, Executive Summary.

    Congress has recognized the importance of giving more child support 
to families that have left welfare. PRWORA gave families leaving TANF 
greater claims to their past-due child support than they had under 
AFDC. This Subcommittee is considering H.R. 1471, which would eliminate 
remaining exceptions to ``Family First'' distribution for families that 
have left TANF. The changes to the post-TANF assignment and 
distribution rules in H.R. 1471 certainly would increase the amount of 
child support that families leaving TANF receive, and would help them 
avoid a return to welfare. However, changes that also would make it 
feasible for states to change the distribution rules for families while 
they are on welfare could produce additional increases in the amount 
and timeliness of the child support that families receive when they 
leave welfare for two reasons.
    First, if child support payments were passed through to families 
while they were on welfare, there would be no disruption in payments 
when they left welfare. Although families are legally entitled to 
receive current support payments after they leave welfare, in practice 
there have been delays of several months in some states in redirecting 
payments from the state to the family.\14\
---------------------------------------------------------------------------
    \14\ Vicki Turetsky, What If All the Money Came Home? 6, Center for 
Law and Social Policy (2000), http://www.clasp.org/pubs/childenforce/
pilr2300.htm.
---------------------------------------------------------------------------
    Second, the incentive effects on support payments are likely to be 
greater if states are able to change the mission and message of the 
child support program in a more comprehensive way. As noted above, 
Wisconsin had a harder time explaining the new policy to families that 
had experienced the old system, and the increases in payments, although 
they occurred, were lower among prior recipients than among those new 
to the system. This suggests that the incentive effect would be greater 
if states could give parents a simple, consistent message: than 
whenever noncustodial parents pay support, whether their children are 
receiving assistance at the time or not, those payments directly 
increase their children's well-being. This would complement the efforts 
of programs working with low-income fathers to encourage and help them 
to provide more economic and emotional support to their children.
    In sum, the evidence shows that giving more child support to 
families on welfare will make the child support program a more 
effective tool for promoting self sufficiency. At a minimum, federal 
policy should eliminate the barriers to states' adopting such policies.
    2. In general, what are State policies toward passing through child 
support to families while they are receiving TANF benefits? How many 
States do you think would change their policy if H.R. 1471 were enacted 
into law?
    As of January 1999, the latest date for which complete state-by-
state information is available, slightly more than half the states (28, 
including the District of Columbia) did not pass through and disregard 
child support to families receiving TANF. Eighteen states passed 
through and disregarded child support up to various amounts: $50 per 
month (15 states), $40 (1 state), $75 (1 state), $100 (1 state). One 
state passed through and disregarded all child support for TANF 
recipients. Four states had policies other than a pass-through and 
disregard that permit TANF recipients to benefit from child support 
paid on their behalf. One of the four retained child support payments, 
but increased the TANF grant by up to $50 per month for those on whose 
behalf current support is collected. (This has the same effect on 
family income as a $50 pass-through and disregard, but is administered 
differently.) Three of the four had no specific child support 
disregard, but allowed recipients to use other income, including child 
support, to ``fill the gap'' between the state's maximum benefit and 
the income eligibility standard. If the earnings of a family receiving 
TANF did not fill the gap, child support income would be disregarded. 
(Two states with a $50 pass-through and disregard also had fill-the-gap 
policies.) \15\
---------------------------------------------------------------------------
    \15\ Paula Roberts, State Policy Re: Pass-through and Disregard of 
Current Month's Child Support Collected for Families Receiving TANF-
Funded Cash Assistance As of January 1, 1999, CLASP (1999), http://
www.clasp.org/pubs/childenforce/1999cht.htm.
---------------------------------------------------------------------------
    The Congressional Budget Office estimates, based on conversations 
with state representatives, that if federal law were changed to 
eliminate the requirement that states reimburse the federal share of 
child support collections passed through and disregarded for TANF 
families, about half the states that do not currently have a $50 pass-
through and disregard would adopt such a policy (about 14 states). In 
addition, 10 to 20 percent of states that have a $50 pass-through and 
disregard would increase it (two to three states).\16\
---------------------------------------------------------------------------
    \16\ Information about the assumptions CBO used in estimating the 
cost of H.R. 4678 (106<SUP>th</SUP> Congress) and H.R. 1471 
(107<SUP>th</SUP> Congress) obtained in conversations between NWLC 
staff and CBO analyst Sheila Dacey in fall 2000 and spring 2001.
---------------------------------------------------------------------------
    I know of no other estimates of the number of states that would 
change their policies in response to the legislation. However, 
organizations representing states have expressed both considerable 
interest in experimenting in this area and concerns about fiscal 
impacts in some states,\17\ suggesting that state responses will vary.
---------------------------------------------------------------------------
    \17\ See, e.g., American Public Human Services Association, 
Crossroads: New Directions in Social Policy 62 (2001, http://
www.aphsa.org/reauthor/crossroads.pdf; National Governors' Association 
Policy Position, Child Support Financing Policy, Passthrough, 
Sec. 14.3.1 (2001), http://www.nga.org/nga/legislativeUpdate/
1,1169,C__POLICY__POSITION-D__530,00.html.
---------------------------------------------------------------------------
    3. Please expand on the importance of requiring review and 
modification of child support orders for TANF recipients every 3 years 
and for reviewing the child support cases of families leaving TANF.
    Making an extra effort to ensure that families leaving TANF receive 
appropriate child support and medical support would benefit families 
and reduce returns to welfare (see research cited in response to 
question 1, above). Unfortunately, few IV-D agencies are systematically 
undertaking such an effort. Requiring that IV-D agencies conduct a full 
review of the cases of families leaving TANF would ensure that states 
make a priority of improving services to this vulnerable population.
    Under PRWORA, periodic reviews of child support orders are no 
longer required in TANF cases. States are supposed to notify all 
parents, TANF and non-TANF, custodial and noncustodial, every 3 years, 
of their right to request a review of their order. However, a 1999 
review of state policies and practices in this area by the Office of 
Inspector General of the Department of Health and Human Services found 
that 18 states did not notify parents of their right to request a 
review, and nine had no plans to do so, despite the requirements of 
federal law. No state used proactive measures to promote review 
requests from parents close to exiting public assistance. And, although 
all states reported that it was their policy to check for and add 
medical support to orders they reviewed, in seven of the ten states 
visited by the OIG, the IV-D staff interviewed said that they did not 
always pursue medical support if the order did not otherwise require 
adjustment.\18\ Without adequate notice to parents, including the 
financial information parents need to make an informed decision about 
whether to request a review, the current ``on-request'' review and 
modification system will not ensure that orders reflect the changing 
circumstances of parents and children.
---------------------------------------------------------------------------
    \18\ DHHS, OIG, Review and Adjustment of Support Orders 7-8, OEI-
05-98-00100 (1999).
---------------------------------------------------------------------------
    Requiring that IV-D offices conduct a full case review for families 
leaving TANF and take additional actions, if appropriate, to locate 
noncustodial parents, establish paternity and support awards, review 
and modify awards, and collect support, could produce significant 
increases in child support. In 1999, only 24 percent of current 
assistance cases had collections as compared to 42 percent of never-
assistance cases.\19\ The main reason for the difference was that fewer 
current assistance cases had orders: 44 percent as compared to 64 
percent of never-assistance cases. Once an order was established, the 
difference in collection rates was smaller; 56 percent of current 
assistance cases with orders had collections, as compared to 66 percent 
of never-assistance cases.
---------------------------------------------------------------------------
    \19\ OCSE, Child Support Enforcement FY 99 Preliminary Data Report, 
Table 2 (2000).
---------------------------------------------------------------------------
    Intensively working the cases of parents who are about to leave 
welfare will require additional resources--but can produce results. In 
Minnesota, for example, several years ago the state legislature offered 
performance bonuses to counties for establishing paternities, reviewing 
orders, and enrolling children in the noncustodial parent's insurance 
plan. Hennepin County substantially increased its staffing in those 
areas--and increased the number of paternities established each month 
by 40 percent, conducted four times as many modification reviews, and 
increased threefold the number of children enrolled in the noncustodial 
parent's medical insurance plan. Moreover, results were obtained even 
in the older AFDC cases.

          ``[C]lients are now better prepared for self-sufficiency 
        because more cases have orders and older orders now have higher 
        amounts. We were much better prepared for welfare reform than 
        we would have been without this program.'' \20\
---------------------------------------------------------------------------
    \20\ OCSE, Compendium of State Best Practices and Good Ideas in 
Child Support Enforcement 2000, Fifth Edition, ``Management Methods'' 
(Hennepin County Bonus Incentive Program), quoting Barry Bloombren, 
Hennepin County Child Support Division Manager, http://
www.acf.dhhs.gov/programs/cse/pubs/reports/best/minnesota.html#N15ad.

    4. Dr. Johnson's testimony (in his attachment ``NPCL Peer Learning 
---------------------------------------------------------------------------
College,'' Page 4) cites a report that suggests that. . . .

          ``. . . arrears will remain high unless child support 
        agencies enter realistic orders in low-income cases, compromise 
        uncollectible arrears, and work cooperatively with community-
        based organizations and state agencies that can help 
        noncustodial parents overcome the underlying problems that 
        prevent them from getting and keeping the kinds of jobs needed 
        to support their children.''

    Would you agree with his statement? What does it take to, for 
example, ``compromise uncollectible arrears?''
    I would agree generally with the statement, but emphasize that it 
refers to low-income obligors and to arrears owed to the state, not to 
custodial parents. Some arrearages accumulate because noncustodial 
parents with the ability to pay have avoided paying child support; 
however, those noncustodial parents and those arrearages are not the 
subject of Dr. Johnson's testimony, or this response.
    The large arrearages that many low-income noncustodial parents owe 
to the state are a problem not only for them, but for custodial parents 
and children, as representatives of both groups explained in the 
``Common Ground'' project of the National Women's Law Center and the 
Center on Fathers, Families, and Public Policy.\21\ Many states pursue 
a variety of policies that create particularly high arrears for the 
low-income parents of children receiving public assistance. For 
example, the vast majority of states order noncustodial parents to pay 
retroactive support in public assistance cases, and a few order parents 
to reimburse Medicaid birthing costs, creating large debts to the state 
as soon as an order to pay support is entered. Orders may be entered 
that are unrelated to ability to pay; some states set a high percentage 
of their orders by default, and set the amount of the award by imputing 
income when the obligor's income or earning capacity is unknown. In the 
case of low-income obligors who have very low and sporadic earnings, 
these imputed orders may far exceed the obligors' ability to pay. Or, 
awards that are realistic when entered may be difficult or impossible 
to modify when circumstances change.\22\
---------------------------------------------------------------------------
    \21\ National Women's Law Center and Center on Fathers, Families 
and Public Policy, Family Ties: Improving Paternity Establishment 
Practices and Procedures for Low-Income Mothers, Fathers and Children 
9-11, 28, http://www.nwlc.org/pdf/commgrnd.pdf.
    \22\ DHHS, OIG, The Establishment of Child Support Orders for Low-
Income Non-custodial Parents, OEI-05-99-00390 (July 2000); Paula 
Roberts, An Ounce of Prevention and a Pound of Cure: Developing State 
Policy on the Payment of Child Support Arrears by Low Income Parents, 
CLASP (2001).
---------------------------------------------------------------------------
    Policies that create huge arrearages for low-income noncustodial 
parents make it less likely that these parents will make current 
support payments. The Inspector General found that noncustodial parents 
who were charged for more than 12 months of retroactive support were 
two and a half times more likely to make no support payments following 
the establishment of an order than noncustodial parents who were not 
charged retroactive support.\23\ Noncustodial parents that owe large 
and face the prospect of having up to 65 percent of their wages 
garnished indefinitely for repayment of the debt, may quit their jobs, 
move, or join the underground economy, which is already an important 
source of income for some.\24\ Programs that work with low-income 
noncustodial fathers have found arrearage policies, along with policies 
that give current support payments to the state instead of to their 
children, to be major barriers to recruiting participants and 
encouraging them to participate in the formal child support system.\25\ 
Thus, harsh and unrealistic arrearage policies can deprive children of 
badly needed support, and ultimately increase public costs.
---------------------------------------------------------------------------
    \23\ OIG, Establishment of Child Support Orders, supra.
    \24\ Fragile Families Research Brief No. 3, Unwed Fathers, the 
Underground Economy, and Child Support Policy, Bendheim-Thoman Center 
for Research on Child Wellbeing and Social Indicators Survey Center, 
Columbia University (January 2001).
    \25\ Fred Doolittle and Suzanne Lynn, Lessons for the Child Support 
Enforcement System from Parents Fair Share, Manpower Demonstration 
Research Corporation (1998); Wendell Primus and Kristina Daugirdas, 
Improving Child Well-Being by Focusing on Low-Income Noncustodial 
Parents in Maryland, Abell Foundation (September 2000).
---------------------------------------------------------------------------
    In addition to developing policies that prevent the buildup of 
arrearages, some states have begun to consider compromising arrears 
owed to the state. Under federal law, a child support obligation 
becomes a final judgment when it comes due and cannot be retroactively 
modified. 42 U.S.C. Sec. 666(a)(9). However, as with other judgments, 
the individual or entity to whom the child support judgment is owed may 
agree to a compromise. Thus, states already have the ability to 
compromise arrearages permanently assigned to the state.\26\
---------------------------------------------------------------------------
    \26\ David Gray Ross, Commissioner, OCSE, ``State IV-D Program 
Flexibility with Respect to Low-Income Obligors,'' PQI-00-13 (September 
2000).
---------------------------------------------------------------------------
    States can consider a variety of factors in determining when and 
how they will compromise arrearages owed to the state. For example, the 
state could consider the source of the arrearage. Was it the result of 
an on-going failure to pay a support order by someone with the ability 
to pay? If so, compromise might be rejected. Or did it arise all at 
once, as retroactive support or for Medicaid reimbursement? Was the 
order, when set, based on unrealistic assumptions about the obligor's 
ability to pay? Did the arrearage accumulate while the obligor was 
unemployed, incapacitated, or incarcerated? States also could link 
forgiveness of the debt to current behavior; for example, tying 
adjustments to payment of current support or participation in a 
program. States also might treat forgiveness of interest or fees 
differently from forgiveness of the obligation, or limit forgiveness 
policies to low-income obligors.\27\
---------------------------------------------------------------------------
    \27\ For more details on these and other options see Roberts, An 
Ounce of Prevention, supra.
---------------------------------------------------------------------------
    Principled policies allowing the compromise of arrearages owed to 
the state are consistent with the message of parental responsibility 
that the child support program seeks to convey. They recognize that 
some debts to the state are not only uncollectible today, but may have 
been unrealistic from the beginning, and that securing parental support 
for children should take precedence over cost recovery.
    5. In his testimony, Ron Haskins raises the issue that, as the 
welfare caseload declines, there are fewer potential child support 
collections for parents on welfare. This has been a partial funding 
source for operating child support programs. Aside from simply 
expecting the State or Federal governments to provide more funds to 
fill this gap, can you offer us any other creative ideas for addressing 
this problem, which is likely to be with us for the long term?
    I would emphasize to the Subcommittee that the financing gap that 
is projected in the child support program is the result of declining 
welfare caseloads; state child support agencies have increased their 
collections per welfare case. If federal and state welfare policies are 
to continue to emphasize family self-sufficiency, with only 
transitional use of public assistance, then state and federal 
governments must be prepared to provide adequate and stable financing 
for the child support program to help families become self-sufficient 
and enforce the legal responsibility of parents to support their 
children.\28\
---------------------------------------------------------------------------
    \28\ See Turetsky, What If All the Money Came Home, supra.
---------------------------------------------------------------------------
    There is no easy alternative. Attempting to finance the child 
support system by charging families for the child support services they 
receive will not provide the child support enforcement system with a 
stable source of financing and would significantly harm the low and 
moderate income families who depend on the IV-D system. Over 75 percent 
of the families served by the IV-D program have incomes below 250% of 
poverty.\29\ They can ill afford to lose part of their child support 
income. Agencies might consider charging fees only to higher income 
families; but the small amount that could be collected from this small 
group of families would hardly justify the administrative expense.
---------------------------------------------------------------------------
    \29\ DHHS, ASPE, Characteristics of Families Using Title IV-D 
Services in 1995 (1999).
---------------------------------------------------------------------------
    It is for these reasons that few states make significant use of 
fees against voluntary users of the IV-D system. According to a report 
on the financing of the IV-D system done for the Department of Health 
and Human Services, child support fees collected from parents 
represented only two percent of the funds states use to finance their 
child support programs. And, although when the study was conducted 
state and federal governments were already aware that falling welfare 
caseloads would mean falling welfare collections, it also found that 
most states were not contemplating making greater use of fees.\30\
---------------------------------------------------------------------------
    \30\ Michael Fishman, et al., State Financing of Child Support 
Enforcement Programs, Final Report to DHHS/ASPE, Lewin Group (1999).
---------------------------------------------------------------------------
    Some have suggested that fees could be paid by noncustodial parents 
instead of deducted from support. In the end, this approach also is 
likely to result in lower child support payments, especially for low-
income families. Excessive fees could discourage parents from paying 
through the formal system, increase administrative costs as cases moved 
in and out of the IV-D system, and increase tensions between custodial 
and noncustodial parents. Child support awards could be reduced to 
adjust for the amount being charged in fees. Finally, for low-income 
noncustodial parents, assessing large fees could simply increase 
uncollectible arrearages, and ultimately reduce the amount of child 
support paid.
    Ensuring that children receive support from both parents by 
enforcing support obligations and helping low-income parents to provide 
support is a vital public function. Effective child support enforcement 
not only increases family income and reduces reliance on public 
assistance, but is linked to reductions in divorce and nonmarital birth 
rates,\31\ and to increases in children's educational attainment.\32\ 
Moreover, child support enforcement is a function that must be 
performed and financed jointly by the state and federal governments.
---------------------------------------------------------------------------
    \31\ Irwin Garfinkel, Theresa Heintze, and Cheien-Chung Huang, 
Child Support Enforcement: Incentives and Well-Being 14, Paper 
Presented at the Conference on Incentive Effects of Tax and Transfer 
Policies, Washington, DC (2000); Burt Barnow et al., The Potential of 
the Child Support Enforcement Program to Avoid Costs to Public 
Programs: A Review and Synthesis of the Literature 39-45, Final Report 
Prepared for DHHS (April 2000).
    \32\ Barnow, Potential of the Child Support Program, supra, at 46-
48.
---------------------------------------------------------------------------
    There are a number of important financing questions to consider: 
how much of the funding should come through incentive payments and how 
much through matching funds; whether the incentive system could work 
more effectively if the pool of funds was not capped; when states 
should be able to use TANF or TANF MOE funds for functions related to 
child support. However, the focus should be on restructuring public 
financing. Low-income families that are struggling to support 
themselves without public assistance should not be expected to continue 
to bear the burden of financing the child support enforcement program.

            Sincerely,
                                             Joan Entmacher
                                        Vice President and Director

                                <F-dash>


    [Submissions for the record follow:]

 Statement of John Smith, Research Analyst, Alliance for Non-Custodial 
                  Parents' Rights, Burbank, California

Analysis of the Background Information
    A problem cannot be solved until it is recognized and understood. 
The information presented in the background section contains many 
misunderstandings, myths and falsehoods.
    CSE programs were established in 1975. Year after year, we hear of 
record amounts of child support that has been collected. If child well-
being is proportional to the amount of money one has, then we should be 
experiencing record-high child well-being. There has been a 100 percent 
increase in collections from 1993 to 2000. Has child well-being 
increased 100%? To paraphrase Ronald Reagan, ``Are children better off 
today than they were in 1975?''
    The 1996 welfare reform act is all too typical of child support 
legislation. Its sole focus is on dollars collected, not child well-
being. If collecting money is so important for children, then why not 
amend our laws to grant custody to the higher wage earner--usually the 
father? This would also reduce the collection problem. Even though 
noncustodial mothers have by far the worst child support compliance 
rate, all things being equal, because their orders are systemically set 
lower than a father's child support order,<SUP>1</SUP> less money would 
go uncollected.
---------------------------------------------------------------------------
    \1\ Farrell, Warren, Ph.D., ``Father and Child Reunion,'' Tarcher-
Putnam, 2001, p. 175, from an HHS study.
---------------------------------------------------------------------------
    The 1996 welfare reform act still promotes the notion that one 
parent can be replaced by money. Conservatives correctly recognized 
that sitting at home collecting a welfare check was wrong, but failed 
to recognize that sitting at home collecting a child support is just as 
wrong. Child support contains no accountability on the part of the 
custodial parent, as to how it's spent. Economists estimate that only 
$1 out of every $5 in child support is spent on the child's 
needs.<SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ Comanor, William S., Ph.D., ``Child Support Feels Different on 
Male Side,'' Los Angeles Times, Feb. 22, 1999.
---------------------------------------------------------------------------
    Social science research has been showing us for the past 10-20 
years that this is wrong. Kids need both parents. Money is not the 
solution, it is the problem. Parental involvement is the solution. It's 
what kids need. It reinforces each parent's responsibilities. We must 
remove the profit motive from family disintegration.
    A common myth is that poverty is the root of all these problems and 
money is the cure for poverty (no distinction of earned versus unearned 
money is made--a fatal flaw). Studies show an inversely proportional 
relation between child support and child well-being. These studies show 
states with the highest child support and welfare awards rank lowest in 
child well-being, while states with the lowest child support and 
welfare awards had children with higher child well-being?<SUP>3</SUP> 
The key determinant is family structure. Child support and welfare are 
single-mother household enablers. And don't use poverty as an excuse. 
Recent immigrants living below the poverty line had children with 
better academic performance and fewer behavioral problems than kids 
living above the poverty line. The reason: the immigrant families 
tended to be intact families. Poverty doesn't cause broken homes, 
broken homes cause poverty.
---------------------------------------------------------------------------
    \3\ Testimony of Cynthia L. Ewing, Senior Policy Analyst, 
Children's Rights Council, before the US House of Representatives 
Committee on Ways and Means, Subcommittee on Human Resources, Feb. 6, 
1995.
---------------------------------------------------------------------------
    Another major problem with using money is that in today's dynamic, 
global economy--one's economic stability is unpredictable, as evidenced 
by the stock market and the economy--last year, the sky was the limit. 
This year, a constant stream of bad news. Our child support laws ignore 
this reality, which is why many ignore these laws. If you remove the 
specific monetary amounts from child support and simply let each parent 
raise their child according to their own beliefs, we'd be much better 
off.
    By forcing people to pay a fixed amount of their income (based on a 
percentage, but not allowed to fluctuate with actual income), we ignore 
reality. By basing child support NOT on what it costs to raise a child, 
but on what the average person spends (USDA figures), we strip a person 
of their individuality and force average values down their throats. 
Since we have the second-lowest savings rate and one of the highest 
debt rates of Western countries, this goal is nothing to aspire down 
to. Ironically, it punishes the responsible (frugal) people the most.
    The increasingly draconian measures passed by Congress now threaten 
everyone's privacy and freedoms. The Financial Institution Data 
Matching (FIDM) program scours everyone's bank account, whether they 
have been part of this child support system or not. Ditto for the 
National Directory of New Hires (NDNH). The Federal Parent Locator 
System (FPLS) is used against fathers, but if the mother kidnaps his 
children, it will not be used for the father. Blatantly sexist policy.
    Paternity establishments have hit record levels, but there's a dark 
side to this story which is now becoming very public. 28% of DNA tests 
reveal that men accused of being the father are in fact, not the 
father.<SUP>4</SUP> In Los Angeles County, over 70% of paternity 
establishments are done on a default basis.<SUP>5</SUP> The DA's office 
estimates that more than 350 innocent men are incorrectly named in 
child support orders every month.<SUP>6</SUP> This means the alleged 
fathers were not present. Very often, the alleged father was never 
notified. Paternity fraud perpetrators have not been prosecuted, while 
innocent men are being driven into poverty and homelessness by child 
support policy.
---------------------------------------------------------------------------
    \4\ American Association of Blood Banks 1999 Annual Report. See 
also ``In Genetic Testing for Paternity, Law Often Lags Behind 
Science,'' New York Times, March 11, 2001.
    \5\ Los Angeles Times, April 12, 1998, B1.
    \6\ Los Angeles Times, Oct. 11, 1998, A27.
---------------------------------------------------------------------------
    Creating programs to ``improve the employability and earnings of 
non-custodial parents'' is nothing short of slavery. It sounds nice. 
Sounds like you're here to help them, but when you see that federal law 
permits wage garnishment of up to 65% of their pre-tax wages, this 
program is slavery. Enslaving men to perform labor to earn money which 
is then blindly handed over to custodial mothers for use at their 
discretion.
    Is the ``Child Support Distribution Act of 2001'' really seeking to 
enhance the role of noncustodial fathers or to enhance the pocketbook 
of custodial mothers? If the purpose is to enhance the father's role, 
then money will be de-emphasized and parental involvement (visitation) 
will be greatly emphasized.
    The proposals want to promote marriage. This sounds well and good, 
but when one considers what happens to married men in family courts and 
child support, this becomes a specious goal. Dr. Sanford Braver of 
Arizona State University points out the two distinct groups of 
fathers--never-married and divorced:
    ``It should be obvious that the two groups should always be 
separately addressed in any analysis or policy discussions. The 
distinction, however, has been too infrequently recognized or 
cited.''\7\
---------------------------------------------------------------------------
    \7\ Braver, Sanford, Divorced Dads--Shattering the Myths, Tarcher 
Putnam, 1998, p. 22.
---------------------------------------------------------------------------
    If, for the first time in history, this government program (HR 6) 
works perfectly as intended, we will have solved the unmarried portion 
of the problem. Men will marry and take responsibility of their 
children.
    Alas, some small flaws exist in this thinking. What do we know 
about divorced fathers? We know that women initiate the vast majority 
of divorces. And no, folks, these women are not ``trapped in bad 
marriages'' or ``abusive relationships'' that many feminists with an 
agenda claim (ironically these same feminists have never been married 
or raised children). They had simply ``grown apart'' or ``didn't feel 
appreciated.'' Dr. Braver questioned the women actually going through 
the judicial system and they loved it. Why? Because they got whatever 
they wanted and felt they were in complete control. We know that men 
are helpless to stop this, thanks to no-fault divorce laws. We know 
that the judicial system has a systematic bias against including these 
fathers in their children's lives (known as the tender years doctrine). 
We know that politicians believe men to be politically impotent and 
therefore write gender-biased laws favoring women.
    Once these poor, irresponsible fathers become middle-class, 
responsible fathers, they will face the same unfairness of the child 
support system. In the divorced group, it hurts even more because these 
fathers were connected with their children, they are educated enough to 
know they are getting screwed out of their money and children. So while 
HR 6 is looking for ways to raise never-married fathers up, our system 
forces divorced fathers into exile by placing into law excessive child 
support awards and draconian punishments. Then politicians wonder why 
we have a fatherlessness problem.

Recommendations

1. Shared Parenting
    Make equal shared parenting the law of the land. Each parent would 
get exactly 50% of the physical custody time with each parent, unless 
the parents reach a voluntary agreement stating otherwise. Neither 
parent is allowed to move away (outside the school district or county) 
unless a voluntary agreement is reached. The concept of custody is 
eliminated--neither parents owns the child. Because each parent is 
spending equal time raising their children, the need to collect child 
support disappears. Write the law in such a way that eliminates all 
discretion from judges, as judges tend to write law from the bench. Any 
judge that deviates from this statute should be removed without pay 
until a full investigation is completed as to why she did not follow 
the law (similar to an officer involved shooting).

2. Paternity Fraud
    Prohibit courts and administrative agencies from prosecuting a man 
whose DNA test results prove he is not the father.
    Make DNA testing a prerequisite for opening child support cases.
    Paternity will be based strictly on DNA evidence, not on actions 
such as holding yourself out as the father, written or signed paternity 
acknowledgements, confessions or statements. Since the man was given 
fraudulent data to base his decisions on, any paternity decision 
represents an invalid contract. Exceptions to the strict DNA rule would 
be (1) when the father has legally adopted the child and/or (2) when 
the child was conceived through a sperm donor.
    Vigorously prosecute perpetrators of paternity fraud.
    Allow the alleged father to have custody of the non-biological 
child and make the mother pay him child support.
    No statute of limitations placed on the alleged father for 
challenging paternity or make the statute of limitation on paternity 
determination the same length as those used for failure to pay child 
support. For example, the statute of limitations might be 7 years from 
the last time the mother or State asked for (not received) child 
support--which was a fraudulent action.
    Provide the victim the ability to sue the mother to recover any and 
all child support, legal costs, other costs, lost wages, lost interest 
and emotional damages. [Since the State provide enforcement services 
for collecting child support, perhaps the State should be mandated to 
provide for recovering this fraudulently obtained money.]
    Allow family victims (e.g. second wives, parents) to sue the mother 
for damages, including emotional damages.

3. Promoting Marriage
    Instead of, or in addition to, creating new programs to promote 
marriage, eliminate the existing programs that punish married men.
    Eliminate no-fault divorce laws. Withhold federal funds to states 
that do not repeal no-fault divorce laws (I believe the Feds withheld 
highway funds to Arizona when the State failed to make Martin Luther 
King's birthday an official holiday).
    Withhold federal funding from any and all groups that provide no-
cost and low-cost divorce clinics. This is currently being done to 
groups that provide abortions.

4. Promoting Fatherhood
  <bullet> In addition to making shared parenting law that national 
        standard, we need to recognize that:
  <bullet> Fathers are much more likely than mothers, to make sure the 
        children spend time with the other parent.
  <bullet> Fathers want to spend more time with family; Mothers want to 
        spend more time on their careers.
  <bullet> The more money a man earns, the more likely he is to marry. 
        Just the opposite is true for women.
  <bullet> Single-mothers are afraid to enforce rules and discipline as 
        they fear losing their child's love. This leads to kids that 
        respect nobody, feel they don't have to obey rules (they never 
        had to before) and there are no consequences for breaking 
        rules. The world revolves around them.
  <bullet> Fathers' rights groups are fighting for more responsibility 
        in their children's lives, while Women's rights groups are 
        fighting for less responsibility (e.g. govt funded daycare 
        centers).
  <bullet> We must stop granting women special privileges, often with 
        reduced responsibilities. For instance, pregnant women can 
        choose to:
    <bullet> Have the baby and remain as an intact family.
    <bullet> Have the baby and charge the father with child support.
    <bullet> Anonymously drop off the newborn at designated centers, 
            without fear of prosecution.
    <bullet> Have an abortion.
    <bullet> Put the child up for adoption.
  <bullet> Why aren't men offered any of these choices? This reflects 
        the gender bigotry rampant in our society.
  <bullet> End gender bigotry. As Dr. Farrell points out, ``He gets 
        jail; She gets an array of social services offered to her.''
    It's time we stopped blaming fathers (and men) for everything that 
is wrong in the world. Until we do, we shouldn't expect things to get 
any better.

                                <F-dash>


 Statement of the Association for Children for Enforcement of Support, 
                      Inc., Sacramento, California

    ACES has 47,000 members and almost 400 chapters located in 48 
states. We are representative of the families whose 20 million children 
are owed over $71.9 billion in unpaid child support. We have banded 
together to work for effective and fair child support enforcement. ACES 
believes that parents who fail to meet legal and moral child support 
obligations should not benefit from federal government funding. We 
support The Child Support Distribution Act of 2001, H. R.1471 which 
will ensure that children benefit from support paid and simplified 
support payment distribution.
There are 20 million U.S. children owed over $71.9\1\ billion in unpaid 
        child support
  <bullet> State governments alone have been unable to collect 
        sufficient back-support due (see Chart 1)
---------------------------------------------------------------------------
    \1\ Preliminary Statistics 1999, Federal Office of Child Support.
---------------------------------------------------------------------------
  <bullet> State governments have been unable to collect support in 
        interstate cases (see Chart 2)
  <bullet> New State government central payment systems are failing to 
        distribute all payments. States had over $634 million \2\ in 
        undistributed child support payments at the end of 2000 (see 
        Chart 10)
---------------------------------------------------------------------------
    \2\ Chart 10 shows $634 million in undistributed funds. $120 
million of this could be due to the 2-day legal delay in distribution 
of funds ($15.8 billion in 260 workdays/year).
---------------------------------------------------------------------------
Children who receive child support:
  <bullet> Are more likely to have contact with their fathers \3\
---------------------------------------------------------------------------
    \3\ Argys, Peter, Brooks-Gunn, and Smith, ``Contributions of Absent 
Fathers to Child Well-Being: The Impact of Child Support Dollars and 
Father-Child Contact, University of Colorado (1996).
---------------------------------------------------------------------------
  <bullet> Have better grade point averages and significantly better 
        test scores.\4\
---------------------------------------------------------------------------
    \4\ Graham, Beller, and Hernandez, ``The Relationship between Child 
Support Payments and Offspring Educational Attainment'' in Child 
Support and Child Well-being (Garfinkel, MacLanahan, and Robbins (eds), 
Washington DC (1994).
---------------------------------------------------------------------------
  <bullet> Have fewer behavior problems.\5\
---------------------------------------------------------------------------
    \5\ H McLanahan, et al, National Survey of Families and Households 
(1994).
---------------------------------------------------------------------------
  <bullet> Remain in school longer \6\
---------------------------------------------------------------------------
    \6\ Chart 10 shows $634 million in undistributed funds. $120 
million of this could be due to the 2-day legal delay in distribution 
of funds ($15.8 billion in 260 workdays/year).
---------------------------------------------------------------------------
    Receipt of child support is associated with significantly higher 
expenditures on children than any other source of income.
    About 20% of our nation's children have a parent living outside the 
household and are entitled to child support. They are four times more 
likely to be poor and five times more likely to receive food stamps 
than children who live with two biological parents. Child support, when 
received by low income families, accounts for 26% of family income.
Strong child support enforcement:
  <bullet> Reduces the divorce rate \7\
---------------------------------------------------------------------------
    \7\ Nixon, Lucia, The Journal of Human Resources, XXXII-1, Winter 
1997, Vol. 32, No. 1 and Barnow, Burt S., et al ``The Potential of the 
Child Support Enforcement Program to Avoid Costs To Public Programs: A 
Review and Synthesis of the Literature, U.S. Department of Health and 
Human Services, HHS 100-97-007 (2000).
---------------------------------------------------------------------------
  <bullet> Reduces the number of births to never married parents \8\
---------------------------------------------------------------------------
    \8\ Case, Anne, Fathers Under Fire, Chapter 7, The Effects of 
Stronger Child Support Enforcement on Nonmarital Fertility and 
Plotnick, Robert D., et al, ``The Impact of Child Support Enforcement 
Policy on Nonmarital Childbearing,'' University of Washington (2000).
---------------------------------------------------------------------------
  <bullet> Reduces teenage pre-marital childbearing \9\
---------------------------------------------------------------------------
    \9\ Plotnick, Robert D., et al, ``Better Child Support Enforcement: 
Can It Reduce Teenage Premarital Childbearing?''University of 
Washington (1998).
---------------------------------------------------------------------------
    New studies show that strong child support enforcement programs 
have far-reaching positive social impact that reduces the number of 
children living in fatherless households and promotes marriage. Many 
recent studies have shown that strict establishment and enforcement of 
child support obligations is leading to a lower divorce rate and fewer 
illegitimate births. In ``The Effect of Child Support Enforcement on 
Marital Dissolution,'' Lucia A. Nixon found that strong child support 
enforcement reduces marital breakups, and in ``The Effects of Stronger 
Child Support Enforcement on Non-marital Fertility,'' Anne Case found 
that anything which increases the cost of fatherhood reduces the 
probability of the children being born. ``The Impact of Child Support 
Enforcement Policy on Non-marital Child Bearing,'' showed that in 
states with a strong child support enforcement program non-married 
women had fewer children.

States have more undistributed funds on hand than ever before: $63.84 
        million
    Undistributed funds are payments collected not sent to families due 
to problems identifying payee or payor, location of payee, or problems 
determining how to distribute payments if the family was or is on 
public assistance. This means thousands of families leaving the welfare 
rolls are not receiving child support collected by the state. This 
undermines their self-sufficiency efforts.
    In February, 2001, ACES filed a Writ of Mandamus in State Appeals 
Court against the Ohio Department of Jobs and Family Services (ODJFS). 
ODJFS knowingly brought online a computer system in October 2000 that 
miscalculates distribution of child support payments owed families in 
order to avoid further late penalties from being assessed against the 
State under Federal Law. The net effect is to reduce monthly payments 
to families under terms mandated by the 1996 welfare reform law. In 
doing so, ODJFS put the interests of the State ahead of those of 
affected children. Legal action was taken only after negotiations with 
ODJFS failed to produce an acceptable plan for fixing the problem.
    Also, The Ohio State State Disbursement Unit, (SDU) is contracted 
to Bank One who is paid $125 million out of interest collected on child 
support payments which accumulates during the two days they are legally 
allowed to hold money. Families throughout Ohio are experiencing delays 
much longer than two days. ACES believes families, not Bank One or 
ODJFS, are due interest on these delayed payments.
    In Michigan, the lack of the state having valid addresses for 
custodial parents has led to $303,000 being sent to the state's coffers 
in 1999, then in 2000 after the State Disbursement Unit (SDU) was 
established, $700,000 between October and December 2000. Another $2.75 
million or more could go to the state coffers if not claimed by 
families for 2001. The SDU is only operational in some Michigan 
counties. The process used is for some employers in the state to send 
child support withheld from employees pay to the SDU, where it is 
recorded and then sent to the county Friend of the Court, the local IV-
D agency, for disbursement to the family. This cumbersome process of 
transferring money between agencies rather than transferring records 
and sending payments directly to families is responsible for some of 
the undistributed funds. Additionally, the Michigan statewide child 
support computer system funded 90% by the federal government for $327 
million does not calculate family-first disbursement as required under 
PRWORA, and these distributions are being done manually case by case. 
This results in families receiving two checks for each payment made and 
further increases the distribution errors.
    Texas failed to implement family-first distribution until March 
2001 when the law required it by October 1, 2000. California reports 
the largest amount of undistributed funds at $176 million and no SDU. 
Officials there tell us this amount is incorrect due to previous record 
keeping practices. They are in the process of surveying each of 
California's 58 counties to determine exactly how much there is in 
undistributed/unidentified funds.
    Many states have systems whereby undistributed and unidentified 
funds are sent to the state unclaimed funds. However, IV-D child 
support recipients are not told of this process and it is not required 
to be publicized.
    Our members in North Carolina report delayed and missing payments 
since September 24, 1999, when the new State Disbursement Unit went 
into operation. Reasons cited are that Clerk of Courts bundled checks, 
money orders, and cash brought in by non-resident parents and mailed 
them to Raleigh without identifying information attached. Employers did 
not use the new case numbers assigned to them for income-withholding 
purposes. Each case was given a new number in the distribution unit 
system. The number was neither parent's social security number nor the 
court docket number. Rather than obtaining a list of names and 
addresses from employers for whom the payments had been sent, the money 
was returned to the employers. Other families report massive problems 
because the statewide computer system cannot adequately interlink with 
the state distribution computer system to determine payment 
distribution in multi-family cases.
    In Illinois, ACES members report the same types of problems as 
experienced in North Carolina. County Clerks of Courts mailed checks 
and money orders paid to them by non-resident parents to the state with 
no identifying social security numbers. The state cancelled the 
contract with Dupage County for the SDU and hired a private contractor. 
They are in the process of replacing the current SDU and hiring a new 
vendor.
    States chose to set up systems where all payments are sent to a 
central intake and then disbursed. This process has made it more 
difficult for parents to pay. The lack of adequate planning and testing 
has led to missing payments, long delays, and other problems for some 
of the poorest families in our nation. North Carolina made families pay 
back emergency aid checks out of the first child support check issued, 
after months of not receiving any payments. This newest bureaucratic 
glitch has caused thousands of children to go to bed hungry.
    In a survey done by the Inspector General, the percentage of states 
that report the following problems with implementation of SDU's are:

    <bullet> 100%--distributing payments for interstate cases
    <bullet> 86%--identifying poorly labeled payment
    <bullet> 86%--identifying payments with no case in the system
    <bullet> 60%--redirecting payments mailed to wrong place
    <bullet> 71%--meeting customer serve demands
    <bullet> 60%--securing, training and retaining staff
    <bullet> 31%--disbursing support within two days
    <bullet> 40%--predicting volume for staffing purposes
    <bullet> 34%--monitoring SDU performance

    The Office of Inspector General recent report, Child Support 
Enforcement State Disbursement Units, August 2000, reported that 38 
states have fully implemented the federal law to centralize payment 
processing of most child support payments. Indiana, Wyoming, and South 
Carolina ask for waivers to link local disbursement units. Arkansas, 
Georgia, Kentucky and Oklahoma report they have central payment 
processing but are not yet using it for the federally required 
caseload. Michigan and Nevada were granted extensions to implement 
their SDU's until October 1, 2000 and October 1, 2001, respectively. 
Alabama, California, Kansas, Nebraska, Ohio and Texas report they have 
not yet begun central payment processing.
ACES recommends changes in the federal law which require:

Families benefit from effective child support enforcement
    ACES has been monitoring the current child support enforcement 
system since 1984. In addition to obtaining information about the child 
support enforcement system for our members, ACES operates a national 
toll-free Hot Line for families with child support problems, issues, 
and questions. We receive up to 100,000 calls per year from parents 
throughout the U.S. From these calls and our members, we gather 
statistics and data on the status of the current child support 
enforcement system.
    The average ACES member is a single-parent, and she has two 
children. About 50% of ACES members are divorced, and the other half 
were never married. Members average income is $14,400 per year as of 
the end of 1999, and 85% have, in the past, received some form of 
public assistance. At present, about 33% of our membership receives 
public assistance. ACES members report that collection of child 
support, when joined with available earned income, allows 88% to get 
off public assistance. Collection of child support enables our low-
income working-poor members to stay in the job force long enough to 
gain promotions and better pay so that they can move their family out 
of poverty, and on to self-sufficiency. The collection of child 
support, when joined with earned income, means our members can pay 
their rent and utilities, buy food, pay for healthcare, and provide for 
their children's educational opportunities. Lack of child support most 
often means poverty and welfare dependency. At the very least it means 
having to work two or three jobs to survive. This leaves our children 
with literally no parent who spends time providing their children 
adequate nurturing, supervision, and the attention they need and 
deserve.

Parents have the ability to pay child support: 60% have an income of 
        over $30,000
    Characteristics of Families Using Title IV-D Services in 1995, a 
study by Matthew Lyon shows that 1% of families using IV-D services had 
$0 income; 10% had an income of $1-$5,000; 18% had an income of $5,000-
$10,000; 15% had an income of $10,001-$15,000; 10% had an income of 
$15,001-$20,000; 7% had an income of $20,001-$25,000; 8% had an income 
of $25,001-$30,000 and 30.5% had an income above $30,000. In the book, 
Fathers Under Fire, by Irv Garfinkel, data reported on the income of 
non-resident parents showed that 20% had an income under $6,000; 20% 
had an income of $10,000-$30,000; 10% had an income of $30,000-$40,000; 
40% had an income of $40,000-$55,000 and 10% had an income over $55,000 
(Chart 3).
    Data from the 1997, National Survey of American Families showed 
that of the 11 million fathers who weren't living with their children, 
about 4 million paid formal child support while the other 7 million did 
not. Of these 7 million fathers, 4.5 million have sufficient income to 
pay support. 2.5 million were poor and probably unable to contribute 
significant child support.

Government child support enforcement avoids costs to public programs
    The principal finding of the U.S. Department of Health and Human 
Services study, ``The Potential of the Child Support Enforcement 
Program to Avoid Costs to Public Programs: A Review and Synthesis of 
the Literature,'' was that child support payments can decrease TANF 
participation and increase labor participation. For example, a $1,000 
increase in child support payments received by woman on TANF, 
conditional on remaining unmarried, will decrease TANF participation 
among these households and will increase the average hours worked. Part 
of this change is mechanical, 61%, but 39% is a behavior change.
    The study also finds the child support could have a long-term cost 
avoidance and tax revenue implications because of its impact on 
increasing the number of children who have access to higher education. 
Educational attainment is a leading indicator of future financial and 
social success. Individuals who attain higher levels of education have 
a higher income and a more stable family life. Child support enables 
families ability to afford to send children to private schools, 
purchase tutoring services, and to invest money in a college fund. 
Also, it allows families to purchase goods and services that increase 
cognitive stimulation in the home and thus indirectly affects 
educational attainment.
    Other studies outlined in the report find that collection of child 
support avoids cost in the Title XX Child Care Program. For every 
$1,000 in child support received it is estimated that a low-income 
single mother would reduce work hours to 22-25 hours and with each 
additional $1,000 received work hours would be reduced by 54 hours. 
Since almost 50% of single parents who do not receive child support 
work two jobs to support their family, this would also have the very 
beneficial effect for children of having at least one parent being able 
to spend more time with them, to nurture, assist with home work, and 
care for the children in a way that day care cannot.

State child support agencies fail to collect significant amounts of 
        child support
    A whole generation of our children have not received adequate and 
regular child support payments as promised when the Title IV-D child 
support system was introduced in 1975. The system was supposed to 
establish paternity, establish child support orders, and enforce 
orders. Children born in 1975 were 9 years old when Congress acted to 
improve the child support system for the first time in 1984. The number 
of cases without orders was about 50% and the collection rate was 15% 
when income-withholding laws, liens on property, posting of bonds, 
attachment of tax refunds, and reporting of child support debt to 
credit bureau laws were passed as part of the 1984 Child Support 
Amendments. When the children were 13 years old in 1988, Congress acted 
again because only about 50% of the children had orders and the 
collection rate was only 18%. In the 1988 Family Support Act, income-
withholding was to begin at the time of divorce or establishment of 
paternity, modification of orders were to occur every 3 years, child 
support guidelines were required to be followed by the courts, and 
paternity was to be established via genetic tests and through voluntary 
programs.
    When the children were 17 years old in 1992, about 50% of the 
children still did not have orders and the collection rate was 19.7%. 
Congress again acted in the Child Support Recovery Act to assist 
children with interstate cases. The collection rate on interstate case 
was less than 50% of the other cases. When the children were 18 in 
1993, about 50% of the children still did not have orders and the 
collection rate was 18.2%, Congress acted yet again. This time, medical 
support orders were required and a better system for establishing 
paternity was put in place as part of the budget. When the children 
were 19 in 1994, about 50% of the children still did not have orders 
and the collection rate was 19.4%. Congress enacted the Full Faith and 
Credit Act in another attempt to correct problems with interstate 
cases. When the children reached age 21 in 1996 and slightly fewer than 
50% of the children still did not have orders and the collection rate 
was 20%, Congress acted again as part of the Personal Responsibility 
and Work Opportunities Act (PRWORA) establishing the New Hire 
Directories, Case Order Registries, and State Distribution Units (SDU), 
professional driver's and recreational license revocation, and required 
states to adopt UIFSA (Uniform Interstate Family Support Act). UIFSA is 
the third attempt to remedy interstate case problems.
    The Federal Office of Child Support, in its preliminary data from 
the year 2000, shows that collections rose from $15.4 billion to $18 
billion, for families with cases open at a government child support 
agency. 1999 data shows that slightly less than 50% of the children 
still do not have orders and the collection rate is 37%. This increase 
from 23% in 1998 is in part due to new reporting requirements for 
states and new regulations which allowed states to close old cases 
where collections had not been made. U. S. Census Bureau data from the 
May 1999 Current Population Report, which includes data for families 
with and without a government child support case, for the year 1998, 
shows that the percentage of single-parent families who receive child 
support (some or all support due in 1998) was only 32%. The collection 
rate shows no significant improvement. The collection rate remained 
about 30%.
    The most recent data available from the Federal Office of Child 
Support (Chart 4) shows that the total collections for 2000 are $18 
billion up from $15.8 billion in 1999, up from the $14.3 billion in 
1997, which was up from $13.3 billion in 1996. IV-D agencies spend $25 
to collect $100, and 55.5% of collections are from payroll deductions.
    In Chart 2, interstate collections are listed from 1993 to the 
present. Collections have risen from 1993 (pre-PRWORA) $725 million to 
$983 million in 1997, and to $1 billion in 1998 and 1999. Collections 
on interstate cases have risen about $100 million/year before and after 
PRWORA. UIFSA, the Uniform Interstate Family Support Act required 
PRWORA to be adopted verbatim by all states. PRWORA has not yet shown 
itself to be of any assistance in processing interstate cases faster or 
more effectively. In fact, ACES has been told by several state IV-D 
agencies and state courts that it is more difficult to use than URESA, 
its more complicated predecessor. Problems are being reported with the 
provision for direct income-withholding. If a non-resident parent 
receives an income-withholding order at their place of employment and 
the order is for the wrong amount, wrong person, or contains some other 
mistake of fact, there is no mechanism in place to resolve problems. 
The state which sent the order is inaccessible to the non-resident 
parent and the state IV-D agency in their state is not even aware of 
the order or that a case exists in another state.

Families report PRWORA has not helped and has hurt!
    Statistics indicate little or no effect from any portion of PRWORA. 
Lack of results from the expanded Federal Parent Locator System with 
the National New Hire Directory and Case Order Registry are 
particularly disheartening.
    ACES members report no noticeable improvements since enactment of 
PRWORA, even with the National New Hire Directory reporting that 3.5 
million matches were found in 2000, more than triple the 1.2 million 
matches in 1998. Our research shows that the majority of the 3.5 
million data matches made by the National New Hire/Case Order Registry 
have not been acted on by the State IV-D agencies. Certainly 
collections have not tripled since 1998. For example:

          Texas processed 2,481 income-withholding orders due to New 
        Hire information from the National Directory in three months. 
        Texas received over 300,000 matches from state and the National 
        New Hire directories.
          Virginia reports averaging 100,000 matches/year with their 
        State New Hire Directory, resulting in collections of $7.5 
        million. This is $75/match. For 180,000 matches/year with the 
        National Directory, collections of $13 million resulted. This 
        is $72/match.
          Iowa reported 20,000 matches to date with the National New 
        Hire Directory and has collected $365,297. This is $18/match.
          Arizona, in three months of comparisons with the National New 
        Hire Directory, located 11,218 matches. No data is available 
        for the number of cases where action was successfully taken to 
        collect support. The intrastate New Hire Reporting System 
        resulted in collections of $13 million on 45,083 matches. This 
        is $288/match.
          Minnesota, in FY 1999, had 39,078 matches with its state 
        directory, and collections increased by $11.6 million (3%). 
        This is $296/match. Minnesota is averaging 166 matches/day with 
        the National New Hire Directory, but no data is available on 
        the action taken on these matches.

    The Federal Office of Child Support reports they have made matches 
of delinquent parents with financial institutions for 900,000 accounts 
since August 1999. The accounts are valued at about $3.5 billion. No 
data is available about whether any of these accounts were successfully 
attached to collect child support.
    Problems exist with the bank account attachment process. 
Administrative Process is used by 31 states to attach bank accounts; 12 
states use Judicial Process; and 7 states use both. Twenty-six states 
do not accept orders from other states, 2 states sometimes accept 
orders from other states, 1 state leaves it up to the financial 
institution, 8 states have not yet made decisions about whether or not 
they will accept out-of-state attachment orders, and 2 states have 
state laws which are silent on the issue.

Automation problems
    Since the 1984 Child Support Amendment passed, Congress has been 
giving states incentives and funding to put statewide computer systems 
in place. Many deadlines have passed or have been extended. In the 1988 
Family Support Act, states were told to have computers in place by Oct. 
1, 1995 in order to receive 90% federal funding. When only 1 state met 
this deadline, it was extended to October 1, 1997. When only 21 states 
met this deadline, penalties were changed so that states could get 
waivers to penalties if they were making sufficient progress on 
computerization.
    The Federal Office of Child Support reports the following \10\
---------------------------------------------------------------------------
    \10\ Certification Reviews of Child Support Enforcement Systems, 
Division of Child Support Information Systems, January 6, 2000.

          Montana was the only state to the meet the October 1, 1995 
        deadline.
          The October 1, 1997 deadline was met by Delaware 
        (conditional), Georgia (conditional), Virginia, Washington, 
        West Virginia (conditional), Arizona (conditional), Utah, 
        Connecticut (conditional), Wyoming, Mississippi, Louisiana 
        (conditional), New Hampshire, Idaho, Colorado, Oklahoma 
        (conditional), Wisconsin, Rhode Island (conditional), Guam, New 
        York (conditional), Iowa, and Alabama (conditional)
          Certified in 1998: Texas (conditional), Arizona 
        (conditional), North Carolina (conditional), New Jersey 
        (conditional), Vermont (conditional), Puerto Rico 
        (conditional), Maine, Tennessee (conditional), Minnesota 
        (conditional), Kentucky, South Dakota, Arkansas, Massachusetts, 
        Florida, Missouri, and Hawaii
          Certified in 1999: New Mexico (conditional), Illinois 
        (conditional), Oregon (conditional), Maryland, Pennsylvania 
        (conditional), Arkansas
          Certified in 2000: Washington DC, Indiana, Kansas, North 
        Dakota, Nevada
          States NOT Certified (representing 4.6 million children owed 
        $24 billion in unpaid child support): California, Michigan, 
        Nebraska (report pending), Ohio, South Carolina, and the Virgin 
        Islands

    Conditional Certification for many states is due to the inability 
of their computer systems to process referrals. Because of lack of 
action by the U. S. Justice Department, few charges have been filed 
under the federal criminal non-support statue. In 1995, charges were 
filed on only 82 cases. In 1996, charges were filed in 104 cases. In 
1997, charges were filed in 212 cases. In 1998, charges were filed in 
249 cases; and in 1999, charges were filed in 396 cases. In 2000, 
charges were filed in 405 cases. There are 7 million children owed $25 
billion in unpaid child support with interstate cases.

Poor customer service
    The number one complaint that ACES receives from families is about 
state IV-D child support agencies on our Hot Line is that they are 
provided poor customer service from local agencies. Families report 
that they are victimized by caseworkers who tell them, ``What do you 
expect, you went out and got yourself pregnant?'' or ``What did you do 
to make him so mad he won't pay?''. Not even one state has a system for 
notifying clients of actions taken on their case. Families report that 
they are unable to understand quarterly distribution notices, if 
received, and that there is no system in place for the notices to be 
explained to them. Families report that many IV-D agencies restrict 
hours when they will accept phone calls from families to obtain or give 
caseworkers information. This is a major barrier to families providing 
agencies needed information about location and employment status of 
non-payors. We have not found even one state which sends delinquency 
notices to non-payors when they miss a monthly payment.

Liens on property not routinely used
    Only 15 states report routinely placing liens on property of non-
payors. Twenty six states report that placing liens is a difficult and 
technical legal action.

Suspension/revocation of licenses rarely used
    Although proven effective, suspension or revocation of professional 
licenses is rarely used by any states. Suspension/revocation of fishing 
and hunting licenses is rarely used by states. Most states do not have 
any effective system for recreational license suspension/revocation. 
Several states identify non-payors who buy fishing or hunting licenses 
and ask them to voluntarily report themselves when making a license 
purchase at a local carry-out, sporting goods store, etc. This has been 
very ineffective. Colorado recently did a study of suspension/
revocation of driver's licenses and their reporting to credit bureaus 
for failure to pay child support. Support collections increased 20% 
within the first six months following notices being sent to non-payors. 
Only a few states have an on-going program for driver license 
suspension and/or credit-reporting, and often these states only make 
the threat action. Thousands may receive notices of potential 
suspension but only a small percentage are actually suspended.

Expedited process and federal timeframes are not being followed by 
        state IV-D agencies
    ACES members report a 1-3 year wait to establish paternity, 2 years 
to establish an order, 6-9 months for an income-withholding, 6-9 months 
for court hearing, 1-3 years for modification, 5 years for medical 
support establishment and/or enforcement, 1 year for a Federal Parent 
Locator results, and 1-2 years for action on interstate cases.\11\
---------------------------------------------------------------------------
    \11\ ACES annual membership survey (2000).
---------------------------------------------------------------------------
Private child support collection agencies prey upon desperate families
          ``I signed the contract with a private child support 
        collection agency because the District Attorney office had done 
        nothing in two years to collect the $10,000 in child support 
        due to my children. I didn't realize that I had given the 
        company power of attorney so payments go to them not to the DA 
        and then onto me. I didn't realize the contract defined current 
        support as back support. I thought the private collector would 
        only get 33% of any back support collected as a recovery fee. 
        Instead, the contract gave them 33% and attorney fees so it 
        added up to 44% or more of any support collected. When I got my 
        first check, and 44% was missing. I called to complain and 
        found out the truth. Now I have to hire an attorney to try to 
        break this contract. I don't have the money to pay the 
        attorney. How can this company advertize one thing and do 
        another? My children are the real losers here and I was the 
        pawn''--a caller to ACES Child Support Hotline from Los 
        Angeles, CA (January 2001)
    Families entitled to child support enforcement services, who are 
mainly low income face a new problem--being preyed upon by unscrupulous 
private child support collection agencies. The private companies are 
not licenced or regulated by state or federal laws because child 
support is not considered a debt under the Fair Debt Practices Act. 
Private collection agencies have been soliciting families via TV and 
Radio ads, promising much needed child support payments. Often they 
require the custodial parent to sign a power of attorney and contracts 
which are adhesion by legal definition. These contracts are almost 
impossible to break, have many hidden clauses, and usually result in 
the family losing 40-50% of the child support due to them to the 
private collector as a fee for services.
    Private collection agencies for child support do not work any 
better than the government child support agencies. These agencies do 
not and should not have access to confidential IRS information. They 
should also not have access to state information; such as tax records, 
employment records, worker's compensation records, and any other 
protected government records. The private agencies collecting child 
support are currently not regulated. In fact, the U.S. Supreme Court 
recently ruled that these agencies do not fall under the regulations of 
the Consumer Credit Protection Act.
    Custodial parents who have used private collection agencies have 
encountered many problems:
  <bullet> The private collection agency collected payments from the 
        non-custodial parent but never sent the payments to the family. 
        This is literally stealing money from the children.
  <bullet> Private agencies have closed down and totally disappeared 
        after custodial parents have paid application fees of over 
        $100.
  <bullet> Private collectors take fees for money they had no part in 
        collecting. For example: The private collectors got paid by 
        taking their 30% fee from an IRS refund that the state 
        government child support agency attached.
  <bullet> Families owed support have had to pay additional court costs 
        and attorney fees on top of the 34% fee taken from the child 
        support collected.
  <bullet> Defined current support as back support in the contract and 
        included language wich states that if even one payment no 
        matter the amount is collected in the first 12 months the 
        contract is binding until all support due, current and back, is 
        collected. This binds the family to the contract forever.

Other pending federal legislation ACES supports
    H.R. 866, sponsored by Rep. Bilirakis (R-FL) would assist millions 
of children. The intent of the bill is to ensure that children benefit 
from federal assistance received by a low-income non-custodial parent. 
Language needs to be added to the bill to make sure that receipt of 
food stamps, TANF, medicaid and other means tested programs needed for 
basic necessities are exempted. Other programs such as job training and 
college education should not be affected due to the good cause 
provision and the payment arrangement section.
    Here are a few examples of federal programs where parents who fail 
to pay child support currently can and do receive federal funding which 
does not benefit their children. HR 866 is needed to prevent those who 
neglect their children from receiving these types of federal 
assistance.
  <bullet> Creation and Presentation Grant money to creators for 
        literary publishing, cultural festivals, and various types of 
        artistic or cultural exhibits funds given by National Endowment 
        of the Arts.
  <bullet> Grants to Develop New Technology money to venture 
        capitalists for the creation of high risk technologies' funds 
        given by National Institute of Standards and Technology.
  <bullet> Business and Industry Loans Money to developers for 
        modernizing or purchasing land, building, machinery.
  <bullet> Heritage and Preservation Grant money to creators and 
        inventors for projects that present to the public conservation 
        of art or exhibits funds given by National Endowment for the 
        Arts.
  <bullet> Money doctors for constructing medical facilities 
        incorporating new construction concepts' funds given by U.S. 
        Department of Housing and Urban Development.
  <bullet> Money to Create Recreation Areas money to families to buy 
        their old farm for the creation of public recreation areas 
        funds given by National Park Service.
    H.R. 1618 (Rep. Zoe Lofgren, D-CA). The bill will allow child 
support to be treated in the same manner as taxes by allowing the 
custodial parent to receive a tax credit for unpaid child support and 
essentially turning the unpaid support into a tax bill for the obligor.
    H.R. 413 (Andrews, D-NJ 1<SUP>st</SUP>)--Will create child support 
trust accounts to hold profits from sale of real estate in trust for 
children, if the seller owes child support. This will stop non-payors 
from profiting on real estate sales while avoiding their obligations to 
their children.
    H.R. 869 (Castle, R-DE) Will allow federal income tax refund 
intercepts to be applied to child support that is owed for children who 
are older than 18. This stops the incentive for active evaders to hide 
from their families until the children reach age 18.

[GRAPHIC] [TIFF OMITTED] T4742A.005


IRS Offset Chart 5

[GRAPHIC] [TIFF OMITTED] T4742A.006


                        Chart 4--IV-D Collections
------------------------------------------------------------------------
        Number of Cases:                       16.4 Million
------------------------------------------------------------------------
           Dollars Collected:                             $15.4 Billion
------------------------------------------------------------------------
                     $25 in costs for every $100 collected
------------------------------------------------------------------------
                        55.5% from payroll deductions
------------------------------------------------------------------------



                        Chart 4a--IRS Collections
------------------------------------------------------------------------
      Number of Taxpayers:                     268 Million
------------------------------------------------------------------------
          Dollars Collected:                              $1.9 Trillion
------------------------------------------------------------------------
                    $0.44 in costs for every $100 collected
------------------------------------------------------------------------
                         83% from payroll deduction
------------------------------------------------------------------------

                         Chart 6--IV-D Summary

  <bullet> New Hire reporting leads to payroll deduction in mainly 
        cases
  <bullet> No system for collecting from self-employed
  <bullet> Lowest collection rate for interstate cases
  <bullet> 26 state don't accept interstate bank account attachment 
        orders
  <bullet> Major problems with SDU's and statewide computer tracking 
        systems
  <bullet> Poor track record for customer service
  <bullet> Poor track record on collections: rare use of liens, license 
        revocation, referrals to the U.S. Attorney

                          Chart 7--IRS Summary

  <bullet> New hire reporting: payroll deduction in almost all cases
  <bullet> Collection system for self-employed taxpayers
  <bullet> Interstate cases not an issue
  <bullet> Bank account attachments routinely attached: 500,000 a year
  <bullet> Recent automation improvements
  <bullet> New customer service improvements: Taxpayer Bill of Rights
  <bullet> Good track record on collections: 83% citizens pay taxes 
        (17% are non-filers)

        [GRAPHIC] [TIFF OMITTED] T4742A.007
        
        [GRAPHIC] [TIFF OMITTED] T4742A.008
        
                                <F-dash>


     Statement of Reverend Dennis Austin, Salisbury, North Carolina
    Attn: Chairman, Congressman Wally Herger

    Chairman Herger and Members of the Subcommittee, although I am a 
minister who runs a help-line for suicidal depressives, I have also had 
experience dealing with non-custodial parents. Being able to speak here 
allows me to share a unique perspective of the problem with child 
support enforcement, both its causes and its costs.
    If possible, I would suggest that your subcommittee recommend that 
the G.A.O. investigate the true costs of collection. Typical of most 
states are hidden costs incurred when states ``borrow'' attorneys from 
their attorney general's office in order to prosecute non-payment. 
Unfortunately, in Virginia, much as in Florida and many other states, 
most who do not pay are unable to pay. The cost of incarcerating 
Virginia fathers is not factored into the actual cost of collecting 
their past due support. Nonetheless, when a member of Virginia's 1999 
Child Support Quadrennial Review Commission motioned to have that 
commission sponsor a bill to determine both the cost of incarceration 
(versus the actual dollar amount owed) as well as the numbers of 
fathers imprisoned (it has been estimated that 20-30% of Virginia's 
county jails are comprised of support delinquent non-custodial 
fathers), his motion was voted down by the judges, lawyers, and state 
legislator who served with him.
    That state's Director of Child Support Enforcement was made aware 
of one stunning fact: when fathers are given adequate parenting time 
with their children, child support payments reach almost 90%! It seems 
that only Oklahoma, led by Governor Keating's determined effort to stem 
the high rate of divorce in his state, has taken that into 
consideration. Almost two years ago, he signed into legislation a 
pedente lite bill that allows either separating or divorcing parent to 
ask for shared residential parenting rights of his or her children. 
That legislation has not only served to guarantee that children of 
divorce will retain both parents. It also eliminates most child support 
enforcement costs because both parents share child-rearing costs and 
responsibilities. Most importantly, it removes a significant incentive 
for divorce: the ``reward'' that follows the winner of sole custody.
    Oklahoma's legislation accomplishes a number of other important 
things. Among them is the fact that fathers--I say fathers because, 
historically, mothers have been given sole custody in almost 90% of 
cases, are not minimalized as parents. As a result, children do not 
suffer the emotional and behavioral and educational deficiencies of 
children raised in single parent homes. Such costs, those of addressing 
the problems of fatherless children, must be factored in to the costs 
attributable by the G.A.O. to child support implementation. It is 
enormous.
    And not just to children raised in single parent homes. What must 
also be considered are the hidden costs of the non-custodial parent's 
lost productivity. And, worse than that, the tragic expense of human 
life as measured by the number of suicides by fathers denied adequate 
access to their children. Thanks to legislation like Oklahoma's, that 
profound expense can be reduced to zero. And that is a number, Mr. 
Chairman, that, I'm certain, both the G.A.O. and your subcommittee can 
truly appreciate.

Responsibility for Child Support
    When it comes to Child Support, most everyone recites the same 
mantra. Fathers are to blame for children growing up without a Father. 
The mantra goes something like this, if we can just get Fathers to be 
responsible and pay the Child Support, then children and moms would be 
right with the world. Even so-called Pro-Father statements include, 
``promoting responsible Fatherhood''. What that really means is holding 
Fathers accountable to pay Child Support.
    But just who is responsible and who is irresponsible when it comes 
to Child Support.
    Mothers who deny visitation are not being responsible. Collecting 
Child Support and denying the Father access is not being responsible.
    Lawyers who seek maximum Child Support just so they can get paid 
are not being responsible.
    Guardian ad litems who routinely separate Fathers from their 
children do not act in the best interests of the children and that is 
not being responsible.
    Judges who routinely treat the guidelines as minimums when awarding 
Child Support are not being responsible.
    Politicians (mostly lawyers) who know the current guidelines are 
flawed are not being responsible.
    Current Child Support guidelines do not leave the Father a living 
wage. If a Father increases his income, he is further penalized. This 
is a no-win situation. Mothers, lawyers, guardian ad litems, Judges and 
politicians, by their irresponsibility, make their idea of a 
``Responsible Father'' impossible. The notion of destroying a child's 
Father is in the child's best interest is ridiculous and totally 
irresponsible.
    [Attachments are being retained in the Committee files.]

                                <F-dash>


                                 Ledyard, Connecticut 06339
                                                      June 28, 2001
Allison Giles, Chief of Staff
Committee on Ways and Means
U.S. House of Representatives
1102 Longworth House Office Bldg.
Washington, DC 20515

    RE: Child Support

    Dear Ms. Giles and others,

    Thank you very much for allowing my comments to be delivered to 
Congress on this important topic.
    I am a single father residing in Connecticut (formerly R.I.) with a 
20-year old son living with his married mom in Massachusetts. The laws 
of Massachusetts governed our divorce and subsequent modifications, 
typically for child support. This process of modification has been 
ongoing since generally 1983, about a year after our son was born.
    I refuse to disparage anyone, and would prefer instead to offer 
Congress some constructive ideas to address this former ``issue'' which 
has evolved into a national ``phenomenon.'' The fact is that past laws 
and legal wrangling only addressed a ``band-aid'' approach versus 
looking squarely at the problem. I submit that this important issue be 
standardized throughout the country, versus each state having differing 
views and laws on this topic.
    First, I must ask that society at large NOT view fathers as some 
unnatural element of a child's family or future, as well as a 
``paycheck.'' We individually and collectively have feelings towards 
our own and other's children. We individually and collectively prefer 
to be an influence in our children's lives. We individually and 
collectively want the best for all children, including our own. It is 
wrong to assign the negative elements of some arrogant, disruptive, or 
even ``deadbeat'' dads to the whole, which appears to be society's 
answer to fathers. I am not quite sure of the percentages of ``good'' 
versus ``bad'' dads, but I don't act nor care to be a negative 
influence in my own son's life.
    Second, it appears from this writer that most custodial parents 
(usually mothers) see money as a motivating force against custody and 
visitation for the non-custodial parent (typically fathers). You will 
hear a lot about joint custody, and the influence of the father.
    I might be different in this respect, but I do not condone joint 
custody as that is meant by others, and I base this on first-hand 
experience. Joint custody as probably meant by others is an almost 
equitable schedule of parental visitation and physical control over the 
life and mind of a child of that marriage. I submit that this is nearly 
impossible to accomplish, for a variety of reasons: (1) the child gets 
lost in the discipline of two or more households; (2) it is sometimes 
impossible for parents to regulate schedules to accommodate the 
``transfer'' of the child; (3) in some cases, the child suffers from 
abuse (physical, and mental) which caused the original marital breakup; 
(4) it introduces a new ``feature'', or person, into the parent-child 
relationship, which may be good or bad, depending (for example, one 
parent may now become indifferent to the child when the ``dating game'' 
commences)--where is the child when that happens?
    Nonetheless, I firmly believe that children deserve the presence 
and influence of the non-custodial parent, rather than a complete 
obliteration of parental rights, which appears to be slowly evolving in 
this country. I do feel saddened by those fathers who do not want any 
relationship with their children, but I believe that their attitude 
stems from having to awkwardly deal with their ex-spouse, which may 
resurrect some animosity.
    Another issue is finances. There appears to be a wide berth of 
custodial guidelines among the various states, especially as they deal 
with child support. For example, Massachusetts assigns a certain 
percentage of ``gross'' income depending upon the age and number of 
children to the marriage or adjoining marriage. Most other states that 
I am aware of assign a percentage of ``net'' income. That is why, in 
the 80's especially, many fathers from Massachusetts went to alternate 
states for a change of venue in order to reduce child support 
requirements. Rep. Barney Frank can attest to this, as he introduced a 
bill--I believe in 1986--that disallowed such an adventure--regardless 
if the custodial spouse had counsel present in her divorce.
    Massachusetts support requirements are simply too expensive and it 
could be for a variety of reasons (too expensive to live near Boston 
versus the balance of the state or elsewhere; ``good'' fathers paying 
for the sins of the ``bad'' fathers, to put it very simply, so that the 
state does not have to bear the burden of increased child welfare; 
legal costs, etc.). The father in the latter instance went to Florida 
courts simply because he could not afford expensive support. I submit 
he left because of the finances of the situation, and would have stayed 
involved in his children's lives had there been more equitable 
treatment.
    Does Congress realistically want fathers to be part of their 
children's lives? Or must fathers travel elsewhere (or take on many 
jobs) for financial reasons, and thus remove themselves away from their 
sons and daughters?
    In many instances, and because of expensive support requirements, 
non-custodial parents (i.e., fathers) see their living arrangements 
dwindle economically and substantially. Yet there is no incentive to 
gain additional employment, because this additional income gets further 
eaten up by the support requirements--regardless if their child's cost 
of living hasn't changed one iota.
    The result? Because of various support requirements (child support 
@ 25% on average; federal, state, and local taxes @ approx. 30%; rent 
or mortgage @ 25%; utility bills @ 10%, of a weekly paycheck), the 
father generally has to live on just 5% of his net income. The mother's 
income, however, increases because of the support, in most cases by 
25%, admittedly less as a percentage of income if there is more income 
in her household. There is quite a disparity between households . . . 
especially if the custodial parent re-marries and lives in a mansion 
because of her new combined income. This is not taken into account.
    The added income would only replace what was taken; PLUS, because 
of the added employment schedule, the visitation schedule is thereby 
reduced concomitantly (the father never gets to see his child, often 
because of two or three jobs). The custodial parent begins the cycle of 
support modification yet again, because of the expected added income. 
Again, no incentive for added income.
    There ought to be equitable financial treatment in court orders, as 
well (i.e., and I hate to use these words, but ``what's good for the 
goose is good for the gander''). Too often I've seen judicial 
modification orders where the father has to ``. . . report any and all 
changes in income. . . ,'' yet the mother is not required to report her 
changes in income--even though she is quite capable of work (and 
sometimes is working via crafts, home businesses, etc.); the children 
have grown and are no longer present during ``mother's hours''. 
Discovery material and judgments ought to treat non-married parents 
equally, especially as to work reporting requirements.
    Another financial issue relates to unemployment. In some instances, 
a non-custodial parent under court-ordered child support loses his 
position, becomes unemployed, and begins receiving unemployment 
compensation. Yet the court-ordered child support remains. The reply is 
to return to court to reduce the payments. Yet to do so: (a) costs 
money for lawyers; and (b) by the time any hearing comes, generally 6 
months later, the non-custodial parent has started new work. The 
support order during the unemployment phase eats up over 50% of the 
unemployment compensation, AND, the other bills remain the same during 
this period (WHICH INCLUDES FEDERAL TAXES). This forces the parent to 
perhaps work ``under the table'' (which is illegal) just to maintain 
bills, or go to work at menial jobs, and thus have to report this new 
income (and new court modification) while he is out looking for a 
better job (and cannot find time for an interview because he is working 
at this menial job . . .). The custodial parent thus does not share in 
the problems of the non-custodial parent, even if it was not of his own 
doing.
    Another issue involves a custodial parent using another state to 
gain what she couldn't in the governing state. For example, using a 
doctor-child privilege in an adjoining state to unwarrantedly disparage 
the non-custodial parent, and bringing that evidence into the governing 
state. The governing state thus orders new visitation, regardless if it 
is warranted, but only under the supervision of the doctor in the 
adjoining state. The doctor then suggests that they cannot enforce 
another state's order--the non-custodial parent thus has to go to the 
adjoining state's court for a similar court order, and for a few more 
$$ thousand. Where is the justice in using adjoining states?
    An important issue is arrearage--when does it begin?? I submit that 
you have 501 House Members, with 501 different answers. Does it begin 
at the moment of filing a complaint for modification? At the moment of 
hire for the non-custodial parent? At the moment when the custodial 
parent finds out about any new job of the non-custodial parent? At the 
moment of the court order filing for increased support with the clerk 
of courts?
    An example of this in action was when the non-custodial parent (the 
father generally) was hired for a new job, and alerted the mother, by 
phone and by correspondence with their child--not once, but on three 
separate occasions, close apart. The mother delayed filing for a 
modification of increased child support 5 months later. During the 5 
months interim, she also telephoned the father (proven by phone 
records) at his new place of employ (so she cannot state that she was 
not aware of where he worked). Seven months later they were in court, 
and the court retroactively assigned an increase in child support to 
the date of hire--the father is thus in immediate arrears to the tune 
of thousands of dollars, and is automatically told by his friends and 
employer that he is a ``deadbeat dad''--even though he did everything 
by the book!! He also had to forego subsequent tax payments in order to 
pay child support or face incarceration, and is now in arrears with the 
IRS!!
    So when does arrearage begin?
    Why incarcerate a legitimate ``deadbroke dad''? That only makes him 
lose his job to begin with, and thus spiral ever downward. How can he 
earn a living from prison? Again, a band-aid approach . . .
    In summary, I want to request that child support be somewhat 
standardized nationally (percentage of ``net'' versus ``gross'' income, 
for example), AND, that fathers NOT be considered as merely a paycheck, 
which is the personal bias of many, many judges--we want to be a direct 
influence in our children's lives.
    And so do grandparents. . . .

            Respectfully,
                                            Robert E. Brien

                                <F-dash>

         Statement of Patrick R. Caffrey, Seeley Lake, Montana

    Until constitutional guarantees are incorporated in national child 
support policy, legislation presuming to provide for the children of 
disassociating parents will fail.
    The United States Supreme Court, from 1925 to the present, has 
repeatedly and consistently held that the care, custody and control of 
children by their parents is a fundamental liberty interest protected 
by the Bill of Rights and the 14th Amendment.\1\
---------------------------------------------------------------------------
    \1\ The presumption that children's interests override parental 
rights in all cases leads to laws and regulations which place the 
burden of proof on parents to show they are fit. Such impediments can 
not be placed on fundamental liberty interests guaranteed by the 
constitution, nor can these rights be compromised for administrative 
convenience. The U.S. Supreme Court has established that, ``The State 
cannot, consistently with due process requirements, merely presume that 
unmarried fathers in general . . . are unsuitable and neglectful 
parents. Parental unfitness must be established on the basis of 
individualized proof.'' (Stanley v. Illinois, 405 U.S. 645 (1972)). 
``It is the government's burden to demonstrate an overriding interest 
in order to validate an encroachment on protected interests'' (Elrod v. 
Burns, 427 U.S. 347 (1976)). ``The only requirement being . . . the 
best interest of the child . . . sweeps too broadly . . . The Federal 
Constitution permits a State to interfere with (parents' fundamental 
right to rear their children) only to prevent harm or potential harm to 
the child.'' (Troxel v. Granville, (99-138) (2000)).
---------------------------------------------------------------------------
    Congress should stop pretending the child support enforcement 
apparatus, which treats parents worse than felons, isn't being used as 
a welfare plan where parasite parents are enriched to advance personal 
lifestyles while forcing slave parents out of their children's 
lives.\2\
---------------------------------------------------------------------------
    \2\ Laws designed to bring a few deadbeats into parental compliance 
are instead forcing millions of children to live with single parents 
who subsist on ``child support'' which is, in its present form, a 
welfare plan underwritten by non-custodial parents. It is public policy 
that parents must work to serve their children. Diversion of support 
money without accountability to provide for another adult, who is not 
likewise required to work, runs afoul the U.S. 13th Amendment. Also, it 
is a parent's constitutional duty to ensure that resources are directed 
to their children. The state, acting as parens patriae, tells parents 
to presume their money is benefiting their children, and that children 
are enlightened to become model citizens when they see one parent 
become a slave and the other a parasite.
---------------------------------------------------------------------------
    For millions of Americans there is no American Dream. For them this 
nation has become a gulag where they are stripped of their parental 
authority in their children's presence, prohibited from pursuing 
logical career decisions, and pre-empted from managing their own 
finances for the benefit of their children, their estranged parenting 
partners, and themselves. Their freedom to travel is at risk, and they 
are subject to police harassment and imprisonment. Their constitutional 
guarantees are routinely ignored in statute and practice. Even children 
and the parents they live with most of the time are degraded by a 
system that rewards immoral opportunism and vindictive motivations. In 
short, national policy professes to operate for the best interests of 
children, but the opposite effect is achieved. This policy increases 
the adversarial tenor of incompatible parents who might otherwise 
restructure their children's upbringing in a more positive and 
accommodating manner.
    Destruction of parental involvement increases with the 
conscientiousness of the disenfranchised parent. Those most vulnerable 
are those guilty of the following crimes:
    <bullet> Being a parent
    <bullet> Being a responsible citizen
    <bullet> Believing in our system of government
    <bullet> Caring for their children
    Those of less integrity can evade their natural parental 
obligations. The apprehension of some of them is of no real benefit to 
their children, since money can never replace a parent. Meanwhile, 
dedicated parents become financially and spiritually exhausted fighting 
in a process where even eventual vindication guarantees government-
sponsored psychological child abuse.
    The underlying cause of the problem is federal involvement. The 
Family Support Act of 1988 generalized children's needs. States were 
then mandated to implement presumptive rather than advisory child 
support guidelines. The path of least resistance for judges and 
administrators is to accept presumptions. This is the heart of the 
problem, as it places the burden of proof on parents to rebut 
presumptions.\3\
---------------------------------------------------------------------------
    \3\ The constitutional problems with federally mandated 
presumptions are not insurmountable. There is no federal prohibition 
that a state cannot by statute review worksheet awards that have been 
found to be federally correct. States should be required to make 
particularized written findings in ALL cases. To find for a presumptive 
award as correct, a court should state ``the non-custodial parent is 
unfit, neglectful, absent, or nonparticipating.'' This appears to 
increase the judicial system's workload. More likely, a parent who is 
not guaranteed windfall enrichment at the expense of the other parent 
would be more rational and considerate of the children's needs, 
reducing case loads.
---------------------------------------------------------------------------
    Parents should spend their time and money on their children, not on 
struggling to conform to arbitrary guidelines or proving to the 
government that they merit constitutional protections.
    Actual earnings are always acceptable for raising children of 
married parents. We pay taxes on what we earn, not on what we could 
have earned. Yet disenfranchised supporting parents are forced to pay a 
percentage of what they presumably could earn.
    Most state procedures calculate the amount of funding necessary to 
replicate the family standard of living. They then assign all the money 
to one parent. The only way the paying parent can maintain previous 
parenting styles is to pay for them twice.
    The ``best interests of children'' as a matter of public policy has 
been regarded as the best interests of children as a constitutional 
right. The two standards are not on par. Children do not have a 
constitutional right that their best interests be met. If they did, 
every family would be subjected to continual government interference to 
determine and maximize benefits to their children. Parents would have 
to choose between the interests of their children and the protection of 
their individual rights. The constitution would force parents to become 
adversaries to their own children. Sadly, this happens to divorcing 
parents. Parental rights in this disenfranchised class of citizens are 
subordinated to the presumed rights of their children. The pre-eminent 
interest of children should be that the constitutional right of parents 
to the care, custody and control of their children be preserved. 
Otherwise, the State is telling children their parents don't have 
rights, and neither will they when they have children.
    Adversarial custody battles are now pursued, not to benefit 
children, but to use children as a shelter from persecution by an 
orwellian child support enforcement regime. Those who insist children 
need government protection from hostilities between their parents have 
created a self-fulfilling prophecy.
    Our children deserve for two cooler heads to prevail.
    When considering family legislation, please consider, ``Could I 
force this upon married parents?''

                                <F-dash>


                                      Bridgton, Maine 04009
                                                       July 9, 2000
Allison Giles, Chief of Staff
Committee on Ways and Means
U.S. House of Representatives
1102 Longworth House Office Building
Washington, D.C. 20515

FATHERHOOD ISSUES IN THE TWENTY-FIRST CENTURY
Modern Tools for Modern Families
    Issues that must be consiered in the development of laws and 
policies that impact fathers and children of divorce should include the 
following:
    1. Fathers are taking increasing role in parenting.
    The most recent U.S. Census Department data indicates that 22% of 
single-parent homes in the U.S. are headed by fathers. That amount is 
47% higher than the typical estimated amount used by policymakers in 
the U.S. Numerous studies, notable by Barnett and Rivers, indicate that 
(especially among younger fathers,) fathers are putting their parenting 
obligation ahead of career and any other interests.
    In Maine single-parent households headed by fathers is a high 27%, 
which is estimated to be about twice the rate that fathers are assigned 
primary custody by courts, and estimated to be about 4 times more 
numerous than child support cases where men would be the recipients of 
child support.
    Fathers' actual role in parenting is probably twice to four times 
greater than that presently recognized by the courts or support 
collection agencies.
    2. By considering the roles of most fathers of divorced children in 
the U.S. to be that of a ``non-custodial parent'', U.S. and state 
agencies use a term of convenience; rather than a term that describes 
an accurate role of many divorced fathers today.
    ``The structure of single-parent households has also been affected 
by the fact that more parents have shared legal custody for their 
children. This means that it is the right of both parents to be 
involved in important decisions, like health care, even when the 
children reside primarily with one parent. In addition, some parents 
are deciding to take primary physical responsibility for one or more of 
their shared children, and some states are no longer using the term 
`custody,' but instead are allocating `parenting time' between the 
mother and father.'' (The Medical Child Support Working Group Report, 
June 2000, page 1-4)
    Even the reports being issued US Office of Child Support 
Enforcement, such as the report above, are recognizing that the term 
``non-custodial parent'', is, in fact, obsolete in many situations.
    3. Disenfranchisement of fathers from the policy process.
    Few studies or panels that investigate divorce, parenting or child 
support include representatives of fathers or non-custodial parents. 
Fathers are under-represented, if at all, in the policy making process 
that affects both them, and their relationship with their children.
    In most states there are no programs available specifically 
designed to assist divorced fathers.
    In order to permit an air of legitimacy to the process of 
developing laws and policies that affect fathers of divorce, fathers 
will need to have their input considered, and adopted into the laws and 
policies.
    I thank you in advance for your consideration of these issues.

            Respectfully Submitted,
                                                Tom Chandel
    cc: Rep. Tom Allen
    Sen. Olympia Snowe
    Sen. Susan Collins

                                <F-dash>


   Statement of Daniel L. Hatcher, Senior Staff Attorney, Children's 
                              Defense Fund

    Chairman Herger and Members of the Subcommittee, thank you for the 
opportunity to submit this statement for the record regarding child 
support and fatherhood proposals. The Children's Defense Fund (CDF) is 
a private, nonprofit advocacy organization whose mission is to Leave No 
Child Behind<Register>. We receive no government funds. CDF provides a 
strong, effective voice for all the children of America who cannot 
vote, lobby, or speak for themselves.
    The effectiveness of the child support program is now steadily 
improving, in large part due to the 1996 child support reforms. 
However, poor children in families receiving welfare or leaving welfare 
for work often receive little of the child support collected on their 
behalf. The success of the child support system is significantly 
reduced for poor children due to the continued use of child support to 
recover welfare costs, and due to the fact that low-income noncustodial 
parents often cannot afford to pay support.
    Last year, the House of Representatives overwhelmingly passed the 
Johnson-Cardin Child Support Distribution Act of 2000 (H.R. 4678) by a 
vote of 405-18. Billions of dollars in child support would have been 
re-directed to children. The Act would have also provided funding for 
much-needed programs to help low-income noncustodial parents improve 
their economic status and provide better support for their children. 
H.R. 4678 was referred to the Senate, and a similar Senate bill was 
introduced. Unfortunately, the Senate did not take action on the bill.
    The Johnson-Cardin Child Support Distribution Act has been 
reintroduced in the House this year (H.R. 1471), and is also 
incorporated into the Act to Leave No Child Behind (H.R.1990/S.940), an 
omnibus bill for children supported by the Children's Defense Fund and 
many other organizations and child advocates. It is crucial for 
Congress to act quickly on this legislation. As TANF time limits run 
out, and more and more families continue to try to follow the rules of 
the new welfare law and work towards family independence, the child 
support system must be changed to support, not hinder, the efforts of 
custodial and noncustodial parents to support their children.
Performance of the child support program is improving.
    Child support enforcement tools have been strengthened in recent 
years. Wage withholdings were made mandatory in 1988, and then were 
made more effective when the National Directory of New Hires was 
established in the 1996 welfare law, the Personal Responsibility and 
Work Opportunity Reconciliation Act (``PRWORA''). Employers must now 
report all new hires to state agencies that then transmit the 
information to the National Directory of New Hires. Child support 
offices can then check the directory against a list of noncustodial 
parents with overdue child support. After a match is made, a wage 
withholding order is issued to deduct automatically child support 
payments from the noncustodial parent's paychecks.
    PRWORA also required each state to implement centralized computer 
systems for collections, made improvements to paternity establishment, 
and provided uniform interstate child support laws to address 
enforcement complications that exist when multiple states are involved.
    With the strengthening of enforcement tools and increased 
recognition of the importance of child support for child well-being, 
the performance of the child support program has improved. $15.8 
billion in child support was collected in 1999, a 10 percent increase 
over fiscal year 1998, and according to the U.S. Department of Health 
and Human Services, that number reached $18 billion in fiscal year 
2000. Paternities were established and acknowledged for 1.5 million 
children in 1999, about a 220 percent increase over fiscal year 1992. 
The child support collection rate has doubled since 1995.\1\
---------------------------------------------------------------------------
    \1\ Data is from U.S. Department of Health and Human Services press 
release, ``HHS Announces New Record Child Support Collections'' 
(January 17, 2001), the U.S. Department of Health and Human Services, 
Child Support Enforcement FY 1999 Preliminary Data Report (September, 
2000), and an analysis by Vicki Turetsky, ``Families Participating in 
the State Child Support Program,'' (Center for Law and Social Policy, 
2001).
---------------------------------------------------------------------------
Continued improvements are needed to help low-income children.
    Low-income children of current and former welfare recipients have 
the greatest need for the additional family income possible through the 
receipt of child support payments. The child support program can have a 
significant anti-poverty effect--when it is successful in getting 
support payments to families.
  <bullet> Among custodial parents receiving none of their ordered 
        child support, the poverty rate was 35.7 percent, whereas for 
        those receiving all the support due, the poverty rate was 15.2 
        percent.\2\
---------------------------------------------------------------------------
    \2\ U.S. Census Bureau, Child Support for Custodial Mothers and 
Fathers, P 60-212 (October 2000).
---------------------------------------------------------------------------
  <bullet> For poor families who get child support, the child support 
        amounts to 26% of the family's budget, or $2000 per year.\3\
---------------------------------------------------------------------------
    \3\ Vicki Turetsky, What if All the Money Came Home? (Washington, 
D.C.: Center for Law and Social Policy, June 2000).
---------------------------------------------------------------------------
  <bullet> Even small amounts of child support going to families that 
        received TANF assistance reduce the likelihood that the 
        families will need public assistance again.\4\
---------------------------------------------------------------------------
    \4\ Office of Child Support Enforcement, U.S. Department of Health 
and Human Services, 1999 Report to Congress: Analysis of the Impact of 
Welfare Recidivism of PRWORA Child Support Arrears Distribution Policy 
Changes (Washington, D.C.: U.S. Department of Health and Human 
Services, 1999).
---------------------------------------------------------------------------
    Unfortunately, the bulk of the collections are not reaching those 
children with the greatest needs. Almost two-thirds (63 percent) of the 
IV-D child support caseload is made up of current and former welfare 
recipients, but the majority of the funds collected in FY 1999 were for 
families who have never received welfare assistance. Of the small 
percentage of owed child support that is collected for current TANF 
recipients (9.3 percent), very little actually gets to the families--
the government kept $1.3 of the $1.5 billion collected in 1999. Former 
TANF recipients are getting more of the child support collected on 
their behalf ($3.8 billion out of the $4.83 billion collected), but 
still over $1 billion of the amount collected did not get to the 
children in families struggling to leave welfare for work.\5\
---------------------------------------------------------------------------
    \5\ Paula Roberts, ``The Performance of the Child Support 
Enforcement System: Two Points of View,'' (Center for Law and Social 
Policy, November 2000).
---------------------------------------------------------------------------
The 1996 welfare law has made the cost recovery purpose of the child 
        support system obsolete.
    In 1996, PRWORA changed the AFDC welfare program to encourage 
family financial independence. Child support was seen as an important 
part of a single-parent family's income package. As a result, the child 
support program began to shift its primary purpose from recovering 
welfare costs to encouraging both parents to support their children and 
actually getting child support to the custodial families.
    Unfortunately, the federal law requiring families who need 
temporary public assistance to assign their child support rights 
remains, along with a complex set of child support distribution rules. 
The assignment and distribution rules are now in conflict with the 
goals of encouraging family independence and support for children from 
both parents.

The current child support system withholds support owed to children who 
        need it the most--those in families struggling to make ends 
        meet who have had to rely on public assistance.
    Families needing TANF must assign their child support rights to the 
government under the outdated notion of welfare cost recovery. The 
effect is that child support collections are then withheld from the 
children, kept by state governments, who in turn pay a share to the 
federal government. Children often get nothing.
    States do have the ability to give some child support back to 
families after assignment, but only after they pay the federal 
government its share. Currently, only a small amount of the child 
support is given back.
    The Johnson-Cardin bill provides states with options and incentives 
to create child support pass-through and disregard policies to promote 
the goal of family financial independence. States can opt to pass 
through up to $400 a month in child support collections to a family 
receiving TANF; to the extent that the payment is disregarded in 
calculating TANF benefits, the state does not have to pay the federal 
government its share of the amount collected. Passing through at least 
a portion of the current child support collected ensures a smooth 
transition when families move from welfare to work. Often, when 
families do not receive any child support while on welfare, there is a 
considerable delay in starting direct child support payments after the 
family leaves cash assistance. Child support payments made directly to 
the family during and after TANF receipt prevent a delay in benefits 
during the critical period of transition.

Intercepting tax refunds is the most effective way to collect past due 
        support for families leaving welfare--but the money is often 
        withheld from poor children.
    When families are able to leave welfare for work, the assignment of 
child support stops. The transition to work is a critical time where 
families desperately need the extra income from child support payments 
to achieve economic stability and avoid the need to return to welfare. 
In addition to the need for reliable ongoing current support payments, 
effective ways of collecting past due child support owed to families 
leaving welfare are essential. At the end of 1999, $34.5 billion in 
arrears was owed for families who formerly received public 
assistance.\6\
---------------------------------------------------------------------------
    \6\ Office of Child Support Enforcement, U.S. Department of Health 
and Human Services, Child Support Enforcement FY 1999 Preliminary Data 
Report (Washington, D.C.: U.S. Department of Health and Human Services, 
1999).
---------------------------------------------------------------------------
    Intercepting federal tax refunds owed to the noncustodial parent is 
an increasingly successful method in collecting this past due child 
support. Tax intercepts account for the majority of back support 
collections made on behalf of families who have had to rely on public 
assistance. For many low-income families, where noncustodial parents' 
work is intermittent and child support payments irregular, intercepting 
federal tax refunds may be the only real chance they will have of 
getting past due child support.
    Unfortunately, the child support system is taking this effective 
enforcement tool away from poor children. When families leave welfare 
for work, the assignment of child support stops but past due child 
support is still often owed in part to the government and in part to 
the family. Under current law, past due child support collected by 
federal tax refund intercepts is kept by the government to pay itself 
first--even when most of the child support is owed to the children.

          Example (hypothetical): an eight-year old girl is owed almost 
        $20,000 in past due child support (from a $200/month order that 
        has never been paid). The girl's mother lost her job and 
        eventually needed temporary public assistance last year--at 
        that point, the girl had to begin assigning her right to child 
        support to the government. The family left public assistance 
        after just 6 months, and the child support assignment then 
        stopped--the government is now owed $1,200 in assigned child 
        support, whereas $20,000 plus current support is still owed to 
        the girl. If a $600 federal tax refund is intercepted this year 
        from the non-custodial father, the government would take all of 
        the money from the child to pay itself first.

    As the example illustrates, the practice of the government paying 
itself first from intercepted federal tax refunds can result in much-
needed additional child support income being withheld from families at 
the critical time of their transition to work. H.R. 1471 would change 
the child support distribution rules to ensure that child support 
collected through federal income tax refund intercepts is paid to 
families leaving TANF before the government takes its share.

Withholding child support from the children on whose behalf it is 
        collected further divides already fragile families.
    Children in low-income families experiencing separation or divorce 
need emotional and financial support from both parents. Most poor 
mothers and fathers want to do right by their children, and work 
together to support their children--yet the child support system itself 
can sometimes stand in their way.
    When poor noncustodial fathers \7\ are able to pay child support, 
they want to know the money is getting to their children. Noncustodial 
fathers become more alienated from their families when they must 
struggle to pay child support they know is being kept by the 
government. Some noncustodial parents will risk incarceration by 
providing money to their children directly, rather than paying 
government-owed support payments. Many noncustodial parents simply 
decide to pay nothing and avoid contact with their children.
---------------------------------------------------------------------------
    \7\ This testimony often refers to noncustodial parents as fathers 
for purposes of simplicity, and because the majority of noncustodial 
parents are men. There are also many female noncustodial parents and 
male custodial parents.
---------------------------------------------------------------------------
    When poor mothers and fathers attempt to reunify and raise their 
children together, the system of assigned child support can 
significantly block their efforts. Parents that reunify are often still 
stuck with making payments to the government in the name of ``child 
support,'' because of past due child support that was assigned to the 
government when one parent received welfare during the period of 
separation.

Many noncustodial parents are poor and face barriers to employment.
    For many low-income families who have had to rely on welfare, the 
noncustodial parents are often poor as well, limiting their ability to 
pay child support. Poor fathers may face multiple barriers to 
employment, including lack of training and education, incarceration and 
criminal records, lack of transportation, disabilities, and substance 
abuse.
    Poor fathers facing such barriers to employment may accumulate 
significant back due child support. The problem of large child support 
arrearages is heightened when states add Medicaid childbirth costs to 
the initial order, which can amount to thousands of dollars. Large 
child support arrearages may then create an additional barrier to 
legitimate employment. Faced with seemingly insurmountable arrearages, 
fathers may work in the ``underground'' labor market.
    H.R. 1471 would prohibit welfare cost recovery for Medicaid 
birthing costs, to reduce the creation of large state debts that may 
reduce the likelihood of low-income noncustodial parents paying current 
support. H.R. 1471 would also provide funding for demonstration 
projects to work directly with ``dead-broke'' low-income noncustodial 
parents to help them support their children financially and 
emotionally. The funding would create a competitive matching grants 
program for projects to promote marriage and successful parenting, and 
to address barriers to employment and improve the economic status of 
low-income noncustodial parents.

H.R. 1471 provides Congress the opportunity to stop the child support 
        system from withholding child support from poor children, and 
        to provide needed services to help poor noncustodial parents 
        better support their children.
    H.R. 1471 provides a tremendous opportunity for Congress to fix the 
child support system in order to get more child support distributed to 
families who have had to rely on welfare, and to provide much-needed 
services to low-income noncustodial parents. It is crucial for Congress 
to take immediate action and seize this important opportunity to help 
families struggling for financial independence--by making child support 
more about truly providing support to children, and providing services 
to poor noncustodial parents to help them become better able to provide 
that support.

                                <F-dash>


  Statement of Bill Wood, and Jay Gell, Children's Legal Foundation, 
                       Charlotte, North Carolina

    Bill Wood is a Business Management and Technology Consultant 
volunteering his time to help families and children in the State of 
North Carolina and around the country. He is a principal custodian of a 
9 year-old girl. Jay Gell is the Founder of the Children's Legal 
Foundation in Charlotte, North Carolina. A small group of about 10 
people formed after personal experiences with the excesses and abuses 
of the divorce Industry. Its mission is to promote intact families and 
create national alliances to change the child-destructive divorce 
industry.

Affects of Fatherlessness on Children--Social Consequences.
    ``Children describe the loss of contact with a parent as the 
primary negative aspect of divorce.'' <SUP>1</SUP> Meanwhile, society 
is just now beginning to recognize on a widespread basis what children 
have known all along--; father-absence is one of the most destructive 
forces to children in our society. As has been noted ``[f]ather-absence 
is the greatest social problem we face.'' <SUP>2</SUP> Father-absence 
associated with divorce and sole maternal custody, is the primary 
predictor of a host of societal ills affecting and destroying children.
---------------------------------------------------------------------------
    \1\ J Kelly. Assoc. of Family and Conciliation Courts, California 
Chapter Mtg, Sonoma, CA, Jan. 1991.
    \2\ D. Blankenhorn. Fatherless America. (New York: BasicBooks, 
1995), Title page.

          ``The decline of fatherhood is a major force behind many of 
        the most disturbing problems that plague America: crime and 
        juvenile delinquency; premature sexuality and out-of-wedlock 
        births to teenagers; deteriorating educational achievement; 
        depression, substance abuse, and alienation among adolescents; 
        and the growing number of women and children in poverty . . .
          Fathers are the first and most important men in the lives of 
        girls. They provide role models, accustoming their daughters to 
        male-female relationships. Engaged and responsive fathers play 
        with their daughters and guide them into challenging 
        activities. They protect them, providing them with a sense of 
        physical and emotional security. Girls with adequate fathering 
        are more able, as they grow older, to develop constructive 
        heterosexual relationships based on trust and intimacy . . .
          Why does living without a father pose such hazards for 
        children? Two explanations are usually given: The children 
        receive less supervision and protection from men mothers bring 
        home, and they are also more emotionally deprived, which leaves 
        them vulnerable to sexual abusers. . . . Even a diligent absent 
        father can't supervise or protect his children the way a live-
        in father can. Nor is he likely to have the kind of 
        relationship with his daughter that is usually needed to give 
        her a foundation of emotional security and a model for 
        nonsexual relationships with men. . . .'' <SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ D. Popenoe. ``Life without father.'' In: C. Daniels, ed. Lost 
fathers: The Politics of Fatherlessness in America. (New York: St. 
Martin's Press, 1998).
---------------------------------------------------------------------------
Promiscuity, teen pregnancy, child sexual abuse, and ongoing 
        difficulties in later family life are results of feminist 
        misandry infecting society with a ``father hatred'' causing 
        father-absence.
    Single motherhood, once lauded by the feminist icon ``Murphy 
Brown,'' has thoroughly produced its cultural ``poisoned fruit'' 
(Candace Bergen <SUP>4</SUP> and the feminists then attacked Vice 
President Dan Quayle for his support of the family). White teenage 
girls in 1988 were 72% more likely than their father-present peers to 
become single mothers, while there was a 100% increase for black 
teenage girls,<SUP>5</SUP> other studies also reported up to a 600% 
increase in teenage illegitimate births.<SUP>6</SUP> Over 10 years 
later, out-of-wedlock-births have reduced slightly and stabilized, 
while the subject population has reduced accounting for much of the 
difference.<SUP>7</SUP> In contrast, more involved fathers protect 
girls from engaging in first sex, lower the risk of using illicit 
substances, and also reduce the risk of violent behavior.<SUP>8</SUP> 
This protection ``from engaging in first sex,'' or promoting 
abstinence, is the most certain way to reduce teenage pregnancy and 
avoid a whole host of issues caused by promiscuity.
---------------------------------------------------------------------------
    \4\ June 1992, Vice President Dan Quayle criticized the TV show 
Murphy Brown for promoting single motherhood. Chaos ensued and he was 
incessantly ridiculed by Hollywood and the media. Candace Bergen wins 
an Emmy for her portrayal of Murphy Brown and begins another career 
giving commencement speeches on University campuses. [Author 
commentary] With the complete absorption of feminist, anti-family, 
anti-father philosophy so deeply entrenched in Hollywood, the media, 
and gaining a stranglehold over the courts, is it any wonder that 
families are being destroyed, children are suffering, and our culture 
is decaying?
    \5\ S. McLanahan. Demography 25, Feb. 1988, p. 1-16.
    \6\ Y. Matsuhashi et al. (1988). J Adolescent Health Care 10, 409-
412.
    \7\ Most WW2 baby-boomers are past child-bearing age and their 
children are beyond teenage years.
    \8\ K. Harris et al. Paternal involvement with adolescents in 
intact families: The influence of fathers over the life course, 
presented at the annual meeting of the Am. Sociol. Assoc., New York, 
N.Y., August 16-20, 1996; Univ. of North Carolina at Chapel Hill, 
Chapel Hill, N.C., 27516, p. 28.
---------------------------------------------------------------------------
    Father-absence creates increases in child sex-role 
conflicts,<SUP>9</SUP> and a 100% increase in gender identity 
struggles.<SUP>10</SUP> Before it became ``politically correct taboo'' 
to treat homosexuality as a potential malady or disorder,<SUP>11</SUP> 
father-absence created a significant increase in the likelihood of 
homosexual behavior in males as well as females.<SUP>12</SUP>
---------------------------------------------------------------------------
    \9\ H. Biller, (1974). Paternal Deprivation: Family, School, 
Sexuality, and Society (Lexington, Mass.: D.C. Heath).
    \10\ G. Rekers. Journal of Family and Culture, 2, No. 3 (Autumn, 
1986), p. 8-31.
    \11\ As was listed in the Psych profession's DSM-III before it was 
removed through political pressure from the DSM-IV.
    \12\ H. Biller, Paternal Deprivation: Family, School, Sexuality, 
and Society (Lexington, Mass.: D.C. Heath, 1974), p.114.
---------------------------------------------------------------------------
    The contrasts are striking because reversing the trend of 
illegitimacy requires, above all, presence of a father in the daily 
lives of children. It is not just ``participation'' of a father in the 
lives of children. It is primarily the ``presence'' of a father:

          ``Fathers who actively engage in joint activities and 
        interaction with adolescents promote their educational and 
        economic achievement and fathers who maintain a close stable 
        emotional bond with adolescents over time protect adolescents 
        from engaging in delinquent behaviors.'' <SUP>13</SUP>
---------------------------------------------------------------------------
    \13\ Ibid.

    Some of the additional ``poisoned fruit'' deeply planted and rooted 
in young women by the ``enlightened, anti-marriage, male-hating 
feminists'' include difficulty for girls in building a stable family in 
adulthood,<SUP>14</SUP> increased incidence of child sexual 
abuse,<SUP>15</SUP> and heightened incidence of fatal child abuse by 
mothers.<SUP>16</SUP> Teenage boys risk a 77% <SUP>17</SUP> to 100% 
<SUP>18</SUP> increase in the overall likelihood of fathering an 
illegitimate child and therefore, as the research has shown, 
perpetuating the father-absence cycle for another generation (or 
generations to come). Teenage girls run a 92% greater risk of 
continuing the divorce cycle.<SUP>19</SUP> Infants and toddlers (two 
and younger) proved up to 100 times more likely to be killed by 
stepparents than by biological parents.<SUP>20</SUP> Preschoolers 
living without their biological father were 40 times more likely to be 
a victim of child abuse as compared to those living with their 
father.<SUP>21</SUP>
---------------------------------------------------------------------------
    \14\ S McLanahan, L Bumpass. (July, 1988). Am J Sociol, 4, 130-152.
    \15\ A Sedlak (August 30, 1991). ``Supplementary Analyses of Data 
on the National Incidence of Child Abuse and Neglect'' (Rockville, Md.: 
Westat) table 6-2, p. 6-5. see also, Gomes-Schwartz, Horowitz, and 
Cardarelli, Child Sexual Abuse Victims and their Treatment, 1988 (69% 
of victims of child sexual abuse came from homes where the biological 
father was absent).
    \16\ H. Biller, (1974). Paternal Deprivation: Family, School, 
Sexuality, and Society (Lexington, Mass.: D.C. Heath), p. 21f. see 
also, Fatherless Families Spawning Virulent Form of Child Abuse,'' New 
York Tribune, June 6, 1984.
    \17\ W. Marsiglio Family Planning Perspective 19 Nov/Dec, 1987, 
240-251.
    \18\ B. Christensen. The Family in America. Vol 3, no. 4 [April 
1989], p. 3.
    \19\ Warren Farrell presentation at NCMC conference, 1992; 
Hetherington, 1972.
    \20\ Wilson and Daly, ``The Risk of Maltreatment of Children Living 
with Stepparents,'' in Richard J. Gelles and Jane B. Lancaster, eds., 
Child Abuse and Neglect: Biosocial Dimensions, Foundations of Human 
Behavior (New York: Aldine de Gruyter, 1987), p. 215-232.
    \21\ Wilson and Daly in Child Abuse and Neglect: Biosocial 
Dimensions, 1987.
---------------------------------------------------------------------------
Even stepfathers do not foster improvement much better than outright 
        father-absence.
    There seems to be little substitute for the presence of a caring 
biological father. ``Receipt of child support does not appear to make a 
significant difference'' and ``the presence of a step-parent does not 
significantly improve a child's situation, either.'' \22\ Children 
living with a mother and stepfather fared poorly on most 
indicators.\23\ Child abuse occurs most frequently within stepfamilies, 
and, in fact, most sexual abuse occurs in stepfamilies.\24\ Sexual 
abuse of girls by their stepfathers can be at a minimum six or seven 
times higher,\25\ and may be up to 40 times \26\ that of sexual abuse 
by biological fathers in intact families. When it comes to the risk of 
abuse with unrelated males, Barbara Dafoe Whitehead explains:
---------------------------------------------------------------------------
    \22\ K. Harris. Reuters. Fathers' Care Benefits Children. N.Y., 
August 25, 1998.
    \23\ National Center for Health Statistics, June 1991.
    \24\ David M. Fergusson, Michael T. Lynskey, and L. John Horwood, 
(1996). ``Childhood Sexual Abuse and Psychiatric Disorders in Young 
Adulthood: I. Prevalence of Sexual Abuse and Factors Associated with 
Sexual Abuse,'' Journal of the American Academy of Child and Adolescent 
Psychiatry, Vol. 34, pp. 1355-1364.
    \25\ Diana E. H. Russell, (1984). ``The Prevalence and Seriousness 
of Incestuous Abuse: Stepfathers vs. Biological Fathers,'' Child Abuse 
and Neglect, Vol. 8, pp. 15-22.
    \26\ See Wilson and Daly, ``The Risk of Maltreatment of Children 
Living with Stepparents,'' p. 228.

          ``Stepfathers also pose a sexual risk to children, especially 
        stepdaughters. They are more likely than biological fathers to 
        commit acts of sexual abuse, and are less likely to protect 
        daughters from other male predators. According to a Canadian 
        study, children in stepfamilies are forty times as likely to 
        suffer physical or sexual abuse as children in intact 
        families.'' \27\
---------------------------------------------------------------------------
    \27\ M Daly, M Wilson. Homicide (N.Y.: Aldine de Gruyter, 1988), p. 
89.

    It is worth noting that stepfathers cannot make up for the lack of 
---------------------------------------------------------------------------
a biological father. In fact, Maggie Gallagher notes:

          ``Children in stepfamilies do no better on average than 
        children in single-parent homes. . . . Failing to understand 
        the erotic relations that are at the heart of family life, they 
        [sociologists] failed to predict what, sadly and surprisingly, 
        later research strongly suggested: Remarriage is not only not 
        necessarily a cure; it is often one of the risks children of 
        divorce face.'' \28\
---------------------------------------------------------------------------
    \28\ M. Gallagher, (1996). The abolition of Marriage: How We 
Destroy Lasting Love. DC., Regnery Pub, Chapter 6.
---------------------------------------------------------------------------
Father-absence promotes anti-social behavior as well as criminal 
        activity and psychological problems.
    Delinquency of children, and in particular boys, is promoted by 
father-absence.\29\ The problems with not having fathers in children's 
lives can be so severe that they can cause an 86% increase in the 
likelihood that a child will become a psychotic delinquent.\30\ Some of 
the widely recognized statistics of the ills, and cost to society of 
father-absence include; 90% of all homeless and runaway children,\31\ 
70% of juveniles in state-operated institutions,\32\ 75% of all 
adolescent patients in chemical abuse centers,\33\ 85% of prison 
youths,\34\ and talk about promoting a danger to women--up to 80% of 
rapists, motivated by displaced anger.\35\ There is also a threefold 
increase in the likelihood that a child will be involved in gang 
activity.\36\
---------------------------------------------------------------------------
    \29\ M. Wynn. Fatherless Families: A Study of Families Deprived of 
a Father by Death, Divorce, Separation, or Desertion Before and After 
Marriage (N.Y.: London and Maxwell, 1964), p. 147.
    \30\ R. Zagar. J Am. Acad. Child and Adolescent Psychiatry, 28 
[1989]:437-440.
    \31\ U.S. Department Health and Human Services Bureau of Census.
    \32\ U.S. Dept. of Justice, Special Report, Sept. 1988.
    \33\ Rainbow for All God's Children.
    \34\ Fulton Co. Georgia jail populations, Texas Dept. Corrections, 
1992.
    \35\ R. Knight, R., R. Prentky. Criminal Justice and Behavior Vol. 
14 (Dec 1987), 403-426.
    \36\ Christensen at footnote 24.
---------------------------------------------------------------------------
    Over the existing population, there is a 200% increase in the 
likelihood that a child will require psychological treatment 
<SUP>37</SUP> with 85% of all father-absent children exhibiting 
behavioral disorders.<SUP>38</SUP> This is a crucial point for 
consideration for every attorney, and every judge that separates a fit 
father from his children. They are PROMOTING behavioral disorders. Low 
self-esteem is suffered by both girls <SUP>39</SUP> and 
boys.<SUP>40</SUP> There is a 200% increase in attempted or successful 
teen suicides<SUP>41</SUP> with 63% of all [successful] youth suicides 
from fatherless homes.<SUP>42</SUP>
---------------------------------------------------------------------------
    \37\ N. Kalter. Am. J Orthopsychiatry, 57 (4), October, 1987.
    \38\ Center for Disease Control.
    \39\ E Wakerman. Father Loss: Daughters Discuss the Man that Got 
Away. (Garden City, N.Y.: Doubleday, p. 109.
    \40\ H Biller. Father, Child, and Sex Role. (Lexington, Mass.: D.C. 
Heath, 1971), p. 3.
    \41\ Prof. Victor R. Fuchs, Stanford Univ., LA Times, Oct. 24, 
1988.
    \42\ U.S. D.H.H.S., Bureau of the Census.
---------------------------------------------------------------------------
Academic performance is severely affected.
    Father-absence creates a significant decrease in school 
performance,<SUP>43</SUP> a significant increase in disruptive school 
behavior,<SUP>44</SUP> a significant decrease in performance on 
aptitude tests, in cognitive skills, in terms of grades, and is 
cumulative in nature; <SUP>45</SUP> and predicts truancy and grade 
repetition.<SUP>46</SUP> Fatherless children also account for 71% of 
all high school dropouts.<SUP>47</SUP> Some of the affects of this low 
academic achievement can be seen in the substantial increase in men's 
odds of ending up in the lowest occupational stratum <SUP>48</SUP> 
repeating the ``illegitimacy cycle,'' and ending up ``dead-broke'' 
unable to support their children.
---------------------------------------------------------------------------
    \43\ M Thompson, K Alexander, D. Entwwisle. Social Forces, 67, Dec. 
1988, 424-451.
    \44\ R Forehand et al. Journal of Behavior Therapy and experimental 
Psychiatry, 18, (Dec 1987): 325-328.
    \45\ H Biller, R Solomon. Child Maltreatment and Paternal 
Deprivation: A Manifesto for Research, Prevention, and Treatment (Lex, 
Mass.: D.C. Heath, 1986), p. 136.
    \46\ G Bauer. Report to the President from the White House Working 
Group on the Family. Feb., 1988.
    \47\ National Principals Association Report on the State of High 
Schools.
    \48\ T Biblarz, A Raftery. Am Sociol Review, 1 (Feb 1993), p. 97.
---------------------------------------------------------------------------
    In contrast to this academic destruction of children, father-
present children ``are more likely to get mostly A's, to enjoy school, 
and to participate in extracurricular activities if their nonresident 
fathers are involved in their schools than if they are not.'' The 
report laments that ``[t]he majority of nonresident fathers, however, 
are not involved in their children's schools.'' <SUP>49</SUP> There are 
ample studies to show (explored later) that this is not entirely by 
their choice.
---------------------------------------------------------------------------
    \49\ U.S. Department of Education, National Center for Educational 
Statistics, NCES 98-117 (June 1998).
---------------------------------------------------------------------------
Surprising CAUSES of Fatherlessness.
    Certainly, no reasonable person would suggest that some fathers do 
not abdicate, or completely avoid and abandon their responsibilities to 
their child(ren). Surprisingly, that is not one of the larger causes of 
fatherlessness.<SUP>50</SUP> The largest causes of fatherlessness will 
come as a surprise and shock to most. The single largest reason that 
fathers do not see their children is a result of female-initiated 
divorce for no ``good'' reason.<SUP>51</SUP> There are a number of 
studies and commentaries that indicate the reasons of female-initiated 
divorce, and rates that may be greater than 80% while most of the 
studies indicate 66%-75%.<SUP>52</SUP>
---------------------------------------------------------------------------
    \50\ ``Non custodial parents, who are usually men, are likely to be 
negatively affected in psychological ways. A most pervasive problem is 
suffering caused by the feeling that they have lost their children.'' 
Increasing Our Understanding of Fathers Who Have Infrequent Contact 
With Their Children. James R. Dudley, Professor, University North 
Carolina, under a grant from Temple University, Family Relations, Vol. 
4, No. 3, July 1991 pg. 279, col. 2, 2, lines 1-5.
    \51\ This is a limited list as there is an abundance of sources:
    Friedman and Percival (1976). ``Who sues for Divorce?''--5 Journal 
of Legal Studies 61-82. see pages 71, 75, 78, 81.
    Gunter and Johnson (1978). ``Divorce Filing as Role Behavior: 
Effect of No-Fault Law on Divorce Filing Patterns,'' Journal of 
Marriage and Family 571-574. see page 572.
    Pettit, E.J. & Bloom, B.L. (1984). ``Whose decision was it: The 
effects of initiator status on adjustment to marital disruption.'' 
Journal of Marriage and the Family, 587-595.
    Stark (1991). ``Divorce Law, Feminism, and Psychoanalysis: In 
Dreams Begin Responsibilities,'' 38 UCLA Law Review 1483-1531. see page 
1514, note 149.
    Braver et. al. (1993). ``Who Divorced Whom? Methodological and 
Theoretical Issues,'' 20 Journal of Divorce and Remarriage 1-19.
    Brinig (1993). ``The Law and Economics of No-Fault Divorce,'' 26 
Family Law Quarterly 453-470.
    Brinig and Buckley (1998). ``No-Fault Laws and At-Fault People,'' 
18 International Review of Law & Economics 325-340.
    Brinig, M. and Allen D (2000). ``These Boots are Made for Walking: 
Why most divorce filers are women.''
    \52\ This is a limited list as there is an abundance of sources:
    Weitzman, 1985. ``The Divorce Revolution: The Unexpected Social and 
Economic Consequences for Women and Children in America,'' New York: 
The Free Press, page 460.
    Chambers, 1979. ``Making Fathers Pay--the wife is the moving party 
in divorce actions seven times out of eight.'' Chicago: University of 
Chicago Press. page 29.
    Hite, 1987. ``Women and Love: A Cultural Revolution in Progress'' 
where it is stated ``ninety-one percent of women who have divorced say 
they made the decision to divorce, not their husbands.'' New York: 
Alfred A. Knopf, 1987, page 459.
    Colorado Supreme Court--Task Force on Gender Bias in the Courts. 
Gender and Justice in the Colorado Courts from the Task Force Report, 
1990. Revealed that 7 out of 8 divorces are initiated by women (88%).
    Fetzner, William of WFEJ clerk of the courts data from a five 
county study of child custody and support assessments in Marian, 
Howard, Hancock, Grant, and Rush counties (Indiana) in 1985. Petitions 
filed by mother: 76.7%--of 2,033 dissolutions granted, 1,599 (76.7%) 
were filed by wives, 474 (23.3%) were filed by husbands.
    Joan Kelly, author of Surviving the Breakup, ``Divorce is sought 
about three to one by women'' (cited in Joint Custody Newsletter, 
January, 1988).
    Ahrons, C. (1994). The good divorce. NY: Harper Collins page 92.

          ``In reality . . . throughout most of North American history 
        wives have filed for divorce twice as often as husbands. . . 
        .''
          The proportion of divorces initiated by women ranged around 
        60% for most of the 20th century, and climbed to more than 70% 
        in the late 1960s when no-fault divorce was introduced: so says 
        a just-released study by law professor Margaret Brinig of 
        George Mason University in Arlington, Virginia and Douglas 
        Allen, economist at Vancouver's Simon Fraser University. The 
        researchers undertook one of the largest studies ever on 
        divorce, using 46,000 cases from the four American states that 
        keep statistics on which partner initiates the action. In 
        addition to women filing twice as often, the researchers found, 
        they are more likely to instigate separations and marriage 
        break ups.
          The Brinig-Allen study also explodes the myth of the brutish 
        husband, finding, for instance, that cruelty is cited in only 
        6% of divorce applications in Virginia, one of the few states 
        that still uses fault grounds for divorce. . . .
          Arizona State University psychologist Sanford Braver provides 
        backup for the Brinig-Allen study. In his new book, Divorced 
        Dads: Shattering the Myths, Mr. Braver surveyed 400 divorcing 
        couples seeking causes for the breakdown of their marriages. He 
        found ``violence or abuse strikingly absent.'' Instead, less 
        dramatic factors prevailed, such as ``growing apart'' or 
        ``spouse not able or willing to meet my needs.''
          . . . In 25% of marriage breakdowns . . . men have ``no 
        clue'' there is a problem until the woman tells them they want 
        out. . . . [W]omen are more likely to file if the divorce rate 
        is high in their area or if their friends and families are 
        doing it. ``Where the divorce rate is low so there's a lot of 
        stigma attached,''. . . ``they won't leave. . . .''
          ``The rights of women in society have been pushed to such an 
        extent that they now feel if they're not happy, it's their 
        partner's fault,'' says marriage researcher Walter Schneider. . 
        . . ``That perception is heightened by the social conditioning 
        of men to be chivalrous. Men have to be protectors of women and 
        children, so they are reluctant to become involved in an 
        adversarial process against a woman. They're also less likely 
        to seek divorce because that would destroy their self-image as 
        providers and protectors of the family. It would destroy their 
        world; all they've sacrificed for would go down the drain.''
          Mr. Schneider points to an Australian study indicating that . 
        . . divorced persons have the highest suicide rate. . . .
          But according to Professors Brinig and Allen, [the mother's] 
        custody of the children may be the very reason her husband 
        provides so little support. There are three basic reasons 
        people file for divorce they say: (1) to stop being exploited 
        within the marriage, (2) to exploit the other spouse by running 
        off with marital investments, or (3) to establish custody over 
        children. They believe that determining which of the three 
        predominates could assist divorce law reformers.
          If divorces result mostly from bad (or exploitive) marriages, 
        the Brinig-Allen study suggests, then divorce should be made 
        (or kept) easier; if divorces result mostly from a desire to 
        exploit the partner, then it should be made more difficult or 
        expensive; and if it is custody outcomes which most influence 
        divorce filings, a presumption of joint custody, except where 
        one parent can demonstrate the other is unfit, would ``mitigate 
        the incentive for one party filing for the purpose of gaining 
        unilateral control over the children and therefore the other 
        spouse.''
          After analyzing 21 wide-ranging variables, the Brinig-Allen 
        study concludes that the person who anticipates gaining custody 
        of the children is the one most likely to file for divorce. 
        Therefore, Prof. Brinig speculates, if joint custody were the 
        norm, there would likely be fewer divorces, not more. . . .
          In fact, however, divorce rates are plunging in states where 
        courts typically award custody of children to both parents. A 
        study headed by Richard Kuhn of the Children's Rights Council 
        based in Washington, D.C., found that states with higher levels 
        of joint custody awards in 1989 and 1990 ``have shown 
        significantly greater declines in divorces in the following 
        years through 1995, compared with other states.'' Overall 
        divorce rates declined nearly four times faster in high joint-
        custody states compared with states where joint custody is 
        relatively rare. A large factor, the researchers believe, is 
        that joint custody ``removes the capacity for one spouse to 
        hurt the other by denying participation in raising the 
        children.'' <SUP>53</SUP>
---------------------------------------------------------------------------
    \53\ Mclean, Candis. Look Who Doesn't Want A Divorce. New Studies 
Indicate Women Are First To File, But That Joint Custody Keeps Families 
Together. January 11, 1999.

    Dr. Richard Warshak, among America's leading experts on father 
custody, described the history of routine custody arrangements as 
---------------------------------------------------------------------------
follows:

          ``In earlier times it was assumed that men, by nature, are 
        better suited to protect and provide for children. Since 1920, 
        it has been assumed that women, by nature, are better suited to 
        love and care for children.
          ``These assumptions, which so powerfully affect so many 
        children's lives, are based on nothing more than folklore and 
        sexual stereotypes. . . . As guidelines for custody 
        dispositions, folklore, sentiment, and stereotypes are poor 
        substitutes for factual information. In the last two decades, 
        social scientists have examined different custody arrangements 
        and their effects on children's development. If this 
        information is ignored, and we continue to allow myth and 
        sentiment to rule custody decisions, we short-change our 
        children and we short-change ourselves.'' <SUP>54</SUP>
---------------------------------------------------------------------------
    \54\ Dr. Richard Warshak, The Custody Revolution (1992) ppg. 33-34.

    Excerpt as adapted from US House of Representatives written 
testimony of Richard Weiss and William Wood.<SUP>55</SUP>
---------------------------------------------------------------------------
    \55\ Serial No. 106-107--H.R. 1488, The ``Hyde-Woolsey'' Child 
Support Bill, March 16, 2000.

          Non-compliance with court ordered visitation is three times 
        the problem of non-compliance with court ordered child support 
        and impacts the children of divorce even more. And the picture 
        gets worse. When mothers are awarded primary or ``sole'' 
        custody, 37.9% of fathers, end up with no access/visitation 
        rights.<SUP>56</SUP> And another study found that 42% of 
        fathers fail to see their children at all after 
        divorce.<SUP>57</SUP> The very narrow difference (~4% variance) 
        between these two studies where the COURTS remove the father, 
        and the overall loss of parental contact indicates that the 
        courts themselves are the biggest culprit in this.<SUP>58</SUP>
---------------------------------------------------------------------------
    \56\ Census Bureau P-60, #173, Sept 1991. p. 6, col.II, para. 6, 
lines 4 & 5.
    \57\ Frank F. Furstenberg, Jr. and Christine Winquist Nord, 
``Parenting Apart: Patterns of Childbearing after Marital Disruption,'' 
Journal of Marriage and the Family 47, no. 4 (November 1985): 874, 
cited in Sylvia Ann Hewlett, When the Bough Breaks (1991) at 286-287.
    \58\ While it is possible that the correlation between these two 
studies may be anecdotal, the time frame is similar, and can the courts 
continue to ``flirt with disaster'' in so many separations of children 
from their fathers?
---------------------------------------------------------------------------
          Non-compliance with court ordered visitation by custodial 
        mothers prevents 77% of non-custodial fathers from being able 
        to ``visit'' their children.<SUP>59</SUP> 40% of custodial 
        mother SELF-REPORTS indicate they interfered with the father's 
        visitation to ``punish'' children's fathers,<SUP>60</SUP> other 
        fathers ``often experience intense conflicts with their former 
        spouses, and these conflicts typically interfere with their on-
        going parent-child relationships.'' <SUP>61</SUP> Another study 
        reported that 25-33% of them outright DENIED visits (in 
        defiance of an established order) <SUP>62</SUP> ~50% see no 
        value in the father's involvement with the child,<SUP>63</SUP> 
        and many use the children to retaliate against the father for 
        their own ongoing personal problems.<SUP>64</SUP> Sole 
        custodial mothers exert power and control to abuse court 
        orders, denying fathers visitation,<SUP>65</SUP> and they would 
        also sabotage father's involvement in their children's 
        lives.<SUP>66</SUP> And finally fathers absolutely WANT to be 
        with their children, or these child-destroying, spiteful acts 
        would be useless <SUP>67</SUP> without a ``control and power'' 
        incentive.
---------------------------------------------------------------------------
    \59\ Visitational Interference--A National Study, Ms. J Annette 
Vanini, M.S.W. and Edward Nichols, M.S.W. (September 1992).
    \60\ Frequency of visitation by Divorced Fathers; Differences in 
Reports by Fathers and Mothers. Sanford Braver et al, Am. J. of 
Orthopsychiatry, 1991. p. 449, col. II, lines 3-6, (citing Fulton).
    \61\ See footnote 50. Family Relations, Vol. 4, No. 3, July 1991 
pg. 279, col. 2, 2, lines 15-19.
    \62\ Frequency of Visitation by Divorced Fathers: Differences in 
Reports by Fathers and Mothers--Sanford H. Braver, Ph.D., Sharlene A. 
Wolchik, Ph.D., Irwin M. Sandler, Ph.D., Bruce S. Fogas, Ph.D., Daria 
Zvetina, M.Ed. American Journal of Orthopsychiatry pg. 451, col. 2, 2, 
lines 11-14.
    \63\ Surviving the Breakup, Joan Kelly & Judith Wallerstein, p. 
125.
    \64\ Journal of Marriage & the Family, Vol. 51, p. 1015, Seltzer, 
Shaeffer & Charing, November 1989.
    \65\ ``Unilateral abuse of parental custodial power is more common 
in court ordered sole custody situations.'' Child Custody and Parental 
Cooperation--Frank Williams, M.D., Dir. Psychiatry--Cedar-Sinai--
Presented to the American Bar Association, Family Law Section, August 
1987 and January 1988 pg. 4, col. 1, 1, lines 17-20.
    \66\ The Effect of the Post Divorce Relationship on Paternal 
Involvement: A Longitudinal Analysis--Constance R. Ahrons, Ph.D., and 
Richard B. Miller, Ph.D., American Journal of Orthopsychiatry, Vol. 63, 
No. 3, July 1993 pg. 442, Col. 1, 1, lines 23-27.
    \67\ ``Most men were dissatisfied with the frequency of 
visitation.'' Visitation and the Noncustodial Father--Mary Ann P. Koch, 
Carol R. Lowery, Journal of Divorce, Vol. 8, No. 2, Winter 1984, pg. 
54, 4 lines 5 also noted was ``70% of fathers felt they had too little 
time with their children.'' pg 54, 4, lines 5-7.
---------------------------------------------------------------------------
      The court system does not enforce orders for ``visitation'' 
<SUP>68</SUP> but jails for non-compliance with a ``child'' support 
order. This is a clear indication that the whole DIVORCE INDUSTRY 
<SUP>69</SUP> is about money <SUP>70</SUP> and children are just the 
``poker chips'' in this high stakes ``game.'' Their destruction is just 
``collateral damage'' for the marriage hating special interests pushing 
their child destroying propaganda.
---------------------------------------------------------------------------
    \68\ ``The court's failure to enforce or expand visitation 
agreements were a frequently mentioned complaint'' Increasing Our 
Understanding of Fathers Who Have Infrequent Contact With Their 
Children--James R. Dudley, Professor, University North Carolina, under 
a grant from Temple University, Family Relations, Vol. 4, No. 3, July 
1991 pg. 281, col. 2, 2, lines 14-16.
    \69\ This is a list of some who benefit or participate, financial 
or otherwise, in the continued breakdown of the family, destruction of 
marriage, or in the increased male acrimony (termed misandry--male 
hatred).

[GRAPHIC] [TIFF OMITTED] T4742A.009

    \70\ ``Few men can afford to legally contest every infringement of 
the visitation agreement.'' Visitation and the Noncustodial Father--
Mary Ann P. Koch, Carol R. Lowery, Journal of Divorce, Vol. 8, No. 2, 
Winter 1984--pg. 60, 3, lines 11-12.

    As the Family Law Quarterly noted as early as 1984, the majority 
view of the psychiatric and pediatric profession is that mothers and 
fathers are equals as parents.<SUP>71</SUP> There is an abundance of 
studies indicating fathers are equally qualified parents.<SUP>72</SUP> 
And fathers have been seeking to be involved in family matters for some 
time now.<SUP>73</SUP>
---------------------------------------------------------------------------
    \71\ See J. Atkinson, ``Criteria for Deciding Child Custody in the 
Trial and Appellate Courts,'' Family Law Quarterly, Vol. XVIII, No 1 
(Spring 1984).
    \72\ Michael E. Lamb & Abraham Sagi eds., 1983) Studies show that 
fathers can be ``just as sensitive and competent in care-giving as 
mothers''; William Marsiglio, Fatherhood, Contemporary Theory, Research 
and Social Policy (William Marsiglio ed., 1995) Men interact 
differently with children but their ability to parent is just as 
effective; Pamela Daniels & Kathy Weingarten, The Fatherhood Click: The 
Timing of Parenthood in Men's Lives, in Fatherhood Today: Men's 
Changing Role in the Family (Phyllis Bronstein & Carolyn Cowen eds., 
1988) (``Fatherhood Today'') Nurturing is not inherent in either a 
mother or father, but must be learned and developed by both.
    \73\ ``[A]part from any response to the women's movement, men are 
also seeking increased emotional closeness with their infants as part 
of a men's movement toward fuller personhood, and as a reaction against 
the alienation and burnout of the purely instrumental role of family 
provider.'' Michael W. Yogman, James Cooley, and Daniel Kindlon, 
Fathers, Infants, and Toddlers, in Fatherhood Today.
---------------------------------------------------------------------------
    The legal system uses an indeterminate criteria, pseudo-named a 
``standard'' called the ``best interests of the child standard''. If 
the courts were honest in their use of the ``best interests of the 
child'' then so much social science information and information that 
``[t]he primary negative aspect of divorce reported by children in 
numerous studies was loss of contact with a parent'' <SUP>74</SUP> 
could not be ignored so easily. After all, there is a repeated 
description of ``the dissatisfaction of so many youngsters who felt 
they were not seeing their fathers often enough. If custody and 
visiting issues are to be within the realm of the `best interest of the 
child,' then such widespread discontent must be taken very seriously.'' 
<SUP>75</SUP> When examining the undisputed child's viewpoint, cutting 
through the hysterical feminist propaganda and hyperbole, and looking 
at the child's viewpoint, there is only one tenable answer--; the 
``best interests of the child'' dictates something akin to 50-50 shared 
parenting. ``One clear message from the accumulated divorce research is 
that children profit by continued [frequent] exposure to both 
parents.'' <SUP>76</SUP>
---------------------------------------------------------------------------
    \74\ Hetherington et al., 1982; Kurdek & Berg, 1983; Wallerstein & 
Kelly, 1980, Warshak & Santrock, 1983.
    \75\ J. Wallerstein and J. Kelly, Surviving the Breakup, 142-143 
(1980). See also, D. Luepnitz, Child Custody, A Study of Families After 
Divorce, (1983).
    \76\ M. Koch, C. Lowry. Journal of Divorce, Vol. 8, No. 2, Winter 
1984.
---------------------------------------------------------------------------
    Unfortunately it is the rule, rather than the exception that trial 
courts are bound by the relics of antiquated stereotypes in their 
dealings with child custody and visitation questions. Especially when 
there are modern approaches that better serve the ``best interests of 
the child''.
    Courts are ruthlessly efficient in establishing specific standards, 
guidelines, criteria and rules for dealing with Child Support where the 
state has a vested interest in collecting TANF funds provided by the 
Federal Government. So much so that there are almost NO reasons that 
some party cannot be found to PAY. Even in those cases where there is 
CLEARLY fraud involved (such as in the case of an unfaithful spouse who 
becomes pregnant and deceives the other).
Recommendations:
    Make TANF funds contingent upon a statutory presumption of 50-50 
shared parenting with the rebuttal to that presumption being a 
VOLUNTARY reduction by either party, OR a detailed finding of unfitness 
by one of the parties.<SUP>77</SUP> When mothers are awarded primary or 
``sole'' custody, 37.9% of fathers, end up with no access/visitation 
rights.<SUP>78</SUP>
---------------------------------------------------------------------------
    \77\ 1988 Census ``Child Support and Alimony'': 1989 Series P-60, 
No. 173. pages 6-7. 90.2% of fathers with joint custody pay the child 
support due.
    \78\ Census Bureau P-60, #173, Sept 1991. p. 6, col. II, para. 6, 
lines 4 & 5.
---------------------------------------------------------------------------
    Require all, or at least a portion of the TANF funds to be used to 
promote marriages and father involvement.<SUP>79</SUP> [Federal and 
State governments have an obligation of promoting ``a more perfect 
union . . . establish[ing] justice . . . insur[ing] domestic 
tranquility . . . promot[ing] the general welfare . . . secur[ing] the 
blessings of liberty to ourselves and our posterity.'' <SUP>80</SUP> 
Anything less is a violation of the INTENT AND PURPOSE of the U.S. 
Constitution and is therefore, unconstitutional.]
---------------------------------------------------------------------------
    \79\ 5 Wm. & Mary J. Women & L. 1 (1998)--HOW JUDGES USE THE 
PRIMARY CARETAKER STANDARD TO MAKE A CUSTODY DETERMINATION. Page 37. 
``Compared with those [children] raised in intact two-parent families, 
adults who experienced a parental divorce had lower psychological well-
being, more behavioral problems, less education, lower job status, a 
lower standard of living, lower marital satisfaction, a heightened risk 
of divorce, a heightened risk of being a single parent, and poorer 
physical health.'' (as cited from Paul R. Amato, Life-span Adjustment 
of Children to Their Parents' Divorce, in 4 The Future of Children page 
146. (1994)).
    \80\ As excerpted from the preamble of the U.S. Constitution. This 
preamble sets these principles forth as the GUIDING PRINCIPLES FOR ALL 
CONSTITUTIONAL INTERPRETATION.
---------------------------------------------------------------------------
    Tie TANF Funding to enforcement of visitation orders. Courts 
ROUTINELY imprison for Child support under the GUISE of ``contempt'' 
(which could reasonably be argued as the forbidden ``debtor's 
prison''), yet rarely prosecute for, or enforce visitation except under 
extreme circumstances.<SUP>81</SUP>
---------------------------------------------------------------------------
    \81\ 1988 Census ``Child Support and Alimony'': 1989 Series P-60, 
No. 173. pages 6-7. 79.1% of fathers with visitation privileges pay the 
child support due. Only 44.5% of fathers with no visitation pay the 
child support due.
---------------------------------------------------------------------------
    Tie TANF fund bonuses, and additional block grants to those states 
that are successful in reducing divorce, and in promoting stable 
families. If this is really all about the children, then a father's 
wallet can no longer be a substitute for his presence. Change the 
Health and Human Services mission to strengthening marriages and 
parental relationships, away from ``divorce industry support.'' What 
greater ``Human Service'' than promoting children's Health by 
supporting marriage and fighting divorce??
    Have the Federal Government begin gathering social studies data 
once again.<SUP>82</SUP> In spite of the studies listed in this paper, 
the federal government no longer collects data on many family issues 
and only the Census has given any indication of how bad the situation 
REALLY is.
---------------------------------------------------------------------------
    \82\ Government studies in a number of family issues that were not 
``politically correct'' were stopped in 1993 under the previous 
administration.
---------------------------------------------------------------------------
Conclusions:
    In tying TANF funds to those things that are anathema to the 
divorce industry the culture is stabilized, and the repair and 
restoration of our children can begin. It also removes the pressure, 
and the performance measures from the state to knowingly, or 
unknowingly, advance anti-family, and anti-father policies. While no 
``Family Law'' judge will admit it, it will also remove any incentive 
or pressure upon them to ``maximize'' child support awards even if it 
destroys one parent or the family.<SUP>83</SUP> Additional benefits of 
a 50-50 legal and physical custody presumption (akin to the Child 
Support rebuttable presumption), are: (1) Reduces parental incentives 
to carry out litigation; (2) Reduces judicial discretion; (3) Creates 
greater incentive to settle outside of court; (4) Lowers acrimony and 
``back and forth'' battles; (5) Lowers case backlogs and judicial 
burden and thereby maximizes judicial economy; (6) Lowers some of the 
incentives to divorce; (7) Reduces some of the struggles that children 
must endure by being ``caught in the middle''; and a whole host of 
other benefits.
---------------------------------------------------------------------------
    \83\ All judicial pensions and retirements are tied to the State's 
bonds, funds, and the general fund. When TANF funds are allowed in the 
general fund, it supplements and supports the strength of their 
retirements and is a strong motivator for potential abuses by some 
(though certainly not all) unscrupulous judges.
---------------------------------------------------------------------------
    No matter how mighty America may be, and no matter what this 
country may believe, there is no nation in recorded history that has 
long survived the destruction of its families and culture. There will 
certainly be those who are opposed to these recommendations, but 
careful scrutiny will quickly reveal that they have some vested 
interest (usually financially) in the continuation of the current 
family destroying, and child injuring system.
    In the shining light of the evidence, government and judicial 
policies that reduce fathers to little more than ``wallets'' and do not 
promote involvement as their PRIMARY focus, serve to undermine the 
Constitution's purpose of ``a more perfect union . . . establish[ing] 
justice . . . insur[ing] domestic tranquility . . . promot[ing] the 
general welfare . . . and secur[ing] the blessings of liberty to 
ourselves and our posterity.'' Fatherlessness studies can no longer be 
ignored for the effects it has on our ``posterity.'' The government and 
the judiciary MUST change their ``automatic-men-at-fault'' policies 
lest our posterity look back upon this and see today's policies as an 
attempt to undermine the Constitution and the country. There is enough 
data to suggest that any policy OR PRACTICE by government, or its 
agencies, that prevents father involvement, whether by legislation or 
judicial decree, is promoting child abuse and may violate the intent of 
the United States Constitution (noted in the preamble) making it 
unconstitutional!

                                <F-dash>


    Statement of David L. Levy, President, Children's Rights Council

    Our Children's Rights Council has been involved in proposals to 
strengthen families since 1985. Our proposals have led to legislative 
reform (including the first ever block grants to the states to promote 
child access/visitation to non-custodial parents), and greater 
awareness, through 13 CRC conferences, evaluation of data, and reports, 
on why, for children, generally, ``The Best Parent is Both Parents.'' 
Our chapters in 32 states, Washington, D.C., Europe, Asia and Africa, 
have also been the catalyst for improvements in children's lives.

    In announcing the hearing, Chairman Herger, you said that ``We also 
will learn more about current proposals to enhance the role of fathers 
in their children's lives.''

    The Children's Rights Council suggests the following:

    (1) A recognition that just as there are ``deadbroke dads,'' there 
are also ``deadbolted dads,'' a term coined by noted author Gail Sheehy 
in a New York Times article June 21, 1998.

    ``The newer reality is the Deadbolted Dad--locked out of his 
children's hearts after divorce . . . ,'' said Sheehy, with ``little 
attention paid to enforcing or honoring their visitation rights.''

    Some of these parents walk-away from their children, but as Sheehy 
stated, many are deadbolted out. Many divorced mothers are deadbolted 
out, as well.
    CRC believes that much of this disconnect between children and 
previously involved married parents occurs within 2 to 3 years after 
the divorce, just as many never-married parents disconnect from each 
other a few years after the birth of the child.
    Remedy: An understanding of what ``deadbolted dads'' (and moms) 
means, coupled with an expansion of federal funds for mediation, 
counseling and other low-cost programs to promote access of children to 
their non-custodial parents.
    $10 million a year was provided in the 1996 Welfare Reform Act for 
access/visitation programs, and because these activities have operated 
for the past four years, a total of $40 million has been spent in the 
states for these access programs. Each state receives about $185,000 a 
year, the largest federal program to date to encourage contact between 
children and non-custodial parents.
    And don't forget that there are nearly 3 million non-custodial 
mothers, many of whom (like many dads) are deadbolted out of their 
children's lives, unable to make phone or personal contact, access 
(visitation) interfered with or denied, the custodial parent moves far 
away with the child, a child is given denigrating messages by one 
parent against the other parent, etc.
    (2) A recognition that the states with the highest amount of shared 
parenting (including Montana, Kansas and Connecticut) subsequently had 
the lowest divorce rate. See data from the National Center for Health 
Statistics and the Census Bureau first reported by CRC in the 
Children's Rights Council newsletter, ``Speak Out for Children,'' Vol. 
12, No. 4, Fall 1997/Winter 1998 issue, available from CRC; later cited 
in the Indiana Law Journal, Spring 1998, Vol. 73, No. 2, by Margaret 
Brinig and F. Buckley, law professors at George Mason University, 
Fairfax, Virginia.
    Shared parenting (joint physical custody) is defined by researchers 
as at least \1/3\ of the time spent between a child and a parent on a 
year round basis. The knowledge that parents will have to continue to 
be involved with each other for the sake of the child is apparently the 
inducement that enables some parents to avoid divorce in the years 
following the liberal awarding of shared parenting in their state.
    One of the first acts of President Bush when he became governor of 
Texas was to sign a presumptive joint custody law on June 16, 1995 (see 
Vol. 10, No. 3 of ``Speak Out for Children.'')
    One of the remedies to help reduce the number of divorces and to 
increase financial child support compliance:
    Increase contact between children and their non-custodial moms and 
dads. Federal government data has shown a correlation between financial 
and emotional child support.
    (3) A recognition that ``Safe Haven'' Child Access Centers are 
helping children and families.
    When parents appear before a judge, they sometimes disagree as to 
whether access (visitation) has taken place or not. So the judge will 
order the transfer at a ``Safe Haven'' if one exists, or possibly at a 
police station if one does not exist. CRC operates 14 ``Safe Haven'' 
Child transfer Centers in 6 states and Washington, D.C. They are 
located in church day care centers. At the sites, parents peacefully 
transfer their children from one parent to another for the weekend.
    Some children are seeing their parents for the first time because 
of these sites. Even if CRC does not have a grant to manage a 
particular site, we do not charge the parents. We do not believe a 
parent should have to pay to see his or her child. A surprising 40 
percent of parents who use these sites are women, and about 40 percent 
are never-married parents. The churches often provide the monitors, but 
any grant is supervised by CRC. Supervision of the grant by CRC 
insulates the church from direct funding by the government, but the 
church helps to deliver the family services. Some sites are developing 
parent education components.
    Remedy: Again, expand the access/visitation block grants to the 
states to $40 million a year; also provide funds in the ``Fatherhood'' 
bills to provide services such as these.
    Thank you for the opportunity to present testimony.

                                <F-dash>

                   Citizens Against Paternity Fraud
                                Decatur, Georgia 30034-1853
                                                    August 10, 2001
Allison Giles, Chief of Staff
Committee on Ways and Means
U.S. House of Representatives
1102 Longworth House Office Bldg.
Washington, DC 20515

    Dear Honorable Allison Giles:

    I write to you to include our comments in the record for the 
upcoming ``Hearing on Child Support and Fatherhood Proposals'' 
sponsored by Congressman Wally Herger (R-CA), Chairman, Subcommittee on 
Human Resources of the Committee on Ways and Means.
    We specifically would like to address the increasing and confirmed 
reports of child support fraud also known as the ``Paternity Fraud 
Trap'' in the Title IV-D section of the Social Security Act as it 
regards to:
    Establishment of paternity--no requirements for accurate 
establishment.
    Contested Paternity--DNA evidence that confirms non-paternity and 
deception by mothers is disregarded to extort money, property and 
assets from non-paternal man under the color of law.
    The current system has virtually no safeguards to restrict access 
to federal money incentives to those states that have default 
judgments, acknowledgement of paternity at hospitals while the man has 
no legal representation nor proof of paternity (predatory practice) and 
falsified paternity affidavits from mothers.
    The states that want federal money have met the requirement to 
obtain large numbers of established paternity (by any means possible) 
and the appearance of increased collections (even from parents that 
were already meeting their obligations to custodial parents). But most 
of these states do not provide a means of relief for ``Paternity Fraud 
Victims'', and actively jail and extort money from these men after 
confirming non-paternity using DNA or blood testing.
    We propose that the current system be revised to provide financial 
incentives to states that honest and accurate paternity establishments 
while preventing fraudulent mothers from collecting child support from 
any non-paternal man father unless child is result of written agreement 
for artificial insemination or legal adoption after notice requirements 
are met to the biological father. While insuring that constitutional 
rights of alleged fathers are not violated during the process of 
establishing and dis-establishing paternity.

            Respectfully yours,
                                           Carnell A. Smith
                                                 Founder & Director

TWO STANDARDS EXIST
PROBLEM: WHEN WOMEN ARE VICTIMS OF ASSIGNMENT TO WRONG
CHILD (20/year?)
    When mothers are the victims of maternity fraud aka baby switching, 
does anyone say the real biological mother should just forget about her 
child and go on her merry way?
    (July 31, 1998, AP Story Charlottesville, VA ``Custody Petition 
Filed in Switched Babies Case'' The problem was not discovered until a 
paternity test revealed no biological connection to the mother nor the 
alleged father in a child support case--Exhibit 1). NO, in fact this 
problem of baby switching/kidnapping has forced the entire Hospital and 
Birth Industry to change its practices (Feb 23, 1999 CNN/AP story, 
Orange, CA ``Baby-Switch Hospital plans electronic security'', ``The 
mix-up was not an isolated incident, but part of a systemwide problem'' 
Exhibit 2).
SOLUTION: ACCOUNTIBILITY AND CHANGES WERE MADE--Promptly
    In many cases, the guilty parties have been held accountable for 
their actions--some have been fired, sued or settled out-of-court and 
finally the biological mother is reunited with her biological child.
PROBLEM: WHEN MEN ARE VICTIMS OF ASSIGNMENT TO WRONG
CHILD (300,000/yr?)
    When men are routinely released from jail/prison that were innocent 
of rape or murder using DNA testing, why is justice denied for 
paternity fraud victims using DNA?
    The national paternity fraud rate of men tested was 28% in 1999 and 
30% in 2000 per the annual Parentage testing report from the American 
Association of Blood Banks mentioned on CBS News Early Show TV reports 
on 4/18/2001. This trend is going the wrong way!
SOLUTION: ACCOUNTIBILITY AND CHANGES WERE MADE--less than
10 states
    The Georgia Appellate court (Georgia Department of Human Resources 
v. Pinter, 241 Ga.App. 10, 525 S.E.2d 715 (Ga.App. 11/18/1999) [Exhibit 
3] says, ``it is not the policy of this state to extort money from men 
who are not the fathers''. This is great in theory but it is not 
applied in most Georgia courtrooms nor in other states.
    The national media refers to men like Carnell Smith as ``Duped 
Dads'' (The complications for ``duped dads'' By Ellen Goodman, Globe 
Columnist, 4/29/2001 Exhibit 4), but rarely is anything said about the 
root cause of paternity fraud (fraudulent mothers).
    According to the Georgia Deputy Director of DHR (Robert Swain), 
``30% of the 45,000'' (May 2, 2001, Creative Loafing Atlanta ``Who's 
your daddy? Paternity fraud foes make their pitch for reform'' BY GREG 
LAND--Exhibit 5) Georgia mothers named the wrong man with ZERO 
consequences.
    We believe that men would ask for a DNA test, if he knew there were 
other potential fathers. The mother is the only party that knows (100% 
certainty) of her other intimate relations near the conception date 
before saying ``you're the father'' to the alleged father. This is 
where Fraud begins!
    As one of our United States Officials, our National organization 
looks forward to your written reply to the following:
    What is your official position on including protections against 
child support fraud and paternity fraud in HR-6? If against, please 
state why?
    What is your official position on requiring mothers to make full 
disclosure of all potential fathers to the alleged father in all 
divorce and child support cases? This would limit surprises later by 
DNA tests. There must be consequences for any concealment of material 
facts, deliberate or accidental.
    What is your official position to require mandatory DNA testing 
immediately after birth? This is a pro-active solution that stops the 
paternity fraud problem, exposes the truth and restores parity to the 
paternity establishment process.
    The paternity fraud victim finds that it is extremely difficult to 
prevail against the child support system that has one goal ``collect 
maximum dollars'' regardless of actual paternity, make him choose 
between pay or go to jail and NEVER hold the fraudulent mother 
responsible for her actions.
    Paternity fraud victims, their wives, fiances or girlfriends with 
the same question ``what can I do?'' are contacting me with increasing 
frequency. The victims of this great nation deserve an answer that our 
duly elected officials are equally concerned about protecting our 
constitutional rights.
    What shall we tell the people?

                               EXHIBIT 1

    Custody Petition Filed in Switched Babies Case
    By The Associated Press
    CHARLOTTESVILLE, Va. (AP)--The maternal grandparents of a 3-year-
old girl who was switched at birth are seeking sole custody in a bid to 
deny visitation to the child's biological mother, relatives say. The 
custody petition filed in juvenile court involves Rebecca Grace 
Chittum, who was taken home from the University of Virginia Medical 
Center and raised by Kevin Chittum and Whitney Rogers.
    Two of Chittum's sisters, Roxane Cullen and Pamela Miskovsky, said 
Wednesday that the petition was filed this week by Tommy and Linda 
Rogers, the divorced parents of Ms. Rogers who now help raise Rebecca.
    Tests have determined that Rebecca is actually the biological 
daughter of Paula Johnson, who gave birth about the same time as Ms. 
Rogers. Ms. Johnson returned from the hospital with Callie Conley and 
raised the infant as her child. DNA testing has revealed that Callie's 
biological parents are Rogers and Chittum. The couple died in a July 4 
car wreck shortly before their families learned of the switch in June 
1995.
    The switch was discovered in blood tests ordered for a child-
support case brought by Ms. Johnson. Since then, the families involved 
have met, and the two girls have played together.
    Both families have said they want Callie and Rebecca to stay with 
the families who raised them, and each suggested liberal visitation 
rights for both sides. But Ms. Cullen said in today's Daily Progress 
that she believes the Rogerses want sole custody ``to block any 
visitation with Paula Johnson.'' She said the relationship among the 
families has deteriorated.
    Other family members could not be reached for comment by the paper. 
Police and state health investigators are investigating how the baby 
switch happened. The hospital has since added new security measures.

                               EXHIBIT 2

    CNN--Baby-switch hospital plans electronic security--February 23, 
1999
    Baby-switch hospital plans electronic security
    Parents Iliano Bravo and Brian Lambert were given the wrong newborn 
to take home on February 14
    ORANGE, California (CNN)--A new electronic security system for 
ensuring that newborn babies are never given to the wrong parents will 
be installed at a Southern California hospital where two newborn boys 
were accidentally switched earlier this month.
    St. Joseph Hospital announced on Monday that mothers and babies 
will wear encoded wrist bands that cannot be removed until a scanner 
makes sure they match.
    On February 14, new parents Iliana Bravo and Brian Lambert were 
allowed to leave the Orange County hospital with the wrong child, while 
their son Aaron was given to another mother.
    It was the other mother who first noticed the mistake.
    The mix-up was not an isolated incident, but part of a systemwide 
problem, according to hospital president Larry Ainsworth. He said there 
have been three other accidental switches in the last year, but the 
mistakes were straightened out before the babies left the hospital.
    The two nurses responsible for February 14 incident have been 
fired. The hospital is under investigation by California medical 
authorities for the baby switches.
    The Associated Press contributed to this report.
RELATED STORIES:
    Nurse error cited in switched baby case
    February 16, 1999
    Genetic test confirms half of Virginia baby switch
    August 18, 1998
    Family authorizes genetic test in baby switching case
    August 6, 1998
    Families of switched babies seek custody solution
    August 4, 1998
    Switched babies may stay put
    August 4, 1998
    Babies switched at birth: On purpose or accident?
    July 31, 1998

                               EXHIBIT 3

    Georgia Department of Human Resources v. Pinter, 241 Ga.App. 10, 
525 S.E.2d 715 (Ga.App. 11/18/1999)
    Georgia Court of Appeals
    A99A1600; 241 Ga.App. 10, 525 S.E.2d 715, 1999.GA.0043710
    November 18, 1999
    G. ALAN BLACKBURN, Presiding Judge, specially Concurring.
    I write to point out the absurdity of the present state of the law 
that requires a putative father to pay child support after he has 
scientifically proven that he is not the biological father. As I stated 
in Smith v. Department of Human Resources, 226 Ga. App. 491, 493 (487 
SE2d 94) (1997), ``the law should not punish a purported father for 
failing to insist on a paternity test when he has no reason to believe 
that he is not the father.''
    Not only has the putative father been cuckolded, the law adds 
injury to insult by requiring him to pay child support even after he 
establishes that he is not the biological father.
    Once non-paternity is scientifically established, courts cannot 
ignore such fact by relying on policies developed when no such proof 
was possible. To create a fiction in this matter does not make the male 
the biological father of the child; it simply makes him the victim of 
the law. It also makes an ass of the law.
    While the courts may preach their false policy, they lose the 
respect of any citizen with common sense. The legislature should 
address this issue.

                               EXHIBIT 4

    The complications for `duped dads'
    By Ellen Goodman, Globe Columnist, 4/29/2001
    IF HE WERE in jail for mass murder, he would have been sprung by 
now. After all, the DNA evidence proved that he was the wrong man.
    So how come a man who has been proven scientifically not to be the 
biological father must go on paying child support? How come the same 
DNA test that can force one man into paternal obligation can't 
automatically free another?
    This week, a Massachusetts man joined a fraternity that now has 
members as far flung as Florida and Texas, Georgia and Ohio. They are 
known in the media lingo as duped dads.
    These are men who discovered that the children they believed were 
their biological offspring were not. And then they discovered that in 
some courts, DNA is not necessarily destiny. There is really little new 
about duped dads. Throughout literary history, the man tricked into 
raising another's child was a stock figure of cuckolded buffoonery. But 
in the eyes of the law, the husband in any marriage was legally the 
father.
    Now biological certainty intrudes into legal precedent and new 
scientific tests produce new legal tests. In the fallout of divorce and 
child support, courts are being asked to decide what's fair for men and 
what's best for children. And they are also being asked what exactly 
makes a man a father.
    Life, it turns out, is nowhere nearly as clear-cut as biology. In 
the Massachusetts case, the unwed father had passed up the chance for a 
DNA test. He signed on the dotted paternity line when Cheryl was born. 
Over many years and despite many suspicions--rumors and infertility 
problems in a later marriage--he was called ``daddy'' and acted as one. 
His parents were her grandparents, and twice he sought more rights to 
visitation. In short, as the court noted, ``Cheryl grew to know and to 
rely on him as her father, and he enjoyed her love and companionship.'' 
Only after the mother asked for more money did he take the DNA test and 
head to court.
    But the Massachusetts Supreme Judicial Court decided that he was 
too late to resign from fatherhood as if it were genehood. ``No 
judgment can force him to continue to nurture his relationship with 
Cheryl,'' acknowledged the justices in a unanimous decision, ``or to 
protect her from whatever assumptions she may have about her father. 
But we can protect her financial security and other legal rights.''
    This ``victory'' for the child is cast as a defeat for the man. The 
duped dads lawsuits are, after all, brought into courtrooms under the 
flag of men's rights. They are testing men's rights to cut their 
fatherhood ties and responsibilities.
    As men cry fraud, several states have either passed or are 
considering laws that would automatically end a man's child support 
obligation. A South Dakota court ruled that a deceived man should be 
reimbursed by the woman.

                               EXHIBIT 5

    Creative Loafing Atlanta / NEWS / WHO'S YOUR DADDY?
    NEWS / FEATURE
    Who's your daddy?
    Paternity fraud foes make their pitch for reform
    BY GREG LAND

    An ancient Chinese parable recounts the tale of Hakuin, a Zen 
master who was presented with a child by a young village woman who 
claimed he was the father. ``Is that so?'' replied Hakuin who, saying 
no more, took the infant and cared for it. One year later, the child's 
mother confessed that the father was, in fact, a young fisherman. When 
her abashed parents went to Hakuin's house to reclaim the child and 
apologize, the monk's response was, again, ``Is that so?''
    Zen tales are wont to conclude with, ``and he (or she) was 
enlightened.''
    A bit of high-tech enlightenment for an age-old dilemma was on the 
minds of those at a hearing last week on legislation targeting 
``paternity fraud.'' The hearing offered several local men--and women--
the opportunity to rail against a system which frequently forces men to 
pay for the upkeep of children they may not have fathered, and whom are 
often barred from even seeking a DNA test to answer that very question.
    ``The judge refused to allow me to have DNA testing done at all,'' 
says Buddy Everhart, a software consultant who currently pays $2,500 in 
monthly child-support for five children. ``Even though my ex-wife and 
her boyfriend admitted on the stand that two of those children may not 
be mine, the court said, `You will pay.' ''
    The issue is even thornier for men who think they've fathered out-
of-wedlock children and agree to pay support, only to find out later 
that another man is actually the father. Carnell Smith, director of 
Citizens Against Paternity Fraud, says some women actively decide whom 
to name as father on the basis of income.
    ``So then,'' says Smith, ``the question becomes, `How did [she] 
pick me?' '' Such a deception, says Smith, ``is the very definition of 
fraud.''
    Earlier this year, Rep. Stan Watson, D-Decatur, sponsored a bill 
that would allow presumed fathers to seek legal permission to conduct 
DNA testing to determine actual paternity. Under the bill, if such 
tests proved that someone else fathered the child, the presumed father 
would be able to stop paying further support, and might also be let off 
the hook for lapsed or unpaid support. (Watson's bill does not include 
provisions forcing restitution of previously paid support, but he does 
plan to introduce companion legislation mandating penalties for women 
who knowingly misidentify their children's fathers.)
    It would also remove the courtroom stumbling block that Everhart 
tripped over; under current law, any of several actions--signing a 
birth certificate as the ``father,'' acknowledging paternity in child-
support affidavit, marrying a woman to whom one has been paying child 
support, and so forth--provide a ``strong presumption of legitimacy'' 
that even direct evidence may not overturn.
    The number of people affected by paternity fraud is potentially 
enormous. CAPF's Smith points to figures provided by a company that 
performs DNA screening for the Georgia Child Support Enforcement 
Administration showing that, of 9,650 paternity screenings performed 
last year, 2,919 men--30.2 percent--had been erroneously identified as 
the father.
    ``We use DNA to convict or free criminal suspects all the time,'' 
he says. ``Why not free these men from paying for children that aren't 
theirs?''
    The Georgia Department of Human Resources, which oversees child-
support enforcement efforts, seems to agree. DHR Deputy Director Robert 
Swain says studies confirm that, of the 35,000-to-40,000 unwed Georgia 
mothers who fill out affidavits of paternity each year do, about 30 
percent name the wrong man as father. Swain sees Watson's bill as a 
potential tool in helping ensure that children are properly supported.
    ``The bill, although not perfect, is not one we'll complain 
about,'' says Swain.
    Even so, while the legislation easily passed the House, its 
progress halted when it got to the Senate.
    There, Sen. Charles Tanksley, R-Marietta, chairman of the Special 
Judiciary Committee, found himself troubled by a couple of points. ``My 
concern was that it virtually did away with any kind of closure on this 
sort of issue. . . . It allowed a challenge at any time, regardless of 
whatever other agreements might have taken place prior to that. The 
bill that the House sent over had no limitation period at all.''
    Tanksley notes that Texas, for instance, has a statute which allows 
one year for a challenge to a paternity claim. Under the Watson bill, 
Tanksley says, ``one could decide--for any number of reasons, many 
years later--to go back and retroactively undo whatever had been done 
in the past, whether in good faith or bad faith.''
    He also thinks the law should include provisions for men who may 
have knowingly shouldered a parental responsibility in the past, but 
later decide to rescind that commitment.
    A decision by Massachusetts' Supreme Court last week illustrates 
just how such limitations may impact future paternity suits. When a man 
had his 5-year-old daughter DNA tested and found that he was not the 
father, a lower court said he could stop making payments. But the 
state's high court reversed, ruling that he'd waited too long to 
challenge paternity.
    Tanksley has appointed a subcommittee to study and recommend some 
changes to the legislation, but Watson is adamantly opposed to any 
further limitation. ``Under state law, we have to take care of a child 
until the child is 18; [Tanksley] wants to go in and put a limitation 
on the time that can pass before you can go in and get a DNA test. 
That's not fair.''
    For Vickie McLennan, a lobbyist for several Georgia affiliates of 
the National Organization for Women, paternity fraud is an important 
issue but, she says, Watson's bill needs to be carefully studied. ``I 
understand how somebody who might've gotten stuck with support 
[payments] by some girl who slept with three guys a night then said, 
`Oh, this one's making good money. I'll make him the daddy,' would be 
angry, and would want action taken. I would,'' she says. ``But this is 
an elephant gun to deal with a very narrow issue. It does need to have 
a deliberative process.''
    Maybe so. But the folks who cheered Smith's description of current 
law as ``involuntary servitude'' that tosses men into ``debtor's 
prison'' begrudge every day they're asked to wait. In fact, the only 
light note during last week's hearing was struck when Rep. Henrietta 
Turnquest, D-Decatur, popped in to express her support. As she left, 
she wagged a finger at the assemblage.
    ``You single men out there, you know what you need to do,'' she 
said. ``You do right, now.''
    And the mood--for a moment--was enlightened.

                                <F-dash>


            University of California, Santa Barbara
                       Santa Barbara, California 93106-9210
                                                      June 27, 2001
Congressman Wally Herger
Chairman, Subcommittee on Human Resources
Committee on Ways and Means
United States Congress
Rayburn House Office Building, Room B317
Washington, D.C. 20515

    Re: Hearing on Child Support and Fatherhood Proposals
    June 28, 2001

    Dear Congressman Herger:

    I appreciate the opportunity to submit this letter for the Hearing 
record.
    I strongly support the President in his efforts to enhance the role 
of non-custodial fathers in the lives of their children. There is a 
growing body of scientific evidence that the lives of children are much 
improved when they are raised by their fathers as well as their 
mothers. My own research demonstrates that a father's presence in the 
home significantly reduces the prospects that his son will be charged 
with a crime between the ages of 14 and 22. There are various proposals 
to enhance contact between fathers and children, and I hope that your 
committee will lead the way.
    Among the major benefits that follow from continued contact between 
a father and his children is the payment of child support. There is 
also evidence that fathers who frequently see their children are more 
likely to make these payments, while those who have little contact with 
them often neglect these responsibilities. Data indicate that among 
fathers who do not see their children at all, only 16.2 percent pay any 
child support, while among fathers who see their children more 
frequently than several times a year, 64.2 percent make these payments. 
[Judith A. Seltzer, ``Relationships Between Fathers and Children Who 
Live Apart,'' Journal of Marriage and the Family, Vol. 53, February 
1991, p. 86.]
    The problems of child support collection and continued contact 
between father and children are not separate issues but rather two 
sides of the same one. For this reason, I commend your efforts to deal 
with these matters in a coordinated fashion.
    I am submitting this statement on my own behalf, and not for any 
client or organization. Furthermore, my views do not necessarily 
reflect those of the University of California.

            Sincerely,
                                         William S. Comanor
                                             Professor of Economics

                                <F-dash>

                           DADS of Michigan, P.A.C.
                                 Southfield, Michigan 48034
                                                      June 27, 2001
Allison Giles
Chief of Staff
U.S. House of Representatives
Committee on Ways and Means
1102 Longworth House Office Building
Washington, DC 20515

    As often is the case, unintended adverse results occur from well-
intended legislation. Such were State reactions to the 1996 Welfare 
Reforms including the infamous ``Bradley Amendment.'' With regard to 
the specific reform objectives: (2) increase the percentage of non-
custodial parents identified, and (3) implement more techniques to 
obtain support collections from non-custodial parents, it would appear 
State reactions have been collectively successful.
    However, while several states <SUP>1</SUP> have heeded the 
available data and research by implementing very effective, just 
legislative statutes and agency programs, unfortunately many other 
states including Michigan deliberately continue with unjust, failed, 
and flawed legislative statutes, agency policies, and practices.
---------------------------------------------------------------------------
    \1\ Georgia, North Carolina, Virginia, Texas, South Carolina, 
Connecticut, Ohio, Maryland, Colorado, Iowa, and Louisiana.
---------------------------------------------------------------------------
    Specifically, the 1996 welfare reforms have encouraged Michigan 
(and other states) to introduce statutes, policies, and procedures 
<SUP>2</SUP> to increase voluntary paternity establishment of unmarried 
births at state agencies and hospitals. As a result, few unmarried 
fathers are adequately apprised of their rights to paternity testing 
and/or traditionally feel uncomfortable with challenging the paternity 
allegations of the mother. One third of all births in Michigan are to 
unmarried mothers.<SUP>3</SUP> However, recent data demonstrates that 
nearly a third of all paternity tests EXCLUDE the alleged 
father.<SUP>4</SUP> Additional research indicates that at least 10% of 
marital births EXCLUDE the husband.<SUP>4</SUP> Yet, Michigan's 
legislative statutes, agency policies, and practices continue to omit 
mandatory paternity establishment of child support claims resulting in 
thousands of innocent victims of Extrinsic Paternity Fraud. Further, by 
facilitating the completion of documents fraudulently identifying the 
alleged paternity of man without appropriate verification, the State 
inadvertently acts as a coconspirator to a felony in nearly one fourth 
of all child support cases and, along with the mother, is also guilty 
of a misdemeanor.<SUP>5</SUP>
---------------------------------------------------------------------------
    \2\ ``State Launches New Program Improve Paternity Establishment'': 
Detroit Free Press, 2/14/01.
    \3\ Michigan Department of Community Health, 1999.
    \4\ Annual Report Summary 1999: American Association of Blood 
Banks, www.aabb.org; ``Who is daddy and Who is Not,'' 2/25/00: Men's 
Health Network, ``http://www.menshealthnetwork.org''> 
www.menshealthnetwork.org.
    \5\ Michigan Compiled Laws: MCL 333.2824, MCL 722.714, MCL 
722.1004, MCL 722.722, and MCL 750.218.
---------------------------------------------------------------------------
    The 1996 Welfare Reforms (via incentives) have also encouraged 
Michigan (and other states) to infringe upon and violate 
constitutionally protected rights in an effort to increase child 
support collections from non-custodial parents. The Michigan 
Legislature continues to attempt legislation <SUP>6</SUP> that results 
in violations of the U.S. Constitution.<SUP>7</SUP> Michigan State 
Courts routinely use state statutes <SUP>8</SUP> to automatically 
terminate a parent's (typically the father) constitutionally protected 
right to the care, custody, and nurturing of his/her children simply 
because of a no-fault divorce filing; primarily in order to establish 
maximum child support for the custodial parent. Michigan state child 
support enforcement and state court administration officials decline 
new innovative approaches in use by other states to reduce child 
support arrearages in favor of only increased punitive 
measures.<SUP>9</SUP> Michigan's total child support arrearage exceeds 
$6.3 Billion with the national state average at $1.4 
Billion.<SUP>10</SUP>
---------------------------------------------------------------------------
    \6\ Michigan Senate Bill 757 enacted into law 10/2000 with bond 
amendment from 100% to 25% of arrearage owing.
    \7\ U.S. Constitution, Amendment VIII.
    \8\ Michigan Compiled Laws: MCL 552.15.
    \9\ ``Failed visitation policy harms kids,'' The Detroit News 6/24/
01; USHHS, OCSE, 9/14/00, PIQ-00-03.
    \10\ U.S. Department of Health & Human Resources, Office of Child 
Support Enforcement.
---------------------------------------------------------------------------
    Finally, the 1996 Welfare Reforms (via incentives) have served to 
discourage Michigan State Court Administration officials to use the 
federally mandated and heavily subsidized quadrennial Child Support 
Formula Guideline review <SUP>11</SUP> to thoroughly evaluate its use 
of the ``Income Shares'' base model in use now for fifteen years. Newer 
base models (e.g. Cost Shares <SUP>12</SUP>) are now available which 
eliminate the flaws, inequities, and over-assessments of the current 
model <SUP>13</SUP> in use while providing greater compliance with the 
federal mandates. Additionally, Michigan State officials appear to not 
yet fully embrace the concept of responsible fatherhood education and 
job programs as significant contributors to increasing child support 
compliance and father involvement in their child's life while reducing 
child support arrearages <SUP>14</SUP>, along with many other societal 
maladies.<SUP>15</SUP> Sadly, efforts continue to fix blame to either 
``deadbeat'' fathers <SUP>16</SUP> or Michigan's Friend of the Court 
agency. We feel there are many in Michigan (and Washington) who must 
also share the blame for our child support failures.<SUP>17</SUP>
---------------------------------------------------------------------------
    \11\ Michigan State Court Administrative Office: Invitation to 
Bid--Review of Child Support Guideline 3/2001.
    \12\ ``Cost Shares Child Support Guideline: A working, superior 
alternative to current guidelines,'' R. Mark Rogers Economic 
Consulting, CRC conference May 5, 2001.
    \13\ PICSLT Initial Review of Michigan Child Support Law, 2/15/00: 
``http://''>www.geocities.com/capitolhill/5910/index.html; Child 
Support Conflict of Interest & Overassessment: ``http://www.acfc.org/
legal__citations.htm#support''>www.acfc.org/
legal__citations.htm#support.
    \14\ U.S. Census Bureau, Child Support for Custodial Mothers and 
Fathers: 1997 (P60-212).
    \15\ Divorce and Fatherhood Statistics Summary, ``http://
www.deltabravo.net/custody/stats.htm''>www.deltabravo.net/custody/
stats.htm.
    \16\ ``Sheriff targets Deadbeat Dads''. . . for mother's day 
crackdown, The Detroit News 5/11/01; ``Strained Agencies fail Michigan 
Children'', The Detroit News 5/20/01.
    \17\ See Special Report dated 6/08/01 attached.
---------------------------------------------------------------------------
Recommendations:
    It is hereby recommended that federal legislation such as H.R. 1488 
or other appropriate welfare reforms be adopted and include provisions 
for:
  <bullet> ensuring equal protection of Constitutional rights for both 
        parents;
  <bullet> mandatory paternity establishment for child support claims;
  <bullet> enforcing parenting time (visitation) compliance equally as 
        child support payment compliance;
  <bullet> encouraging innovative, non-punitive techniques for reducing 
        child support arrearages; \18\
---------------------------------------------------------------------------
    \18\ USHHS, OCSE, 9/14/00, PIQ-00-03.
---------------------------------------------------------------------------
  <bullet> requiring states to completely and thoroughly review Child 
        Support Guideline base models every four years;
  <bullet> promoting faith and community-based responsible fatherhood 
        and job programs.
    DADS OF MICHIGAN <SUP>19</SUP> and DADS OF MICHIGAN PAC are 
responsible fatherhood advocacy organizations dedicated to keeping both 
biological parents actively engaged in the lives of their children 
despite divorce and custody, in most cases. DADS OF MICHIGAN is the 
developer of the Dads Toolbox Series <SUP><dbl-dagger></SUP> of 
responsible fatherhood education for teenage, divorced, and unmarried 
fathers.
---------------------------------------------------------------------------
    \19\ ``http://www.dadsofmichigan.org/''>www.dadsofmichigan.org.

            Respectfully submitted,
                                              James Semerad
                                                       PAC Chairman
    [Attachments are being retained in the Committee files.]

                                <F-dash>


                              Los Angeles, California 90036
                                                       July 6, 2001
Allison Giles, Chief of Staff
Committee on Ways and Means
House of Representatives
1102 Longworth House Office Building
Washington, DC 20515

                             CHILD CUSTODY

    If the committee is truly interested in promoting responsible 
fatherhood, it should not allow state courts to systematically strip 
fathers and their children of access to one another. ``Judicial 
discretion'' in determining ``the best interests of the child'' is 
consistently resulting in the exclusion of fathers from children's 
lives.
    DENY STATES FEDERAL TANF FUNDS UNLESS THEY PASS LEGISLATION 
REQUIRING A PRESUMPTION OF EQUAL JOINT PHYSICAL CUSTODY OF CHILDREN FOR 
BOTH DIVORCED AND NEVER-MARRIED PARENTS.

                             CHILD SUPPORT

    The Family Support Act of 1988 required states to implement child 
support guidelines. Unfortunately, these guidelines have resulted in 
arbitrary and grossly excessive child support awards, far in excess of 
the actual costs of raising children. Most child support is actually 
long-term alimony for the custodial parent. States are using child 
support guidelines to micro-manage families by redistributing income on 
a massive scale.
    DENY STATES FEDERAL TANF FUNDS UNLESS THEY BASE CHILD SUPPORT 
AWARDS ON THE ACTUAL MARGINAL COSTS OF RAISING CHILDREN, BASED ON PEER-
REVIEWED, SCIENTIFIC STUDIES.

            Respectfully submitted,
                                     Richard M. Green, M.D.

                                <F-dash>


                                San Ramon, California 94583
                                                       July 8, 2001
Allison Giles
Chief of Staff
Committee on Ways and Means
U.S. House of Representatives
1102 Longworth House Office Building
Washington, D.C. 20515

Attn: Hearing Clerk

    Dear Ms. Giles:

    RE: family law, fatherhood and child support

    My comments are the result of experience within the family law 
system, knowledge of other men's experiences, and a recent reading of 
the California Judicial Council's Child Support Guideline Review for 
2000.
    I'd like to briefly discuss several issues. They include:
    1. child support guideline levels
    2. custodial parent move away cases
    3. provisions for enforcement of visitation
    4. false allegations of physical and sexual abuse
    5. the ``best interests of the child'' principle
    6. the punitive way men are dealt with by states--courtesy of the 
federal government
    Child support guidelines are too high--the California averages are 
23% of aftertax income for 1 child (36/45% for 2 and 3 respectively)! 
My daughter's mother moved to Vancouver, B.C., against my wishes. 
However, because British Columbia's support levels are so much more 
reasonable, I pay slightly over half what I would pay if my child 
support was set by the California guideline.
    Related to this are the increasing use of default judgments and the 
cavalier, assembly line attitude that prevails among some enforcement 
agencies. Errors get made, and they aren't so easy to correct. I hear 
stories frequently of men who have incorrectly been identified as 
fathers and ordered to pay retroactive child support. I've even heard 
of a case where a man was in jail when a default judgment was entered 
incorrectly (he wasn't the father). Because his pay is now being 
garnished he doesn't have enough money left to hire an attorney to 
remedy the situation!
    It is outrageous to allow custodial parents (CP) to move away from 
the area where they lived at the time of divorce/separation. This 
severs the bonds between fathers and children and courts need to 
recognize that the bonds are fragile after a physical separation takes 
place. Any more separation than is necessary is damaging to the 
relationship.
    Courts need to stop piously proclaiming ``it takes two parents to 
raise a child'' when it's time to award child support and look the 
other way later when disputes around visitation crop up. The reality is 
that once one parent is awarded custody of the child, and the non-
custodial parent (NCP) moves out, the NCP's relationship changes 
drastically for the worse. I have one child who lives apart from me and 
one who lives with me so I speak from experience. It's disingenuous to 
maintain otherwise and order men to pay a majority of a child's support 
and upkeep, but fail to vigorously enforce their visitation rights. Has 
anyone ever heard of a woman being prosecuted for obstructing 
visitation or alienating the children from their father? I certainly 
can't remember such a case.
    The subject of false allegations of physical or sexual abuse is 
similar. This area is known to be the atomic bomb of divorce and 
custody battles. The person who alleges it knows that even if the 
charge is shown to be false, so much damage usually occurs that a man's 
relationship with his children is permanently harmed. And, like 
visitation disputes, I can't remember ever hearing about a woman being 
prosecuted for this either. Evidently another case of possession, or, 
similarly, custody, being nine tenths of the law.
    The concept of best interests of the child borders on best 
interests of the mother much of the time. The status quo power 
possessed by the CP is mighty strong and, as one lawyer here in the Bay 
Area puts it on his radio show, ``a woman has to be a crack addict and 
a hooker to lose custody in CA.'' If this perception is close to 
accurate, what does this say about mens' prospects in court and hopes 
for justice when disputes crop up? If this message is imparted to men, 
and appears to be true, who could blame a guy for being despondent 
about prospects about having a relationship with his kids? Why is it 
that the child's interests are given paramount importance when there 
are three parties involved? Why shouldn't the state be concerned about 
all three? The real problem is that in elevating the child, the 
custodial parent's (usually the mother's) status usually gets elevated 
inadvertently too. These statutes should be rewritten to include 
assurances of equity to all parties involved when courts are choosing 
between options as long as the best interests of the child are not 
significantly affected.
    Recently it seems that two policies from 10 to 15 years ago are 
being revisited: mandatory minimum criminal sentencing guidelines and 
zero tolerance policies in schools for drugs and violence. It seems 
that dealing with complicated issues in a mechanical way results in 
unfair and perverse outcomes. I would like to suggest that the 
federalization of family law issues and the vilification of fathers 
belong in the same category. It became (or maybe still is) fashionable 
to denounce and advocate harsher penalties for ``deadbeat dads.'' 
However, the truth is a bit more complicated. Research has shown that 
fathers with joint custody pay child support at close to 100%. It has 
also shown that large numbers of custodial mothers admit to actively 
impeding the father's access to their children. Many of the cases where 
children no longer see their father are the result of a campaign of 
alienation where the father just gives up rather than continue to 
fight. It shouldn't be surprising that in some cases like this, men 
stop paying child support too. Other ``deadbeat'' dads are either 
unemployed, incarcerated, or broke. Research is beginning to reveal 
these facts--the California Judicial Council's report mentions them. 
It's time to stop vilifying fathers and repeal the punitive federal 
laws that forced states to practically criminalize fatherhood via 
inflexible and unrealistic child support guidelines. At the same time, 
it would be beneficial for society to debate the best way to encourage 
men to stay involved with their children. In my opinion, a necessary 
first step should be to make the system truly fair to all parties 
involved.

            Sincerely,
                                               Jim Hemenway

                                <F-dash>


 Statement of Jacqueline K. Payne, Policy Attorney, and Martha Davis, 
  Legal Director, NOW Legal Defense and Education Fund, New York, New 
                                  York

    NOW Legal Defense and Education Fund (``NOW Legal Defense'') 
appreciates the opportunity to submit this testimony on child support 
reforms and fatherhood initiatives, especially as they pertain to low-
income families. We stand firm in our belief that there is an important 
federal role for providing support for parents and families, especially 
those living in poverty.
    NOW Legal Defense is a leading national not-for-profit civil rights 
organization with a 30-year history of advocating for women's rights 
and promoting gender equality. Among NOW Legal Defense's major goals is 
securing economic justice for women. Throughout our history, we have 
used the power of the law to advocate for the rights of poor women, 
focusing on increased access to childcare, reduction of domestic 
violence and sexual assault, and employment and reproductive rights. In 
pursuit of gender equality, we have steadfastly advocated for social 
and legal change to support fathers increased participation in the 
lives of their families.
    Five bills pending in Congress include some combination of child 
support reforms and fatherhood initiatives: the Child Support 
Distribution Act of 2001 (H.R. 1471), The Child Support Act of 2001 (S. 
918) the Responsible Fatherhood Act (S. 653, H.R. 1300), and the 
Strengthening Working Families Act (S. 685). NOW Legal Defense heartily 
supports the child support reforms contained in H.R. 1471, S. 918, and 
S. 685, which will help low income families provide for their 
children's basic needs, help families move out of poverty, and remove 
draconian policies that penalize low income men and their families.
    NOW Legal Defense shares Congress's interest in supporting fathers. 
We applaud Congress's interest in addressing the barriers to low income 
men's economic self sufficiency, and back programs designed to provide 
supports to low income individuals so that they may escape poverty. 
Moreover, we encourage and support Congress's articulated interest in 
encouraging men to fully participate as parents, and hope that this 
heralds a shift towards paid parental leave, as well as other 
meaningful legal and policy changes that would make it possible for men 
and women across all income levels to fully share parenting without 
suffering social or economic penalties.
    Despite these shared goals, NOW Legal Defense cannot support the 
pending fatherhood initiatives as they are currently drafted. While 
these proposals are laudable in their goals, they ignore or misperceive 
the underlying causes of poverty and fail to adequately deal with 
issues such as domestic violence and gender inequality. Moreover, the 
bills' emphasis on marriage suggests a disturbing willingness to 
transgress the privacy rights of low income individuals.
Child Support Reforms are Needed
    Genuine reform of the child support and welfare laws is overdue. 
For many years these laws have been overly punitive to poor, non-
custodial fathers without providing assistance to the custodial mothers 
and their families. Child support should be first and foremost about 
securing support for children from their non-custodial parent. However, 
the current system does far too little to help these children. Instead, 
all of the support paid by non-custodial parents whose children receive 
public assistance, and much of the support paid by non-custodial 
parents whose families ever needed assistance, goes to the state. The 
``child support'' system under Title IV-D is a state recovery system 
that penalizes poor fathers and fails to help their children. Men 
earning marginal wages, whether absent or present in the family, will 
not be able to provide enough support for their children to lift them 
out of poverty.
    Under the current child support system, children whose families are 
on welfare receive no additional money even when child support payments 
are made. This reflects a change in Federal law, which had previously 
required states to pay families the first $50.00 of child support and 
disregard it in determining the welfare payment. Moreover, children 
whose families were ever on welfare often find they cannot receive the 
support owed them because the state insists on being reimbursed for 
past welfare assistance before the family can receive their support 
payments. The present child support system, therefore, does very little 
to help poor children or increase the economic self-sufficiency of 
their families.
    It is critical that child support be reformed to: (1) ensure 
appropriate levels of obligation for non-custodial fathers; (2) ensure 
that families on welfare receive the money paid by the fathers (both to 
encourage payment by fathers and to ensure some improvement in economic 
conditions for the children by virtue of the child support payment); 
(3) disregard any child support payments passed through to the family 
receiving benefits; (4) and ensure that families that have transitioned 
off welfare receive all child support they are owed before the state 
reimburses itself for past assistance.
    The Child Support Distribution Act (H.R. 1471) includes important 
child support reforms. The bill requires states to pay former 
recipients any current support owed, as well as any arrearages not 
assigned to the state. The bill also offers financial incentive to 
states to pay state-owed arrearages to the custodial parent; pass 
through child support to families currently receiving benefits; and 
disregard the amount of child support received by a family when 
determining that family's TANF grant amount. Unfortunately, these 
provisions would not become effective until 2006. NOW Legal Defense 
urges Congress to make those reforms mandatory, rather than at the 
state's option, and to remove the delay in implementation to hasten the 
benefit to low income children.
    The bill also includes a modification to the rule requiring 
assignment of support rights as a condition of receiving TANF. The 
amendment clarifies that applicants are only required to assign that 
support which accrues during the period that the family receives 
assistance under the program. While NOW Legal Defense heartily supports 
that change, we believe Congress should remove the requirement 
altogether. Most TANF recipients will want to pursue child support 
enforcement once states modify their laws so that child support will 
directly benefit the children. Forcing a low income woman to establish 
paternity and cooperate with child support enforcement in exchange for 
subsistence benefits infringes upon her privacy rights and her judgment 
about what is best for her family. In many cases, it will also threaten 
family safety.
    Study after study shows that up to 60% of women on welfare have 
been victims of intimate violence during their adult lives, and up to 
30% have experienced domestic violence within the last year.\1\ Despite 
these statistics, studies indicate that only about 7% of women on 
welfare seek good cause waivers from child support requirements \2\ and 
many of those waivers are not successful.\3\ This is due to a 
combination of factors, including lack of information and training for 
caseworkers, lack of information for recipients, and distrust of 
untrained workers. Many survivors on public assistance appear to want 
to enforce child support \4\ but doing so can open up a can of worms. 
Studies show that abuse often escalates when survivors seek child 
support enforcement. Moreover, child support proceedings open up the 
issue of visitation and custody and provide the abuser access to mother 
and child. According to a 1996 report by the American Psychological 
Association, custody and visitation disputes are more frequent when 
there is a history of domestic violence.\5\ Perpetrators of domestic 
violence are more than twice as likely as other fathers to fight for 
custody of their children.\6\ When batterers seek custody, they win 
more often than not.\7\ The risks attendant on pursuing child support 
in an abusive relationship coupled with the lack of effectiveness of 
good cause waivers in this area create powerful arguments that child 
support cooperation should not be required of all recipients.
---------------------------------------------------------------------------
    \1\ See Tolman, R.M. & Raphael, J., Univ. of Mich. & Center for 
Impact Research, A Review of Research on Welfare and Domestic Violence, 
Journal of Social Issues, 56(4) 655-682 (2000), ``Prevalence'' sec.
    \2\ Id at ``Child Support'' sec.; Eleanor Lyon, National Resource 
Center on Domestic Violence, Welfare, Poverty, and Abused Women: New 
Research and its Implications 10 (Oct. 2000).
    \3\ Lyon, supra note 2.
    \4\ Tolman & Raphael, supra note 1, at ``Child Support'' sec.
    \5\ See American Psychological Association, Violence and the 
Family: Report of the American Psychological Association Presidential 
Taskforce on Violence and the Family, 40 (1996).
    \6\ See id.
    \7\ See D.G. Saunders, Child Custody Decisions is Families 
Experiencing Women Abuse, 39 Soc. Work 391, 51-59 (1994).
---------------------------------------------------------------------------
Fatherhood Legislation
    The marriage-based fatherhood legislation pending in Congress (S. 
653, S. 685, H.R. 1300, H.R. 1471) was conceived of as the next step in 
welfare reform--the promotion of married fatherhood as the solution to 
out of wedlock births and single-parent families.
    This approach is problematic for several reasons: (1) it fails to 
identify and attack the true cause of poverty in America; (2) it 
unrealistically assumes marriage is the solution for everyone and, by 
requiring programs to promote marriage, economically coerces low income 
individuals to trade their constitutional right to privacy in exchange 
for services; and (3) fails to appropriately deal with the high rate of 
domestic violence among poor women and the danger forced reunification 
has for these women and their children.

1. Making Fathers More Self-Sufficient, While Laudable, is Not the 
        Answer
to Poverty in America
    Poor education, lack of opportunity, racism, high rates of 
incarceration and other poverty inducing factors affect men as well as 
women, crippling men's ability to rise much above the poverty level and 
contributing to the economic devastation of entire communities. 
Congress should support programs that address these obstacles and offer 
supportive services to empower all men and women to realize economic 
security. In doing so, however, Congress must not perceive father's 
economic security as the answer to women and children's poverty.
    The fatherhood legislation proposes using TANF money to provide 
grants to programs to help low income fathers and their families avoid 
or leave cash welfare and improve their economic status by providing 
such activities as work first services, job search, job training, 
subsidized employment, career-advancing education, job retention, job 
enhancement, and other methods. While in general two incomes are better 
than one, and thus more likely to move people off welfare, Congress 
should use TANF dollars to address the reasons why women and their 
children still make up the vast majority of people living in poverty 
and on welfare--despite sharing common experiences with their male 
counterparts.\8\ Factors such as lack of useful education and training, 
discrimination in the labor market, primary care giving responsibility 
without attendant employment protections, the lack of quality, 
affordable, accessible childcare, and domestic violence keep women from 
being economically self sufficient and reduce chances for all families' 
to escape poverty. Moreover--due to death, domestic violence, divorce, 
and job instability--focusing on fatherhood and marriage will not 
assure women and children's economic security.
---------------------------------------------------------------------------
    \8\ United States Census Bureau, Current Population Reports, Series 
No. p60-210, Poverty in the United States: 1999 (2000), available at 
``http://www.census.gov/pord/2000pubs/p60-210.pdf.
---------------------------------------------------------------------------
    In America today, the vast majority of women with young children 
work outside the home.\9\ Despite their efforts, the families of waged-
working women are punished by gender discrimination in the workforce. 
The gender wage gap persists: Unequal pay means that white women make 
71.5 cents for every white man's dollar. This impact is even greater on 
African American women who make 65 cents on that dollar, and even more 
so for Latinas, who make only 52 cents.\10\ As a result, women of color 
are disproportionately poor.\11\ In addition, jobs that are held 
predominately by women consistently pay less than jobs that are held 
predominately by men.\12\
---------------------------------------------------------------------------
    \9\ See Statement on Equal Pay, Submitted to the Senate Comm. on 
Health, Education, Labor, and Pensions, June 22, 2000 (statement of 
Irasema Garza, Director of Women's Bureau, U.S. Dep't of Labor) 
[hereinafter Statement on Equal Pay]. According to the TANF Report to 
Congress 2000, 59% of low-income single mothers with kids under the age 
of 18 are employed.
    \10\ National Committee on Pay Equity, The Wage Gap: 1999, 
available at http://www.feminist.com/fairpay/f__wagegap.htm.
    \11\ Statement on Equal Pay, supra note 9, at vi.
    \12\ See id.
---------------------------------------------------------------------------
    Furthermore, even where both parents are present, women are still 
overwhelmingly expected to act as the primary care giver--for children, 
other family members, and the home. The combination of women's role as 
primary caregiver (work for which they are not paid) and their relative 
economic disadvantage in paid work as compared to men has had serious 
negative consequences for women and children in our society: 41% of all 
women and children in America today live below the poverty line;\13\ 
one out of every five children is raised in poverty.\14\
---------------------------------------------------------------------------
    \13\ See United States Census Bureau, Current Population Survey 
(206-207), Poverty in the United States (1998).
    \14\ See Arloc Sherman, Children's Defense Fund, Poverty Matters: 
The Cost of Child Poverty in America, 1 (1997).
---------------------------------------------------------------------------
    As Congress looks to solutions for families, supporting fatherhood 
programs without simultaneously addressing these challenges to women's 
economic security will likely exacerbate--not solve--the problem for 
poor families. Without proper protections such programs could:
  <bullet> Result in economically empowering men at the expense of poor 
        women. A similar program, called the Work Incentive Program 
        (WIN), was enacted under the Social Security Act Amendments of 
        1967. Excitement over father involvement resulted in a work 
        program that trained and employed a disproportionate number of 
        men. For example, in 1971, although women headed 90 percent of 
        AFDC households, 38 percent of participants in the work program 
        were men.\15\
---------------------------------------------------------------------------
    \15\ Gwendolyn Mink, Welfare's End 38-39 (Cornell Univ. Press 
1998).
---------------------------------------------------------------------------
  <bullet> Exacerbate the current problem with women on welfare being 
        steered into traditional women's work--work that pays 
        substantially less--instead of training them for living wage 
        jobs with benefits--jobs that are traditionally held by 
        men.\16\
---------------------------------------------------------------------------
    \16\ See Institute for Women's Policy Research, Working First But 
Working Poor: The Need for Education and Training Following Welfare 
Reform, ch. 7 (to be released Sept. 3, 2001) (report to the NOW Legal 
Defense and Education Fund).
---------------------------------------------------------------------------
  <bullet> Contribute to the increasing wage gap between men and women 
        among the lowest waged workers. Under welfare reform, women 
        have been leaving the welfare rolls and entering the lowest 
        paid jobs thereby increasing the wage gap. Introducing men into 
        job training and referral programs without ensuring women are 
        trained and placed into nontraditional jobs will further 
        increase the disparity between men and women's wages.\17\
---------------------------------------------------------------------------
    \17\ See Wendell Primus, Center on Budget and Policy Priorities, 
What Do We Know About Welfare Reform?, Coalition on Human Needs 
Briefing, Apr. 26, 2000.
---------------------------------------------------------------------------
2. Marriage is Not the Solution for Everyone, Nor is it the Solution to 
        Poverty
    Our country consists of diverse family structures: those in which 
parents are married, single (including those who were never married, 
widowed, teen, or divorced), remarried, gay and lesbian, foster, and 
adoptive.\18\ These families have built loving, healthy relationships 
with their children and cooperative relationships with other 
caregivers, and deserve to be valued and respected as they are. 
Nevertheless, all of the fatherhood bills pending in Congress require 
the fatherhood programs to promote marriage. Programs may do so through 
such activities as: counseling, mentoring, disseminating information 
about the advantages of marriage, marriage preparation programs, 
premarital counseling, marital inventories, divorce education and 
reduction programs, including mediation and counseling.
---------------------------------------------------------------------------
    \18\ See CNN, Survey: Only a Quarter of U.S. Households of 
``Traditional'' Families, Nov. 24, 1999.
---------------------------------------------------------------------------
    Marriage may be the best choice for some individuals, but it is not 
the best choice for everyone. In any case, marriage is a 
constitutionally protected choice. The Supreme Court has long 
recognized an individual's right to privacy regarding decisions to 
marry and reproduce as ``one of the basic civil rights of man, 
fundamental to our very existence and survival.'' \19\ Significantly, 
this constitutional right equally protects the choice not to marry.\20\ 
This right of privacy protects an individual from substantial 
governmental intrusion into his private decision. The marriage 
promotion mandate in all of the bills essentially coerces economically 
vulnerable individuals to trade in their fundamental right to privacy 
regarding marital decisions in exchange for receiving job and life 
skills training.
---------------------------------------------------------------------------
    \19\ Skinner v. Oklahoma ex rel. Williamson, 316 U.S. 535, 541 
(1942).
    \20\ Loving v. Virginia, 388 U.S. 1, 12 (1967).
---------------------------------------------------------------------------
    Fatherhood programs should not be forced to invade parents' most 
fundamentally private decisions regarding marriage as a condition for 
receiving these federal funds. Children benefit greatly from the love 
and support of adults who are committed to their well being, regardless 
of whether those adults are in an intimate relationship with each 
other. They flourish in a safe, loving, healthy environment where their 
caregivers, including custodial parent(s), non-custodial parent(s), 
step-parent(s), and other caregivers, cooperate in a respectful manner 
to raise them with consistent messages about rules and expectations.
    The goal of ``fatherhood initiatives'' should be to foster this 
atmosphere of respect and cooperation between parents and/or 
caregivers, to give them the tools they need to provide for their 
children emotionally and financially, and to create a safe, loving, 
healthy environment for their children. Supportive services should be 
made available to all families, regardless of their marital status or 
family composition, including services to help improve employment 
opportunities, budget finances, promote nonviolent behavior, improve 
relationships, and provide financial support to children. Where parents 
choose to engage in an intimate relationship, resources should be 
available to help ensure that it is a safe, loving, and healthy one. As 
explained below, there are some situations where the non-custodial 
parent may endanger the welfare of either the custodial parent or child 
and in those situations cooperative parenting is not in the best 
interests of the child or of the custodial parent.

3. Domestic Violence
    The promotion of marriage requirement in these bills endanger 
lives. Violence against women both makes women poor and keeps them 
poor. The majority of battered women attempt to flee from their 
abusers.\21\ Over 50% of homeless women and children cite domestic 
violence as the reason they are homeless.\22\ Many depend on welfare to 
provide an escape from the abuse. As noted above, study after study 
demonstrates that a significant proportion of the welfare caseload 
(consistently between 15% and 25%) consists of current victims of 
serious domestic violence \23\ and half to two thirds have suffered 
domestic violence or abuse at some time in their adult lives.\24\
---------------------------------------------------------------------------
    \21\ See Patricia Horn, Beating Back the Revolution, Dollars and 
Sense, Dec. 1992, at 21.
    \22\ See Joan Zorza, Woman Battering: A Major Cause of 
Homelessness, 28 Clearinghouse Rev. 383, 384-85 (1994).
    \23\ See Jody Raphael & Richard M. Tolman, Taylor Inst. and the 
Univ. of Mich. Research Dev. Ctr. on Poverty, Risk and Mental Health, 
Trapped by Poverty, Trapped by Abuse: New Evidence Documenting the 
Relationship Between Domestic Violence and Welfare, 12 (1997).
    \24\ See Mary Ann Allard et al., McCormack Inst., In Harms Way? 
Domestic Violence, AFDC Receipt and Welfare Reform in Mass., 12, 14 
(1997) (64.9% of 734 women); Ellen L Bassuck et al., The 
Characteristics and Needs of Sheltered Homeless and Low-Income Housed 
Mothers, 276 JAMA 640 at 12, 20 (1996) (61.0% of 220 women); William 
Curcio, Passaic County Study of AFDC Recipients in a Welfare-to-Work 
Program: A Preliminary Analysis, 12, 14 (1997) (57.3% of 846 women).
---------------------------------------------------------------------------
    For these women and their children, the cost of freedom and safety 
has been poverty. Marriage is not the solution to their economic 
insecurity. For them marriage could mean death; it will almost 
undoubtedly mean economic dependence on the abuser or economic 
instability due to the abuse. Between one-half and one-third of 
battered women surveyed said that their partner prevented them from 
working entirely.\25\ Those who are permitted to work fare little 
better: 96% percent reported that they had experienced problems at work 
due to domestic violence, with over 70% having been harassed at work, 
50% having lost at least three days of work a month as a result of the 
abuse, and 25% having lost at least one job due to the domestic 
violence.\26\ In short, domestic violence creates and exacerbates 
economic insecurity.
---------------------------------------------------------------------------
    \25\ See United States General Accounting Office, Report to 
Congressional Committees, Domestic Violence: Prevalence and 
Implications for Employment Among Welfare Recipients, 7 (1998).
    \26\  See Joan Zorza, Woman Battering: High Costs and the State of 
the Law, 25 Clearinghouse Rev. 421 (1991).
---------------------------------------------------------------------------
    Even interactions between the batterer and his child can be 
dangerous--both for the child and for the mother if she is forced to 
have contact with him. In some cases, batterers intentionally injure 
their children in an effort to intimidate or control their partners; in 
other cases, children are injured during attacks on their mother.\27\ 
Whether or not there is physical abuse, there is nearly always 
emotional and psychological abuse; 80-90% of children living in abusive 
homes are aware of the violence and abuse.\28\ Children commonly report 
feelings of worry, fear and terror.\29\ The abuse affects their 
relationships with their father; those relationships are often a source 
of pain, resentment, disappointment, confusion and ambivalence.\30\ 
Unfortunately, separation increases the danger of abuse for battered 
women.\31\ Because much of this violence is perpetrated before and 
after visits with the child, children's exposure to this violence is 
increased.\32\ Not surprisingly, those fathers who were physically or 
sexually abusing their children prior to separation continued to do so 
in post-separation visits.\33\
---------------------------------------------------------------------------
    \27\ See Einat Peled, Parenting by Men Who Abuse Women: Issues and 
Dilemmas, Brit. J. Soc. Work, Feb. 2000 at 29.
    \28\ See Janet Carter & Susan Schechter, Family Violence Prevention 
Fund, Suggested Components of an Effective Child Welfare Response to 
Domestic Violence (1997).
    \29\ See Peled, supra note 17, at 27.
    \30\ See id.
    \31\ See id. at 28.
    \32\ See id.
    \33\ See Peled, supra note 17, at 28.
---------------------------------------------------------------------------
    While supervised visitation centers have been utilized as an avenue 
for allowing visitation between batterers and their children, there are 
not enough supervised visitation centers and in many cases the security 
in those centers is inadequate, staff is not trained in domestic 
violence, and women and children are abducted, harmed, or killed. Thus, 
even supervised visitation centers are not always safe.
    Clearly, most fathers are not abusive. But domestic violence 
impacts approximately one million women \34\ and their children each 
year, and the incidence of domestic violence is particularly high 
within the population Congress seeks to reach with this 
legislation.\35\ Thus Congress must not promote father involvement 
without recognizing that some fathers will have a history of domestic 
violence and that, in some cases, father involvement is not in the best 
interest of the children. Contrary to the position of some fatherhood 
advocates, the mere presence of one's biological parent is not the most 
important factor in a child's successful upbringing. Countless studies 
show that children who witness violence and those who are victims 
themselves suffer enormous physical, psychological, and social 
damage.\36\
---------------------------------------------------------------------------
    \34\ See Callie Marie Rennison & Sarah Welchans, U.S. Dep't of 
Justice, Intimate Partner Violence 8 (May 2000). According to the U.S. 
Department of Justice, intimate partners commit 937,490 violent crimes 
against women and 144,620 against men annually.
    \35\ See U.S. Dep't of Justice, Extent, Nature, and Consequences of 
Intimate Partner Violence, 33 (July 2000).
    \36\ See Lucy Salcido Carter et al., Domestic Violence and 
Children: Analysis and Recommendations, 9 The Future of Children 3, at 
5-7 (1999).
---------------------------------------------------------------------------
    Children who have been abused and neglected are more likely to 
perform poorly in school, to commit crimes, to experience emotional and 
sexual problems and to abuse alcohol and substances.\37\ Any 
``fatherhood initiative'' should explicitly recognize this reality and 
should ensure that father involvement is not promoted for fathers with 
a history of domestic violence in the same manner as it is for other 
fathers.
---------------------------------------------------------------------------
    \37\ See Joy D. Osofsky, ``The Impact of Violence on Children,'' 
The Future of Children: Domestic Violence and Children, Winter 1999, at 
37 (1999).
---------------------------------------------------------------------------
    Given the emphasis on marriage and unification, the pending 
fatherhood legislation fails to sufficiently resolve key domestic 
violence concerns. While the original sponsors have made commendable 
efforts to address the problem, the bills nevertheless fail to 
adequately protect domestic violence victims. The Responsible 
Fatherhood Act (S. 653, H.R. 1300) findings address the issue well. S. 
685, S. 653 and H.R. 1300 require fatherhood programs to coordinate 
with a domestic violence program. They also suggest that one of the 
ways in which a program can fulfill its requirement to promote marriage 
is by teaching on how to control aggressive behavior and disseminating 
information on the causes of domestic violence and child abuse.
    The Child Support Distribution Act (H.R. 1471) also suggests 
disseminating information on the causes and treatment [sic] for 
domestic violence and child abuse as one means of promoting marriage 
and requires every fatherhood program to give information and referrals 
on the matter. Given the proclivity for batterers to seek visitation 
and custody of their children as a means of prolonging the abuse, all 
of the bills include a key prohibition on use funds for court 
proceedings around visitation or custody, and legislative advocacy.
    While well intentioned, the language does not provide essential 
safeguards. Where collaboration is required, the bills do not ensure 
collaboration with a recognized expert in the field of domestic 
violence, nor do they fund the mandated collaboration. H.R. 1471 does 
not even require such collaboration, and instead relies on its national 
fatherhood program to piece the materials together for distribution to 
the other programs. None of the bills require that program employees be 
trained by recognized experts in the field of domestic violence on 
domestic violence and its impact on children. Nor do they require the 
fatherhood programs to assess whether participants in the program have 
a history of domestic violence, or describe procedures for dealing with 
such participants--including, among other things, how the program would 
alter its policy of promoting marriage or father involvement for such a 
participant, and what precautions would be taken to ensure that any 
involvement with the child was safe for the mother and child.
    Where the very lives of these women and children are at stake, we 
cannot afford to encourage the involvement of fathers who have a 
history of domestic violence without taking every reasonable 
precaution, and without recognizing that in some cases father 
involvement is not appropriate. Unfortunately, these bills continue to 
promote marriage and father involvement without these precautions. This 
Congress has consistently recognized that domestic violence is a 
serious national problem and has made efforts to minimize the severe 
risk to women and children from that violence. We urge you to reject 
fatherhood legislation without these important safeguards.
Conclusion
    Congress should be concerned with ending poverty and supporting 
economic security for all. Addressing the barriers to economic security 
for low income noncustodial parents and other low income individuals is 
a laudable step towards that goal, but Congress should not raid TANF 
dollars to do so. TANF money must continue to address the barriers 
directly affecting those who make up the welfare rolls: custodial 
parents and their children.
    We applaud Congress' proposed child support reforms and hope to 
assist Congress in ensuring that when child support can be paid and 
safely collected, it will be passed through to the children. 
Furthermore, NOW Legal Defense supports Congress's continued interest 
in and support for men's increased responsibility for contraception, 
childcare, and positive, healthy relationships with their children, as 
well as cooperative co-parenting between custodial and non-custodial 
parents. Such programs should be available across income levels and 
should be crafted to ensure safety and advance gender equality. We look 
forward to working with Congress to achieve these goals.
    Thank you for the opportunity to submit this testimony.

                                <F-dash>


                             Pittsburgh, Pennsylvania 15220
                                                      July 11, 2001
Allison Giles, Chief of Staff
Committee on Ways and Means
U.S. House of Representatives
1102 Longworth House Office Building
Washington, DC 20515

Subject: Public Hearing on Child Support and Related Issues

    Dear Committee on Ways and Means:

    Thank you for allowing me to express my strong and urgent support 
in favor of changes to legislation that eliminates gender bias and 
corruption in Family Law matters relating to Child Support Guidelines 
and rightfully making Presumptive 50/50 Joint Custody the rule and the 
law.
    I am a father of two daughters who are 9 and 4 years old. I have 
been blessed to obtain 50/50 joint custody from the time the oldest was 
5 years and the youngest was 7 months old. I could tell you much about 
the difficulties and hardship I was confronted within the family court 
system in the related divorce, custody and support process but I'd 
rather thank God for allowing my parent rights to look after the girls 
and the good success that both their mother and I see in them. It was 
an initial challenge to co-parent but it became easier in time for me 
because I believed we both got a chance to know that each of us 
tremendously loved our children. Therefore, I must take this 
opportunity to speak in support of other fathers who are denied their 
rights and access to parenting their very own children. I am going to 
assume that most people are not aware of the dangers facing children 
who live apart from their fathers. It is my hopes and prayers that 
there is more than sufficient evidence available to you to now know the 
truth and that you will do the right thing in making Presumptive 50/50 
Joint Custody the law and practice as well as the stopping the 
unconstitutional extortion of monies from responsible law abiding 
citizens through gender biased child support guidelines and systems.
The Case for Presumptive 50/50 Joint Custody
    We have heard much over the years of so-called deadbeat dads and we 
now understand the myths surrounding this stereotype have been 
shattered. Now we must raise awareness of the tragic problem in the 
area of emotional child support--namely, the phenomenon termed 
``DEADBOLTED DADS'' which was coined by Gail Sheehy in a 1998 New York 
Times article and refers to dads who are locked out of their children's 
lives with no way of getting back in after divorce or family breakup. 
Deadbolting can also happen to non-custodial moms.
    Sociology Professor David Popenoe wrote in ``Life Without Father'' 
if present trends continue, the percentage of American children living 
apart from their biological father would reach 50 percent in the next 
century.
    I believe we are well ahead of that disastrous pace when 
considering the April 18, 2001 published article ``Unwed Mothers Set A 
Record for Births'' by The Washington Times. The article states ``a 
record 1.3 million babies were born out of wedlock in 1999 marking the 
first time that a full one-third of all U.S. births were to unwed 
mothers, the federal government said.'' If there are custody disputes 
the facts are that 80 percent or more of the time, the mother is 
routinely given sole custody in violation of the inalienable human 
rights of the child to also enjoy the love and nurturing relationship 
with their father.
    Couple this with the fact that 50 percent of the 2.6 million 
children born in wedlock or about another 1.3 million, through divorce, 
will find themselves in the same victimized role of the children born 
out of wedlock and subjected to the same 80 percent sole custody mother 
violation of the child's basic human rights to know the love and 
nurturing of their father. Two thirds of these 1999 born babies may 
find their lives void of the love and security of their father if we do 
not act now.
    Also, when we consider that this does not include children born 
before this 1999 report and are nevertheless, victims in the same 
proportions, the numbers are staggering and in at least the 15 to 20 
million children range.
    This is a problem that Americans care about ``according to a 1996 
Gallup Poll, 79.1 percent of Americans feel the most significant family 
or social problem facing America is the physical absence of the father 
from the home. This number is up from 69.9 percent in 1992.'' (MSNBC 
website: ``Labor Day: where are the fathers'', 1999).
    When there is an absence of 50/50 joint custody, extended families 
are cut off, too. Loving grandmothers, grandfathers, sisters, brothers, 
aunts, uncles and cousins all suffer when a child is unnecessarily kept 
away. A whole heritage is lost to these children.
    We must acknowledge the truth that fathers love our children just 
as much as mothers do. We have forgotten this simple truth because we 
are bombarded with negative images and stereotypes of fatherhood such 
as runaway dads, absentee dads and deadbeat dads when the reality is 
that dads are deadbolted, and in most cases broken-hearted over the 
loss of their beloved children. Furthermore, the children are missing 
their dads, too because they love their dads as much as they love their 
moms.
    Why is if so important to immediately reunite children in the homes 
of their fathers which the presumption of 50/50 joint custody will 
facilitate? Consider this:
    Children of fatherless homes account for:

    <bullet> 63% of youth suicides
    <bullet> 71% of pregnant teenagers
    <bullet> 90% of homeless and runaway children
    <bullet> 70% of juveniles in state-operated institutions
    <bullet> 85% of children that exhibit behavioral disorders
    <bullet> 80% of rapists motivated with displaced anger
    <bullet> 71% of all high school dropouts
    <bullet> 75% of all adolescent patients in chemical abuse centers
    <bullet> 85% of all youths sitting in prison

    Many children who are victims of crimes are raised in a fatherless 
home and the perpetrators who commit these crimes are themselves raised 
majority of the time in a fatherless home.
    These horrible statistics are even twice as worse for African 
Americans who in the same year 1999 have twice as many children born 
out of wedlock at almost 70 percent. There is a direct correlation 
between: the number of African American children born out of wedlock, 
the number of African American sole custody mothers, the number of 
fatherless African American fatherless homes, the disproportionately 
high number of African Americans in jail and the criminal justice 
system, the disproportionately high number of African Americans in 
poverty.
    In regards to child abuse, The U.S. Department of Health and Human 
Services states that there were more than 1 million documented child 
abuse cases in 1990. In 1983, it found that 60% of perpetrators were 
women with sole custody. 50/50 Joint Custody can significantly reduce 
stress associated with sole custody, and reduce the isolation of 
children in abusive situations by allowing both parents to monitor the 
children's health and welfare and to protect them.
    In regards to poverty, The National Fatherhood Institute reports 
that 18 million children live in single parent homes. Nearly 75% of 
American children living in single parent families will experience 
poverty before they turn 11. Only 20% in two parent families will 
experience poverty. (Melinda Sacks, Fatherhood in the 90's: Kids of 
absent fathers more at risk, San Jose Mercury News (10/29/95)). Also, 
the feminization of poverty is linked to the feminization of custody, 
as well as linked to lower earnings for women. Greater opportunity for 
education and jobs through shared parenting can help break the cycle. 
(David Levy, ED., The Best Parent is Both Parents (1993)).
    In regards to kidnapping, family abductions were 163,200 compared 
to non-family abductions of 200-300. The parental abductions were 
attributed to the parents' disenchantment with the legal system. (David 
Levy, ED., The Best Parent is Both Parents (1993)), citing a report 
from the U.S. Department of Justice, Office of Juvenile Justice (May 
1990).
    How did we wind up in this current destructive position? The 
current family law court system has done an injustice to all of our 
constitutional rights as mothers, fathers, children, legislators and 
citizens. Many attorneys, not all, engage in unethical practices that 
result in significant and usually unnecessary litigation to extort 
money from both mother and fathers. But the fees for the fathers are 
usually incurred at an even higher level than the fees incurred by the 
mother, as much as 6 times more or higher. The public is not aware of 
the excessive litigation that occurs and how difficult it is for 
fathers to keep going back to court again and again to get some form of 
custody. Dads become emotionally and financially drained. They are 
forced to spend thousands of dollars just to be able to see their 
children. This is tragic.
    Many of these unethical attorneys do not represent the interest of 
their client the father by withholding information pertaining to 
options and rights that they have full knowledge of in order to 
generate more billable hours at the expense of the children and their 
fathers.
    These attorneys are sometime aided by Domestic Relation Officers 
who are biased against fathers and routinely issue support orders 
without the establishment of custody orders that must be appealed if 
the father is knowledgeable and financially able.
    Sometimes we have judges who will not stand for such injustices and 
biases, may they be blessed forever, and will issue the right and 
honorable court order of 50/50 joint custody. But most of the time this 
may not happen due to their heavy caseloads and undue pressure from 
attorneys who may have various associations and relationships with the 
judges.
    We have the chance today to turn this cycle of disaster into a 
cycle of opportunity for love, growth, safety, and stability for our 
children and all the citizens they affect in our nation. We can take a 
giant step forward in the best interest of our children's health and 
welfare by:

          1. Passing legislation on Presumptive 50/50 Joint Custody. 
        This will minimize and ultimately eliminate the impact of 
        unethical attorneys, prevent and eliminate the premature and 
        biased actions of Domestic Relation Officers, remove undue 
        pressures from judges, lighten the judge's caseload for 
        attention to the more serious cases of custody that are the 
        exception to parents who have the law abiding character and 
        ability to receive the responsibility of Presumptive 50/50 
        Joint Custody or any other agreement between the parents that 
        they believe is in the best interest of the children through a 
        parenting plan.
          2. Committing to working with the federal government on a 
        Uniform Parental Rights and Enforcement Act. This will enable 
        consistent presumptive joint 50/50 laws to be enforceable 
        across all of these United States of America. We will eliminate 
        the complications, delays, risk to the children, and costly 
        expenses to the parents and taxpayers due to the separate 
        custody laws of each state. American children are American 
        children. They have an inalienable right to give and receive 
        love from both of their parents regardless of which United 
        States of America they have been unlawfully transported to.
          3. Committing to special efforts to reverse the cycle of 
        fatherless homes in African American communities where our 
        children in these United States of America suffer the greatest 
        disproportionate share of death and destruction in the life 
        issues of health, economics, education, self esteem and safety. 
        Presumptive 50/50 Joint Custody represents an excellent tool to 
        proactively educate African American fathers of the joy and 
        benefits accrued to their children when they step up and accept 
        a 50/50 joint custody role, free of prejudices and biases faced 
        in the current family law system.

    In summary, the issue of Presumptive 50/50 Joint Custody is not 
about women versus men or moms versus dads. The issue is about the 
physical, emotional, spiritual and financial health and well being of 
our children. Children need both parents. We need fair and equal 
treatment in the courts for all men and women, and recognition of the 
human rights of children to know, love and share the lives of both 
parents. Unnecessary and unjust intervention by the courts into the 
private realm of family life and parenting must stop. We must pass 
Presumptive 50/50 Joint Custody legislation.
Gender Biases in Pennsylvania Child Support Guidelines
    I am a very concerned citizen and feel my comments are very 
important to modifying Pennsylvania's Support Rules of Court in 
particular and the erroneous national support guideline model in 
general. With all due respect and a pursuit of what is good, right and 
justifiably fair, I humbly submit my comments on the ``anonymous'' 
Committee that implemented the Pennsylvania Support Rules as an example 
of the national child support guideline model flaws and biases as 
follows:

Rule 1910.16-1 Amount of Support. Support Guidelines
Commentary on Rule 1910.16-1
    (a) The support of a spouse or child is a priority obligation, 
however, the expectancy of a party to adjust her or his expenditures to 
meet this obligation can force a good hardworking honest citizen into 
financial ruin.
    It is grossly unfair when the party who was abandoned and did not 
initiate the breakup of a family finds herself or himself, suddenly in 
a support hearing, before any custody ruling or action has been 
determined, and gets hit with a devastating support judgment, effective 
immediately, with no chance to adjust other expenditures, simply 
because you earn more money than the other spouse. It is a cruel and 
unusual punishment.
    In the case where a spouse has abandoned the other spouse and files 
for support where there has been no ``evidence of abuse'' (more than 
the filing of a Protection From Abuse--PFA which requires only an 
accusation and no facts) but merely because this spouse has decided to 
selfishly pursue their own desires at the expense of the abandoned 
spouse and even using the children as a way to finance this break-away, 
does not represent a stable person with the best interest of the 
children, and therefore, should not be awarded any support until a 
custody hearing and ruling has been completed.
    In fact, everyone should have to prove ``just cause'' of why the 
children should not remain under the custody of the spouse who has been 
abandoned in a presumed stable environment.
    Therefore, the burden of adjusting of expenditures should 
justifiably be shifted more heavily to the party who has made the 
decision to abandon the family unit, not on who earns more money.
    In fact, the one earning more money will tend to have the 
expenditures that are more fixed in nature and more difficult to 
adjust, i.e. mortgage, auto loans, education and consumer loans, etc.
    The priority of support should be for maintaining the children in 
their stable living environment. When a person decides to leave a 
marriage because they ``feel like'' they need to pursue other interest, 
they should not be entitled to remove income from the marital household 
that is available for the children and remaining spouse, regardless of 
whether the remaining spouse is the man or woman, higher income earner 
or lower income earner.
    Further, when such a person decides to leave a marriage because 
they ``feel like it'' they are entitled to do so with their share of 
the marital property because no one can make them stay, but this person 
should not be entitled to spousal support especially when they have a 
means to provide for their own living and has chosen their own 
independence. They deserve to be left independent with the fruits of 
their own labor.
    There is no good basis for making such a spousal support award and 
this practice should cease.
Rule 1910.16-2 Support Guidelines (Grids) Calculation of Net Income
Commentary on Rule 1910.16-2
    (d) Reduced or Fluctuating Income
    (4) Income Potential. The concept of appropriate employment in 
consideration of a party's earning capacity requires more definition. 
We should be able to construct a schedule of earning capacity according 
to the age, education, training, and market value of a parent's skill 
set.
    This should be the starting point of earning capacity assessment in 
determining support. This will help provide a fair and firm guidance to 
parents to know their responsibility and assessed contribution to 
support based upon the skills and talent that they possess regardless 
of whether or not they choose to obtain it.
    For example, if a person has a bachelor degree in Computer Science 
and training in a curriculum such as Computer Analyst, and has had 
these skills for 10 years that would translate into a Senior Analyst 
with an average market value of $50,000 but the party has chosen not to 
capitalize on the investment of the education and training and has 
decided to instead take employment as a data entry clerk with a salary 
of $25,000. This party should be assessed with the earning capacity of 
$50,000.
    This will establish an environment where both parties will know to 
diligently pursue their maximum earning capacity, thereby maximizing 
the resources available for supporting the best interest of the 
children.
    The courts have consistently and rightfully stated that it must be 
both parties equal responsibility to obtain their earning capacity in 
the support of their children.
    The information on employment and earnings for the composition of 
such a schedule to be used as a guide should be available from existing 
wage and salary surveys.
    I believe this will go a long way in confirming our seriousness in 
the best contribution of one's skills and abilities to the benefit of 
our children, family, and ultimately as a Pennsylvanian example of our 
great United States of America.
    We have an opportunity to encourage all parties to strive to gain 
the intrinsic reward of fulfilling one's potential. People should have 
a better sense of what's expected of them as a responsible wage earner 
parent.
Commentary on Rule 1910.16-2 Support Guidelines
    (e) Net Income Affecting Application of Child Support Guidelines
    (2) High Income Child Support Cases.
    After divorce and established earnings, if one spouse through hard 
work and risk taking is blessed with significant earnings, why should 
one be required to make any increased child or spouse support payments 
to a spouse who takes no risk and in all probability has another co-
habitant who also gains the benefit of support meant for the children?
    To the parent(s) who are committed to the personal nurturing and 
rightful upbringing of their children, the intervening non-parent, the 
co-habitant who has no responsibility of child support should not have 
any access to the provisions meant for the children.
    This is true in all income cases and not just limited to high-
income cases. This is a real big problem that I believe is at the core 
of much violence and death that we see and hear about in cases of 
troubled families.
    Although I do not agree with the actions, I can understand why a 
person can be so enraged to commit violence and murder when they see 
someone else living in a house, eating food, driving cars, living a 
better life because of the blood and sweat of a supporting spouse's 
labor.
    It is wrong, unnatural, and down right wicked for a co-habitant to 
be excused from the support equation. The co-habitant had a choice of 
whether or not to enter the relationship, and should have to pay the 
cost like everyone else. We must address this issue.
    I would suggest that we consider a standard and guideline of 
support for a co-habitant, being subjected to the same test of earning 
capacity as everyone else.
    Just as it is stated that in the comments of the recommendations in 
multiple families, and extending beyond just the children of a second 
family, but to the second adult, the co-habitant;, is only entitled to 
the standard of living established by the parent and the co-habitant, 
and not the standard of living that may have existed earlier in the 
first family ``because of the support payment monies made by the first 
family parent of the children''.
    The co-habitant is responsible for choosing to enter such a 
relationship and must also be held accountable for support and not 
allowed as a parasite to consume resources contributed for the 
children. There must be no double standard.
Rule 1910.16-4 Support Guidelines. (Deviation) Calculation of Support 
        Obligation. Formula
Commentary on Rule 1910.16-4
    (b) Shared Custody--When both parents are equally raising their 
child(ren), it is more than just spending time. It is an erroneous and 
biased disposition not to be sensitive and see both parties in the role 
of obligor and obligee, regardless of who earns the higher income.
    Otherwise, the party with the higher net income is unjustifiably 
translated into the non-custodial parent penalties, and therefore, 
never perceived in an obligee role and also justifiably appropriate to 
be provided favorable consideration as any other custodial parent(s) 
who is spending their appropriate share of support on the children 
within their household that they are maintaining even though they do 
not receive one penny from anyone.
    It would be coldly biased, incomplete and unjust to ignore these 
facts and not give obligee consideration and benefit to both parents.
    (f) Further, evidence of the need to be implicitly as well as 
explicitly fair in the treatment of both custodial parents, as both 
obligor and obligee, in equally shared custody, is the biased language 
and treatment that follows as a result of language in this section of 
Rule 1910.16-4 (f): ``utilize the guidelines which result in the 
greatest benefit to the obligee.''
    We must be careful to always be fair and balanced to both parents 
who are equally and successfully raising their children.
Rule 1910.16-5 Support Guidelines. (Operation) Deviation
Commentary on Rule 1910.16-5
    (c) No deviation from the support obligation shall be made for the 
amount of time that each parent spends with the child or children is 
blind, cruel, and out of touch in today's environment, thirty years 
after the equal rights amendment, where both parents have equal access 
to opportunity in the workplace and choices of career.
    Except in cases where one spouse abandons the other spouse and 
child or children, ``no deviation'' in this ruling makes too great of a 
financial incentive for a support recipient, usually the woman, to use 
the children as pawns for purely money, and that is the plain and 
simple truth.
    We need to be more compassionate to the love, effort, and resources 
both parents are in fact expending to make our children stable, 
healthy, assets to our society.
    I believe there is a direct correlation between the greed created 
by these support incentives and the extremely high rate of divorce and 
family breakdown.
    I appeal to your sense of wisdom, justice and compassion, to not 
let our children be used as pawns to gain financial advantage. No 
matter how it is disguised, we must end this practice of wrongfully 
giving preferential treatment to one sex gender over another.
    I know this is a sensitive issue but we as fair minded Americans 
must as always have the courage to do the right thing.
    Especially in the case of equally shared custody, which should be 
the presumption upon parents separating, it is right in the common 
sensed use of the offset method for split or divided custody, which 
involves determining what each parent owes when the other parent is the 
primary custodian and then subtracting the difference.
    It is also right in the common sensed use of dividing this 
difference in half.
    The only factor that should enable consideration to deviate from 
dividing this difference in half is where the parent of lesser income 
is below the poverty line income and the parent with more income will 
not be pulled down to poverty line income.
    Otherwise, the merit of the Committee argument is loss because 
where the Committee presumable in honesty and sincerity erred is in the 
example where one party's net income is $4,300 and the other party's 
net income is $2,900, resulting in a net support payment of $181, the 
Committee ignored the fact that a total of $2,900 + $181 = $3,181 net 
available income is well above poverty and more than sufficient for any 
responsible and prudent person to maintain a good and healthy 
household, above a poverty level of living.
    To not recognize this, with all due respect, but in truth, it is 
biased, greedy, and Un-American as it denies a citizen the right to 
life, liberty, and happiness through wrongfully seizing the income 
earned through capitalizing on one's labor and making their own best 
choices of use for the children.
    Also, it must be explicitly and implicitly recognized that in 
shared custody, both parents are the custodial parent half the time and 
that each have fixed expenses relating to the children.
    Therefore, without being grossly biased against the higher wage 
earner, who is usually the man, we must not fall prey to the flawed 
theory that ``these costs (of either parent), merely duplicate the 
costs already being incurred by the custodial parent, as both parents 
are the custodial parent and neither is entitled to preferential 
treatment at the expense of the other parent.
In summary:
    I have given you my best thinking and heartfelt compassion on these 
issues. I believe that such crucial issues affecting so many citizens 
should be well publicized and distributed, possibly moved to referendum 
for public opinion and vote.
    My heart and hope are in pursuit of removing financial incentive 
from either of the parent altogether. However, the current guidelines 
greatly missed the mark on several issues as I have tried to 
communicate.
    We need a system built on compassion, commitment, and fairness to 
allow both parents to raise our children in an environment of love and 
experience our Constitutional Rights of Life, Liberty and Pursuit of 
Happiness.
    I appeal to your sense of goodness, righteousness, and fairness as 
a fellow human being and valued American citizen, to do the right 
thing, and help us to restore the mental, physical, financial, and 
intellectual well being of our children, through just and fair 
guidelines, void of gender biases.
    Thank you in advance for any assistance you can provide in 
legislation to eliminate all biased financial incentives from either 
parent and focus on the best interest and well being of the children 
and the love and care they are should have from both parents.

            Sincerely,
                                           James R. Overton

                                <F-dash>


   Statement of Paul W., and Wendy G. Peterson, Cary, North Carolina
ANOTHER SIDE TO THE CHILD SUPPORT ISSUE:

    I believe that the current child support laws need to be 
drastically changed so that a father's second family DOES NOT SUFFER. 
My husband and I have been paying child support to his ex-wife for 12 
years. The child support check has always been the first check that is 
written each and every pay day. We have 2 children of our own, ages 7 
and 3. The term `Child Support' is a joke to me. My step child is being 
supported at the expense of my own children. If I just had a penny for 
every time my husband or I have said something like, ``Someday when 
child support is over, we will be able to afford. . . .'' My children 
have heard the phrase, too. We have felt as though our life and family 
is on hold. In 3 years we will--thank God--be done paying for child 
support. Here's a list of some of the things we will be able to provide 
for our children once we are done paying child support that we 
currently have not been able to:

  <bullet> Proper (consistent) dental & eye care (This has been a hard 
        one since we are currently paying for my step child's braces.)
  <bullet> Extra activities like piano lessons, sports, arts & crafts, 
        pottery lessons, swimming lessons & summer camps to name a few
  <bullet> Cable or Satellite TV
  <bullet> A membership to the YMCA or other swim/exercise club
  <bullet> More Clothes & Toys that don't come from yard-sales and 
        thrift shops
  <bullet> Yearly vacations
  <bullet> Cars that are newer than 8 years old and that would require 
        collision insurance
  <bullet> A college fund

    I do however, consider us very blessed! We are blessed because:

  <bullet> None of us has required surgery or medical attention that 
        insurance won't cover.
  <bullet> My younger son won't have any adult teeth until after child-
        support is over.
  <bullet> My children seem to have good vision at this time.
  <bullet> My children won't need braces until after child support is 
        over.
  <bullet> My son's are still young enough to be entertained with 
        simple things.
  <bullet> We are able to get public TV with a roof antenna.
  <bullet> My children enjoy the lakes as much as public pools.
  <bullet> My children love getting toys from yard-sales.
  <bullet> We live in a prosperous enough country that people will sell 
        nice clothes for a quarter.
  <bullet> My husband knows enough about cars to keep our old ones 
        going.
  <bullet> Public school is FREE--What a blessing that truly is!

    WHAT ABOUT THE FAMILIES THAT ARE NOT SO BLESSED? I just can't 
imagine having teenagers and paying child support, too. I can't imagine 
having a child in desperate need of constant medical attention. Yes, 
our family is blessed.
    I am so sick of the term `Dead-Beat Dads'. It seems to me that 
fathers are guilty before proven innocent or worthy. I feel so bad for 
all the young fathers. My husband has a good job, and it is still hard 
for us. What about these dads making minimum wage? To tell them they 
have an 18 year sentence to pay child support is like a living hell.
I DISAGREE WITH:
  <bullet> Basing child support on some crazy figures of what it costs 
        to raise a child. We are not even going to get close to any of 
        those figures for our children! In fact, the child support we 
        pay does not all go to the child we are supporting. We are 
        simply subsidizing the mother's second husband's income. We do 
        not spend the same amount on both our children together.
  <bullet> Figuring a portion of child support is for housing. The 
        mother has got to pay for that anyway.
  <bullet> The notion that children ought to have the same standard of 
        living as they did before the divorce. Statistics show that \2/
        3\ to \3/4\ of divorces are initiated by woman. When a mom 
        walks out of a marriage, she walks out of that standard of 
        living.
  <bullet> Seizing bank accounts, taking money from fathers paychecks 
        and making life a living hell for fathers and especially the 
        second family involved. (Statistics show that 80% of divorced 
        men remarry, and most do within 3 years.)
    What is this nonsense? I am so glad we are not in the ``system''. 
This reminds me of the bible verse ``Do not provoke your children to 
wrath.'' Is the penalty for not paying child support so steep that it 
is causing some young fathers to look to other means of illegal income? 
I am not trying to justify their wrongful actions, but it just seems to 
me that you'd have more cooperation if you gave these dad's a chance to 
do things right on their own. No one has to tell my husband to pay 
support, he just does it.

  <bullet> Any court, state or private agency making a profit on child 
        support! This would make any person distrust the incentives 
        behind collection.
  <bullet> Allowing zero accountability on behalf of the mother. Not 
        only is this a breeding ground for resentment on behalf of the 
        father, but it can be a serious DANGER to the child. A mother 
        can take the money and buy whatever she wants with it and 
        deprive her children of the things they need. Children having 
        mothers with addictions are especially at risk. Tax free money 
        that does not need to be accounted for or is easy drug money. 
        Statistics show that 80% of the states report that parental 
        substance abuse within poverty are the greatest child welfare 
        problems. In some cities, more than 75% of welfare cases are 
        linked to alcohol and drugs.
  <bullet> Allowing no tax deduction for the parent who pays support. 
        Why should the father's second family have to pay taxes on 
        income that benefits another family?
  <bullet> Manipulating the child support system for the benefit of the 
        custodial parents on welfare (and therefore, the government) 
        when in fact 50-60% of all custodial parents receiving support 
        are NOT ON WELFARE!
I AGREE WITH:
  <bullet> Making it harder for people to get divorced, and premarital 
        counseling.I think this alone could solve a lot of problems in 
        our society.
CHILD SUPPORT GUIDELINES:
    In spite of the fact that child support figures are too high, North 
Carolina has one of the best models for figuring Child Support. I 
believe all states should be consistent in figuring support, and I 
believe NC's model would be a good one for the nation to adopt. Non-
custodial parents living in states that use a flat percentage to figure 
child support have my deepest sympathy. But even within my own state, 
the agencies are not consistent with the way child support is figured. 
This must not be so!!
TRUE STORY:
    A Christian friend of mine is doing everything in her power to hold 
her marriage together. Because of the husband's past, I am convinced he 
is cheating on her and doing drugs. He has moved into the basement of 
their house, and is living quite apart from her. She wants it to work 
out so bad, that she is allowing him to do this. I truly believe that 
he is content to remain in the marriage and in the basement to avoid 
having to make child support payments.
CONCLUSION:
    Child support payments need to be FAIR. There will always be 
fathers who will do everything in their power to avoid payments. But 
even law abiding fathers need to feel as though the support is fair. 
Resentment can show up at bad times, and will ultimately affect the 
child's sense of security. When a man and woman are married, they make 
decisions together on how money should be spent on the children. 
Divorced dads are deprived of that right. After a stressful divorce, 
they are forced to turn over all decisions about their children to the 
mother. Divorced dads don't want money that is meant for their children 
to be thrown into a melting pot of the mother's needs and wants for 
herself and the children. How much money does the mother REALLY need 
for the children, and how can we know? The custodial parent should be 
required to fill out paper work accounting for where the money is 
going, and fathers should be entitled to that information. This would 
ensure that the money is going directly to the child being supported, 
and therefore divorced dads around the country would be more apt to 
pay. It would also help to ensure that the fathers' other children 
would not be deprived of the things they need at the expense of their 
half siblings.

                                <F-dash>


                          Protecting Marriage, Inc.
                                 Wilmington, Delaware 19803
                                                       July 5, 2001
Hon. Wally Herger, R-CA
House Ways and Means Committee
Subcommittee on Human Resources
Rayburn House Office Building
Washington, DC 20015

    Dear Rep. Herger:

    This letter is supplemental testimony to your June 28th hearing on 
the Child Support bill, H.R. 1488. I called the subcommittee today and 
received instructions on how to submit from a Macintosh computer and 
was instructed to email my information as an attachment to Ms. Kitchin. 
We were also paying attention to your hearing on May 22nd as I am well 
known to many witnesses--Wade Horn, Robert Rector, Mike McManus--on the 
divorce issue. However, because we expose significant academic research 
data that confronts some of what you have heard, I, personally, am 
unfortunately quite controversial. For quick reference, I am in the 
Heritage Foundation's Directory of Public Policy Experts. You also 
could confer with law professor Katherine Spaht, the author of 
Louisiana's Covenant Marriage law, who supports what I reveal on this 
issue.
    In 1996, I received a call from a reporter in Bowling Green, OH who 
informed me that we should be paying attention to the Welfare Reform 
bill, and I asked why. Because, she said, in it was funding to ``non-
custodial parents'' which we know is code for `Fathers', and the fact 
brought forth continually in all research studies is that it is Mothers 
or Wives who end up losing disproportionate financial benefits after 
divorce and are recipients of most family responsibilities. The fact is 
that every year in the United States (see the Census or American 
Demographics) among unmarried men [never married, widowed, or divorced] 
the group with the highest median income is divorced men/fathers. As a 
United Nations report of three years ago stated, ``there is no country 
in the world that treats its women as well as its men.'' Wives and 
mothers in an unaddressed divorce which they cannot by law defend 
against, are a Human Resource, Congressman Herger, and this committee 
must fairly address that issue.
    Your staff needs to obtain the 1994 Journal of Socio-Economics and 
go to the study titled ``Crime and Unemployment'' where a stunning and 
unanticipated finding emerged in a 44 year tabulation of all U.S. 
county data: ``the most powerful predictor of Homicide rates in the 
United States are the divorce rates.'' The Drexel University 
researchers used the top rated variables (women in the workforce, 
percentage of Roman Catholic families, etc.) and the coefficients are 
huge in the results. When I pointed out to Wade Horn that this finding 
was not showing that Fatherlessness, per se, is prompting the homicide 
increase, but rather that high divorce occurrences were, he was 
displeased. And to be divorced, one must first be married. In order for 
marriage again to be attractive to both men and women, then the 
exigencies, and unbalanced ordered losses, from mandatory no-fault 
divorce law need be changed. Professor Spaht is on record as stating 
that we are not going to succeed with requiring marriage prep courses 
or marriage mentoring until this country corrects our disastrous 
divorce statutes, too. She feels that after 30 years of failing to 
change state divorce laws due to the power of special interests of 
lawyers and therapists, in particular, to stop such correction, we 
shall have to address exposing that problem. In 1997, we submitted a 
bill proposal to Senator Sessions when his committee was working on the 
Youth Violence bill (S. 10) which never passed. Robert Rector asked me 
for a copy of the Drexel study two years ago. When an educational 
organization like Protecting Marriage, Inc. and its leaders are showing 
hard data that may slow the flow of federal funds to the wrong 
entities, these policy analysts are quite unpopular and too often 
dismissed or libeled. We urge your Subcommittee to take a look again at 
where you may direct support; the fate of America's children cannot 
continually be misused as it has been since 1970. Can it? We all are 
sincerely active in wanting to end the destruction of children's 
futures; and every married Mother promotes her husband as a firm and 
loving Father to their children.
    There is one last point that we must address. There is much 
research that shows that mandated joint physical custody does not 
produce optimal results for children. Despite political pressure, it is 
a fact and not a surprising one. Stability for anyone rests on being 
securely in one place and with a parent who does not betray . . . 
either parent of either gender, who does not betray the marriage and 
family, but visitation of one's children should be assured in our laws. 
To declare that TANF funds be spent on ``strengthening marriage'' when 
top studies (USC in 1998 and Univ. of OK in 1995) show that no-fault 
divorce laws independent of other factors were the cause of our 
divorces exploding in number, then your subcommittee should shift its 
focus slightly from marriage prep to genuine marriage preservation by 
offering rewards for enacting divorce statute disincentives. Email to 
our office tells that Congress wants solutions and we have endeavored 
to provide some in this testimony. We are at your service, via frequent 
trips to Washington, and providing studies identified here. Your 
personal profile on marriage and family is enviable and that leadership 
focus is important, Representative Herger.

            Very sincerely,
                                         Phyllis H. Witcher
                                                          President

                                <F-dash>


                                        Society of Just Men
                                Columbia, South Carolina 29209-1019
Ms. Allison Giles
Chief of Staff
Committee on Ways and Means
U.S. House of Representatives
1102 Longworth House Office Building
Washington, D.C. 20515

    Dear Ms. Giles:

    Please accept this correspondence as my submittal for the 
approaching hearing dealing with Child Support and Fatherhood 
Proposals.
    I am the Founder of the Society of Just Men. Our organization was 
brought into being because of the rampant fraud, deceit and even 
criminal conduct found in the family courts of this country. Our family 
court systems are running over with unethical practices by matrimonial 
lawyers who continue to work for the total destruction of the American 
marriage and the financial depletion of the assets of any family that 
finds itself in the clutches of these corrupt judicial systems during 
great periods of emotional stress.
    While the issues in your hearing revolve around child support, 
there are other issues that go deeper into the problems between fathers 
and mothers caught-up in the child support system. An observation is 
that the U.S. Bankruptcy Court is a court of law and equity. It helps 
individuals, families and businesses in the preservation of their 
assets and lives. The family courts of the states are also courts of 
law and equity, and they are charged with helping families with their 
lives and assets during the same kind of emotional and financial stress 
as the bankruptcy court. The real problem seems to be that the family 
courts are designed primarily for lawyers who financially destroy every 
family in their courts.
    In our family courts, the attorneys and their hand-picked judges 
literally ravage the assets of the American family. They engage in the 
most heinous legal practices and they use these tools to take all 
assets away from the father and mother. Then, they ask the court to 
imprison the father for not paying. Here in South Carolina, matrimonial 
lawyers flood the courts with unethical types of practice and the 
judges accept them on the tacit understanding that the more legal 
pleading, the more hearings, the more wallpaper, the more job security 
for the jurists. Before you make any critical decisions burdening the 
fathers of the country any more, we in the SJM feel you should lessen 
the financial burden on both mother and father by giving them justice 
in the family courts. There are many practices you should consider. If 
you take a look at these unethical practices, you will see why many men 
cannot afford a lawyer for a change in child support amounts. If you 
examine these unethical practices, you will see why some men are simply 
beaten down financially and destroyed spiritually. A few are listed as 
follows:

        1. GAMING.--This is one of the oldest types of unethical 
        practices by divorce lawyers. Gaming is associated with any 
        kind of effort on the part of the lawyer to create a war-like 
        atmosphere between the parties. To effectively game, you have 
        to have the cooperation of the other attorney. Gaming can mean 
        creating of useless hearings, useless meetings, unnecessary 
        investigations, unnecessary motions, etc. It is associated with 
        Sharp Practice and Wallpapering.

        2. SHARP PRACTICE.--This is a form of fraud upon the court. It 
        is usually associated with making false representations to the 
        opposing attorney and to the court. For example, the gross 
        misrepresentation of the appraisal value of a chattel in a 
        divorce. The withholding of critical evidence from the court is 
        another example of sharp practice.

        3. CONTROLLING THE CASE.--This is a very common form of 
        unethical practice here in South Carolina. If the lawyers 
        cannot ``control'' the case, it could become settled too 
        quickly and they might lose money. One example is where your 
        attorney will call your wife's attorney and secretly notify him 
        that a private investigator is on the way to gather evidence as 
        to the adultery of his client. After all, if adultery were 
        quickly established, the case would have to be settled and the 
        lawyers would not make any huge fees. This is very common in 
        South Carolina and other states.

        4. WALLPAPERING.--This is the most common type of abuse in the 
        divorce courts. If a client calls his lawyer for a simple 
        question, he gets back a four page letter confirming the 
        telephone conversation. Long and totally unnecessary letters, 
        motions, memoranda and exhibits are sent back and forth between 
        the lawyers to churn the account. If a stock broker engaged in 
        this type of conduct, he would lose his license. The lawyers 
        also create new ways to send wallpaper. For example, when I 
        recently received my daughter's visitation schedule for this 
        summer, it came as a legal document with a ``Certificate of 
        Service'' attached. This is a legal document used when there is 
        a pending action, one does not attach such documents to 
        ordinary correspondence. Yet, in South Carolina, the lawyers 
        will invent an excuse to create this wallpaper for opposing 
        counsel to read--and they both bill for it. The attorneys will 
        take evidence from the clients' files and send it back and 
        forth. They will file motions with the court to which are 
        attached meaningless exhibits. This is one of the most heinous 
        practices and it is common in South Carolina. When a lawyer 
        files a simple motion of 2-3 pages, he will attach 40-50 pages 
        of ``exhibits.'' Often they will attach these exhibits in 
        several documents throughout the course of a trial. The recent 
        rage among lawyers is to use the FAX machine for these useless 
        transfers of documents. If you do this in federal court, you 
        risk sanctions by the judge. If you do this in the South 
        Carolina family courts, the judges all feel this gives them job 
        security.

        5. EXCESSIVE MOTIONS.--This is a common abuse in South Carolina 
        and other states. The matrimonial lawyers will make a motion 
        under just about any pretense. When they make a motion for a 
        continuance based on their personal problems, the clients must 
        pay for the time and expense.

        6. CONFLICTS OF INTEREST.--One of the most horrendous breaches 
        of ethics I discovered in the South Carolina family courts is 
        the ongoing conflict of interest situations between the lawyer, 
        lawyers acting as guardians, lawyers acting as mediators, and 
        judges. In my own divorce, I discovered that my lawyer, my 
        wife's lawyer, my children's guardian were all members of the 
        same church. Furthermore, the guardian ad litem for my children 
        was not only a good friend of my wife's lawyer, but was--in 
        fact--almost like a sister to him. They had an extremely close 
        relationship. And, the other serious problem is that these 
        lawyers, guardians and mediators will all have pending cases 
        with each other. This is especially true in small communities. 
        As many of my friends and members have often said, ``They're 
        all in cahoots!'' And its true. They all are members of the 
        Family Law Sections of the bar associations. They are a cartel, 
        a gang, a bunch of hoodlums who need to be reformed if not 
        eliminated. Many of the judges have very close relationships 
        with the lawyers, guardians and mediators. And, the women 
        guardians always give the kids to the mother.

        7. PERJURY AND SUBORDINATION OF PERJURY.--As a retired member 
        of the South Carolina Bar Association, one of the most 
        depressing things I have discovered is how often lawyers have 
        their clients come into family court under a cloud of perjury. 
        Since the lawyer is usually the one who helps fabricate the 
        perjury, the lawyer is guilty of subordination of perjury. For 
        example, in my own divorce my wife failed to inform the court 
        that she has $6,000.00 in a slush fund with her lawyer, and she 
        further failed to reveal $4,200.00 month in salary. The court, 
        based on her sworn affidavit that she was penniless and only 
        had $600.00 to her name, and that she needed attorneys suit 
        fees, gave her $2,500.00 per month temporary support and order 
        that I advance $7,000 to her lawyer for suit fees. You can see 
        this gave her lawyer $13,000 in funds with which he could 
        operate and my lawyer only $7,000.00. But the important part of 
        this illustration is when I refused to pay the amounts based on 
        her fraud and deceit, the court threatened to hold me in 
        contempt of court for non-compliance with his order. This is in 
        the face of the fact that I filed a timely motion for 
        reconsideration based on fraud and perjury. What I am saying is 
        this: in South Carolina men are treated with great prejudice. 
        We still have a statute on the books that states ``The woman is 
        the favored suitor.'' To take the case further, when I filed a 
        complaint with the S.C. Bar Association about the fraud and 
        perjury, the S.C. Attorney General dismissed my complaint 
        against the lawyers and prosecuted me for the filing of a 
        ``non-meritorious complaint.'' The members of the Bar reviewing 
        the case dismissed the case against me as non-meritorious. This 
        effectively quashed both complaints. Such is justice in South 
        Carolina as to men seeking equity in child support and 
        divorces.

        8. CHILD SUPPORT.--In South Carolina, the general rule of law 
        is that the man is totally at fault, totally liable, that he 
        should be made to pay all child support, and that the woman is 
        still the ``favored suitor.'' When a woman is able to work and 
        contribute to the support of children, the courts very rarely 
        hold her feet to the fire.

        9. HEARSAY AS TO AMOUNTS OF CHILD SUPPORT.--In South Carolina, 
        the judges now use a computer software system designed by a 
        divorce lawyer with an undergraduate degree in human behavior. 
        He did this with the assistance of a local CPA. Neither of them 
        is an economist. We have never had a team of economists look at 
        the issue of child support and the true and hard costs of 
        raising a child. Nor has anyone ever looked at contributions 
        the women could make if given the chance or order by the court 
        to do so. The MAN always pays, the Man always is threatened 
        with contempt, and the MAN is always the parent who serves time 
        in jail.

    I can go on and on with examples, but that would make me look like 
a wallpapering divorce lawyer. I have offered you the above problems to 
show you that you need to deal with these matters before you start 
imposing any unrealistic laws on the fathers of this country.
    At this time in our history, a poor man cannot afford a lawyer to 
make a slight modification in his child support payments. There is no 
means other than to be forced to go to an unethical and sleazy 
matrimonial lawyer for relief. Our poor people have been raked over the 
coals of the camp fires of these lawyers and it has to come to a halt. 
The Society of Just Men is proposing one possible solution:

CREATION OF A DOMESTIC RELATIONS AGENCY.
    This agency would work at the county, bi-county or tri-county level 
depending on population needs. It would be staffed by trained human 
services people such as psychologists, social workers, law enforcement 
officers, marital counselors and debt counselors. It would help our 
poor people so much. Instead of paying incompetent and unethical 
lawyers $300.00 to ravage their assets, they would pay a nominal fee 
for assistance. The agency could be self-supporting and it could also 
receive grants and gifts. Its prime duties would be:

        (1) preservation of the children's marriage;
        (2) preservation of the family's assets;
        (3) preservation of the relationship between the father and 
        mother;
        (4) giving medical and psychological assistance (when it is 
        evident mental illnesses, e.g., borderline personalities, 
        postpartum depression, anxiety, alcohol and drug abuse, are 
        present. If I never do anything else in my lifetime, I feel my 
        idea for this agency will be worth a lifetime of effort in 
        bringing in into fruition. This is a noble cause and it is one 
        we all should pursue. This domestic relations agency would be 
        the answer to many problems we currently have with giving help 
        to poor people in the throes of divorce or child custody 
        situations.)

    And, if the agency could not handle any narrow question, the 
parents would have the right to pursue the issues with a lawyer before 
a family court judge--but with narrowly confined issues and at minimal 
expense. The agency would have the power to grant divorces under a 
judge's signature, and it would have the power to grant child custody 
and support. It would also handle all child support payments. Joint 
custody would always be granted except in the most extraordinary 
circumstances. Liberal visitation would be required even when a parent 
moved out-of-state. And the moving parents would be held to high 
degrees of financial liability as to the creation of a separation of 
father, mother and children for frivolous reasons. Electronic 
communication would be encourage, especially by telephone and email and 
video communication by computer on the Internet.
    Recently, a secretary with very limited means asked me for a 
recommendation as to a divorce lawyer. I sent her to a woman lawyer 
whom I had discovered is a member of the National Organization of 
Women. I had hoped this member of the Family Law Section of the South 
Carolina Bar Association would help her with her rather simple divorce 
and custody action and at a reasonable cost. The final bill for 
attorneys fees was $20,000.00. Not only am I shocked, but I am hurt 
that this N.O.W. lawyer allowed this to happen. I certainly will never 
refer a case to her again. So much for ethics between women lawyers and 
their women clients in South Carolina.
    One local law firm acquired a $100,000.00 home as the total and 
final divorce settlement for a woman in this state. The lawyers' bill 
was $140,000.00. The S.C. Supreme Court called the amount excessive but 
did nothing to the lawyers. The same firm represented a woman who 
suddenly died leaving two babies without a mother. The lawyers sued the 
babies for their legal fees. The S.C. Supreme Court called their 
conduct ``egregious,'' but did nothing to discipline the lawyers. This 
is the problem: corruption from the highest court in each state, 
corruption in the offices of the attorney generals, and corruption in 
the leadership of the bar associations. All of this has been done over 
the years with the blessings and financial aid of our U.S. Congress.
    The DOMESTIC RELATIONS AGENCY is my invention, but it could also be 
a tremendous gift of Congress to the American people. It could be 
overseen by a federal agency that could control funding and self-
funding throughout the states and territories. Such an agency would 
open a new frontier of marital relations, equity in child support and 
enforcement, and in preserving our citizens' marriages, assets, and 
their emotional and spiritual well-being--and without lawyer 
involvement at the lower levels. Most importantly, it could be an 
agency which would recognize and uphold the idea that it's the 
childrens' marriage too, not the lawyers' marriage to be plundered viz-
a-viz crime, fraud and deceit.
    My remarks are never addressed towards the honest and ethical 
members of the bar associations and judiciaries. There are many lawyers 
and judges who feel just as I do about the fraud and crime in our 
family courts, and the need to do something about this organized mob of 
hooligans in black robes and pinstriped suits. They ravage our men and 
women and children as ``matrimonial'' lawyers in their ``family'' 
courts. It must stop! And, Congress should stop sending any kind of 
financial aid to them.
    In conclusion, I do not feel you can accomplish anything until such 
time as you deal with the above abuses in our courts. After all, do any 
of you want to add fuel to this fire of crime, fraud, deceit, perjury, 
subordination of perjury, misrepresentation and corruption? Can any of 
you truthfully state that you want to ignore the above abuses and 
simply work around them and add more to the burden of fathers in this 
country? Do you want to further burden our fathers with any kind of law 
in such a corrupt system?
    If you are interested, you can learn more about the Society of Just 
Men at our new website: http://socjustmen.tripod.com. We are Christian 
men who are family-oriented men who fight for a better domestic 
relations system in our states. We not only seek to help our men, but 
we also seek to help our women, our children and grandchildren.

            Respectfully submitted,
                               William Whitley Hodges, J.D.
                                               Founder and Chairman

                                <all>

</pre></body></html>
